<html>
<title> - REGIONAL HAZE AND MERCURY POLLUTION</title>
<body><pre>[Senate Hearing 105-946]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 105-946
 
                  REGIONAL HAZE AND MERCURY POLLUTION

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
        CLEAN AIR, WETLANDS, PRIVATE PROPERTY AND NUCLEAR SAFETY

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 1, 1998

                               __________



  Printed for the use of the Committee on Environment and Public Works

                               -----------

                     U.S. GOVERNMENT PRINTING OFFICE
53-122 CC                    WASHINGTON : 1999

_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington DC 
                                 20402


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       one hundred fifth congress
                 JOHN H. CHAFEE, Rhode Island, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
DIRK KEMPTHORNE, Idaho               FRANK R. LAUTENBERG, New Jersey
JAMES M. INHOFE, Oklahoma            HARRY REID, Nevada
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
CHRISTOPHER S. BOND, Missouri        JOSEPH I. LIEBERMAN, Connecticut
TIM HUTCHINSON, Arkansas             BARBARA BOXER, California
WAYNE ALLARD, Colorado               RON WYDEN, Oregon
JEFF SESSIONS, Alabama
                     Jimmie Powell, Staff Director
               J. Thomas Sliter, Minority Staff Director
                                 ------                                

  Subcommittee on Clean Air, Wetlands, Private Property, and Nuclear 
                                 Safety

               JAMES M. INHOFE, North Carolina, Chairman

TIM HUTCHINSON, Arkansas             BOB GRAHAM, Florida
WAYNE ALLARD, Colorado               JOSEPH I. LIEBERMAN, Connecticut
JEFF SESSIONS, Alabama               BARBARA BOXER, California

                                  (ii)

  
                            C O N T E N T S

                                                                   Page

                            OCTOBER 1, 1998
                           OPENING STATEMENTS

Allard, Hon. Wayne, U.S. Senator from the State of Colorado......     3
    Letter, Governor of Colorado Roy Romer.......................   116
Graham, Hon. Bob, U.S. Senator from the State of Florida.........    38
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1

                               WITNESSES
                          regional haze issue

Ament, Donald, Chairman, Colorado Senate Agriculture, Natural 
  Resources, and Energy Committee, Denver, CO....................     6
    Prepared statement...........................................    54
Kendall, Shawn, Executive Assistant, Phelps Dodge Corporation, 
  Phoenix, Arizona...............................................    11
    Letter, EPA regulations on haze..............................    69
    Prepared statement...........................................    63
    Responses to additional questions from Senator Inhofe........    66
Nielson, Dianne, Executive Director, Utah Department of 
  Environmental Quality, Salt Lake City, UT......................     8
    Prepared statement...........................................    56
Seitz, John S., Director, Office of Air Quality Planning and 
  Standards, Environmental Protection Agency.....................     4
    Letter, providing additional information.....................    50
    Prepared statement...........................................    39
    Responses to additional questions from:
        Senator Baucus...........................................    50
        Senator Inhofe...........................................    42
Woodley, John Paul, Jr., Secretary, Natural Resources, 
  Commonwealth of Virginia, Richmond, VA.........................     9
    Prepared statement...........................................    58
    Responses to additional questions from:
        Senator Baucus...........................................    60
        Senator Inhofe...........................................    61

                           mercury pollution

Eder, Tim, Director, Great Lakes Natural Resource Center, 
  National Wildlife Federation, Ann Arbor, MI....................    32
    Prepared statement...........................................    97
    Responses to additional questions from Senator Inhofe........   105
Farland, William H., Director, National Center for Environmental 
  Assessment, Environmental Protection Agency....................    28
    Prepared statement...........................................    80
    Responses to additional questions from:
        Senator Chafee...........................................    89
        Senator Inhofe...........................................    88
        Senator Leahy............................................    90
Johnson, Barry L., Assistant Surgeon General, Assistant 
  Administrator, Agency for Toxic Substances and Disease 
  Registry, Atlanta, GA..........................................    27
    Prepared statement...........................................    77
Leahy, Hon. Patrick J., U.S. Senator from the State of Vermont...    23
    Prepared statement...........................................    72
Levin, Leonard, Program Manager, Air Toxics Health and Risk 
  Assessment, Electric Power Research Institute, Palo Alto, CA...    34
    Prepared statement...........................................   107
    Responses to additional questions from
        Senator Inhofe...........................................   111
        Senator Leahy............................................   112
Myers, Gary, Professor of Neurology and Pediatrics, Rochester, NY    30
    Prepared statement...........................................    91
    Responses to additional questions from:
        Senator Chafee...........................................    94
        Senator Inhofe...........................................    95
        Senator Leahy............................................    96
Smith, C. Mark Smith, Deputy Director, Office of Research and 
  Standards, Massachusetts Department of Environmental 
  Protection, Boston, MA.........................................    25
    Prepared statement...........................................    75
    Report, Methylmercury Exposure Guideline Debate..............   121

                          ADDITIONAL MATERIAL

Articles:
    Mercury from U.S. Fossil-Fired Power Plants: the Global 
      Context, Electric Power Research Institute.................   115
    Setting a Safe Exposure Level for Mercury, Electric Power 
      Research Institute.........................................   113
Letters:
    Mercury pollution, New Jersey Department of Environmental 
      Protection.................................................   119
    Regional haze, Governor of Colorado Roy Romer................   116
    Regional haze, Western Regional Council......................   121
Report, Mercury Action Plan 1998, New England Governors/Eastern 
  Canadian Premiers..............................................   132
Resolution, Mercury in the environment, Conference of New England 
  Governors and Eastern Canadian Premiers........................   119
Statements:
    Clearing the Air in Our National Parks, several environmental 
      organizations..............................................   117
    Regional Haze, Western Regional Council......................   123
    Snowe, Hon. Olympia, U.S. Senator from the State of Maine....   116


                  REGIONAL HAZE AND MERCURY POLLUTION

                              ----------                              


                       THURSDAY, OCTOBER 1, 1998

                                       U.S. Senate,
             Committee on Environment and Public Works,    
   Subcommittee on Clean Air, Wetlands, Private Property,  
                                        and Nuclear Safety,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m. in room 
406, Dirksen Senate Office Building, Hon. James M. Inhofe 
(chairman of the subcommittee) presiding.
    Present: Senators Inhofe, Allard, and Sessions.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. The hearing will come to order.
    We're going to start the hearing right on time, even though 
we have several Members on both sides that will be coming down. 
They threw us a little bit of a curve, and they're having a 
briefing on Kosovo that's required attendance at 4, so we're 
going to make this a 2-hour hearing--I'm sure you're very sorry 
to hear that. I will shorten my opening remarks accordingly.
    Today's hearing is going to be on two different subjects, 
as we know: one, regional haze; and the second, the state of 
science in mercury. Both of these are very important issues, 
and we have an excellent group of witnesses who are truly the 
leading experts in their field. Because of this, I'll keep my 
statement short and get to the testimonies very quickly.
    The first issue today is regional haze. We held a hearing 
on regional haze last April, and since that time two major 
changes have occurred. If you'll recall, we actually 
recommended six, and two of them have already taken place. One 
is, we put an amendment on the highway bill to lock in the time 
line for regional haze to be the same as the PM<INF>2.5</INF> 
standard. This means that the States will not be required to 
submit plans for haze before they submit their plans for the 
particulate matter.
    The second major change was a result of our hearing. The 
Western Governors negotiated an agreement with several of the 
interested groups to implement the Grand Canyon Report. The EPA 
then reopened the comment period on these two issues, which is 
scheduled to close next week.
    And, while I commend the EPA for publishing the Western 
proposal, I do have a number of concerns. At our last hearing, 
I listed six concerns. We took care of one of these, EPA is 
doing one of the others, the other four are--and I'd like to 
have the witnesses keep this in mind, and perhaps if you will 
address these in your opening remarks or some of these it would 
save us time in questioning later on. One is prescribed 
burnings--remember, we talked about that; second, use of 
deciview; third, how ``reasonable progress'' will be measured; 
and, four, flexibility regarding BART.
    In addition, I'm concerned how the highway amendment will 
be coordinated with the Western proposal, and I'm very 
concerned about the level of commitment from the EPA for other 
state/regional commissions.
    Our second issue today is mercury. This is the first time 
since the Clean Air Act Amendments in 1990 that our 
subcommittee has addressed mercury in a hearing. The purpose of 
the hearing is to hear from the best scientists that are 
available in the Government or in the private sector, and I 
think this is a wise thing. We don't intend for this panel to 
get into a debate on control measures or regulatory fixes. I 
think that would be putting the cart before the horse. First of 
all we've got to determine what the science is.
    I think this is one of the mistakes that we made, even 
though we started our first hearing back in the NAAQS issue to 
be a hearing on the science. It seems like people quickly 
forgot and assumed that the science was there when, in fact, we 
found it was not there to the degree that they thought it was.
    [The prepared statement of Senator Inhofe follows:]
Statement of Hon. James Inhofe, U.S. Senator from the State of Oklahoma
    The first issue today is regional haze. We held a hearing on this 
issue in April and since that time two major changes have occurred. 
First, as part of the Highway Bill we passed an amendment that 
coordinated the timeline for Regional Haze with the PM<INF>2.5</INF> 
standard. This means the States will not be required to submit plans 
for Haze before they submit their plans for PM. The second major change 
was a result of our hearing, the Western Governor's negotiated an 
agreement with several of the interest groups to implement the Grand 
Canyon Report. The EPA then reopened the comment period on these two 
issues which is scheduled to close next week.
    While I commend the EPA for publishing the Western Proposal, I do 
have a number of concerns. At our last hearing I listed six concerns. 
We took care of one, the timelines, and it appears that EPA is on the 
road to taking care of the other, the Western Proposal; but I still 
have my original four:

  1) prescribed burnings
  2) use of the ``deciview''
  3) how ``reasonable progress'' will be measured, and
  4) flexibility regarding BART (best available retrofit technology)

    In addition, I am concerned how the Highway amendment will be 
coordinated with the Western Proposal, and I am very concerned about 
the level of commitment from the EPA for other State Regional 
Commissions.
    Our second issue today is mercury. This is the first time since the 
Clean Air Act Amendments of 1990 that our subcommittee has addressed 
mercury in a hearing. The purpose today is to hear from the best 
scientists in government and the private sector as to the current state 
of the science for mercury. I do not intend for this panel to get into 
a debate on control measures or regulatory fixes; these are issues that 
are best left to another day.
    Under the Clean Air Act, the EPA was required to submit a Report to 
Congress on Mercury, which they did just 11 months ago. Since then 
another Federal Agency, ATSDR has already released a more updated 
Report which relies on even more current science than EPA used. 
Therefore I feel it is important and necessary that the subcommittee 
take a close look at what we know and don't know, about mercury.
    Senator Inhofe. Senator Allard?

            OPENING STATEMENT OF HON. WAYNE ALLARD, 
            U.S. SENATOR FROM THE STATE OF COLORADO

    Senator Allard. Thank you, Mr. Chairman. I want to 
compliment you on your hard work on this particular regional 
haze problem, and, in addition to that, for having this 
hearing.
    Haze is an extremely important issue for my State, as well 
as the entire western part of the United States. We need to 
deal with this issue, but we need to deal with it in a very 
sound manner that respects the various economies in the States, 
as well as the aesthetics in our environment.
    As I mentioned, this is an extremely important issue, and 
I'm particularly pleased that you have, on your first panel, a 
member of the State Senate of Colorado, Senator Ament. Senator 
Ament has a long and distinguishing career in the legislature, 
both in the House and Senate. He's worked on various national 
legislative organizations and had input throughout, and I think 
you'll find that he's a very valuable witness.
    Not only has he had to deal with the haze issue from a 
public policy standpoint, but he is also in agriculture, and so 
on a day-to-day basis he's had to live with a lot of the things 
that he's going to be talking about today as a citizen of this 
country.
    I would state further that I'm especially pleased that you 
were successful in getting your amendment passed, which put off 
the haze rules and regulations until the PM new standards were 
put into effect. That's a very important amendment. I supported 
that.
    And one of the main concerns that I've expressed time and 
time again in this committee is that somehow or the other we 
don't treat Federal agencies different than we do the average 
American out on Main Street.
    I think that is particularly true in Colorado, where we 
find activities that are being carried on by the various 
agencies of the Federal Government that impact our regional 
haze issues, and yet the people of Colorado don't have a say 
about it. What happens in our neighboring States has an impact 
on us, and yet we don't have a say on it.
    So I think this is a very important hearing. I apologize 
that I won't be able to stay here for the entire hearing, 
because I do have an intelligence hearing and a meeting at 2:30 
that's very important, so I'll have to step out. But I'll have 
staff here, and I'll very carefully review what has been said 
in this.
    I thank you, Mr. Chairman, for your leadership.
    Senator Inhofe Thank you, Senator Allard.
    We'd ask our witnesses in the first panel to come to the 
table, if you would, please. We're going to try to adhere to 
our 5-minute rule in opening statements. Your entire statement 
will be made a part of the record.
    While there are not many of our subcommittee here, they're 
all represented by staff, and we understand some more will be 
coming.
    Each witness will be allocated 5 minutes for opening 
statement. We have lights in front of us so that we can help 
you adhere to that. Then we'll have 5-minute rounds.
    I'll start off by introducing the members of the first 
panel. Mr. John Seitz, director, Office of Air Quality Planning 
and Standards, Environmental Protection Agency; The Honorable 
Donald Ament, chairman, Colorado Senate Agriculture Committee 
and Natural Resources and Energy Committee; Dr. Dianne Nielson, 
executive director, Utah Department of Environmental Quality; 
The Honorable John Paul Woodley, Jr., secretary of Natural 
Resources, Commonwealth of Virginia; and Mr. Shawn Kendall, 
executive assistant, Phelps Dodge Corporation.
    Senator Inhofe With that, we'll call upon Mr. Seitz to 
begin.

  STATEMENT OF JOHN S. SEITZ, DIRECTOR, OFFICE OF AIR QUALITY 
    PLANNING AND STANDARDS, ENVIRONMENTAL PROTECTION AGENCY

    Mr. Seitz. Mr. Chairman, members of the subcommittee----
    Senator Inhofe. If you would pause for a moment, Senator 
Sessions has come in.
    Senator Sessions, did you have an opening statement to 
make?
    Senator Sessions. No, other than to say I do consider these 
very important issues. I thank you for holding hearings on 
them, and I look forward to hearing from the panelists.
    Senator Inhofe. Thank you.
    Mr. Seitz?
    Mr. Seitz. Thank you.
    Mr. Chairman and members of the subcommittee, thank you for 
inviting me back to discuss EPA's proposed rule dealing with 
regional haze.
    As we discussed in April, virtually all of our parks and 
wilderness areas are suffering from some degree of visibility 
impairment. We know that the pollutants that create regional 
haze can be transported over long distances, and that the cause 
and severity of regional haze vary greatly from east to west.
    Average visual range in the western United States is 60 to 
90 miles, or about one-half to two-thirds what this range would 
be without the impairment.
    In the eastern half of the United States, this range is 15 
to 30 miles, or about one-third of what the visual range would 
be without the impairment.
    One of the major challenges associated with dealing with 
this issue is the impairment is not caused by a single source 
or a group of sources next to the park or wilderness area, but 
rather a large group of sources that are spread over a large 
geographical region.
    As you know, in the 1977 amendments to the Clean Air Act, 
Congress set the national goal for visibility, for the 
prevention of any future and the remediation of any existing 
manmade impairment of visibility in certain parts in wilderness 
areas known as class one.
    As you also know, in the 1990 amendments to the Clean Air 
Act, Congress reinforced the 1977 goal by directing EPA to 
tackle the problem of regional haze. In response to that, we 
established the Grand Canyon Visibility Transport Commission. 
After several years of work, the commission concluded and gave 
a report to the Agency in June 1996.
    Under the 1990 amendments, Congress required EPA to take 
regulatory action within 18 months of receipt of the report. 
EPA proposed the regional haze rule in July 1997 in conjunction 
with the final national ambient air quality standard for fine 
particles.
    In developing the proposed regulation, EPA took into 
account the report of the Grand Canyon Visibility Transport 
Commission, as well as the findings from the 1993 National 
Academy of Science report, and the advice from EPA's Clean Air 
Act Advisory Committee.
    After fully taking into account all public comments 
received from our proposal and the supplemental notice, we 
intend to finalize this rule over the next several months.
    Mr. Chairman, at your previous hearing on this issue, 
Governor Leavitt, the co-chairman of the Western Regional Air 
Partnership--the body established to implement the 
recommendations of the Grand Canyon Commission--testified about 
the importance of protecting visibility in our parks and 
wilderness areas. He discussed the inherent social and 
spiritual values of the breathtaking vistas in the west. He 
also testified about concerns he had with our proposed rule and 
expressed his desire to ensure that EPA craft a final rule that 
was consistent with Commission recommendations.
    At that same hearing, I testified that the Agency will 
ensure that our final rule will facilitate State implementation 
of the recommendations of the Grand Canyon Commission. I 
committed to work closely with the Western Regional Air 
Partnership and western States.
    To that end, I have had numerous meetings and discussions 
with representatives from industry groups, western States, 
representatives from environmental groups, and other 
stakeholders concerning this rule.
    On June 29 of this year, EPA received a letter from 
Governor Leavitt on behalf of the Western Governors Association 
that addressed how EPA should treat the Commission's 
recommendations in our national rule. WGA developed the letter 
in conjunction with various stakeholders involved in the 
process. EPA was not part of this process.
    In the letter, Governor Leavitt requested that we put the 
letter in the public docket and reopen the comment period for 
30 days so that other parties could react to the letter.
    On September 3, we published the notice, making the full 
text of the Governor's letter available to the public, and also 
provided sample regulatory language for the public to react to.
    In short, we are going the extra mile to ensure that we're 
responsive to the concerns raised by Governor Leavitt and the 
Commission.
    In that same Federal Register notice, we asked for comment 
on how EPA should interpret the provisions of the 
Transportation Equity Act for the 21st Century, or TEA-21.
    As you well know, Mr. Chairman, that legislation includes a 
provision that reinforces our goal to harmonize State planning 
of particulate matter and haze.
    In conclusion, we expect that our final regional haze rule 
will establish a framework to improve visibility in our 
national parks and wilderness areas, as the Congress intended.
    I want to make clear that we have not made final decisions 
on this matter, and that we will continue to carefully consider 
all public comments prior to finalizing our rule.
    Our goal is to ensure that our final rule achieves the 
Congressionally-mandated improvements in these valuable 
treasures of our Nation.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Mr. Seitz. It's very nice to 
have you back again.
    Senator Ament?

   STATEMENT OF HON. DONALD AMENT, CHAIRMAN, COLORADO SENATE 
 AGRICULTURE, NATURAL RESOURCES, AND ENERGY COMMITTEE, DENVER, 
                            COLORADO

    Mr. Ament. Thank you, Senator Inhofe. Mr. Chairman, I 
appreciate your holding the hearing. A special thank you to 
Senator Allard. I'll include your remarks in my campaign 
statement. Senator Sessions, nice to meet you.
    I'm Don Ament. I chair the Senate Agricultural and Natural 
Resources Committee in the Colorado Senate. I'm also a farmer 
and rancher out on the northeast plains of Colorado. I've 
devoted a lot of time to the issues of agriculture and natural 
resources and environment. It affects my way of life, as well 
as the constituency that I represent.
    Since 1990, I've watched the Federal Government, and 
particularly Environmental Protection Agency, struggle with the 
concept of regional haze and air pollution. I am here today to 
urge the Congress to take whatever steps it can to prevent the 
EPA from implementing the regional haze rule. I think it is 
unsupported by the law.
    First, in the 1990 Clean Air Act, we debated all the 
provisions--specifically debated and rejected them. I think you 
probably recall all of those.
    I think it is very important that Congress indicated that 
they rejected this idea. The regional haze rules were just, I 
don't think, based on science, and not giving States the 
necessary flexibility.
    Second, EPA's regional haze rule ignores the most 
significant contributors' causes of what I conclude cause 
regional haze. I think we have to really attribute to those 
sources, the ones that are causing the major problems. I think 
you all know that that's largely fires, that's dust, and it is 
also import air from Mexico.
    In addition to these substantive flaws found in the 
proposed regional haze rules, the EPA is now also proposing an 
accelerated implementation schedule for stationary sources in 
sulfur dioxide controls, ignoring the mandates of Congress 
found in the recently-enacted Inhofe Amendment.
    I understand the Inhofe Amendment recognizes the necessity 
of flexibility regarding the Grand Canyon Commission's time 
table; however, EPA has selectively used the June, 1998, 
Western Governors Association--and I, too, have a copy of 
Government Leavitt's letter to the regional haze rule--to 
accelerate implementation of the regional haze rule well ahead 
of not only the Grand Canyon's recommendation, but well ahead 
of the Western Governors Association proposal.
    Because of the reaction by the Colorado General Assembly 
that EPA and other unelected, out-of-state organizations might 
ignore some sources of air pollution of the west which impact 
visibility and other aesthetic standards, I sponsored 
legislation in 1997 which mandates the State of Colorado 
maintain regulatory control of measures designed to reduce air 
pollution producing regional haze. This Colorado law was 
enacted primarily to prevent command and control, top-down 
regulation of Colorado air pollution problems which would 
ignore some sources of air pollution and increase dramatically 
the cost of operation of other sources without solving the haze 
problem.
    In our State, it's common of Legislature review, final 
environmental regulations mandated by our Environmental 
Protection Agency so that elected representatives have first-
hand knowledge of science, economics, and anticipated benefits 
of proposals to help improve our environment.
    I'm sure that you on this committee are familiar with the 
Grand Canyon Visibility Commission. The Commission submitted 
recommendations to address western regional haze to the 
Environmental Protection Agency in June 1996. One of the major 
conclusions of the Commission was omissions from fire, both 
wildfire and prescribed fires, is likely to have the single-
most impact on visibility in class one areas.
    We in Colorado are familiar with the Grand Canyon 
Commission's recommendation. In fact, since 1996, the Colorado 
Legislature has twice passed legislation designed to hold 
Federal agencies accountable under the authority granted us by 
section 118 of the Clean Air Act for control of pollution from 
Federal resources.
    Twice the Federal agencies have lobbied our Governor Romer 
to veto the bill, and twice that interference by Federal 
agencies has been successful. The result is the General 
Assembly still has not been able to demand a standard from 
Federal land managed to minimize emissions from fires and dust 
on Federal lands.
    As I sit here today, we have controlled burns that are 
hazing up the air in Colorado. To me, it's only common sense 
that Federal resources should be managed to minimize emissions 
which cause haze if such non-health issues are truly a national 
priority.
    I note with dismay EPA has not been helpful in requiring 
major sources of pollution from Federal facilities or lands to 
be taken into account in either its regional haze or in its 
daily operations. In fact, it appears to us that the EPA makes 
excuses and covers up other Federal agencies when air pollution 
emanates from those Federal lands.
    Think about it. Here is the example. The Grand Canyon 
Commission science identified emission from Federal land fires 
as a major source of western haze, but soon after the 
Department of Interior managed a 500 percent increase in burns.
    In the House Resources Committee hearing last fall, the 
Secretaries of Interior and Agriculture stated 50 percent of 
western forests would need to be mechanically treated before 
prescribed burns could be set, but the State need for logging 
or mechanical treatment does not reflect on the Agency.
    I see my time is up. You will find that I have four 
suggestions for you about what we would hope Congress would 
take in my testimony, and maybe in the question and answer 
period I'll get a chance to reemphasize those four points, Mr. 
Chairman.
    Senator Inhofe. Thank you, Senator Ament.
    Dr. Nielson?

     STATEMENT OF DIANNE NIELSON, EXECUTIVE DIRECTOR, UTAH 
   DEPARTMENT OF ENVIRONMENTAL QUALITY, SALT LAKE CITY, UTAH

    Ms. Nielson. Mr. Chairman, members of the committee, thank 
you very much for this opportunity to appear before you.
    I'm the director of the Utah Department of Environmental 
Quality, and I'm Governor Leavitt's official representative to 
the Western Regional Air Partnership.
    The Governor has taken an active role in air quality and 
visibility issues in Utah and in the west as the vice chair of 
the Grand Canyon Visibility Transport Commission, the co-chair 
of WRAP, and the lead Governor for air quality issues for the 
Western Governors Association. I'm here today on behalf of 
Governor Leavitt to provide testimony regarding a western 
regional approach to regional haze and the Environmental 
Protection Agency's recent notice of availability for 
additional information regarding that proposal.
    This is an important issue to western States, to the people 
who live and work there, as you're hearing in the testimony 
today, and to the people who visit.
    As Utah's chief environmental officer, I appreciate the 
inherent value of our western vistas, and my stewardship 
responsibility to those resources.
    This subcommittee has been vigilant in its efforts to 
oversee not only the regional haze regulation that has been 
proposed, but the work of the Grand Canyon Visibility Transport 
Commission and its successor, the WRAP. You are aware of the 
history and the work on this unique partnership for regional 
environmental management, so I won't go into those details, 
although they are provided in my testimony.
    What I would like to focus on is what happened since the 
hearing where Governor Leavitt appeared before you in April of 
this year.
    At that time the Grand Canyon Commission and WGA's 
environmental doctrine had been formed of work and testimony 
that we had used as our guide in efforts to seek solutions for 
environmental and natural resource problems, specifically 
regional haze.
    When we appeared before you in April, the Governor 
indicated that we were working with EPA, but at that time we 
did not have specific resolution on issues.
    Following that hearing, there was a group of environmental 
interests who also voiced concern about conclusion of this work 
on the regional haze regulation.
    So again, with a renewed determination, we formed a 
consensus work group to specifically define language which we 
could support for implementing the regional haze regulation.
    On June 25, that consensus document was completed, and on 
June 29, Governor Leavitt, on behalf of the Western Governors 
Association, provided that document to Administrator Browner.
    Since that time, the environmental groups have also 
endorsed that consensus document. EPA has now proposed, through 
their recent notice, consideration of the consensus document 
that was provided.
    It is important to recognize that the Grand Canyon 
recommendations and the work of the WRAP in this recent 
consensus document all recognized that improvements in 
visibility must include more than just the management of 
emissions from industry stationary sources.
    Mr. Chairman, at the beginning in your comments you asked 
about some very specific issues, including prescribed burns. 
There must be--and we have supported in the context of regional 
haze regulation--management of wildfires and the emissions from 
those wildfires. There must also be a part for management of 
the increasing volume of mobile sources and of vehicles on-road 
and off-road, as well as dust and trans-boundary pollution.
    What I would like to focus on are recommendations that 
specifically come from the report that we provided to 
Administrator Browner.
    First of all, the consensus document laid out time frames 
for the development and implementation of our recommendations. 
I realize those time frames are tight time frames, but we think 
that EPA has accurately reflected those, and we think they're 
attainable time frames. We need to get on with the business of 
implementing a regional plan for management of regional haze.
    The consensus document also defined components necessary 
for inclusion in State and tribal implementation plans, and 
flexibility in terms of preparing those plans, and we think EPA 
has accurately reflected that in their notice.
    I have provided in my comments additional comment on the 
report. I would offer those to you as they have been provided. 
I would emphasize that, as you review the rest of these 
recommendations, and as we answer questions today, that you 
appreciate that we still, as States, see the deciview as a 
measure but not a standard. We must focus on the mechanisms for 
controlling pollution, not on the deciview as we move forward; 
the reasonable progress is defined within the WRAP 
recommendations and will be in the plan that we bring forward 
under those recommendations; and that, while BART is a tool 
that, as States, we feel we need in the tool box, it should not 
be a mandatory regulation and it should be something that we 
have the discretion within our programs and our implementation 
plans to be able to implement.
    I appreciate the time today, and I'll be happy to answer 
questions.
    Senator Inhofe. Thank you, Dr. Nielson.
    From the Commonwealth of Virginia, Secretary Woodley.

 STATEMENT OF HON. JOHN PAUL WOODLEY, JR., SECRETARY, NATURAL 
    RESOURCES, COMMONWEALTH OF VIRGINIA, RICHMOND, VIRGINIA

    Mr. Woodley. Thank you, Mr. Chairman.
    It is a privilege to be here today to represent the 
Commonwealth of Virginia, and our Governor, Jim Gilmore, who 
asked me to send special greetings to Senator Sessions, his 
former colleague as attorney general during the time he was 
attorney general of Virginia.
    I wish to say that in Virginia we very deeply appreciate 
Congress' efforts in passing TEA-21 and adapting the time lines 
for the regional haze and PM<INF>2.5</INF> programs so that 
they coincide.
    As you know, the eastern States have been focusing on 
health-related air pollution issues such as the issues 
surrounding ozone, nitrous oxides, and the PM<INF>2.5</INF>. 
They have been unable to devote the resources needed to address 
the issue of regional haze.
    The additional planning time this revision to the law will 
create will enable us to properly address or assess our 
regional haze conditions and develop effective strategies.
    Second, Mr. Chairman, Virginia, along with other States, 
recognizes that visibility is a regional issue and must be 
dealt with on a regional basis. The inadequacy of EPA's 
proposed approach to regional planning is highlighted in its 
recent action with respect to a particular group of States, or 
the action that Dr. Nielson dealt with a moment ago, reflecting 
the supplemental notice on implementation in response to the 
Western Governors Association concerning the recommendations of 
the Grand Canyon Visibility Transport Commission.
    These recommendations make the proposed rule more flexible, 
although, as Dr. Nielson indicated, the rule remains deeply 
flawed, but it is important for EPA to recognize that the other 
States and regions need the same opportunity to address their 
specific regional concerns.
    States should be allowed to incorporate the recommendations 
of a regional commission as part of their State implementation 
plans without having to justify their programs individually.
    Third point, Mr. Chairman, regional haze is an issue that 
must be addressed with the coordination of States, localities, 
and other stakeholders. The traditional methods of States and 
localities addressing control measures within their boundaries 
to resolve localized air pollution control problems cannot 
address regional haze problems. One State has no authority over 
any other State to implement control measures.
    For most mandatory class one areas--and I include those 
located in Virginia--the host State cannot individually 
implement control measures that will ensure improvement in 
visibility within those class one areas. Transport regions and 
commissions will be required to implement effective regional 
programs for visibility improvements.
    Now, EPA encourages regional stakeholder coordination to 
address regional haze, but does not address how such efforts 
will be facilitated or provide incentives for stakeholders to 
participate.
    Congress acknowledged the need for multi-State coordination 
in the Clean Air Act by establishing authority for EPA to 
establish visibility transport regions and commissions, and 
States do not have such authority, as the authority in the 
Clean Air Act clearly places the responsibility on the 
Environmental Protection Agency.
    The proposal requires that individual States address and 
justify control programs individually. This is a disincentive 
to expend resources to coordinate with regional groups.
    Regional haze rule must also directly allow for 
implementation programs developed through the regional 
coordination process.
    The fourth point, Mr. Chairman, is that, given regional 
haze is a welfare rather than a health issue, States should be 
allowed to abandon or to develop alternative goals and programs 
for visibility improvement separate from the deciview and no 
degradation targets. These regional haze measures should focus 
more directly on the scenic viewing, which is the point we're 
actually trying to get at, and use a system that has more of a 
relationship to the public's overall ability to experience 
improved viewing.
    We believe that the use of the deciview scale, normal 
measurement developed by EPA, does not provide an accurate 
reflection of the total viewing experience.
    The proposal also emphasizes the best available retrofit 
technology for point source emission control. It identifies the 
private sector in the western United States as being the most 
effective.
    However, the EPA also subsequently agrees with the Grand 
Canyon Visibility Transport Commission's recommendation for 
addressing stationary source by providing a flexible air 
quality planning framework to facilitate the interstate 
coordination necessary to reduce regional haze visibility 
impairment in mandatory class one Federal areas nationwide.
    It's certainly not clear how this BART program provides 
flexibility, as it is experiencing costly analytical, 
technical, and legal challenges that would divert scarce State 
resources.
    The regulation should explicitly allow for alternatives to 
the BART process such as market trading programs and emission 
caps.
    The last point I'd like to make, Mr. Chairman, is the 
proposal requires each State to submit revised sets which 
provide for periodic revision of the long-term strategy. These 
periodic provisions are not required by the Clean Air Act and 
are not needed to address the national goal and will draw on 
resources better used for pollution control elsewhere.
    The provisions that EPA proposes for tracking regional 
progress are unnecessarily frequent and resource intensive.
    Virginia would note that the section 169 of the Clean Air 
Act clearly makes EPA responsible for evaluating visibility 
improvement over time; therefore, each State should not be 
required to individually assess improvements through continual 
provisions.
    Just in summary, Mr. Chairman, I suggest and Virginia 
suggests, first of all, that this rule that is proposed by EPA 
is a classic unfunded mandate on the States, and, furthermore, 
that we would point out and note to the committee that this 
regulation would be enforced by the same coercive Clean Air Act 
sanctions that Virginia has consistently regarded as highly 
detrimental to our Federal system.
    Senator Inhofe. Thank you, Secretary Woodley.
    Mr. Kendall?

 STATEMENT OF SHAWN KENDALL, EXECUTIVE ASSISTANT, PHELPS DODGE 
                 CORPORATION, PHOENIX, ARIZONA

    Mr. Kendall. Thank you, Mr. Chairman and members of the 
subcommittee.
    I'm Shawn Kendall, executive assistant on the corporate 
staff for Phelps Dodge Corporation. I'm the Corporation's 
policy and technical lead with respect to regional haze.
    With respect to the Grand Canyon Visibility Transport 
Commission, I spent about 6,000 hours of my time working in the 
process, serving as the secretary of the public advisory 
committee that delivered the consensus recommendations to the 
Governor for their consideration. I also served on the 
technical and policy committees and was heavily involved in all 
of the technical work.
    Subsequent to that, the Commission formed, or the Governors 
and tribal leaders of the west formed, a voluntary alliance 
called the Western Regional Air Partnership to follow through 
on the Commission's recommendations. This was one of the key 
recommendations that came out of the Public Advisory Committee 
process--the need to be vigilant in monitoring where we are in 
the future.
    That organization just got staffed up a whole bunch a 
couple of weeks ago. We've got about 180 people now involved 
and will probably have 250 by the time we're done. These groups 
are going to be following through on trying to help develop 
work products for the States to use and tribes to use in 
developing their implementation plans, and we're anticipating 
right now most of those work products will be available for the 
States and tribes to rely on by about the end of 2001.
    With respect to EPA's regional haze rule, I was quite 
disappointed, Phelps Dodge was quite disappointed with respect 
to the proposal that came out last year. We felt that it really 
missed the mark. It didn't reflect what happened in the 
Commission process. It didn't have guidance about the 
Commission's work. The kind of guidance it was giving the 
States didn't encourage enough collaboration between the 
States.
    We suggested that they seriously consider re-proposing the 
rule, especially recognizing that much of the work products out 
of the Commission were not in the docket.
    Western Governors had an initiative Dianne talked about. I 
served as a stakeholder in that process to try to work through 
and develop some things that were more consistent with what we 
believe needs to happen on the list.
    We--and I mean the stakeholders on the list, the 
environmentalists, the industry people, States--we believe that 
we've got the right plan. We spent a lot of time in the 
Commission process coming up with these recommendations, and we 
think this is the way to do it.
    I really commend EPA for allowing that comment period. 
There are a lot of people in the west that felt disenfranchised 
from that process because it was a small group, but it was 
important for everybody to have an opportunity to participate. 
I believe very strongly in the public processes that we have 
going on here.
    With respect to Visibility Transport Commission, I think 
that, of all the lessons we learned in the Commission process, 
the one that is the most important is that you cannot possibly 
deal with regional haze and visibility protection in class one 
areas unless you work collaboratively. You have to work 
together. You have to know what the emission management 
strategies and plans are of other States and how they will 
affect the visibility in your class one areas.
    I encourage that we follow through on allowing other groups 
to form Visibility Transport Commissions, because it is a 
wonderful process to see the environmental community, the 
industrial community, and the regulatory community coming 
together and coming up with really valuable long-term 
strategies.
    This brings up a major concern, which is funding. These 
processes are not terribly expensive when you consider the 
value of the in-kind contribution of time, but they do cost 
money. There is some concern right now within the Western 
Regional Air Partnership about where we are going to get 
funding, and we're looking for some specific things that need 
to be done with respect to the Commission's follow-on annex to 
guide the stationary source work.
    With respect to re-proposal, Phelps Dodge believes that the 
Agency should re-propose this rule. We said that in December. 
We still feel that way.
    This recent work with respect to the Grand Canyon 
Visibility Transport Commission went a long way, but it is 
still hard to see the entire rule context, and we would like to 
see the thing re-proposed.
    Thank you.
    Senator Inhofe. Thank you, Mr. Kendall.
    Mr. Seitz, first, I'm glad that the EPA decided to publish 
the Western Governors proposal for comments. The form in which 
it is published is basically a rider on the haze rule. Do you 
believe the rest of the country should be given the same 
opportunity as the west has had in their own Visibility 
Transport Commission to craft local solutions to their 
visibility problems?
    Mr. Seitz. Senator, absolutely. We talked earlier in the 
hearing last April about the intent of the rule and some of the 
issues raised by the Commonwealth of Virginia. We strongly 
believe that success for this is local jurisdictions working 
together to craft solutions to the problem, and to that end I 
think, particularly with the TEA-21 legislation, in light of 
the schedules for submission of strategies for haze, we have 
more time than was provided the Grand Canyon Commission for 
these bodies to work together to come up with collaborative 
situations.
    I totally agree that the only way this can be done is 
through States working together to come up with common 
strategies. I would suggest, however, that if EPA, through 
regulations, prescribes which States were to talk to each 
other, that I might be before you to explain or Western States 
would be saying that EPA was top-down prescribing how States 
should work together.
    So what we tried to do was craft a rule that allowed States 
to work together much like they are now in the southeast, the 
Southern Appalachian Mountain initiative, which is a voluntary 
group, a non-mandated, regional body that is looking at 
combined solutions to the problem.
    Senator Inhofe. Well, once these other regions have issued 
recommendations for their definition of ``reasonable 
progress,'' would they deserve their own rider to the regional 
haze rule?
    Mr. Seitz. We formed the Grand Canyon Commission and 
established the Commission in response to the 1990 amendments, 
and its recommendations formed the basis for the development of 
the rule which was proposed.
    I believe--and this is an area we're receiving lots of 
comment on--that all States do have the ability to do just what 
you're saying.
    Senator Inhofe. Have their own rider?
    Mr. Seitz. I don't know that they need a rider. They have 
the ability to adopt their recommendations in their SIPS.
    Senator Inhofe. What do you think, Secretary Woodley? Do 
you think that Virginia deserves its own program?
    Mr. Woodley. Yes, sir, indeed, Mr. Chairman. I am not at 
all certain that the EPA's rule is so clear, that if such a 
program came forward it would be approved by the Agency.
    Senator Inhofe. Yes. Mr. Seitz, now that the bill has 
passed with the extension that we put on the highway bill for 
the haze implementation plans, isn't there plenty of time for 
the EPA to pursue the regional commission process?
    Mr. Seitz. Well, I think there are two questions you have 
to deal with. One is the formal visibility transport 
commission, and the Agency would be pleased to engage with 
other States in that conversation. But, as you are aware, these 
commissions only deal with haze, and I think your amendment or 
the TEA-21 legislation clearly intends that haze and pollution 
programs be integrated.
    The Commonwealth of Virginia has indicated very strongly 
that the work they are doing on ozone and particulate matter 
should be looked at as programs that also benefit haze. As you 
know, the Visibility Transport Commission only addresses haze.
    We would be more than willing, and the Agency stands ready 
to talk to any regional body on that issue. We want an 
integrated strategy because we believe that's most cost 
effective, but that is the decision of the State.
    Senator Inhofe. In trying to keep response rather short--I 
know it will be difficult to do, but in my opening remarks I 
talked about the four areas left, and would you briefly address 
what the EPA has done to meet these concerns?
    Mr. Seitz. Well, let me go through these, and if I miss the 
mark on some of them please remind me.
    One of the issues was deciview, and in your hearing in 
April there was a tremendous concern that the deciview was a 
standard--that is, States could be enforced against that 
standard. EPA did not intend to make it a standard; just as 
suggested by one of the other witnesses, the deciview is a 
metric that is used to take a look at progress or to measure 
how we're doing. It is not an enforceable standard and was 
never intended to be an enforceable standard against the State.
    Your second issue was reasonable progress. At the last 
hearing, you felt reasonable progress should be measured 
against, as I understand it, an emission reduction strategy 
rather than the target. EPA continues to believe that State 
implementation plans should be emission strategy based, that 
that is what we should hold a State accountable for. Are they 
doing their part in reducing emissions?
    The other issue was prescribed burns and how they will be 
dealt with in the Grand Canyon, as well as nationwide.
    I acknowledge fully that the Grand Canyon Commission report 
indicated that wildland fires could, in fact, overwhelm any of 
the progress that could be made with the emission reduction 
strategies.
    As the Commission went on to say in the text of the report, 
we believe that prescribed burning in the long run will have a 
more beneficial effect.
    I think we all would admit that a prescribed burn is better 
than a catastrophic burn such as we saw this year in Florida. 
What we are trying to do with the other Federal land managers--
and I believe in Colorado there are already agreements with the 
Federal land managers, and I can check that for the record--is 
work with local areas to, as you recall, from the structure of 
the rule, control burning. We're talking about improvement on 
the 20 percent worst days. Prescribed burning should take place 
outside of that ban, should take place with advanced notice to 
the State regulatory agency, and in some cases be permitted. It 
should be monitored. The Federal land managers have said they 
will comply with this and have already come forward to work 
with most States.
    I'm unfamiliar with the legislation the Senator refers to, 
but if that legislation directed that all use of fire in the 
State of Colorado for all sources--Federal lands, State lands, 
agricultural lands--that it be subject to some type of review, 
under section 110 of the Clean Air Act we would have to comply 
with that.
    Senator Inhofe. I'd like for the other four to be thinking 
about their responding to those four points, and I'll pass it 
over to Senator Sessions. We'll kind of go back and forth with 
this.
    Senator Sessions. Thank you.
    Mr. Seitz, fundamentally you don't disagree with Mr. 
Ament's conclusion that fires are the most important cause of 
regional haze. The Federal Government is the primary entity 
responsible for those fires?
    Mr. Seitz. I guess, as a technical matter, I probably 
would. I believe that----
    Senator Sessions. You would disagree?
    Mr. Seitz. I would disagree. There is no question----
    Senator Sessions. Just briefly, why would you disagree?
    Mr. Seitz. I believe the total emissions from fires on a 
10-year planning framework for improvement represent 10 percent 
of the total emissions. They are part of the issue, but they 
are not all of the issue.
    Senator Sessions. How accurate do you consider the 
historical clean air standard based on manmade causes, as 
opposed to natural conditions?
    Mr. Seitz. I think, as we've talked about in the proposed 
rule, the issue is natural conditions versus forest fire. We 
are saying that that baseline has to be established within the 
first 5 to 7 years of the rule. This is one of the challenges 
that has to be addressed. That baseline is critical.
    Senator Sessions. Well, let me ask those of you that have 
been involved in the Grand Canyon Commission, Government 
Leavitt, as I recall his testimony, he was very passionate 
about the effort he put into that. Mr. Kendall, you said you 
spent 6,000 hours. That's, what, 2 or 3 years of----
    Mr. Kendall. Yes.
    Senator Sessions.--40-hour weeks of your time volunteering 
to come up with a proposal that would help improve visibility 
in the west.
    Governor Leavitt, as I recall, Mr. Chairman, just explained 
that with great passion and concern about what they had done. 
He was holding his breath to see what EPA would do with the 
hard work of so many involved persons.
    I hear each of you saying you do not believe that it was 
received respectfully enough and was not acted on by EPA in a 
sufficient manner.
    Would any of you like to comment on that? Yes, Dr. Nielson?
    Ms. Nielson. Yes, Senator, I believe that is certainly true 
of the original regulation that was proposed by EPA. I think 
since that time, and particularly since your hearing in April, 
the work that we have been doing with EPA and the other members 
of that partnership and the consensus document that we provided 
and EPA's commitment to reflect that consensus document as an 
entity, not parceled and picked apart, in the final rule is the 
key to success in what you're identifying as the critical piece 
and being able to manage regional haze.
    We have developed a consensus approach to this through the 
Grand Canyon and now through the work of the WRAP. I think we 
have the ability to address those issues. Fire, overall, may be 
not the hugest or largest percent of the problem, but, on a 
given day, it is part of the problem.
    We need to be able to address those issues. I think 
addressing them through a regional partnership at the local 
level with States, Federal land managers, and the EPA, and 
tribes in the process together defining the process gives us 
the ability to do that.
    So at this point, I would support going forward with the 
partnership, defining the strategies as we've laid out in that 
consensus document and as I understand EPA's commitment to be 
that they will include within their final regional haze rule.
    Senator Sessions. Secretary Woodley, you made an 
interesting point, and that is that, in my area of Alabama, 
Birmingham, foothills of the Smokies, I guess, we have a number 
of challenges--ozone, particulate matter challenges that are 
taking a lot of time.
    Our main forest area, national forest area, is the Bankhead 
Forest, which is very little populated and very little seen by 
many people, and it seems to me that we've got a major 
metropolitan area with 600,000 or 700,000 people that are on 
the margin of being out of attainment, and this is distracting 
us from our primary health function.
    Do you have any thoughts about that?
    Mr. Woodley. Senator, I agree with you 100 percent. 
Implementing this rule, even on the time table proposed, would 
be a significant distraction, I believe, from Virginia's 
regulatory agencies and our metropolitan planning organization 
processes that we have underway that are seeking to address 
health-based standards that have previously been imposed in 
other initiatives under the Clean Air Act by the EPA.
    As Mr. Seitz just indicated, the basic science is not now 
done to establish the baselines, to establish the emission 
factors from various kinds of activities that contribute to 
regional haze to determine the difference between the natural 
causes and manmade causes of these types of things, or to 
determine to what extent the work we're doing on health-based 
standards will, in fact, address the same issue.
    Certainly small particulates in this 2.5 standard, we would 
expect, if we deal with that, and deal with it on a transport 
basis, would address----
    Senator Sessions. Would it, itself, improve the 
circumstance?
    Mr. Woodley. I fully expect that it would. In the meantime, 
we have laws in place that prevent significant deterioration. 
The PSD program that Virginia is now running within our State 
allows Federal land managers to interpose a virtual veto on any 
new permit for new facility that would significantly 
deteriorate the visibility in their class one areas.
    So the need to do this science and to do this work at the 
same time that we're addressing the NOx SIP call, the 8-hour 
ozone standard, the PM<INF>2.5</INF> standard, I don't know 
where I will get the resources. I do not know where I will get 
the resources to do that and, unfortunately, EPA is not 
suggesting that they are able to fund that mandate.
    Mr. Seitz. Senator, could I comment since he referred to a 
statement I made?
    Senator Inhofe. This is Senator Session's time.
    Mr. Seitz. Senator?
    Senator Sessions. Yes. Fine.
    Mr. Seitz. I think there is no question where I would 
disagree with Secretary Woodley is the science is here. The 
National Academy of Science in their report found that the 
science is there. There is no doubt concerning what the various 
sources are that contribute to regional haze.
    I think the baseline we're talking about is how does forest 
fire play in that issue, as I would respond to your question. 
The National Academy of Science found that, in fact, the 
science is there, and, in addition, as Secretary Woodley is 
well aware, the actions that he, himself, stated would be taken 
and we said in the rule you are correct, and in Birmingham you 
are correct. The acid rain reductions, the reductions that 
we're seeing as far as first planning increment for this rule 
will probably produce a two to three deciview improvement in 
those regions of the country, so there will be definite 
benefits from these health-based actions that the State of 
Virginia will be taking.
    Senator Sessions. Well, it seems to me odd that we started 
with a problem of the Grand Canyon view, and now we've had 
virtually every area of the country moving away from health 
issues that have been driving us, having to focus on 
visibility, which will probably be benefitted by the same 
health activities that we are participating in.
    And the law just required reasonable progress. I hope that 
we can be reasonable in what you're requiring.
    And if you--I know my time is out, but I didn't give the 
others a chance to comment on how they felt about EPA's final 
or interim decisions on respecting the decision made by the 
Commission. Mr. Kendall or Mr. Ament?
    Mr. Kendall. With respect to that, I think that one thing 
we have to recognize is that the title 4 program, the ozone 
issues in the east are going to be major emission drivers that 
are going to have collateral effects on visibility. Out in the 
west we don't have those kinds of pressures.
    We've looked at a strategy. We have to look at all sources 
of pollution. In our recommendations we talk about prescribed 
fire and fire management. We talk about mobile source issues. 
We talk about stationary source issues. We talk about issues 
about Mexico, transboundary issues.
    All of these contribute. You know, the west is so clean, 
there's such a light loading of particles in the atmosphere 
that it's not one particular thing you can go after if you're 
talking about trying to manage this.
    With respect to the state of the science, I take exception 
with the assumption that you can define ``natural background'' 
on the worst 20 percent days. We spent a lot of time. We still 
don't have good, sound models out there. The Commission did 
develop some models in our process. They need to be improved.
    A lot of the work that we're doing now is trying to drive 
the state of the science forward to help EPA with these 
implementation strategies where we can take emission management 
plans from States and turn them into visibility projections. 
This is all driven by PM<INF>2.5</INF>.
    When we talk about PM<INF>2.5</INF>, in effect that's a 
visibility model. That's all we did in the Commission process--
we predicted the concentration of PM<INF>2.5</INF> by specie 
and then converted that into light extension.
    With respect to the deciview metric, the Public Advisory 
Committee concluded that the deciview metric, as a way of 
describing visibility, was a sound one because it allowed 
people to see perceptible changes in increments.
    They didn't agree to reasonable progress defined as a 
metric like that, but in terms of trying to convert your 
standard visual range or light extension into deciview we felt 
that that was a good way of trying to communicate to the public 
what that meant.
    Senator Sessions. It would show you when you're making 
progress, but it wouldn't show you what your standards ought to 
be?
    Mr. Kendall. It would tell you whether or not you've had a 
perceptible change, and that's one of the keys to it.
    If you go from 19 to 18, that's a barely perceptible 
change.
    Senator Sessions. Would a dry, windy year in the west put 
more haze than how many automobiles out there? Are those 
factors that have been analyzed accurately?
    Mr. Kendall. That's one of the issues that I have with the 
original proposal. I disagree with the assumption that you can 
define natural conditions at that level and then drive yourself 
toward it. I don't think our science is there yet. I don't 
think it is unreasonable to expect it will be within 10 years, 
but it is not here today.
    With respect to reasonable progress, the Commission, when 
they were looking at the whole concept of emission management 
strategies, set a process in place that took almost a year and 
a half and many public workshops to define the criteria for 
evaluating emission management strategies.
    Now, it isn't just cost, it isn't just this thing. We're 
talking about social and cultural effects, administrative ease 
and effectiveness, a whole bunch of things, and all of them--
you know, they're not all the same. So human brains have to sit 
around a table and balance these things and come to a consensus 
about what reasonable progress is, and I think that's the way 
reasonable progress should be defined, not by a metric, but by 
a consensus collaboration on a group of criteria that the 
members agree are the criteria of consideration.
    Senator Sessions. I'd ask--Senator Ament had a comment on 
that.
    Mr. Ament. Thank you, Senator Sessions.
    First I want to say something about visibility baselines. 
That's a particular concern to us with the Forest Service 
talking about more and more prescribed burns. Recently we've 
had a couple of Forest Service burns out of control and news 
broadcasters talking about, ``The haze you see in the air is 
prescribed burns.'' I think that is of particular importance to 
us.
    Attribution? I think that's another big issue.
    As you heard Mr. Kendall say, we are faced--and, in fact, 
Mr. Chairman, I think you'd be amused. I'd like to know the 
contribution the green Forest Service pickups put in the air as 
they drive up and down, hundreds of them every day, scouting 
around whether or not we're going to clean up this blow-down 
over there near the Zirco Wilderness Area.
    But I think there are so many sources--the blow-in sources, 
the sources of all the mobile sources, as well. I really feel 
that we don't have a good handle on how we attribute what each 
particular segment contributes to our haze problem.
    Deciviews? I ran a bill in Colorado to try and set that so 
we could have something to tie our hands to, and met with all 
kinds of problems from my friends at the Federal level and the 
environmental groups.
    Senator Inhofe. Senator Ament, along that line, I think I 
heard you say that you passed two pieces of legislation or one 
that the--two that the Governor vetoed. I'd like to have you--
I'm a little familiar with--since many years ago I attended the 
University of Colorado, I have been following the politics 
there, and I'd like to know if you could give us a short 
synopsis of the type of legislation you passed that the 
Governor vetoed.
    Mr. Ament. We tried to get a handle on how we could be the 
first, if you will, to try to get something on visibility. As 
you may know, we even passed a QRV bill in Colorado. That took 
2 years.
    But anyway, back to the visibility kinds of issues and 
getting the Federal Government--again, a bill passed that the 
Federal Government is going to have to abide by our rules and 
regulations is certainly a task that we failed in after it 
passed the General Assembly by not being able to convince the 
Governor's office they ought to sign it.
    Probably the biggest actors in the defeat of these two air 
bills was the Forest Service. The Forest Service and the United 
States Park Service were the ones that I think aided the 
environmental community in placing around the Governor's 
office--I happened to be in the Governor's office when I was 
arguing before to pass this bill--flip charts around the entire 
office, an office nearly as big as this room--flip charts on 
why these bills ought to be defeated, and it was very 
disconcerting, you know, that here we had spent a lot of time 
researching the issues to put a Colorado thing in place the 
exempt flexibility, include everybody in the talk, and then 
have our friends put us down. In short, Forest Service and Park 
Service were very effective in that.
    Senator Inhofe. Well, you know, essentially, then, as I 
understand the legislation you passed, it would allow the State 
of Colorado to take care of some of these problems, as opposed 
to the Federal Government?
    Mr. Ament. Absolutely.
    Senator Inhofe. I'm looking at it now politically. Governor 
Romer vetoed that, so he's saying, ``No, we think that the 
Federal Government can do a better job than the State of 
Colorado''?
    Mr. Ament. That's right. He thinks that we--I think 
Governor Romer actually felt that--in fact, I think Governor 
Romer actually caved in to the other side of that argument 
saying, ``Forget all these issues that you brought up about 
sources, burns, blow-in, and so on and so forth, and a Colorado 
plan. Let's let the Federal Government do it for us.''
    Senator Inhofe. It would seem to me politically that would 
be kind of a difficult position to defend in your State.
    Is the Governor term limited?
    Mr. Ament. The Governor is serving his last year.
    Senator Inhofe. Okay. I see.
    Mr. Woodley, you had made a comment about unfunded 
mandates, and I always perk up when I hear that, having been 
the mayor of a major city for three terms. A lot of people are 
not aware of the fact that it's not crime in the street, it's 
not welfare, the greatest threat to us at that time was 
unfunded mandates, and it is something we're trying to address 
here, and I think you are aware of that.
    Describe what you mean by unfunded mandates and try to 
quantify that, if you could.
    Mr. Woodley. The Clean Air Act, of course, enables the 
Environmental Protection Agency to require State implementation 
plans under certain circumstances, and that's essentially what 
this rule-making does. Any State that does not file and have 
approved by EPA within the time limit set, their State 
implementation plan is subject either to discretionary or, over 
a period of time, mandatory sanctions, which include the cut-
off of all highway funds and various other quite draconian 
measures that are described as sanctions in the context of the 
act.
    These make the SIP process mandatory on the States, as a 
practical matter, and this process that we've described, as 
you've heard it, will be exceptionally resource intensive.
    The idea of establishing the monitors necessary to study 
the air quality to the extent of describing even the baseline 
will require significant resources on the part of our agencies 
well into the hundreds of thousands of dollars, and over time 
in the millions of dollars. Of course, that is the effort--
those are the efforts that will be required by the States. The 
efforts that will be required on the part of the private sector 
are, doubtless, even greater than that.
    And so now to what extent they will be required in addition 
to what we are required to do by the other health-based 
standards is an open question, but I would expect that the 
health-based standards, by themselves, will not fully address 
this issue and that the private sector will be called upon to 
make substantial expenditures under the best available retrofit 
technology standard.
    And yet, I have not heard suggested that these efforts will 
be, in fact, funded by the Federal Government in any way, 
shape, or form, and so we are, as I described it, in the case 
of a classic unfunded mandate.
    Senator Inhofe. For the record, we will be sending 
questions for the record to each of the five of you, and we 
would like to have you--we'll have, I guess, 1 week. We'll put 
a 1-week limit to submitting questions for the record.
    The question I want you to answer is to try to give us, as 
nearly as you can, divided down the types of costs and what the 
total amount you feel it will be. I know it is a very difficult 
thing to do, but I'd like to talk in those terms, because it is 
significant.
    Mr. Woodley. Mr. Chairman, I'm fortunate in having with me 
John Daniel, our leading air quality expert in our Department 
of Environmental Quality, and he heard the chairman's question 
and will be working on it tomorrow.
    Senator Inhofe. Thank you.
    Mr. Seitz. Senator, for the record, you're aware that the 
Agency is funding 100 percent of the air quality network 
associated with this program.
    Senator Inhofe. Senator Sessions?
    Senator Sessions. Well, Secretary Woodley, please give my 
best to your Governor. He was an outstanding attorney general 
and in short order was a big leader in the National Association 
of Attorney Generals.
    Well, I'll be frank with you and I'll ask Secretary 
Woodley, because I suppose he has some of these same issues, 
the timber industry in Alabama may be the most significant, I 
believe, financial industry that we have, combination of paper 
companies and just the magnificent natural growth of timber.
    Controlled burns are a part of good timber management. 
Indeed, long-leaf pine is not healthy without burning, and it 
is what Forest Service and others want to see more return to 
the natural long-leaf pine forest in the south.
    So it troubles me that a whole State dependent upon an 
industry may be, because of some aesthetic rule, jeopardized 
and made non-competitive, because we have a very competitive 
world market now in paper, and it is undermining--it threatens 
some of our plants and one I know has closed.
    Do you see any sense at which this interest in haze may 
provide such a cost on industry that it could hurt us 
economically and provide little health or even aesthetic 
benefits for the State or region? Mr. Kendall, you may want to 
comment on that, too.
    Mr. Seitz. I think it is a very valid point. In these cost/
benefit analysis, I'm not aware of them having been made.
    Senator Sessions. Apparently nothing was ever done in that 
regard, no cost/benefit when this legislation was passed. Is 
that----
    Mr. Seitz. That is incorrect. There was a regulatory impact 
analysis done at the time the regulation was proposed, Senator.
    Senator Sessions. The regulation was proposed, not the 
legislation?
    Mr. Seitz. The Clean Air Act. I cannot answer that.
    Senator Sessions. On the haze issue?
    Mr. Woodley. Senator, I can tell you that we're very 
concerned, certainly, that we maintain visibility. The Blue 
Ridge Mountains, where our class one areas are located, are a 
beautiful area in this country, rich in history, and we are as 
interested as anyone in preserving the quality of the public's 
experience, of our citizens, and of the many thousands of 
visitors we receive.
    That's a very interesting point, though, that they call it 
the Blue Ridge. They are--I was there on Tuesday. They are, in 
fact, green. They are covered with trees that are quite green. 
They're called the ``Blue Ridge'' because the earliest settles 
of this land of the English settlement, when they first saw 
them from a distance, saw them through a natural haze that gave 
them a distinct blue color. You can still see that today if you 
go there.
    So the haze that exists is, to a large degree, something 
that has been, in the east, at least, a part of our natural 
life and natural world for hundreds of years.
    Senator Inhofe. Well, the Great Smokey Mountains, that was 
a natural haze, also.
    Mr. Woodley. It is, indeed. I'm not suggesting--I don't 
mean to suggest for a moment that we cannot improve and should 
not improve; I'm suggesting that we do it in a reasonable, 
timely, cost-effective way that does not place undue unfunded 
mandates on our States and that is timed to coincide with the 
health-based standards that we're working on, and also that 
allows regional efforts to be undertaken in a flexible way.
    Senator Sessions. Senator Ament?
    Mr. Ament. Senator sessions, if I might, this is a real big 
issue in the west, and particularly Colorado, where we're 
trying to further the forest industry, health problems, the 
whole thing, but the industry, the saw mills and so on.
    What we have tried to do--in fact, passed a resolution that 
asked for mechanical harvesting of this before these burns are 
put in place, and it seems to fall on deaf ears with our 
Federal partners.
    If would could mechanically harvest and put that wood to 
beneficial use, then do the burns, then we wouldn't have as big 
and hot a fires and we wouldn't have the risk of catastrophic 
events and we wouldn't pollute the air so much.
    Senator Inhofe. Senator Sessions, I think we're going to 
have to dispense with this panel because we have that deadline, 
as I announced at the very beginning of this hearing.
    I would say that you will be receiving questions from 
Members who are not here whose staff is here, and I appreciate 
very much you folks coming. Thank you.
    If the second panel would--let's make it the third panel--
the second panel was to be Senator Leahy, who is here now. 
Senator Leahy, it might expedite things if you would join us up 
here and then participate as a member of this committee, and 
we're going to be expediting this because of the briefing that 
is coming up at 4, trying to get this panel concluded by that 
time if at all possible.
    The third panel will consist of Dr. William Farland, 
Director of National Center for Environmental Assessment in 
Environmental Protection Agency; Dr. Barry Johnson, assistant 
administrator, Agency for Toxic Substances and Disease 
Registry; Dr. Gary Myers, professor of neurology and 
pediatrics; Dr. Mark Smith, deputy director, Office of Research 
and Standards, Massachusetts Department of Environmental 
Protection; Mr. Tim Eder, director of Great Lakes Natural 
Resource Center of the National Wildlife Federation; and Dr. 
Leonard Levin, program manager for Air Toxics Health and Risk 
Assessment, Electric Power Research Institute.
    And at this time, before our opening statements, I would 
recognize Senator Leahy for his statement. We'd ask that the 
committee room remain silent.

  STATEMENT OF HON. PATRICK J. LEAHY, A UNITED STATES SENATOR 
                   FROM THE STATE OF VERMONT

    Senator Leahy. Thank you, Mr. Chairman. I appreciate the 
courtesy very much. I'd like to thank both you and Senator 
Chafee for convening this hearing.
    I've spoken many times on the floor over the past few years 
about my concerns about the ongoing threat of mercury pollution 
to the lands and rivers and lakes of Vermont, and I think that 
your hearing is an important step in the journey to finally 
address the scourge of mercury pollution.
    It has not been an easy journey, even this part. In the 
first Congressional session of this Congress, I worked with 
many in the Senate and in the House to introduce the Senate 
resolution that called on the Administration to release its 
long overdue mercury study report to Congress. That is the 
report that was mandated by the Clean Air Act of 1990.
    Earlier this year, I introduced S. 1915, the Omnibus 
Mercury Emissions Reduction Act of 1998. That used the mercury 
study as the basis for its legislation. In fact, if we enacted 
this bill, it would significantly reduce the risk the this 
powerful neurotoxic poses to the health and development of 
pregnant women, women of child-bearing age, and children.
    Most recently, Chairman Chafee and I have worked on the 
fiscal year 1999 appropriations process to support EPA's 
efforts to begin collecting mercury emissions data from power 
plants and avoid strong opposition to report language on the 
EPA appropriations bill that would hamper EPA from doing that.
    Mr. Chairman, I mentioned all of this because Vermonters 
share a deep and abiding concern for the environment. This is 
not a partisan issue in our State. We have enacted some of the 
toughest environmental laws in the country, but, despite these 
laws, we face threats from outside our border. Mercury is one 
of the biggest ones as it drifts into our waterways.
    When I was growing up and I spent summers on Lake 
Champlain, I never had to worry about the fish that I caught or 
how to eat them. Actually, I only had to worry about the fact 
that I sometimes wasn't too good at catching them in the first 
place. But now the lake has fish advisories for walleye, lake 
trout, and bass due to mercury.
    I have a new grandchild, and I hope some day to be taking 
him fishing there. I don't want to have to explain to my 
grandson why he can't eat the fish he catches.
    What I tell my grandson in the future is largely a function 
of the direction we take in Congress over the next few years to 
protect the environment. Are we going to look the other way, or 
are we going the build on the vision and the courage of two 
former leaders of this Committee? Senators Stafford and Muskie, 
like Chairman Chafee and others in the committee today, have 
shown bring us to a higher level of accountability and 
protecting our environment.
    We should be proud of the great strides we've made to 
reduce levels of many air and water pollutants, but we have to 
address the environmental threats as so far a few easy 
solutions.
    How do we reduce emissions in mercury and other pollutants 
from coal-fired power plants without significantly increasing 
our utility prices? When the 1970 Clean Air Act was written, we 
didn't understand what was involved. Now we do have a report 
and it gives Congress the ability to bring this under control.
    The mercury study report to Congress shows troubling levels 
of mercury. I might point out, Mr. Chairman, on this map you 
can see how the mercury has come really basically into the 
eastern side of the United States, very heavily in some parts 
of the United States, like around the Chesapeake Basin area up 
into my own State.
    The report estimates at any time there are more than 1.6 
million pregnant women and their fetuses, women of child-
bearing age, and children who are at risk of brain and nerve 
development. It shows that year after year sources in the 
United States emit at least 150 tons of mercury to the 
environment, and then, once it is released, it doesn't behave 
like many pollutants.
    This is kind of a fussy chart, but basically it shows how 
it goes up in the air, it doesn't biodegrade, it comes down 
into water and into fish, and then from fish to humans. If you 
are a child or you're just developing, or if you are a pregnant 
woman, you are going to have even a greater risk from this.
    We invest a lot of time and energy and law and fiscal 
resources in our children, but we're not protecting them really 
even in the womb in this.
    If you look at this last chart, Mr. Chairman, or the next-
to-the-last chart, this shows where we were in 1993 on fish 
advisories, and then right below it where we were just 4 years 
later, with 1,675 fish advisories.
    We have a lot there, Mr. Chairman. We know that it's going 
to take a lot to do this. We have to make a dent in the 52 tons 
of mercury emissions each year that we now have.
    EPA report estimates it will cost $5 billion per year on 
these power plants cleanup. It seems like a lot of money, but 
that's out of a $200 billion profit.
    So I would put the whole statement and letter, Mr. 
Chairman, and I ask unanimous consent that a copy of the letter 
to Senator Chafee and the members of the subcommittee dated 
today and signed by 88 environmental organizations also would 
be made part of the record.
    Senator Inhofe. Without objection.
    Senator Leahy. I thank you for doing this. I think this 
shows the concern we have, and it is the number of reports and 
advisories just is going up dramatically, and if we are going 
to protect our fish, our streams, our water, this is something 
that we must look at.
    Senator Inhofe. I thank you, Senator Leahy, for your 
intense interest in this, and we do welcome you on the dais 
here to participate.
    [The prepared statement of Senator Leahy and the letter 
signed by environmental organizations follow:]
    Senator Inhofe. I'm going to ask now that you really adhere 
to this 5 minutes in opening statement, and if you would 
prefer--and I would prefer it--if you want to submit your 
statement for the record, you may. We do have to end this at 4 
for the reasons I described when you first came in. So if you 
could try to accommodate us, we'd appreciate it very much. Your 
entire statement will be made a part of the record.
    Dr. Smith?

STATEMENT OF C. MARK SMITH, DEPUTY DIRECTOR, OFFICE OF RESEARCH 
   AND STANDARDS, MASSACHUSETTS DEPARTMENT OF ENVIRONMENTAL 
               PROTECTION, BOSTON, MASSACHUSETTS

    Dr. Smith. Good afternoon, Mr. Chairman, Senators, and 
staffers. Thank you for the opportunity to testify today.
    My name is C. Mark Smith. I'm the deputy director of the 
Office of Research and Standards of the Massachusetts 
Department of Environmental Protection. I'm also the chair of 
our department's mercury work group and the Massachusetts 
delegate to the New England Governors and Eastern Canadian 
Premier's Mercury Task Force.
    I'm testifying today as a toxicologist, as a State 
environmental regulator, and also, and perhaps most 
importantly, as the father of a 5-year-old daughter who just 
started kindergarten last week and a 5-month-old son who just 
started crawling around last week, which introduces a whole 
bunch of new risks in my household. I'm really very concerned 
about mercury from all three of these perspectives.
    There are three main points that I want to try to make 
today.
    The first point is that there is substantial and sufficient 
scientific evidence on the risks and levels of mercury in the 
environment, especially in the northeast, to warrant aggressive 
actions to reduce mercury pollution.
    Second, I want to emphasize, as Senator Leahy has already 
done with his maps quite well, that we have a significant 
mercury problem in the northeast; mercury levels in the 
environment of the northeast are too high.
    The third point that I'd like to make is that mercury can 
be transported once it is released into the environment for 
long distances, and what we really have is a national problem, 
not just a regional problem. We're making very aggressive 
efforts in the northeast to deal with the problems that are in 
our area with respect to emissions, and we really feel that 
additional efforts are needed to do that nationally and, 
ultimately, internationally.
    With respect to the scientific basis for action, there is a 
remarkable degree of consensus within the northeast that I 
really want to emphasize. Essentially all of the environmental 
protection agencies and public health agencies in all of the 
northeast States and eastern Canadian provinces have looked at 
this mercury problem very closely, and we've all come to the 
exact same conclusions about this: that the science really is 
sufficient to conclude that there is a problem in our area with 
respect to mercury. So this isn't just one State or just a few 
scientists who have looked at this problem.
    The four or five points that make mercury really 
problematic is that mercury is very toxic to people, and also 
let's not lose sight of the fact that it can also be toxic to 
wildlife like eagles and loons, otters, and other fish-eating 
mammals.
    Second, it can affect the nervous system and brain, perhaps 
permanently. It is our children that are most at risk. 
Depending upon the outcome of various debates about the precise 
levels of risk associated with mercury, a woman who consumes as 
little as half an ounce of fish daily contaminated at a level 
of half a part per million of mercury potentially puts her 
fetus at risk of adverse outcomes.
    And the third point is that we have levels of mercury in 
water bodies in Massachusetts that are well in excess of that 
level and can exceed one part per million and range all the way 
up to five parts per million.
    There has been considerable debate recently about the exact 
magnitude of mercury risks, and many folks have argued that 
perhaps mercury is less toxic than we previously believed. This 
is a huge scientific debate that's going on right now that I 
can't address in detail; however, myself and many other 
toxicologists have concluded that the data that is available 
right now, and particularly from the Seychelles Island study, 
really is not a sufficient basis to relax our concerns about 
mercury at this point.
    Also, I want to emphasize again that no matter what the 
outcome of this debate about the toxicity of mercury, the 
levels of mercury in fish in the northeast are sufficiently 
high that they would be of public health concern, no matter 
what we ultimately conclude about the interpretation of these 
studies.
    With respect to mercury levels in the northeast, I want to 
emphasize that we have a huge database. We have samples from 
over 4,000 fish, from over 700 water bodies in the northeast. 
The average levels of mercury in many game fish--sport fish 
that people like to catch, including bass and pickerel and 
perch--exceed 0.5 parts per million, and in many water bodies 
levels exceed one part per million, on average, and in 
individual fish up to five parts per million.
    We have a very extensive database on this issue. On the 
basis of that data, all the New England States and the eastern 
Canadian provinces have issued fish advisories warning people 
about the hazards associated with eating fish because of 
mercury.
    In Massachusetts alone, we have more than 50 water bodies 
where the levels of mercury are high enough to be of risk to 
adults like you and I, and we have a State-wide advisory that 
has been put in place warning pregnant women to limit their 
consumption of fish because of mercury contamination and risk 
to the fetus.
    With respect to regulations, we have a very extensive 
consensus within the region and a very aggressive bilateral 
regional action plan has been signed by the New England 
Governors and eastern Canadian premiers committing the region 
to very aggressive steps to reduce mercury pollution. We really 
think these need to be extended nationally.
    Senator Inhofe. Thank you, Dr. Smith.
    Dr. Smith. Thank you.
    Senator Inhofe. Dr. Johnson?

   STATEMENT OF BARRY L. JOHNSON, ASSISTANT SURGEON GENERAL, 
   ASSISTANT ADMINISTRATOR, AGENCY FOR TOXIC SUBSTANCES AND 
               DISEASE REGISTRY, ATLANTA, GEORGIA

    Dr. Johnson. Good afternoon. I'm Barry Johnson, the 
assistant administrator for the Agency for Toxic Substances and 
Disease Registry, which is a component of the Department of 
Health and Human Services.
    The subcommittee invited us to testify on mercury 
pollution. Our agency has worked on a number of mercury issues, 
most of which are captured in our mercury toxicological 
profile.
    The Superfund legislation directs our agency to develop 
toxicological profiles for priority substances released from 
hazardous waste sites. Our priority list of hazardous 
substances is developed jointly with EPA and updated every 2 
years. Mercury is No. 3 on the 1997 list of priority 
substances.
    Further, mercury has been the single most frequently 
encountered hazardous substance in our emergency response 
program for the last 8 years.
    For this reason, ATSDR and EPA jointly developed and 
released a health alert in the summer of 1997 that has been 
widely distributed to schools, States, and other potential 
targets of mercury spills.
    We first published a toxicological profile on mercury in 
1989. This document was updated in 1994, and a second update 
was released in a draft version in October, 1997.
    In October, 1997, we released, as I said, for public review 
and comment our current draft profile. The document remains in 
draft pending further discussions with EPA, other Federal 
agencies, the States, and the public.
    An upcoming inter-agency workshop in November will be a key 
forum for resolving some remaining points of science and public 
health.
    Each of our toxicological profiles contain what are called 
``minimal risk levels,'' MRLs, which are estimates of what 
level of daily human exposure to a hazardous substance is 
likely to be without appreciable risk of adverse noncancer 
health effects over a specified duration and route of exposure.
    The substance-specific estimates are intended to serve as 
screening levels, not for regulatory purposes.
    ASTDR's MRL--minimal risk level--for chronic, oral exposure 
to methylmercury in our October, 1997, draft profile is derived 
from a study conducted in the Republic of Seychelles by 
University of Rochester investigators. That study reflects 
multiple generations of human exposure to organic mercury 
through fish consumption as the primary route of exposure. 
Because of the long-term nature of this exposure, the large 
sample size, and the rigorous study design, this data set was 
used as the primary basis for our MRL derivation for 
methylmercury.
    We derived an MRL for chronic oral exposure to 
methylmercury of 0.5 micrograms of mercury per kilogram of body 
weight per day.
    MRLs for both elemental mercury and organic mercury are 
also presented in our draft document.
    In our 1997 profile, we looked at the uncertainty in the 
available methylmercury data. Essentially, this is a question 
of how much confidence do we have in the data.
    Our evaluation led us to select an uncertainty factor of 
one, which means we ascribed in good confidence to the data. 
This is not to suggest that there is no uncertainty remaining 
about any threshold for the health hazards of methylmercury.
    In fact, ASTDR anticipates further discussions with our 
Federal colleagues and the public on the subject of what 
uncertainty factor should be used.
    Since October, 1997, there have been several additional 
scientific publications on the human health effects of 
methylmercury, particularly in children. For example, results 
of the 66-month testing of children in the Seychelles are now 
available.
    Further, a study of the Faroe Islands population published 
in December 1997 will need to be examined by ASTDR in the 
context of our draft toxicological profile.
    We continue to work with other Federal agencies to reach a 
consensus on mercury issues. A key meeting of an interagency 
group will be held November 18 through 20 of this year, 
convened by the Committee on Environment and Natural Resources. 
We consider this meeting to be an important step toward 
resolving remaining scientific issues.
    Mr. Chairman, a challenge for health officials is to 
balance the known public health benefit of consuming more fish 
in the diet and the known dangers of excess mercury exposure.
    To mitigate adverse health effects of excessive exposure to 
mercury, our agency supports efforts to reduce or eliminate 
exposure to mercury in the environment. Such efforts must be 
pursued through pollution prevention strategies, including 
health education for both health care providers and the 
citizens who may be at risk due to high levels of exposure to 
mercury.
    Mr. Chairman and members of the subcommittee, I would be 
pleased to answer any questions you may have.
    Senator Inhofe. Thank you, Dr. Johnson.
    Dr. Farland?

STATEMENT OF WILLIAM H. FARLAND, DIRECTOR, NATIONAL CENTER FOR 
   ENVIRONMENTAL ASSESSMENT, ENVIRONMENTAL PROTECTION AGENCY

    Dr. Farland. Mr. Chairman, members of the subcommittee, I'm 
William Farland, director of the National Center for 
Environmental Assessment in USEPA's Office of Research and 
Development.
    I'm pleased to have this opportunity to contribute to the 
subcommittee's discussion of science issues involved in 
assessing health and ecological impacts of mercury exposure. 
I've submitted more extensive testimony for the record.
    Mercury is a basic element. It has neither created or 
destroyed, and it has always been a component of the earth's 
dynamic systems.
    What has changed with time and what has caused increasing 
concern about mercury and mercury exposure is the addition of 
the human component to the plant's complex systems. Mercury 
cycles in the environment as a result of natural and human so-
called ``anthropogenic'' activities.
    The amount of mercury mobilized and released into the 
biosphere, unless biologically available within the 
environment, has increased since the beginning of the 
industrial age as a result of increasing anthropogenic 
activities.
    This has raised concern about the potential for public 
health and ecological impacts.
    The scientific community knows a lot about human health and 
ecological effects of mercury and mercury exposure, and has 
agreed, in spite of remaining scientific uncertainties, that 
mercury is an important environmental problem.
    The U.S. Environmental Protection Agency has been at the 
forefront of the science issues and control activities 
regarding mercury.
    One important example of the agency's science assessment 
activities is the 1997 Mercury Study Report to Congress. In my 
written testimony, I've provided details regarding the impetus 
for the report, its content, and the process used for its 
extensive peer review.
    As the state of the science for mercury is continuously and 
rapidly evolving, this report should be viewed as a snapshot of 
our current understanding of mercury.
    The report also identifies areas where further research is 
needed to provide a quantitative risk assessment.
    I've provided details on the agency's near- and long-term 
plans for mercury-related research. I've also highlighted 
efforts underway with our Federal colleagues and the outside 
scientific community to identify scientific common ground on 
this issue.
    I'd like to focus my oral remarks on a few specific topics.
    Mercury emissions and deposition. In my testimony I discuss 
in some detail how mercury circulates in the environment, how 
mercury in the air is deposited on land, water bodies, and the 
nature of some of the scientific uncertainties associated with 
this cycle.
    We're often asked how much mercury are we talking about 
when we say that human activity causes release into the 
environment. The report says that the best point estimate for 
annual anthropogenic U.S. emissions of mercury based on 1994 
and 1995 data is 158 tons. Roughly 87 percent of these 
emissions are estimated to be from combustion sources, 
including waste and fossil fuel combustion.
    Computer modeling of long-range transport of mercury 
suggests that about one-third, or over 50 tons, of U.S. 
anthropogenic emissions are deposited within the continuous 48 
States. The remaining two-thirds is transported outside the 
U.S. borders, where it diffuses into the global cycle.
    The computer simulation suggests that another 35 tons of 
mercury from the global cycle is deposited in the U.S., for a 
total deposition of roughly 87 tons annually, over 60 percent 
of which is coming from U.S. anthropogenic sources.
    With regard to public health impacts, epidemics of mercury 
poisoning following high exposure to methylmercury in Japan and 
Iraq demonstrated that neurotoxicity is the health effect of 
greatest concern and that effects on the fetal nervous system 
occur at lower exposures than the effects on the adult nervous 
system.
    Minimally affected mothers have given birth to severely 
affected infants. Dietary methylmercury is almost completely 
absorbed into the blood and distributed into all tissues, 
including the brain, and also readily passes through the 
placenta to the fetus and fetal brain.
    To describe the implications of chemical exposures on human 
health, including the impacts of methylmercury, the Agency uses 
the concept of a reference dose. The reference dose is an 
amount of methylmercury which, when ingested daily, over a 
lifetime, is anticipated to be without adverse health effects 
to humans, including sensitive sub-populations.
    At the reference dose or below, exposures are expected to 
be safe. The risk following exposures just above the reference 
doses, is uncertain that it is clear that risk increases as 
exposures to methylmercury increase significantly above the 
reference does.
    EPA has, on two occasions, published RfDs for methylmercury 
which have represented the agency consensus at the time. The 
original RfD of 0.3 micrograms per kilogram of body weight per 
day, based on effects seen in adults, was determined in 1985 by 
EPA's Agency-wide consensus work group. The critical effect was 
nervous system damage in Iraqi adult populations exposed to 
methylmercury through consumption of contaminated grain.
    The effect seen at the lowest dose were changes in 
sensation or numbness.
    The current RfD of 0.1 micrograms, based on effects seen in 
children, was established as agency consensus in 1995. The 
revised RfD was estimated by extrapolating from the high-dose 
exposures that occurred in the Iraqi incident to impacts on the 
most sensitive individuals in that population--the developing 
fetus.
    At the time of the Mercury Study Report to Congress, it 
became apparent that considerable new data on the health 
effects of methylmercury in humans were emerging. However, as 
many of these new data had neither been published nor yet been 
subject to rigorous review, EPA decided that it was premature 
to make a change in the 1995 methylmercury RfD at that time.
    The decision was supported by the Agency's Science Advisory 
Board, a public advisory group providing external scientific 
advice to the Administrator, and I've included the text of 
their specific advice regarding the use of these emerging 
studies in my written testimony.
    Senator Inhofe. Thank you very much, Dr. Farland.
    Dr. Myers?

STATEMENT OF GARY MYERS, PROFESSOR OF NEUROLOGY AND PEDIATRICS, 
                      ROCHESTER, NEW YORK

    Dr. Myers. Mr. Chairman, thank you for the opportunity to 
present the views of our research group.
    My name is Gary Myers. I've been working with the research 
group at the University of Rochester for over 25 years and have 
taken part in both the Iraq and the Seychelles studies.
    In the 1950's, industrial pollution in Japan resulted in 
high levels of methylmercury in ocean fish and several thousand 
human poisonings from consuming contaminated fish. The exact 
level of exposure was never determined, but it was thought to 
be very large.
    Fish in Japan had levels as high as 40 parts per million, 
compared with average levels in the U.S. of below one, or 
occasionally as high as two or three.
    Not a single case of poisoning from the consumption of fish 
has been reported since that epidemic in 1960.
    In the 1970's, another epidemic took place, a mercury 
poisoning epidemic in Iraq where people ate seed grain coated 
with a methylmercury fungicide. We studied the children of 
about 81 women who were pregnant during this outbreak, and we 
concluded that there was a possibility that exposures as low as 
10 parts per million in maternal hair could be associated with 
adverse effects on the fetus. This value is 10 times the 
average value in the U.S., but it is a value that women who 
consume fish frequently can achieve.
    In aquatic environments, bacteria convert inorganic mercury 
to methylmercury and then it enters the food chain. People who 
consume large amounts of fish can have up to 10 parts per 
million in their hair.
    The toxic effects of methylmercury from fish consumption 
are not scientifically proven, in our opinion. We, therefore, 
decided to investigate what we consider a sentinel population 
for the U.S.
    The Seychelles study started in 1987. It is a collaborative 
program between the University of Rochester and the Republic of 
Seychelles, funded by the National Institutes of Environmental 
Health Sciences and the Food and Drug Administration, along 
with the governments of both Seychelles and Sweden.
    Our study was designed to determine whether prenatal 
exposure to methylmercury from consumption of a fish diet is 
associated with developmental effects. We thought that was an 
issue that could be studied directly by looking at fish-
consuming peoples.
    Our original hypothesis was that, indeed, methylmercury, at 
levels achieved by regular maternal consumption of fish, would 
be associated with adverse effects on child development.
    The Seychelles was chosen because the average Seychellois 
eats fish twice a day. In addition, the average methylmercury 
of fish in Seychelles is 0.3 parts per million, a value that is 
very similar to ocean fish purchased commercially in the United 
States.
    There is no mercury pollution in Seychelles, and there are 
a number of things which make a low-level exposure study easier 
to do.
    The study design was carefully planned, and I've outlined 
it in the handout. I'll only make a point of two things.
    To minimize the possibility of bias, we made a number of 
decisions before the study began, a critical element in 
scientific studies.
    Fist, the study is double blind. No one in Seychelles or on 
the clinical team has any idea about the level of any 
individual child's exposure.
    In addition, we established a data analysis plan before we 
collected the data to minimize the possibility that the data 
would simply be analyzed until we found the expected effect.
    The Seychelles child development study involves over 700 
mothers and children who I enrolled during the year I lived on 
the Island of Mahi. They have been evaluated regularly for over 
5 years now. The results of the Seychelles child development 
study so far--and analyses have been through five-and-a-half 
years of age, a number that is quite fairly far along for most 
toxicological studies--indicate no adverse developmental 
effects from prenatal methylmercury exposure in the range 
commonly achieved by consuming large amounts of fish.
    We have also examined the association between the 
children's post-natal exposure and the test outcomes at five-
and-a-half years. Several of those outcomes were slightly 
better in the children with higher mercury. Clearly this is not 
mercury, but mercury may simply be a marker for fish 
consumption and other nutrients in fish may be very important 
for brain development.
    In summary, our studies in Iraq raised the possibility that 
methylmercury exposure might adversely affect development, but 
we do not believe that the Seychelles child development study 
has demonstrated an adverse association through five-and-a-half 
years of life.
    We consider the Seychelles a sentinel population for the 
U.S., since they consume large amounts of fish. The 
methylmercury content of the fish is similar to that of 
commercially-available fish in the U.S., and the health and 
welfare of the people are quite similar.
    Fish is an important source of protein in many countries, 
and large numbers of mothers around the world rely on it for 
proper nutrition.
    The nutrients that fish contain may be important for brain 
development. For older individuals, fish appears to have 
cardiac and mental health benefits. Fish consumption is 
increasing in countries, including the U.S. We believe it would 
be unwise to limit commercial fish consumption without 
convincing scientific evidence that exposure at the levels seen 
with fish consumption is harmful.
    Senator Inhofe. Thank you, Dr. Myers.
    Mr. Eder, you are next. I do apologize. I understand you 
got a late notice. You were invited by the minority, but you 
didn't even have time to get your statement in well in advance. 
So it wasn't your fault, it was ours, and you are recognized.

 STATEMENT OF TIM EDER, DIRECTOR, GREAT LAKES NATURAL RESOURCE 
CENTER OF THE NATIONAL WILDLIFE FEDERATION, ANN ARBOR, MICHIGAN

    Mr. Eder. Well, not a problem, and I apologize to you and 
the committee. We had a further problem with Federal Express 
today getting copies of our statement shipped down here. I 
guess we can't always----
    Senator Inhofe. Since we're on C-SPAN right now, I'm sure 
they appreciate that. Go ahead.
    [Laughter.]
    Mr. Eder. Well, Mr. Chairman, on behalf of our members and 
supporters around the country, the National Wildlife Federation 
is pleased to be here and to have this opportunity to present 
testimony in support of the legislation sponsored by Senator 
Leahy, S. 1915, and on the need for Congressional action to 
address the problem of mercury contamination in waters of the 
United States.
    I'd like to begin today by summarizing the three points I 
will be emphasizing in my comments, and I have provided written 
testimony to the committee.
    First, mercury is a serious environmental problem requiring 
Congressional action. Because the largest single source of 
mercury pollution, coal-burning utilities, continues with no 
requirements to reduce or eliminate mercury pollution, Senate 
bill 1915 is needed.
    Second, more than enough is known about sources of mercury 
and its toxic effects, especially on people, to warrant taking 
action now. The debate over the conclusion of the Seychelles 
and Faroe Island studies is an important scientific discussion, 
but it should not be used as an excuse to delay action.
    Third, solutions to this problem--pollution control 
technologies and switching to cleaner sources of energy--are 
available. Some in the utility industry are claiming that no 
solutions exist or that they are too expensive. These arguments 
are flawed, as we will illustrate in our remarks today.
    First, our testimony provides a snapshot of mercury 
contamination problems around the country and the magnitude of 
this problem. We cite, for example, studies of elevated levels 
of mercury in fish in Chippewa Indians from Wisconsin. There, 
researchers have concluded that, though effects are unlikely in 
the adults, there may be levels associated with a slightly 
increased risk of neurological effects in infants.
    We also include research on mercury contamination in 
several species of wildlife in the Florida Everglades, 
including panthers, double-crested cormorants, alligators, and 
bald eagles, studies of wood storks, endangered wood storks in 
southeastern Georgia, and the list goes on.
    Second, we believe that more than enough is known about the 
effects of mercury in people to warrant taking action now.
    A concern of NWF and most health agencies in the U.S. stems 
from the effects of mercury exposure on children when they are 
exposed in-utero as a result of their mothers' consumption of 
contaminated fish.
    NWF's members are people who fish. Many of us come from 
rural parts of this country, where hunting and fishing are 
important parts of our culture and our history. For people like 
me, fishing is something that we do mostly for recreation, but 
for our members and many other people, hunting and fishing is a 
way of putting food on the table.
    The two long-term studies have been examining the effects 
of fish consumption and mercury levels on children exposed in 
the womb. You just heard about the Seychelles Islands study. 
Another study of pilot whale consuming people in the Faroe 
Islands in the North Atlantic found mercury-related deficits in 
language, attention, and memory in 7-year-old children exposed 
to mercury in the womb.
    Both of these studies are important because they are being 
used to guide our Federal agencies in the establishment of 
minimum risk levels and, subsequently, fish consumption 
advisories.
    Much media attention has focused on the Seychelles study. 
We believe, however, that the Seychelles study has limitations. 
These limitations include the following:
    First, neurological development tests in the Faroe Islands 
population have been recognized as being more sensitive in 
detecting subtle cognitive and motor disturbances than the 
tests used thus far in the Seychelles study.
    As pointed out by one scientist with EPA, while evaluation 
with these more subtle tests are planned, current findings from 
the Seychelles should be regarded as interim.
    In an earlier analysis from the Seychelles group, several 
cases of high mercury exposure and effects were excluded as 
outlying points, even though such data could show real effects 
in more children due to mercury exposure.
    Third, the researchers in the Seychelles study reported 
improved scores on several of the tests at higher mercury and 
fish consumption levels, suggesting that there was a benefit 
from higher fish consumption.
    This may be true, and it may be linked with the benefits of 
eating fish. However, we suspect or we suggest that part of the 
explanation for this could be the relatively low concentrations 
of mercury in the fish consumed by the Seychelles group. The 
difference there that is relevant for the U.S. population is 
that in the U.S. sport anglers and others are likely to consume 
fish contaminated at much higher levels, although perhaps less 
frequently.
    As an example, fish contaminant levels in the Seychelles 
study were at roughly .05 to .25 parts per million, whereas 
mercury concentrations in walleye in Wisconsin typically 
averaged between 0.5 parts per million, or two to ten times 
higher.
    The third point is that solutions are available and are not 
as expensive as is being claimed. The EPA has moved forward in 
recent years to address many of the most important sources of 
mercury pollution. There are solutions available to control 
mercury from coal-burning power plants. Our testimony provides 
evidence of these solutions and evidence to suggest that the 
costs of complying with these new controls are not as high as 
might be suggested.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Mr. Eder.
    Dr. Levin?

STATEMENT OF LEONARD LEVIN, PROGRAM MANAGER, AIR TOXICS HEALTH 
 AND RISK ASSESSMENT, ELECTRIC POWER RESEARCH INSTITUTE, PALO 
                        ALTO, CALIFORNIA

    Dr. Levin. Thank you, Mr. Chairman.
    As a global pollutant, the impact of mercury on the human 
environment is an issue not only of health but of welfare. The 
issuance of mercury fish advisories by a number of States has 
coincided with a cascade of information on the health value of 
fish for longevity and development.
    Scientific studies on mercury's health impacts on children 
have the capacity to identify health risks or their absence at 
levels that are far more sensitive than past studies.
    Our changing understanding of where mercury originates 
nationally and globally, combined with the new health data, 
force us to reexamine our understanding of mercury in the 
environment.
    EPRI research on these questions has been underway for 15 
years, and the research results have been shared cooperatively 
with the U.S. Environmental Protection Agency, the Department 
of Energy, and the public over that time.
    I'd like to address three key questions.
    First, what role do U.S. industrial emissions of mercury 
play in the overall emission picture?
    Second, how might changes in the input of mercury to the 
atmosphere be reflected in mercury levels in fish?
    Third, at what levels of exposure might mercury pose a 
health threat?
    New mercury that is added to U.S. waterways currently 
appears to come primarily from deposition from the atmosphere. 
Studies of the Great Lakes show that 75 to 85 percent of the 
mercury each year is due to atmospheric deposition. The mercury 
in the atmosphere originates from both domestic and 
international industrial sources, as well as background 
emissions from both natural and legacy deposits of mercury.
    EPA, EPRI, and others have evaluated emissions from current 
U.S. industrial sources, which total about 150 to 200 tons a 
year for the continental U.S., as has been mentioned already.
    In addition, these background deposits of mercury are also 
emitting to the atmosphere. Many more products were made of 
mercury in the industrial environment in the mid part of the 
century, up until about the 1960's, than are now currently 
used. These legacy sources of mercury have the capacity to move 
into the environment, as well.
    Until recently, we had no way of measuring these amounts. 
Now we have new measurements done by the University of Nevada, 
Oak Ridge National Laboratory, and many others that allow us to 
calculate the contributions of background areas of mercury to 
the emissions in the United States.
    It appears that these natural and legacy sources together 
might total about as much as current U.S. industrial sources 
combined do, although distributed somewhat differently.
    Since the mid-1960's, there has been, as I said, about an 
85 percent drop in the industrial use of mercury. This 
industrial mercury has gone into waste streams and eventually 
into soils and waterways. However, museum specimens and current 
catches of fish don't reflect any significant decline in the 
levels of mercury in the environment over this time period. 
This is an indirect indication of the long cycling time of 
mercury through natural reservoirs such as lake bottom 
sediments and soils. The mercury does not go away, but 
eventually may be available for input to the aquatic life 
cycle.
    Even more far-reaching findings may be emerging from the 
ongoing basic studies of mercury health effects on children. 
Other speakers today have discussed these findings in more 
detail. I will touch on only a few points.
    The new health data from studies in the Seychelle Islands 
and the Faroe Islands--studies that are continuing--are the 
outcome of well-designed comprehensive assessments of children 
exposed to mercury via fish consumption, the root of concern 
for United States' residents.
    Two independent analyses of the Seychelles' data to date 
have concluded that the intake of mercury from fish may be safe 
at levels that are somewhat higher than what are currently 
thought to be safe limits.
    These findings, if they're supported in later analyses, 
imply that a given mercury level in fish may be less of a 
threat to human health than formerly believed. The potential 
consequences of these findings are quite significant.
    Public presentation by the head of a regulatory department 
of one State last December indicated that mercury fish 
advisories in that State would essentially disappear if the new 
safe levels that have been derived would apply. This is 
expected to hold in many other States, as well.
    These studies are 3 to 4 years from completion of data 
collection, analysis, and interpretation. Conclusions drawn 
about mercury as a threat to the U.S. population should await 
completion of these investigations. We do not know how the 
findings will come out, of course, and, in particular, whether 
the health studies will, in the end, call for less or more 
stringent mercury exposure standards. But it is clear that the 
studies, when complete, will better inform any deliberations 
about the need for and the focus of mercury management 
decisions.
    For this reason, well-informed decision-making might await 
completion of the studies that are underway and planned.
    That concludes my remarks.
    Senator Inhofe. Thank you very much, Dr. Levin.
    Again, I apologize that we are going to have to wind this 
up, but you will be receiving in the next 7 days questions for 
the record, and I think it is very significant that you get 
this.
    Let's start with Dr. Farland. I'm pleased that the 
Administration is calling for a meeting in November of 
interagency review of the latest studies of the effect on the 
human exposure to mercury.
    I would assume that, since the EPA and a number of other 
Federal agencies are involved in the review, that there is 
still uncertainty in the science and a difference of opinion in 
allowable levels of mercury in fish and the threshold at which 
there is no observed adverse effect for mercury. Is that 
accurate?
    Dr. Farland. There will always be uncertainties in the 
science. As it is presented, we're going to be extrapolating 
from populations outside of the U.S. In most cases, we're 
really dealing with emerging science and uncertainties related 
to those types of extrapolation.
    There will continue to be uncertainty. We hope to reach 
some additional consensus, given the new data, though, in that 
November meeting.
    Senator Inhofe. Well, closely related, Mr. Eder, I asked my 
staff to find the statement you just made in your written 
statement and they couldn't find it. You said something to the 
effect that the science, even though the science has not 
arrived to that point yet, there's no reason to delay action or 
something. Could you repeat that statement, because I think 
that's what this hearing is all about.
    Mr. Eder. Well, I think the point is simply that we're not 
taking action today to control the most important source of 
mercury pollution to the environment, and that is from coal-
burning utilities. We have--the U.S. EPA has put new 
regulations in place on incinerators, and other control 
measures are in the works for other sources of mercury. 
However, there is nothing being done to reduce or control 
mercury being emitted from the burning of coal.
    The fact that we have fish consumption advisories in 40 
States and 15 of those States are State-wide advisories, and 
the data indicate that the problem is not getting better, the 
concentrations----
    Senator Inhofe. What I'm saying--we're running out of time 
here--based on today's data, what is it that you think we can 
go ahead with and not delay that was in your statement?
    Mr. Eder. Well, specifically, the proposals in Senator 
Leahy's legislation call for a time line of a 95 percent 
reduction in mercury emissions from several of the most 
important sources, including coal-burning utilities, and I 
think that the's an appropriate step forward.
    Senator Inhofe. I think, Dr. Myers, you've answered this in 
your opening statement, but I want to make sure that we get 
this in the record accurately.
    Does your study of the Seychelles support the statement of 
Dr. Smith--and I'm going to quote the statement so you remember 
it here--``that no matter what the outcome of the debate on 
mercury toxicity, that a pregnant woman eating as little as 0.4 
ounces of fish a day containing 0.5 parts per million of 
mercury puts her fetus at risk.''
    Dr. Myers. Our study really does not support that statement 
at this time.
    Dr. Smith. If I could just add, that's not quite what I 
said, but----
    Senator Inhofe. I thought I was quoting. If not, then that 
was--I thought that was taken from your written----
    Dr. Smith. Yes. It is kind of mixing two statements. One 
statement basically to the effect that we have enough 
information to take aggressive actions.
    Senator Inhofe. All right.
    Dr. Smith. The other statement was that a woman consuming 
that amount of fish could put her fetus at risk at the lower 
end of the exposure of range of concern.
    Senator Inhofe. What we are trying to get to here is we're 
right now talking to experts and scientists, and I'm glad that 
we did this when we opened up the NAAQS issue. However, we 
didn't go far enough before we took the next step, and I intend 
to make sure that we, at least in those people who are not 
professionals, such as us on this side of the table, that we 
can fix in our mind some reasonable explanation for the 
differences that science has in these important issues.
    I quite often characterized our approach to the NAAQS 
problem as, ``Ready, fire, aim,'' and I don't want that to 
happen in this case.
    Dr. Myers, could you explain the differences in the 
populations studied between the Iraqi study and the Seychelles?
    Dr. Myers. The Iraq study was a poisoning from eating 
methylmercury coated seed grain. It was an incredibly high 
poisoning with hair levels as high as 2,000 parts per million, 
as opposed to one part per million in the U.S. They were quite 
different populations.
    And from the study we concluded that there was a 
theoretical but small possibility that levels as low as 10 
parts per million could cause effects. That's why we went to 
the Seychelles to do a more careful study.
    In our opinion, the Seychelles is the best study that we've 
been able to do related to low-level mercury poisoning.
    Senator Inhofe. All right. I'm going to have two questions 
that will come--I'd ask you to respond for the record, but you 
might be thinking about because these are critical in our 
evaluation. One would be--I'll send these to you. You don't 
have to write them down. Do you agree that the fish consumption 
studies, rather than the Iraqi grain studies, more closely 
resemble the situations here in the United States that health 
agencies should be concerned with?
    And, second, what specific information is needed in order 
to have a better scientific understanding of mercury and its 
health and environmental impact?
    Again, I will once more apologize to you for the somewhat 
of a crisis that came up right at 4. It is 4, and I have to 
meet that crisis.
    I thank you very much for coming. You will be receiving 
questions for the record.
    [Whereupon, at 4:01 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
 Statement of Hon. Senator Bob Graham, U.S. Senator from the State of 
                                Florida
    Mr. Chairman, Senator Leahy, members of the committee. I am pleased 
today to have the opportunity to learn more about the scientific issues 
surrounding the establishment of a suggested reference dose for human 
exposure to mercury.
    I would like to take a moment to explain my interest in this issue 
to the committee, and express my hope that during the 106th Congress 
this committee will further review of the ``state of the science'' on 
mercury pollution and conduct an in-depth analysis on appropriate 
policy actions.
    In the state of Florida, there are no fish consumption or limited 
fish consumption advisories throughout much of the state. The South 
Florida region in particular is threatened by mercury deposition. For 
example, in the Florida Everglades, which is widely recognized as a 
``national treasure'' being the only ecosystem of its kind in the 
United States, mercury levels in sediment has increased about 5 times 
over the last 100 years.
    It is unclear exactly what the cause of these high levels are. Over 
the same 100 year period, mercury in global air has increased only 2-3 
times. Contributing factors to the high mercury levels in the 
Everglades are the peat sediments and algae mats that blanket this area 
and provide an ideal environment for transformation of soluble mercury 
into methylmercury. The shallow, slow moving water in this portion of 
the state provides minimal dilution for mercury levels.
    Research is continuing on the effects of these high levels. The 
state of Florida has ``no consumption'' or ``limited consumption'' 
advisories in many areas, including the Everglades, Big Cypress and 
Florida Bay. There is evidence demonstrating that endangered species 
such as the Florida panther are being effected--in moderately and 
highly exposed panther populations research shows reduced litter size.
    As you can see, there is great interest in my state in mercury 
pollution. I am pleased that this committee is beginning to look at the 
science related to the human health effects of mercury. I look forward 
to future work on the efforts we begin here today. Thank you,. Mr. 
Chairman.
                               __________
 Statement of John S. Seitz, Director, Office of Air Quality Planning 
 and Standards, Office of Air and Radiation, Environmental Protection 
                                 Agency
    Mr. Chairman, members of the subcommittee, thank you for inviting 
me again to discuss the Environmental Protection Agency's (EPA's) 
proposed rule to improve visibility and reduce regional haze in our 
national parks and wilderness areas.
    As you know, EPA revised the national ambient air quality standards 
(NEARS) for ground-level ozone and particulate matter in July 1997. 
These updated standards have the potential to prevent as many as 15,000 
premature deaths each year, and up to hundreds of thousands of cases of 
significantly decreased lung function and aggravated asthma in 
children. In the review of the standards, EPA concluded that the most 
appropriate way to address the visibility impairment associated with 
particulate matter (PM) would be to establish a regional haze program 
in conjunction with setting secondary PM standards equivalent to the 
primary standards. EPA proposed new regulations addressing regional 
haze in July 1997.
    As I testified before this subcommittee last April, virtually all 
of our national parks and wilderness areas are subject to some degree 
of visibility impairment due to regional haze. This fact has been 
extensively documented by monitoring conducted since 1978 by the EPA, 
the National Park Service, the United States Forest Service, and other 
agencies. Haze, which obscures the clarity, color, texture, and form of 
what we see, is caused by natural and man-made pollutants emitted to 
the atmosphere through a number of activities, such as electric power 
generation, various industrial and manufacturing processes, car and 
truck emissions, burning activities. These emissions are often 
transported long distances affecting visibility in certain parks and 
wilderness areas that have been identified by Congress for protection 
under the Clean Air Act. These areas are known as Class I areas.
    As you are aware, the causes and severity of regional haze vary 
greatly between the East and the West. The average standard visual 
range in most of the Western U.S. is 60 to 90 miles, or about one-half 
to two-thirds of the visual range that would exist without man-made air 
pollution. In most of the East, the average standard visual range is 15 
to 30 miles, or about one-sixth to one-third of the visual range that 
would exist under natural conditions. One of the major challenges 
associated with this problem is that these conditions are often caused 
not by one single source or group of sources near each park or 
wilderness area, but by mixing of emissions from a wide variety of 
sources over a broad region.
Background
    The Clean Air Act established special goals for visibility in many 
national parks, wilderness areas, and international parks. Section 169A 
of the 1977 Amendments to the Clean Air Act sets the ``prevention of 
any future, and the remedying of any existing, impairment of visibility 
in mandatory Class I Federal areas which impairment results from 
manmade air pollutions as a national goal for visibility. This section 
also calls for EPA to issue regulations to assure Reasonable progress 
toward meeting the national goal. EPA issued regulations in 1980 to 
address the visibility problem that is ``reasonably attributable'' to a 
single source or group of sources. These rules were designed to be the 
first phase in EPA's overall program to protect visibility. At that 
time, EPA deferred action addressing regional haze impairment until 
improved monitoring and modeling techniques could provide more source-
specific information, and EPA could improve its understanding of the 
pollutants causing impairment.
    As part of the 1990 Amendments to the Clean Air Act, Congress added 
section 169B to focus on regional haze issues. Under this section, EPA 
is required to establish a visibility transport commission for the 
region affecting visibility in the Grand Canyon National Park. EPA 
established the Grand Canyon Visibility Transport Commission in 1991 to 
examine regional haze impairment for the 16 mandatory Class I Federal 
areas on the Colorado Plateau, located near the Four Corners area of 
New Mexico, Colorado, Utah and Arizona. After several years of 
technical assessment and policy development, the Commission issued its 
final report in June 1996. The Commission's recommendations covered a 
wide range of control strategy approaches, planning and tracking 
activities, and technical findings which address protection of 
visibility in the Class I areas in the vicinity of the Grand Canyon 
National Park.
    Under the 1990 Amendments, Congress required EPA to take regulatory 
action within 18 months of receiving the Commission's recommendations. 
EPA proposed the regional haze rules in July of last year in 
conjunction with the final national ambient air quality standards for 
particulate matter. In developing the proposed regulations, EPA took 
into account the findings of the Commission, as well as those from a 
1993 National Academy of Sciences Report.
    In 1990, the National Academy of Sciences formed a Committee on 
Haze in National Parks and Wilderness Areas to address a number of 
regional haze-related issues, including methods for determining the 
contributions of man-made sources to haze as well as methods for 
considering alternative source control measures. In 1993, the National 
Academy issued a report entitled, ``Protecting Visibility in National 
Parks and Wilderness Areas'' which discussed the science of regional 
haze. Among other things, the Committee concluded that ``current 
scientific knowledge was adequate and available control technologies 
exist to justify regulatory action to improve and protect visibility.'' 
The Committee also concluded that progress toward the national goal 
will require regional programs operating over large geographic areas. 
Further, the Committee felt strategies should be adopted that consider 
many sources simultaneously on a regional basis.
    In addition to the findings of the Grand Canyon Visibility 
Transport Commission and the National Academy of Sciences, EPA also 
took into consideration recommendations and discussions related to 
regional haze from the Clean Air Act Advisory Committee's Subcommittee 
on Ozone, Particulate Matter, and Regional Haze Implementation Programs 
established under the Federal Advisory Committee Act (FACA) in 
developing the proposed regional haze rule. The subcommittee included 
wide representation from states, local and tribal governments, 
industry, environmental groups and academia. This subcommittee met 
regularly over two-and-one-half years to consider a variety of 
implementation issues associated with the revised national ambient air 
quality standards and the proposed regional haze rule. It also focused 
discussions on how best to develop more cost-effective, flexible 
strategies for implementing these requirements.
EPA's Proposed Regional Haze Rule
    EPA's proposed regional haze rule is designed to establish a 
program to address visibility impairment in the Nation's most treasured 
national parks and wilderness areas. In this rule, EPA is proposing to 
improve visibility, or visual air quality, in 156 important natural 
areas found in every region of the country. These areas range from 
Grand Canyon, Canyonlands, and Rocky Mountain National Park in the 
southwest; to Yellowstone, Glacier, and Mt. Rainier in the northwest; 
to Shenandoah and the Great Smokies in the Appalachians; to Yosemite, 
Sequoia, and Point Reyes in California; to Acadia, Lye Brook, and Great 
Gulf in the northeast; to the Everglades and Sipsey Wilderness in the 
southeast; to Big Bend, Wichita Mountains, Badlands, and the Boundary 
Waters in the central states. More than 60 million visitors experience 
the spectacular beauty of these areas annually. The proposed regional 
haze rule, in conjunction with implementation of other Clean Air Act 
programs, will significantly improve visibility in these areas. 
Further, EPA expects visibility to improve well beyond these areas, 
across broader regions of the United States.--Mr. Chairman, in my 
previous testimony before this subcommittee last April, I provided a 
detailed description of the EPA's proposed rule on regional haze and so 
I will not repeat this information here today.
Status of EPA's Regional Haze Rule and Recent Notice of Availability of 
        Additional Information
    EPA Administrator Browner signed the proposed haze rule on July 18, 
1997. At that time, we made the proposed rule and other related 
materials available to the public on the Internet and through other 
means. The proposed rule was published in the Federal Register on July 
31, 1997, and last September, I chaired an EPA-sponsored public hearing 
in Denver, Colorado. In response to requests by the public, we extended 
the initial public comment period by about 6 weeks, to December 5, 
1997. We held numerous sessions across the country to discuss the 
regional haze proposal, including a national satellite broadcast for 
all state and local air pollution agencies during which we discussed 
the proposal and answered questions from the viewers. I have also 
actively participated in meetings of the Western Regional Air 
Partnership (WRAP), a follow-up organization to the Grand Canyon 
Visibility Transport Commission that is co-chaired by Governor Shutiva 
of the Pueblo of Acoma and Governor Leavitt of Utah. The WRAP is a 
voluntary organization established by several states and tribes which 
EPA will be working with to address western visibility issues.
    Recently two significant events have influenced our efforts to 
finalize the regional haze regulations. First, in June, President 
Clinton signed the Transportation Equity Act for the 21st Century (TEA-
21) which, among other things, included a provision to ensure that 
states' control strategies and plans for regional haze are harmonized 
with those required for PM<INF>2.5</INF>. More specifically, this 
aspect of TEA-21 requires states to submit their regional haze 
implementation plans within 1 year after EPA designates an area of the 
country as Attainment'' or ``unclassifiable'' for PM<INF>2.5</INF>, or 
at the same time that PM<INF>2.5</INF> state implementation plans are 
due for areas that EPA designates as ``nonattainment'' for 
PM<INF>2.5</INF>. This provision of TEA-21 reinforces EPA's expressed 
intent in the proposed rule to coordinate the state plan revisions to 
address regional haze with those required to meet the PM<INF>2.5</INF> 
standard. EPA intends to incorporate the deadlines of TEA-21 into the 
final rule in a way that promotes regional planning efforts across 
regions that include areas designated attainment and those designated 
nonattainment. Second, EPA received a letter on June 29, 1998 from 
Governor Leavitt, on behalf of the Western Governors' Association 
(WGA), that specifically addresses how EPA should treat the Commission 
recommendations within the national rule. The WGA developed the letter 
in conjunction with several stakeholders involved in the Commission. 
EPA was not a part of this process. In the letter the WGA requested 
that EPA reopen the comment period for 30 days.
    In response to these two events, both of which occurred after the 
extended comment period closed, we published a Notice of Availability 
of additional information on September 3, 1998 providing an additional 
30-day period for the public to comment on two aspects of the Agency's 
regional haze proposal. Specifically, the Agency is requesting public 
comments on: (1) how EPA should interpret TEA-21 legislation to best 
coordinate state planning for PM<INF>2.5</INF> and regional haze; and 
(2) the Western Governor Association's proposal on changes to EPA's 
proposed regional haze rule to address the recommendations of the Grand 
Canyon Visibility Transport Commission. In addition to providing the 
full text of the Western Governors' Association letter on EPA's 
Internet site, we have also provided sample text illustrating how the 
Western Governors' Association's recommendations could be reflected in 
regulatory language. It is important to note that EPA is not reopening 
the comment period for any other issues related to the proposed 
regional haze rule. Following the close of this comment period and our 
careful review of the comments, we intend to issue a final regional 
haze rule this Fall.
Conclusions
    In summary, we believe that EPA's new proposed regional haze rule, 
when finalized, will establish a framework to improve visibility in our 
Nation's parks and wilderness areas, as the Congress intended in the 
Clean Air Act. Over the past several years, we have been busy reviewing 
public comments and considering options for addressing the concerns of 
various commenters. At the request of various interested parties, 
including the Western Governors Association, STAPPA/ALAPCO, NESCAUM, 
and industry and environmental groups, we have held additional meetings 
to discuss issues related to the rule. In addition, we have reopened 
the comment period for public consideration of the rule's incorporation 
of the TEA-21 deadlines and the Western Governors Association's 
suggestions for including the Grand Canyon Visibility Commission's 
recommendations. I want to be clear that we still have not made final 
decisions on these matters. Our goal is to ensure that these new 
requirements are implemented in a common sense, cost-effective and 
flexible manner. We intend to continue working closely with state and 
local governments, other Federal agencies and all other interested 
parties to accomplish this goal.
    Mr. Chairman, this concludes my written statement. I will be happy 
to answer any questions that you might have.
                                 ______
                                 
                           Environmental Protection Agency,
   Office of Air Quality Planning and Standards, December 17, 1998.

    Committee on Environment and Public Works,
    U.S. Senate,
    Senate Office Building,
    Washington, DC 20510.

    Dear Mr. Chairman: This is in response to the letter of October 27, 
1998, from Senator Inhofe and Senator Graham on behalf of the 
Subcommittee on Clean Air, Wetlands, Private Property and Nuclear 
Safety. The letter included a number of questions that were submitted 
by Members of the Committee for the hearing record. As indicated in the 
letter, I am directing the attached responses to your attention. We 
believe that our responses demonstrate that the regional haze program 
will provide States with substantial flexibility in developing 
appropriate long-term strategies to improve visibility. We have 
answered all of the questions except for question 15b, which addresses 
smoke management agreements. We are still in the process of gathering 
information from other agencies in order to fully respond to this 
question. We expect that a response to this question can be provided to 
you by December 15.
    I appreciate this opportunity to be of service and trust that this 
information will be helpful to you.
            Sincerely,
                                   John S. Seitz, Director,
                      Office of Air Quality Planning and Standards.
                                 ______
                                 
 Responses of John S. Seitz to Additional Questions from Senator Inhofe

    Question 1. In Governor Leavitt's letter to Administrator Browner 
transmitting the Western Governors Association (WGA) proposal, he 
stated ``We ask that in using the document you respect the carefully 
balanced compromise it represents. Selective use of portions of the 
document could easily undermine the significant `give and take' 
involved in reaching our final draft.'' However, EPA's translation 
document published in the Federal Register appears to omit numerous 
elements identified in the WGA proposal as needing to be addressed in 
the preamble to the rule.

    Question 1a. What elements of the WGA proposal including elements 
proposed by WGA for inclusion in the preamble to the final rule did EPA 
include in the transition document? Please provide citations from the 
text of the Federal Register notice for each of these elements.

    Question 1b. What elements of the WGA proposal including elements 
proposed by WGA for inclusion in the preamble to the final rule did EPA 
omit from the transition document?
    Response to 1a and 1b. After receipt of Governor Leavitt's letter 
transmitting the WGA's proposal, EPA published a notice in the Federal 
Register informing the public of the availability of the WGA proposal 
in the docket to the rulemaking and on the Internet. [63 FR 46952. 
September 3, 1998]. As stated in the notice, EPA provided draft 
language to illustrate how the WGA's proposal might be translated into 
regulatory text. We did this to help inform the public debate on the 
WGA proposal. However, as further noted in the Federal Register, we did 
not attempt to ``translate'' any of the WGA preamble recommendations 
into illustrative preamble language. The Federal Register contains the 
following language regarding the suggestions for preamble language in 
the WGA letter:
    ``The WGA letter contains numerous suggestions for preamble 
discussions to accompany the final regional haze rule. These preamble 
suggestions include clarifications of the rationale for certain 
conclusions, explanations to clarify WGA's regulatory language 
suggestions, and discussions of a number of WGA's suggested policy 
interpretations for implementation of the final rule. At this time, the 
EPA has not drafted specific preamble language in reaction to these 
suggestions. We do, however, request comment on the concepts and 
suggestions that WGA recommends that EPA include in the preamble to the 
final rule.''
    The Federal Register notice thus explicitly referred to the 
preamble suggestions in the WGA proposal, made the WGA's preamble 
suggestions available in the docket to the rulemaking and on the 
Internet, and specifically asked commenters to critically review the 
concepts and suggestions made in the WGA recommendations.

    Question 2. The WGA's proposal includes ``5 year milestones'' for 
visibility improvement. The EPA translation document converts these 
milestones into annual emission reduction targets.

    Question 2a. Can you point to any section of the WGA proposal that 
describes an annual milestone or target?

    Question 2b. Why did EPA unilaterally alter this key provision of 
the WGA proposal in the translation document?
    Response to 2a and 2b. We did not intend to alter this provision of 
the WGA proposal.
    We agree that the definition of ``milestone'' in paragraph 
309(b)(5), together with the use of that term later in the translation 
document, could be read to mean that milestones must be developed for 
each and every year, rather than comparing the emissions for every 
fifth year with 1990 levels. Our use of the term ``annual'' was meant 
to convey that States would compare the annual emissions for that 
particular year (not every year) with the 1990 baseline, and not that 
milestones should be set for each year.

    Question 3. EPA's translation document includes a requirement for 
renewable energy that does not appear to be part of the WGA proposal.

    Question 3a. Can you point to any section of the WGA proposal that 
includes a renewables requirement?

    Question 3b. Why did EPA unilaterally amend the WGA proposal by 
creating a renewables requirement in the translation document?
    Response to 3a and 3b. The WGA proposal does address a renewable 
energy requirement which was taken verbatim in our translation 
document. In section II.G of the WGA proposal, the WGA recommends that 
SIPs be required to include the following:

  ``A planning assessment describing the programs being relied on to 
    achieve the State's contribution toward the Commission's goal that 
    renewable energy will comprise 10 percent of the regional power 
    needs by 2005 and 20 percent by 2015, and a demonstration of the 
    progress toward or achievement of the renewable energy goals in the 
    years 2003, 2008, 2013, and 2018, including documentation 
    describing the potential for renewable energy resources, the 
    percentage of renewable energy associated with new power generation 
    projects implemented or planned, and the renewable energy 
    generation capacity and production in use and planned in the State. 
    To the extent that it is not feasible for a State to meet its 
    contribution to the regional renewable energy goals the State must, 
    in the planning assessments, identify the measures implemented to 
    achieve its contribution and must explain why meeting the State's 
    contribution was not feasible.''

    In paragraph 309(d)(8)(vi) of EPA's translation document, we 
provided the following illustrative regulatory text:

  ``(vi) A planning assessment describing the programs being relied on 
    to achieve the State's contribution toward the Commission's goal 
    that renewable energy will comprise 10 percent of the regional 
    power needs by 2005 and 20 percent by 2015, and a demonstration of 
    the progress toward or achievement of the renewable energy goals in 
    the years 2003, 2008, 2013, and 2018, including documentation 
    describing the potential for renewable energy resources, the 
    percentage of renewable energy associated with new power generation 
    projects implemented or planned, and the renewable energy 
    generation capacity and production in use and planned in the State. 
    To the extent that it is not feasible for a State to meet its 
    contribution to the regional renewable energy goals, the State 
    must, in the planning assessments, identify the measures 
    implemented to achieve its contribution and must explain why 
    meeting the State's contribution was not feasible.''

    Thus, the translation text repeats verbatim the WGA's 
recommendation on the subject of renewable energy. Please note that 
neither the WGA proposal (nor our translation) mandate that the 10 
percent and 20 percent targets be met if it would not be feasible to do 
so. As a result, we do not believe that it is accurate to describe 
these targets as a ``requirement'' for renewable energy.

    Question 4. Senator Burns submitted a number of questions to EPA 
following an April 30th hearing on EPA appropriations (the 
``Appropriations questions''). In response to those questions, EPA said 
it plans to publish its 5 year update report under section 169B(b) on 
progress on improving visibility later this year. EPA also said that it 
does not believe that it is obligated to predict future trends in 
visibility due to other parts of the Clean Air Act (CAA) as part of the 
169B(b) report, but that it may do so as a matter of discretion. The 
testimony at the October 1 hearing made clear that accurate projections 
about future trends in visibility impairment due to other sections of 
the CAA will be crucial to States as they try to develop implementation 
plans under the regional haze rule.

    Question 4a. Will EPA commit to the committee that EPA will update 
its projection of future improvements in visibility due to other parts 
of the Act?

    Question 4b. When will EPA publish its update projections?

    Question 4c. Will EPA commit to the committee that these 
projections will be available prior to the date on which States are 
required to fulfill any obligations under the regional haze rule?
    Response to 4a, 4b, and 4c. Section 169B requires a one-time report 
on progress and improvements in visibility that are likely to result 
from implementation of the Clean Air Act Amendments of 1990 other than 
the provisions of section 169B. Section 169B further requires 
subsequent reports to assess actual progress and improvements in 
visibility but does not call for further analyses of the progress and 
improvement in visibility due to other Clean Air Act provisions. The 
EPA is currently engaged in developing a 5-year report on progress and 
improvements in visual air quality, which we hope to make available 
later in this fiscal year.
    We agree that it is important for States to understand the impacts 
on visibility of other Clean Air Act requirements, such as the programs 
for meeting the national ambient air quality standards for fine 
particulate and ozone. We feel the best way for these visibility 
improvements to be estimated is for EPA and States to work together in 
regional planning efforts in which regional haze analyses are 
coordinated with and integrated with those regional analyses for other 
programs. We believe that more accurate assessments would result from 
such efforts than through a single national assessment by EPA. The EPA 
believes that completing such analyses is a key step in developing 
additional strategies, as necessary, under the regional haze program. 
The new SIP submittal requirements for regional haze should allow 
adequate time for these projections and strategies to be developed by 
States.

    Question 5. Another of the Appropriations questions to EPA asked 
what research needs to be performed to support the States to implement 
the visibility program. The EPA answered that ``No research is needed 
before the States can begin to implement the visibility protection 
program.'' The EPA cited the 1993 NAS report for the proposition that 
``Current scientific knowledge is adequate and control technologies are 
available for taking regulatory actions to improve and protect 
visibility.''

    Question 5a. Does EPA believe that it has sufficient data to 
justify a regional haze regulation providing for the presumptive use of 
visibility goals based on the deciview metric and imposition of best 
available retrofit technology (BART) on certain stationary sources?
    Response. Yes, EPA believes that there is sufficient technical 
information available to justify implementation of a regional haze 
regulation. Our position is supported by the conclusion from the 1993 
NAS report cited in your question above, as well as other important 
reports on visibility. For example, the 1990 report of the National 
Acid Precipitation Assessment Program (NAPAP) states that: ``The 
fundamental physics relating light extinction (and other optical 
parameters) to atmospheric gases and particles is well established. . . 
. In fact, even before the past decade of visibility research, 
visibility was called the 'best understood and most easily measured 
effect of air pollution' (Council on Environmental Quality, 1978).'' 
(Trijonis, John C., NAPAP Report 24, Visibility: Existing and 
Historical Conditions--Causes and Effects, October 1990). Moreover, 
because EPA has not proposed an enforceable deciview standard or 
proposed a level of control which constitutes BART, but rather has 
proposed to leave it to States to determine based on factors set out in 
the Act, any additional data needed will be developed by the States as 
they proceed with the development of their plans.

    Question 5b. Outside of the 16 areas studied by the Grand Canyon 
Commission, does EPA currently have data on sources of regional haze 
visibility impairment, atmospheric processes, monitoring, emission 
control strategies, and source-receptor models sufficient to allow 
States to overcome the presumptions on the deciview goal and BART 
should a State choose to attempt to overcome the presumption?
    Response. Yes, EPA believes that data and tools are available now 
for characterizing visibility impairment and analyzing strategies to 
improve visibility outside the 16 areas studied by the Grand Canyon 
Visibility Transport Commission (GCVTC). Many class I areas outside the 
GCVTC region have monitoring in place now. The chemical composition 
data available from 10 years of monitoring by the IMPROVE network has 
been used to characterize the contributions of various pollutants and 
sources to visibility conditions in class I areas. Regional scale grid-
based modeling of acid deposition and visibility in the eastern U.S. 
has been in place for a number of years. The EPA is working to provide 
additional data and tools over the coming years for implementation of 
the regional haze and PM<INF>2.5</INF> programs. For example, 78 
additional monitors will be added to the IMPROVE network within the 
next 2 years. In addition, efforts are under way to enhance 
PM<INF>2.5</INF> emission factors, emission inventories, and regional 
scale models for future strategy assessments.

    Question 5c. Will EPA commit to the committee that no State will be 
required to meet any obligations under the regional haze rule prior to 
the date that these data are available?
    Response. Since data and tools currently exist and since the 
expansion of the IMPROVE visibility monitoring network is already 
underway, EPA does not believe it will be necessary for any State to 
meet regional haze obligations before sufficient data are available. 
Consistent with TEA-21, EPA intends to enable States to coordinate the 
development of strategies under the NAAQS and regional haze programs.

    Question 6. Another of the Appropriations questions asked when EPA 
plans to publish its final findings on visibility research. The EPA's 
answer was that it has no plans to publish its final findings, but that 
``much information is routinely included in EPA's periodic revisions to 
the criteria documents.'' The proposed regional haze rule places the 
burden of proof on the States to overcome EPA's presumptive SIP 
requirements.

    Question 6a. Isn't it incumbent on EPA to do everything it can to 
assist the States to meet that burden by doing all of the necessary 
research and making it easily available to the States?

    Question 6b. Will EPA commit to the committee to publish its final 
findings on visibility research by a date certain, and if so, when?

    Question 6c. Will EPA commit to the committee that no State will be 
required to meet any obligations under the regional haze rule prior to 
the date that these findings are published?
    Response to 6a, 6b and 6c. The EPA is committed to supporting State 
efforts to implement the regional haze program. To date, EPA, the 
Departments of Interior and Agriculture, and other organizations have 
developed a significant body of scientific and technical information on 
visibility impairment in national parks and wilderness areas. The EPA 
is currently developing technical tools and guidance in a number of 
areas that will help the States analyze strategies for improving 
visibility. As noted several years ago in the NAS and NAPAP reports, 
the science of visibility is sufficiently well understood to move 
forward with a regional haze program. As EPA previously discussed in 
our response to the Appropriations questions, section 169B(a)(2) of the 
Act required EPA to produce only an interim findings report on 
visibility research. The EPA does not intend to publish a ``final'' 
findings report, but will continue working with the States to develop 
appropriate technical tools for implementation of the regional haze 
program.

    Question 7. In its answer to another of the Appropriations 
questions, EPA said that its regulations on complying with the national 
ambient air quality standards allow States to ``exclude high values 
that occur as a result of certain natural events such as wildfires and 
dust storms.'' However, those regulations do not address how similar 
events will be handled under the regional haze rule.

    Question 7a. Under the regional haze rule, will States be able to 
exclude data from their calculation of the average visibility on the 
best 20 percent of days and the average visibility on the worst 20 
percent of days any days on which visibility is impacted by emission 
from wildfires and dust storms as allowed under the NAAQS rules, or 
emissions from man-made fires?
    Response. The proposed regional haze rule, consistent with the 
national goal set forth in section 169A of the Act, is directed toward 
eliminating visibility impairment caused by ``manmade'' air pollution. 
Natural events are neither the focus of the Act nor the focus of the 
rule. Although EPA does not intend to exclude data from the visual air 
quality data base, EPA will not require other sources to seek further 
emission reductions to compensate for natural events.

    Question 7b. If not, how and to what extent will States be able to 
exclude visibility impairment from each of the following classes of 
events from their calculations: wildfires, dust storms, prescribed 
burns on Federal lands, prescribed burns on private and State owned 
lands, and emissions from foreign sources.
    Response. Wildfires and dust storms are clearly natural events 
which should be accounted for in determining natural conditions. 
Emissions from prescribed burning may have both a natural and a man-
made component. Some prescribed burning is conducted for reasons other 
than restoring the natural fire cycle and reducing the risk of 
wildfire. The effects of such burning should be addressed if it hinders 
reasonable progress. The EPA intends to address these issues at the 
time it revises the Interim Air Quality Policy on Wildland and 
Prescribed Fires after the regional haze program is finalized.
    Regarding international emissions, EPA staff will continue to work 
with their counterparts in Mexico and Canada to identify and address 
transboundary sources of manmade visibility impairment. EPA will not 
impose control obligations on domestic sources to address impairment 
that is caused by international transport.
    As noted above, EPA does not plan to exclude the data from such 
events from the visual air quality data base. EPA does, however, intend 
to distinguish between that which is natural and that which is only 
manmade, in assessing the degree of visibility improvement that may be 
needed to reach the national goal. Thus, in implementing the regional 
haze program, EPA expects States to consider the causes of manmade 
visibility impairment and develop strategies which are responsive to 
those contributions.

    Question 8. In its answer to another of the Appropriations 
questions, EPA said it is ``working with Federal land managers to 
identify ways to account for and discount, for visibility analysis, 
impairment from prescribed fire which is equivalent to that which would 
have occurred naturally and therefore would not be considered ``man 
made.'' This degree of impairment would thus not affect State 
obligations to provide for reasonable progress in their SIPs.'' This 
answer suggests that States are going to be responsible for that 
portion of the emissions from fires that are ``man-made,'' including 
that portion of the emissions from prescribed fires attributable to the 
mismanagement of Federal lands by Federal land managers.

    Question 8a. For purposes of compliance with the regional haze 
rule, does EPA intend to distinguish between that portion of visibility 
impairment from prescribed fires attributable to the ``natural'' amount 
of fuel in the forest, and the portion of impairment from the excess 
fuel due to forest mismanagement, i.e., the ``man-made'' portion?
    Response. In section 169A(a)(1) of the Clean Air Act, Congress 
``declares as a national goal the prevention of any future, and the 
remedying of any existing, impairment of visibility in mandatory class 
I Federal areas which impairment results from manmade air pollution.'' 
As noted above, EPA does not plan to exclude the data from prescribed 
fires from the visual air quality data base, but EPA intends to 
distinguish, in assessing the degree of visibility improvement that may 
be needed to reach the national goal, between that which is natural and 
that which is manmade. The EPA intends to address this issue at the 
time it revises the Interim Air Quality Policy on Wildland and 
Prescribed Fires after the regional haze program is finalized. 
Moreover, EPA intends to work with FLMs and States to minimize the 
impacts of prescribed burning and ensure that the impacts of fire are 
properly reflected in the establishment of Reasonable Progress goals.

    Question 8b. What current or planned monitoring, reporting 
activities, and source receptor relationships can you point to that 
would allow EPA or States to make such a distinction?
    Response. In refining estimates of manmade versus non-manmade 
impairment, there are a number of available technical tools, such as 
chemical composition analysis of IMPROVE monitoring data, the tracking 
of fire events, and fire emissions modeling tools.

    Question 8c. Are States going to be responsible for the visibility 
impairment attributable to the ``man-made'' emissions resulting from 
the mismanagement of Federal lands by Federal land managers?

    Question 8d. If there is an increased use of prescribed fire over 
current conditions with a resulting increase in the man-made portion of 
prescribed fire emissions which affects a particular State, will that 
State be forced to find additional emissions reductions beyond what it 
might currently need from other sources, such as private sector and 
State-owned sources, in order to achieve its target for progress on 
visibility impairment?
    Response to 8c and 8d. The proposed regional haze rule calls for 
States to develop strategies that assure reasonable progress toward the 
national goal. The proposed rule would provide the States with the 
flexibility to include any mix of strategies to address emissions of 
concern. If increases in prescribed fire emissions are of concern to a 
State, the State should include appropriate strategies in its SIP, such 
as an effective smoke management program. We note that to address these 
emissions, EPA has encouraged development of smoke management programs 
by States in the Interim Policy on Wildland Fire. The EPA also included 
provisions in the proposed rule that would give the States the 
flexibility to set alternate progress targets, based on a review of the 
statutory factors for determining ``reasonable progress.'' For example, 
if the State did not meet a reasonable progress target for a particular 
class I area due to increased emissions from fire not considered part 
of natural conditions, it would not be required to find additional 
emission reductions from other non-fire sources. However, the State 
would be required to revise its SIP to either change its strategies to 
address specific source categories of concern, or to establish an 
alternate progress target, if a review of the statutory factors showed 
that such action was appropriate.

    Question 9. Another of the Appropriations questions asked EPA how 
much visibility impairment in class I areas is due to prescribed fire. 
The EPA stated that it ``does not have estimates of how much visibility 
impairment is due to prescribed fire by each class I area.'' However, 
EPA admitted that ``Estimates of growth for prescribed fire range up to 
a 5fold increase in some areas of the Western United States where fire 
suppression has been based on work completed for the Grand Canyon.''

    Question 9a. Can you point to any provision of the proposed 
regional haze rule that assures the States that they are not going to 
have to reduce their emissions to make up for the increased emissions 
from prescribed fire if EPA projected 5fold increase occurs?
    Response. See response to questions 8c and 8d.

    Question 9b. In order to discount any portion of the visibility 
impairment due to natural fire conditions, EPA first has to accurately 
track and document their impacts. If EPA can't even tell us how much 
visibility impairment is due to prescribed fire today, how can we 
assure States that EPA will track future fire emissions so that States 
are fully protected?
    Response. EPA is currently working with the Federal land managers 
and States to develop guidance for estimating natural visibility 
conditions, and EPA will continue to do so after the rule is 
promulgated. The FLMs already have a number of technical tools and data 
bases in place to document fire events and estimate emissions 
associated with different types of fire, various vegetation types, and 
different ecosystem burn regimes. The FLMs are continuing to develop 
and enhance these technical resources. It is also important to note 
that the GCVTC States have recommended that the FLMs and States 
implement tracking programs for fire emissions as part of their State 
implementation plans.

    Question 9c. Will States be strictly liable for all sources of 
visibility impairment unless authorized by EPA to exclude classes of 
emissions or sources?

    Question 9d. The private sector in those States is going to have to 
make up for visibility impairment generated by Federal action on 
Federal lands. Is this correct? If not, how can you explain the EPA's 
answer?
    Response to 9c and 9d. No. See the response to questions 8c and 8d 
above.

    Question 10. You testified that with the TEA-21 legislation, future 
visibility transport commissions (VTCs) will have more time than the 
Grand Canyon Commission (the ``Commission'') to develop regional 
solutions for reducing regional haze. Please provide a time-line 
comparing the time periods for activities of the Commission with a 
hypothetical VTC that begins operation at some point in the future, 
showing all deadlines for actions by States under the proposed rule.
    Response. In the hearing testimony, EPA was making the general 
point that under section 169B of the Act, VTCs have 4 years to develop 
recommendations and to provide them to EPA, while under TEA-21, areas 
in many cases will have more than 4 years to submit regional haze Sips 
to EPA. The EPA wants to be clear about the distinction between VTCs 
and regional planning efforts. The VTC provisions of the 1990 Clean Air 
Act Amendments have not changed. They require that any VTC created in 
the future would have the same amount of time (4 years) to develop 
recommendations to EPA as was provided for the activities of the 
Commission. It is important to note that the provisions in section 169B 
of the CAA for visibility transport commissions are limited to 
assessing regional visibility impairment and do not impose any 
obligations or confer new authorities on such commissions that would 
assure actions to improve visibility. For this reason, and because many 
stakeholders interested in implementation of the NAAQS and regional 
haze programs recommend integrated planning, EPA is encouraging 
regional planning efforts. We believe these efforts should be initiated 
by the States and should be designed to achieve a more comprehensive 
set of objectives than what visibility transport commissions under 
section 169B are designed to address, since interstate transport of 
pollutants and their precursors may also contribute to air quality 
problems for fine particulate matter, as well as visibility impairment. 
The point of EPA's testimony was that these regional planning efforts, 
if initiated in the near future, could have more than 4 years to 
conduct technical assessments and develop these coordinated control 
strategies.
    [The deadlines for actions in the proposed rule have been 
superseded by the timing requirements in TEA-21, so this response does 
not show deadlines for actions under the proposed rule.]

    Question 11. You testified that you did not know whether regions 
outside of the Commission would need special regulatory provisions to 
implement their regional solutions.

    Question 11a. Why should a regional solution reached by other VTCs 
be denied the special status of a tailored regulatory provisions that 
appears likely to be afforded the States in the Commission?

    Question 11b. Would EPA consider adopting tailored regulatory 
requirements for other regions?
    Response to 11a and 11b. The proposed rule does not deny other 
States the ability to work with other States in a region to develop 
tailored regional solutions. Consistent with the schedule provided in 
the TEA-21 amendments, we are encouraging States to form regional 
planning efforts to conduct technical analyses and control strategy 
evaluations in order to develop such regionally tailored solutions, in 
a way that is coordinated with and integrated with efforts for meeting 
the NAAQS. Note that these efforts would be more broadly responsive to 
health as well as visibility protection goals than VTCs. The EPA plans 
for the final rule to have the flexibility for States to implement the 
strategies coming out of the regional planning process through 
individual State implementation plans.
    Because the work of the Grand Canyon Commission preceded the 
national rule, we believe it is appropriate and useful to codify the 
recommendations in rule language. This allows EPA to formally 
acknowledge the early efforts of the Commission, and to assure the 
participants that their efforts are consistent with the framework 
envisioned for the national rule. For other parts of the country where 
the national framework will already be in place during the regional 
planning process, it will not be necessary to codify the control 
strategy requirements into the national rule, but instead will be 
sufficient for these strategies to be made federally enforceable 
through the SIP approval process.

    Question 11c. If EPA is considering adopting other region-specific 
requirements, why is EPA considering adopting a national rule at this 
time?
    Response. EPA is not pursuing the establishment of region-specific 
requirements beyond provisions recognizing the efforts of the GCVTC. 
The EPA is moving forward to adopt a national rule at this time because 
since adopted in 1977, section 169A of the Clean Air Act has authorized 
EPA to address regional haze visibility impairment. In section 
169A(a)(4) Congress delegated to EPA authority to issue regulations to 
assure ``reasonable progress toward meeting the national goal.'' As 
explained in Maine v. Thomas, 874 F.2d. 883.885 (First Cir. 1989, 
``EPA's mandate to control the vexing problem of regional haze emanates 
directly'' from these provisions of the Clean Air Act. While EPA 
deferred addressing regional haze in its original 1980 regulations it 
did so because of technical obstacles, not because of a limitation on 
its legal authority. 45 Fed. Reg. 80084 (Dec. 2, 1980). Indeed, in the 
1980 rule EPA expressed its intent to address regional haze in a future 
rulemaking under section 169A.
    The provisions in section 169B of the Clean Air Act, adopted in 
1990, grew out of Congress' continued interest in having EPA develop a 
regional haze program under its section 169A delegated rulemaking 
authority. One provision in section 169B authorized formation of 
visibility transport commissions. Congress made it clear that it did 
not intend section 169B to impinge upon EPA's long-standing obligation 
to address regional haze visibility impairment. See 136 Cong. Rec. 
S2878 (daily ed. March 21, 1990) (statement of Sen. Adams) (``[t]he 
authority to establish visibility transport regions and commissions is 
a supplement to the administrators [sic] obligation under current law'' 
and [t]he Administrator may not delay requirements under section 169A 
because of the appointment of a commission for a region under section 
(daily ed. Oct. 26, 1990) (statement of Rep. Wyden) (``[in] either the 
original House language nor the Senate language adopted in conference 
repealed or lessened EPA's obligations under the 1977 law''). Thus, 
visibility transport commissions are a potential tool for, but not a 
prerequisite to, the development of regional haze regulations.
    You testified that under the regional haze rule, the deciview 
target is not an enforceable standard, but that it is only a metric to 
measure progress. The difference between a standard and a metric is 
that there are consequences to missing the standard, while there are no 
consequences to coming up short on a metric.

    Question 12a. Is it EPA's position that under the regional haze 
rule, there will be no consequences to a State or the private sector 
within a State if the deciview target is missed over a continuing 
period of time? Please point to a specific provision of the proposed 
rule to justify this answer.
    Response. Under the proposed rule, the one deciview reasonable 
progress target is a presumptive target. The proposed rule allows 
States to establish alternative targets where warranted. See 40 CFR 
section 306(d)(4)(proposed). Thus, the proposed rule provides States 
with the flexibility to set an alternate reasonable progress target 
consistent with the requirements set forth in section 169A(g)(1). Given 
a particular reasonable progress target, if a State were to develop and 
implement strategies to achieve the target but monitoring results were 
to show that the target had not been achieved, the consequences would 
be a requirement that the State review its control strategies and 
target, and revise one, or both, as appropriate based on consideration 
of the factors set forth in the CAA.

    Question 12b. Could EPA disapprove a SIP because it believes a 
State's plan will not produce the emission reductions needed to achieve 
the deciview target?
    Response. As explained above, the proposed rule allows States to 
establish alternate reasonable progress targets where warranted. If a 
State were to submit a SIP with either a one deciview or an alternate 
reasonable progress target that could be reasonably met but were to 
fail to back up the target with adequate strategies adopted into the 
SIP, EPA could and should disapprove the SIP.

    Question 12c. Could EPA impose a FIP on a State after it 
disapproves a SIP?
    Response. Yes. Under section 110(c)(1) of the Clean Air Act, EPA 
has the authority to promulgate a FIP if EPA disapproves a SIP unless 
the State corrects the deficiency.

    Question 12d. If there are any other consequences of missing the 
deciview target, please identify them.
    Response. As noted above, the consequences of missing a reasonable 
progress target would depend on the circumstances surrounding the 
State's failure to meet the target. For example, if a State were to 
implement all the strategies contained in its SIP but still fails to 
meet the target, the consequence could be a requirement for the State 
to determine the reasons for its failure to meet the target and to 
revise its strategies and/or reasonable progress targets as 
appropriate. Alternatively, if a State were to miss a reasonable 
progress target because of failure to implement strategies adopted into 
the SIP, this could result in a finding of nonimplementation and 
possibly sanctions.

    Question 13. You testified that a regional haze baseline must be 
established within 5 to 7 years after the rule is published. Is this a 
baseline for purposes of determining whether the deciview target has 
been met, or a baseline for measuring classes of fire emissions? How 
would EPA use this baseline in the out years?
    Response. This baseline would establish visibility conditions from 
which States would begin tracking reasonable progress toward the 
national visibility goal. The State would establish a goal for 
improving visibility from baseline conditions over each long-term 
strategy period. At periodic intervals, the States would be required to 
compare existing conditions to the baseline to evaluate the overall 
progress made to date.

    Question 14. In amending the Clean Air Act in 1990, Congress 
authorized the establishment of VTCs to make an integrated assessment 
of the effects of other provision of the Act, including the ozone and 
particulate matter provisions, in order to determine whether there was 
any need for additional specialized regulations to achieve progress on 
visibility. Your testimony suggested that EPA's notion of integration 
is the integration of States' efforts to implement EPA's mandated 
ozone, particulate matter, and regional haze rules.

    Question 14a. Doesn't EPA's approach to integrated implementation 
contradict the congressionally mandated approach of an integrated 
assessment of the need for any additional regulations?
    Response. The EPA does not believe that coordinated implementation 
between the NAAQS and regional haze programs contradicts section 169B. 
The provisions in section 169B of the CAA for visibility transport 
commissions are limited to assessing regional visibility impairment and 
do not impose any obligations or confer new authorities on such 
commissions that would assure actions to improve visibility. For these 
reasons, we are encouraging regional planning efforts. We believe these 
efforts should be initiated by the States and should be designed to 
achieve a more comprehensive set of objectives than what visibility 
transport commissions under section 169B are designed to address, since 
interstate transport of pollutants and their precursors may also 
contribute to air quality problems for fine particulate matter, as well 
as visibility impairment.

    Question 14b. Do you believe it would be more cost-effective for 
VTCs to first make an determination of whether any additional efforts 
are need on regional haze, and only then for States to look at the 
integrated implementation of these efforts?
    Response. Establishing a VTC that is a separate entity from the 
regional planning efforts for the other programs does not appear likely 
to improve the efficiency of the process.

    Question 15. In previous testimony before Congress, administration 
witnesses, including yourself, have relied on the development and 
implementation of smoke management agreements between the Federal land 
managers and the States to control or manage the contribution to 
visibility impairment made by prescribed burns on Federal lands.

    Question 15a. Is EPA a party to those agreements or involved in 
their negotiation?
    Response. No, while EPA participated in the development of national 
policy on fire which would be responsive to air quality goals, EPA is 
not a party to those agreements nor involved in their negotiation.

    Question 15b. I understand that not all regions have smoke 
management agreements in place. After consultation with the U.S. Forest 
Service and the U.S. National Park Service, please provide the 
committee with a region-by-region description of where smoke management 
agreements are in place and describe the key provisions in the plans 
that assure that States are able to control the Federal contribution to 
visibility impairment.
    Response. The EPA is working with the USDA Forest Service and the 
National Park Service to better understand where smoke management 
agreements are in place, and what are the key provisions of such 
agreements. The EPA has not received this information for all regions 
of the country. The EPA will provide you with this information upon its 
receipt. The EPA expects that an additional response can be provided to 
you by December 15.
                                 ______
                                 
 Responses of John S. Seitz to Additional Questions from Senator Baucus

    Question 1. During the hearing, Secretary Woodley indicated that 
the ``bluish haze'' which envelopes the Blue Ridge and Great Smoky 
Mountains is natural. Do you agree with the Secretary's statements and 
its implications for addressing the regional haze to improve visibility 
in this area?
    Response. No. Substantial monitoring by the IMPROVE network shows 
that sulfates are the dominant contributor to light extinction in this 
region of the country. Only a negligible amount of sulfates are from 
natural sources. Thus, much of the haze enveloping the Blue Ridge and 
Great Smoky Mountains is from manmade air pollution. While there is a 
degree of haze in this area that is natural, the scientific evidence 
clearly shows that visibility conditions are much worse under current 
conditions than would occur naturally. For example, the typical visual 
range of 15 to 30 miles is only about one-third to one-sixth of the 
visual range that would exist under natural conditions.

    Question 2. How do you respond to Secretary Woodley's suggestion 
that the regional haze regulations will detract from the nation's 
efforts to address health-based environmental concerns (i.e., elevated 
ambient levels of tropospheric ozone and particulate matter)?
    Response. We believe that the schedule provided for in the TEA-21 
amendments ensures that regional haze technical analyses and control 
strategy development can be readily integrated into the analyses to 
address ozone and particulate matter. We do not think that 
consideration of regional haze will detract from these analyses. On the 
contrary, these regional efforts will benefit by inclusion of regional 
haze, because there will be a more complete understanding of the air 
quality considerations relevant to the decisionmaking process.

    Question 3. Some of the witnesses indicated that the proposed 
regional haze rule ignored the most significant contributors to haze 
and would not give the States flexibility in developing control 
strategies. Do you believe that this characterization of the proposed 
rule is accurate.
    Response. No. The rule requires States to consider all sources 
contributing to impairment in their long-term strategies. We believe 
that the proposed rule provides for substantial flexibility in two 
ways. States have the flexibility to develop strategies dealing with 
any mix of sources that is appropriate for meeting visibility goals. 
States also have the flexibility to set alternate progress targets, if 
such targets are reasonable based on a consideration of the statutory 
factors.
                                 ______
                                 
                           Environmental Protection Agency,
     Office of Air Quality Planning and Standards, January 4, 1999.

    Committee on Environment and Public Works,
    U.S. Senate,
    Senate Office Building,
    Washington, DC 20510.

    Dear Mr Chairman: This is in response to the letter of October 27, 
1998, from Senator Inhofe and Senator Graham on behalf of the 
Subcommittee on Clean Air, Wetlands, Private Property and Nuclear 
Safety, which included followup questions to the October 1 Subcommittee 
hearing on regional haze. We responded to all but one of your questions 
in a separate response. I am now providing the response to this 
remaining question, which dealt with smoke management agreements 
between States and the Federal land managers (FLM's) and how the 
provisions of these agreements help protect visibility. The information 
we have gathered is complete and accurate to the best of our knowledge.
    You also asked if Environmental Protection Agency (EPA) is a party 
to any of these agreements. The information we received indicates that 
EPA is not a party to any of these agreements, although we certainly 
encourage the States to develop such agreements in partnership with the 
FLM's. We believe that the use of smoke management techniques can 
significantly reduce the impacts of prescribed burning on ambient air 
quality and visibility.
    In answering your questions, it is important to note first that 
even though only eight States currently have smoke management 
agreements with the FLM's, there will be opportunities to develop more 
such agreements in the near future. The National Forest Management Act 
requires that forest plans be revised by the Forest Service at least 
every 15 years. The lands entrusted to the Department of the Interior 
are subject to a similar process. Forest planning teams actually begin 
the revision process 3 to 4 years prior to this date, and within the 
next 2 years nearly two-thirds of our national forests will be actively 
involved in this process. This presents an opportunity for States to 
get involved in this public process and to make known to the FLM's 
their concerns about smoke impacts from prescribed burning. The FLM's 
strongly encourage the States that they currently do not have 
agreements with to take advantage of this opportunity to work with the 
FLM's in developing agreements that will facilitate the protection of 
air quality and visibility within their boundaries. Additionally, many 
States have regulations that govern open burning and many of these 
regulations have smoke management requirements in them that are 
similar, if not identical, to the type of requirements found in 
programs run by States that have agreements with FLM's. These 
regulations, like any other State pollution control regulation, apply 
to all burners including FLM's. Finally, some States have voluntary 
smoke management requirements alone or in combination with general open 
burning regulations. We know of no case where FLM's are not following 
the requirements of a voluntary program in any State where they apply.
    Regarding your specific question about which States have agreements 
with the FLM's and how they allow States to control the Federal 
contribution to visibility impairment, we have compiled the following 
information:
    The following States have agreements with Federal Land Managers in 
place:
    Arizona: The State has a regulation under which an umbrella 
agreement was signed that includes a Federal interagency agreement 
among the Forest Service, National Park Service, Fish and Wildlife 
Service, Bureau of Land Management, and the Bureau of Indian Affairs, 
and a Memorandum of Agreement (MOA) between State agencies and the 
FLMs. The State agencies include the Arizona Department of 
Environmental Quality and the Department of Lands. The agreement calls 
for making the protection of the national ambient air quality standards 
(NAAQS) and visibility a priority. It requires daily burn approvals, 
air monitoring, and emissions tracking among other requirements. A 
State smoke meteorologist is responsible for establishing acceptable 
burn conditions for the State's airsheds and burn approvals are based 
on these conditions. Avoiding or minimizing smoke impacts on sensitive 
areas, such as the Federal Class I Areas, is a major goal of the 
State's program.
    California: California has several Memorandums of Understanding 
(MOU's) between individual State agencies and National Forests. They 
are: the California Air Resources Board (CARB) MOU with the Sequoia and 
Sierra National Forests, the Santa Barbara Air Pollution Control 
District MOU with the Los Padres National Forest, and the South Coast 
Air Pollution Control District MOU with the Los Padres, Angeles and San 
Bernadino National Forests. The State also has mandatory smoke 
management regulations that apply to all wildland prescribed burning 
activities (including agricultural burning, grassland burning, and 
silvicultural burning). The program is implemented at the State level 
by the CARB and by thirty-five local air pollution control districts to 
different degrees. Authorizations to burn are required by the burners 
and there is much competition among the State's many land managers to 
conduct their burns due to the limited opportunities allowed by State 
and local program rules. The program is fairly rigorous and the 
concerns about smoke impacts in the State are many, including nuisance, 
public health, and visibility protection in sensitive areas. All 
Federal agencies must comply with California Air Resources Board 
regulations. In addition, FLMs are held to a conformity process to show 
that they are complying with the Clean Air Act. A statewide MOU is now 
being drafted.
    Colorado: The State Department of Health-Air Pollution Control 
Division has a MOU with Federal Land Managers that forms the basis of a 
statewide smoke management program. The State issues permits to burners 
and conditions the permits to assure compliance with public health air 
quality standards, to protect visibility, and to avoid smoke impacts on 
populated areas.
    Before a permit is issued air quality modeling to predict ambient 
air quality and visibility impacts is required as well as certain fire 
information and weather conditions.
    Montana: The Montana Department of Environmental Quality (DEQ) has 
a smoke management MOA with the Forest Service, Bureau of Land 
Management, Bureau of Indian Affairs, and the National Weather Service. 
A Smoke Management Coordinator located with the DEQ is funded by 
contributions from each of the land managers who burn more than a 
certain acreage per year. Burns are authorized on a daily basis based 
on monitored weather conditions in airsheds throughout the State. The 
DEQ requires the pre-registration of burn requests from program 
participants and the post-burn filing of information for tracking 
purposes. The agreement also requires the use of alternative fuel 
removal methods when the NAAQS are threatened.
    New Mexico: The State Department of Energy, Minerals and Natural 
Resources and the New Mexico Land Commissioner's office has a smoke 
management MOA with the Forest Service, National Park Service, Fish and 
Wildlife Service, and the Bureau of Land Management. Under the 
agreement FLM's must obtain a permit from the State prior to burning. 
There must be a burn plan and it must explicitly address visibility 
impacts. Class I and other sensitive areas are to be protected from 
smoke impacts. Burns are scheduled when park use is low and alternative 
treatments are used if feasible. Air monitoring may also be required.
    Oregon: The Oregon Department of Environmental Quality and the 
Division of Forestry have a smoke management MOA with the Forest 
Service and the Bureau of Land Management. The smoke management program 
is part of the State implementation plan for visibility protection. 
Like Washington State, Oregon has a comprehensive and sophisticated 
program which includes a real-time air quality monitoring in some areas 
of the State. Some of the requirements are: detailed reporting of acres 
to be burned, tons of fuel, dates, times, locations.
    Utah: The Utah Department of Environmental Quality administers a 
smoke management program in accordance with an agreement with FLMs and 
the State's open burning regulations. Land managers must notify the 
State of their request to burn and supply fire information (fuel type, 
location, acres, etc.). Burning is restricted under the agreement to 
days when there are good atmospheric conditions for dispersing smoke. 
The State may impose permit conditions, including air monitoring, in 
order to assure compliance with those conditions. The State 
implementation plan addresses the smoke management agreement for 
purposes of protecting visibility in the State's Class I Areas, which 
is a principal concern of the State.
    Washington: The Washington Departments of Natural Resources (DNR) 
and Ecology have a smoke management MOA with the FLM's. It is a 
mandatory, statewide program that is part of the State implementation 
plan and requires FLMs' burning activities to be approved by the DNR
    Protection of Class I Area visibility is the primary focus of the 
program which requires fire emission reduction goals and restrictions 
on burning.
    The following States are considering adopting statewide smoke 
management programs and or regulations:
    Nevada: Nevada has had no specific rules or agreements in place for 
wildland burning but is currently considering adoption of a statewide 
smoke management program. The Lake Tahoe Basin prescribed fire program 
does regulate FLM wildland burning in that area of the State and 
includes consideration of smoke impacts.
    Wyoming: The State is in the process of developing a statewide 
smoke management program consistent with EPA's Interim Air Quality 
Policy on Wildland and Prescribed Fires, May 1998. All Federal land 
managing agencies are participating in the development of the program, 
to be completed in 1999. Currently, a State permit program that has 
been in place for many years still regulates Federal burning activities 
through compliance with permit conditions, air quality modeling 
requirements, etc.
    Some States that do not have agreements with FLM's do have 
regulations that apply to open burning. All burners are subject to 
these rules, including FLM's. Included in this group States that have 
either a combination of regulations and voluntary smoke management 
program, or voluntary smoke management programs alone. The States in 
question are:
    Alabama: The Alabama Forestry Commission's document A Smoke 
Screening System For Prescribed Fires In Alabama, dated January 24, 
1992, states that using the recommended smoke management planning 
system is the decision of the landowner or contractor supervising the 
burning operation.
    Alaska: The Alaska Department of Environmental Conservation 
implements a fairly general open burning rule. The State's major 
concern relates to public health and nuisance issues in impacted 
communities, primarily from wildfire events. At this time, regional 
haze issues are not a State priority.
    Arkansas: The Arkansas smoke management program is voluntary. As 
stated in the Arkansas Voluntary Smoke Management Guidelines document 
published by the Arkansas Forestry Association, dated 1998, ``The State 
Forester has accepted responsibility for the dissemination and 
administration of a voluntary smoke management plan for burning related 
to forestry programs.''
    Florida: The 1996 Florida Forest Fire Laws and Open Burning 
Regulations published by the Florida Department of Agriculture and 
Consumer Services, Division of Forestry do not specify if the FLM is 
subject to Florida's smoke management plan. However, Florida statute 
Chapter 590.12(1)(a) states that it is unlawful for any person to burn 
any forest, grass, woods, wild land, etc. without first obtaining 
authorization from the Division of Forestry.
    Georgia: Georgia State Air Quality Control regulations Chapter 391-
3-1, revised June 1998, do not specify if the ELM is subject to 
Georgia's smoke management plan. Georgia has not developed its own 
smoke management guidance but instead uses the National Wildlife 
Coordinating Group's publication A Guide for Prescribed Fire in 
Southern Forests as a basis for their plan.
    Mississippi: Mississippi regulations (Mississippi Air Emission 
Regulations for the Prevention, Abatement, and Control of Air 
Contaminants, APC-S-1, Amended January 22, 1998) require fires set for 
forest management purposes to meet certain conditions. However, the 
document Voluntary Smoke Management Guidelines for Mississippi 
published by the Mississippi Forestry Commission, revised October 1998 
outlines a voluntary smoke management program.
    South Carolina: South Carolina regulations (61-62.2 Prohibition of 
Open Burning) allow fires purposely set to forest lands for specific 
management practices in accordance with practices acceptable to the 
Department of Health and Environmental Control. The Smoke Management 
Guidelines for Vegetative Debris Burning Operations published by the 
South Carolina Forestry Commission requires a fire plan for each 
forest, wildlife, and agricultural area to be burned.
    Texas: Texas regulations (Subchapter B Outdoor Burning, sections 
111.201 through 111-221) authorize ``Prescribed burning for forest, 
range and wildland/wildlife management purposes, with the exception of 
coastal salt-marsh management burning.'' Section 111.219 establishes 
general requirements, regarding notification and smoke management, for 
outdoor burning. The regulations do not specifically mention FLMs. In 
its August 1998 State Visibility implementation plan review and report, 
the Texas Natural Resources Conservation Commission states that the 
regulation of smoke on a statewide basis ``should prevent future 
impairment (of visibility in Class I Areas) associated with emissions 
from prescribed fire.''
    Virginia: Virginia's regulations for the control and abatement of 
air pollution (9 VAC 5, Chapter 40, Part II, Article 40, sections 5600 
through 5645) state that open burning may be used for forest management 
provided the burning is conducted in accordance with the Department of 
Forestry's smoke management plan. However, the Department of Forestry's 
Smoke Management Guidelines published June 8, 1998 are voluntary.
    Some States have no regulations governing open burning while others 
have regulations that specify that burning is allowed with little or no 
restrictions to preserve citizen rights to burn. These State 
regulations do not appear to contain any measures to protect air 
quality or visibility. The information we have on these States follows.
    The information we have on these States follows.
    North Carolina: According to North Carolina's Open Burning 
Regulation (15ANCAC 2D.1900) fires set to forest lands for forest 
management, fires set for wildlife management, or fires purposely set 
to agricultural lands are permissible without a permit. North Carolina 
has not developed formal guidelines for smoke management.
    Tennessee: Tennessee regulations (Chapter 1200-3-4, Open Burning) 
do not require a permit for ``Fires used to clear land consisting 
solely of vegetation grown on that land for residential, agricultural, 
forest, or game management purposes.'' Tennessee has not developed 
formal guidelines for smoke management.
    In addition to any State-Federal agreements or State regulations, 
the general conformity provisions of the Clean Air Act (Section 1 
76(c)), prohibit Federal agencies from taking any action within a 
nonattainment area that causes or contributes to a new violation of the 
standards, increases frequency or severity of an existing violation, or 
delays the timely attainment of a standard as defined in the area plan. 
Federal agencies are required to ensure that their actions conform to 
applicable State Implementation Plans. Also, Section 118 of the Clean 
Air Act requires that the Federal Government comply with all Federal, 
State, tribal, interstate, and local air quality standards and 
requirements. The Clean Air Act also gives FLM's an ``affirmative 
responsibility'' to protect the Air Quality Related Values (AQRVs) of 
Class I areas from adverse air pollution impacts. The AQRVs are those 
features or properties of a Class I area which can be changed by air 
pollution. Mandatory Class I areas were designated under the Clean Air 
Act and are usually pristine areas of the country which receive the 
highest degree of regulatory protection from air pollution impacts.
    I appreciate this opportunity to be of service and trust that this 
information is useful to you.
            Sincerely,
                                      John Seitz, Director,
                      Office of Air Quality Planning and Standards.
                               __________
   Statement of Colorado State Senator Don Ament, Chairman, Colorado 
          Agriculture, Natural Resources and Energy Committee
    As chairman of the Colorado Senate's Committee on Agriculture, 
Natural Resources and Energy, I chair a committee that has jurisdiction 
over most natural resource and pollution questions in our state. As a 
farmer and rancher in the northeastern part of Colorado, I have 
firsthand experience with key natural resource issues as they affect me 
and my neighbors. I have served in the Colorado Legislature since 1986 
and have spent most of that tenure devoted to protecting our 
environment, our agricultural resources, and the natural resources of 
the West.
    Since 1990, I have watched the Federal Government and particularly 
the Environmental Protection Agency struggle with the concept of 
regional haze and air pollution. I am here today to urge the Congress 
to take whatever steps it can to prevent the EPA from implementing its 
Regional Haze Rule. They are unsupported by the law. First, during the 
1990 Clean Air Act debates, the provisions of today's proposed Regional 
Haze Rule were specifically debated and rejected by Congress as failed 
command and control methods, not based on science, and not giving 
states necessary flexibility. Second, EPA's Regional Haze Rule ignores 
the most significant contributors to regional haze in the West while 
imposing hugely expensive ``top-down'' control strategies on small 
causes of regional haze which would have a negative impact on large 
sectors of the economy that will increase costs of electricity to all 
consumers, manufacturers, and particularly agriculture. Thereby failing 
the cost/benefit mandated by Congress for aesthetic regulations.
    In attrition to these substantial flaws found in the proposed 
Regional Haze Rule, the EPA is also now proposing an accelerated 
implementation schedule for stationary source sulfur dioxide controls, 
ignoring the mandate of Congress found in the recently enacted Inhofe 
Amendment to TEA-21. I understand the Inhofe Amendment recognized the 
necessity of flexibility regarding the Grand Canyon Commission 
implementation timetable. However, EPA has selectively used the June, 
1998 Western Governors Association proposal to the Regional Haze Rule 
to accelerate implementation of the Regional Haze Rule well ahead of 
not only the Grand Canyon recommendations timetable, but well ahead of 
the Western Governors Association proposal.
    Because of the recognition by the Colorado General Assembly that 
the EPA and other unelected out-of-state organizations might ignore 
major sources of air pollution in the West which impact visibility and 
other aesthetic standards, I sponsored legislation in 1997 (a copy 
attached), HB 97-1324, which mandates that the State of Colorado 
maintains regulatory control of measures designed to reduce air 
pollution producing regional haze. This Colorado Law was enacted 
primarily to prevent command and control, ``top-down', regulation of 
Colorado air pollution problems which would ignore some sources of air 
pollution and increase dramatically the cost of operation of other 
sources without solving the haze problem.
    In our state it is common that the legislature review final 
environmental regulations mandated by our environmental protection 
agencies so that elected representatives have firsthand knowledge of 
the science, economics, and anticipated benefits of proposals to help 
improve our environment. If the Regional Haze Rule is enacted, EPA 
would supplant and abrogate this duly enacted law with directions from 
Washington which ignore the will of the people of Colorado and ignore 
congressional Clean Air debate and statutes. EPA's Regional Haze Rule 
also selectively ignores about 5 years and almost $9,000,000 worth of 
Grand Canyon science.
    I am sure that you on this committee are familiar with the Grand 
Canyon Visibility Transport Commission. The Commission of eight Western 
Governors plus Tribes was closely assisted not only by the EPA but 
numerous other Federal and state agencies and interested parties from 
throughout the West. The Commission submitted recommendations to 
address western regional haze to the Environmental Protection Agency in 
June 1996. One of the major conclusions of the Commission was that, 
``emissions from fire, both wildlife end prescribed fires, is likely to 
have the single greatest impact on visibility at Class I areas through 
2040'' (Recommendations, p. 85).
    We in Colorado are also familiar with the Grand Canyon Commission 
recommendations. which underscores our concerns about major sources of 
pollution blowing in and around Colorado. In fact, since 1996 the 
Colorado Legislature has twice passed legislation designed to hold 
Federal agencies accountable under the authority granted states by 
Section 118 of the Clean Air Act for control of pollution from Federal 
resources. Twice the Federal agencies have lobbied our Governor Romer 
to veto the bill and twice that interference by Federal agencies has 
been successful. The result is the General Assembly still has not been 
able to demand a standard from Federal land managers to minimize 
emissions from fire and dust on Federal lands. To me, it is only common 
sense that Federal resources should be managed to minimize emission 
which cause haze, if such non-health issues are truly a national 
priority.
    I note with dismay EPA has not been helpful in requiring major 
sources of pollution from Federal facilities or lands to be taken into 
account in either its Regional Haze Rule or in its daily operations. In 
fact, it appears to us that the EPA makes excuses and covers up for 
other Federal agencies when air pollution emanates from those Federal 
lands that are such a dominant feature of the West. For example, in 
three previous congressional hearings within the last year, EPA has 
been confronted with these facts:

    <bullet>  The Grand Canyon Commission science identified emissions 
from Federal lands fires as a major source of Western haze.
    <bullet>  But, soon after, the Department of the Interior announced 
a 500 percent increase in burns.
    <bullet>  In the House Resources Committee's hearing last fall. the 
Secretaries of the Interior and Agriculture Departments stated 50 
percent of western forests would need ``mechanical treatment'' before 
prescribed burns could be set.
    <bullet>  But the stated need for logging or ``mechanical 
treatment'' is not reflected in agencies' budgets.

    Consequently, if the Regional Haze Rule is implemented, western 
states would be prevented from attacking real sources of haze while 
being forced to regulate only one minor contributor--stationary 
sources.
    We need the help of this committee and help from other members of 
Congress on several fronts.
    1. We need Congress to make it very clear that the Regional Haze 
Rule proposed, with ``topdown'' regulation ignoring all sources of 
aesthetic pollution in the West other than stationary source pollution, 
must be retreated and reworked before it is resubmitted to the public 
for public comment and notice. The new proposal must take into account 
statutory cost/benefit analysis and must regulate the major 
contributors first. It must follow the timetable mandated by the Inhofe 
Amendment.
    2. The Grand Canyon Visibility Transport Commission was created by 
Congress to address visibility issues in the West. The Commission's 
extensive interdisciplinary resources and science resulted in 
recommendations concurred in by EPA. We in the West should he allowed 
by Congress and EPA to design a protection program to implement the 
Grand Canyon Commission's findings and recommendations--not ignore 
those findings. If the Western Governors are given en opportunity to 
have input, based upon the Commission's findings, the input they give 
must not be selectively ignored and implemented to create a command and 
control, ``topdown'' enforcement program from Washington.
    3. State laws, such as the one I sponsored allowing the states to 
form their own strategies to control regional haze, should be honored--
not ignored. Instead, the Regional Haze Rule would empower EPA to force 
each state to adopt a federally enforceable standard framed at a 
national or regional level that would set a quota for each state 
regardless of scientifically supported impact analysis.
    4. In light of the continuing benefits of the 1990 Clean Air Act, 
science, and statutory cost/benefit considerations of non-health or 
aesthetic issues, the general timetable for implementation set forth in 
the Inhofe Amendment to TEA-21 must be applied to all 50 states. 
Congress intended by that amendment to allow for real scientific 
research to identify sources of pollution impacting health and/or non-
health aesthetic standards before a new set of costly regulations were 
required.
    We in the West ask the Congress to help us change EPA's Regional 
Haze Rule to recognize these four necessities. Then both the health-
based regulations and non-health aesthetic-based regulations can be 
implemented to the advantage of science, reduce costs and reduce 
needless regulation, and honor the 1990 Clean Air Act provisions and 
the intent of the Inhofe Amendment.
                               __________
 Statement of Dianne R. Nielson, Department of Environmental Quality, 
                             State of Utah
    Good afternoon. I am Dianne R. Nielson, Ph.D., Executive Director 
of the Utah Department of Environmental Quality, and Governor Leavitt's 
Official Representative to the Western Regional Air Partnership (WRAP). 
Governor Leavitt has taken an active role in air quality and visibility 
issues in Utah and in the West, as Vice-Chair of the Grand Canyon 
Visibility Transport Commission, Co-Chair of the WRAP, and lead 
Governor for air quality issues for the Western Governors' Association 
(WGA). I am here today on behalf of Governor Leavitt to provide 
testimony regarding a western regional approach to regional haze and 
the Environmental Protection Agency's recent Notice of Availability of 
Additional Information related to proposed regional haze regulations.
    This issue is important to western states, to the people who live 
and work in the West and to the many people who visit. As Utah's chief 
environmental official, I appreciate the inherent value of our Western 
vistas and my stewardship responsibility.
    This subcommittee has been vigilant in its efforts to oversee the 
progress of the Grand Canyon Visibility Transport Commission and its 
successor organization, the Western Regional Air Partnership (WRAP). 
You are aware of the history and work of these unique regional 
partnerships, as summarized herein. When Congress enacted the Clean Air 
Act Amendments of 1990, directing the EPA Administrator to establish 
the Grand Canyon Visibility Transport Commission, you laid the 
groundwork for visibility protection through regional partnership. You 
provided the opportunity to address a regional problem at a regional 
level. States, tribes, Federal agencies, local government officials, 
business and industry, environmental representatives, academicians, and 
citizens came together in partnership to develop recommendations for 
protecting visibility at the Grand Canyon and 15 other western Class I 
areas. The consensus recommendations of the Grand Canyon Commission 
were presented to EPA in June 1996. The Western Regional Air 
Partnership or WRAP was established to implement the Grand Canyon 
recommendations, and as appropriate, address other air quality issues 
of regional interest. The WRAP consists of western states and tribes as 
well as the Secretaries of the Interior and Agriculture and the 
Administrator of the EPA. Committees and workgroups, with the 
involvement of stakeholders as in the Commission, are working to 
develop consensus approaches to initiatives and technical efforts to 
reduce regional haze.
    In April 1998, when Governor Leavitt testified before this 
subcommittee, he reaffirmed the commitment of western Governors to the 
consensus recommendations of the Grand Canyon Commission and to WGA's 
Environmental Doctrine, which guides our efforts to seek solutions to 
environmental and natural resources problems facing the West. Prior to 
that time, EPA had proposed a regulation which failed to incorporate 
the Grand Canyon recommendations. In April, while states were 
encouraged by the interest EPA demonstrated in incorporating the 
Commission recommendation into the proposed rule, that work was yet to 
be accomplished. Following that hearing, environmental representatives 
voiced their concern about the commitment to that goal. Again, with a 
renewed determination, representatives of states, tribes, industry, 
environmental groups, and Federal land managers worked for countless 
hours to craft a consensus agreement on specific language which we 
would recommend to EPA for incorporation in the proposed regional haze 
regulation, language which would implement the Commission 
recommendations. Copies of that June 25, 1998, consensus document have 
been provided to this subcommittee and are available on the WGA website 
at www.westgov.org. Governor Leavitt, in his June 29, 1998, cover 
letter to Administrator Browner, endorsed the consensus work product. 
The environmental representatives also endorsed the consensus document 
in a letter to Administrator Browner. On August 31, EPA issued a Notice 
of Availability regarding proposed regulatory language to reflect the 
proposal, as well as a request for comment regarding the Transportation 
Equity Act (TEA-21).
    The Grand Canyon recommendations, the work of the WRAP, and this 
recent consensus document all recognize that improvements in visibility 
must include more than just management of emissions from industry 
stationary sources. The reductions must also come from the ever-
increasing volume of mobile source pollution, from vehicles on-road as 
well as construction and other off-road vehicles, reductions in road 
dust, management to reduce impacts of wildfires, and trans-boundary 
pollution from Mexico.
    WGA recommended that EPA reopen the public comment on the ideas in 
the consensus document, and we appreciate EPA doing so. The following 
comments focus on key considerations in the June 25 consensus document 
and how they are reflected in EPA's August 31 draft regulatory 
language.
    1. The consensus document laid out time frames for the development 
and implementation of the states' long range strategies for addressing 
regional haze on the Colorado Plateau.
    EPA has accurately reflected the time frames in the consensus 
document. We recognize that the time frames are tight, but we believe 
they are achievable. However, the schedule requires a commitment by all 
parties to complete the development of models, strategies, databases, 
and other work products for consideration by the WRAP. Two specific 
commitments are critical to achieving these goals.
    <bullet>  All partners and their representatives must come to the 
table committed to implement the recommendations from the Grand Canyon 
report. While we have and will continue to have discussions about the 
particulars of those strategies, there can be no doubt about our 
commitment to the recommendations.
    <bullet>  The WRAP must have sufficient funding to support 
development of those work products through committees, workgroups and 
the WRAP itself. Individuals, agencies, and stakeholders participating 
in the Commission and WRAP have provided countless hours to this work. 
However, funding is needed to cover expenses of the WRAP and the 
development of work products. As Governor Leavitt pointed out in his 
cover letter of June 29, 1998, our success is dependent largely on the 
financial support of EPA. Likewise, we ask Congress to support this 
critical financial commitment.

    2. The consensus document defined the components necessary for 
inclusion in state or tribal implementation plans, recognizing that any 
endorsement with respect to tribal plans must come from the individual 
tribes.
    EPA has addressed the identification of components with respect to 
state implementation plans and established mechanisms for states and 
tribes to define those plans.
    3. The consensus document also created a set of principles for 
EPA's involvement in western efforts to develop plans and implement the 
Commission's recommendations.
    That set of principles was not included in the EPA draft. While we 
recognize that EPA appropriately did not participate in the consensus 
work group or document, those principles were agreed to by the 
consensus group partners and were significant enough to justify 
inclusion in that document. We look to EPA for further clarification on 
how they intend to address those principles. We are resolved that they 
must be incorporated in the regulation and implemented in the work of 
the WRAP.
    4. The consensus document did not provide for specific action if 
the Annex was not timely delivered to EPA.
    EPA has indicated that, if the Annex deadline is not met or if the 
annex did not meet regulatory requirements in--Sec. 51.309(f)(1), EPA 
would establish stationary source sulfur dioxide provisions.
    Instead, EPA should provide that, if the Annex is not delivered to 
EPA by the deadline or if EPA determines the Annex does not meet 
regulatory requirements, EPA could initiate the process of establishing 
stationary source sulfur dioxide provisions. However, if the an Annex 
or revised Annex were provided within 1 year of the deadline or 
determination, EPA would review it and accept the Annex if it met the 
regulation.
    5. The Grand Canyon recommendations were specific to the 16 Class I 
areas identified in the Clean Air Act Amendments. However, western 
Governors also recognized that the Commission process could serve as a 
model for other Class I areas in the West.
    EPA has clearly reflected that option, but not requirement, in its 
draft. While implementation of the Commission's recommendations is 
necessary, some states are also concerned about areas beyond the 
original charge. The option, and the flexibility inherent therein, is 
critical to states and the region.
    6. WGA, recognizing the carefully balanced compromise in the words 
of the consensus document, recommended that EPA not selectively use 
only portions of the document.
    EPA's draft appears to reflect the integrity of the consensus. 
However, preamble language specifically included in the consensus 
document is not reflected in EPA's draft. Since EPA has not provided a 
draft of that critical preamble to the regulation, it is not possible 
to evaluate it's consistency. We will request that EPA provide for 
comment on draft preamble language or be prepared to revise such 
language, if recommended, when it is released for public notice.
    7. WGA did not propose imposition of the consensus recommendations 
on states outside the Transport Region. Any such endorsement must come 
from those states.
    EPA's proposal appears to reflect that distinction.
    States will provided comments to EPA regarding the draft language. 
The WRAP has considerable, significant work before it, and I believe 
the partners are up to the challenge of developing a flexible, regional 
approaches to reducing regional haze in the West.
    Thank you for the continued interest of the members of this 
subcommittee to that goal. We look forward to your support as we 
develop and implement these strategies.
                               __________
 Statement of John Paul Woodley, Jr., Secretary of Natural Resources, 
                        Commonwealth of Virginia
    The Commonwealth of Virginia strongly supports protection of 
visibility in our national parks. We believe, however, that a more 
effect and efficient regional haze program will result if EPA's 
proposed regional haze regulation is revised to address visibility in a 
more stable and practical way.
    I would like to begin with a number of issues regarding Virginia's 
planning obligations made the Clean Air Act.
    First, we appreciate Congress's efforts in passing TEA-21 and 
adapting the timelines for the regional haze and PM<INF>2.5</INF> 
programs so that they coincide. As you know, the eastern states have 
been focusing on health-related pollutants and have thereby been unable 
to devote the resources needed to address the issue of regional haze. 
The additional planning time this revision to the law creates will 
enable us to properly assess own regional haze conditions and develop 
effective strategies. It is important both administratively and 
environmentally for regional haze and PM<INF>2.5</INF> to follow on a 
parallel track.
    Second, states should be allowed to abandon the deciview and no 
degradation targets, as well as the technology requirements, and 
develop their own goals and programs for visibility improvement. More 
detail on these issues is provided later in this document.
    The proposal also requires each state to submit revised SIPs which 
provide for periodic revision of the long-term strategy. Such periodic 
SIP revisions are not required by the Clean Air Act are not needed to 
meet the national goal, and will draw on resources better used for 
pollution control elsewhere. The SIP decisions that EPA proposes for 
tracking reasonable progress are unecessarily frequent and resource 
intensive. Note that Sec. 169 of the Clean Air Act clearly makes EPA 
responsible for evaluating visibility improvement over time. Therefore, 
each state should not be required to individually assess improvements 
through continual SIP revisions.
Other issues related to regional planning are raised by EPA's proposal.
    <bullet>  Regional haze is an issue that must be addressed through 
coordination of states, localities, and other stakeholders. The 
traditional methods of states and localities addressing control 
measures within their boundaries to resolve localized air pollution 
control programs cannot address regional haze problems. One state has 
no authority over any other state to implement control measures. For 
most mandatory Class I areas, the host state cannot individually 
implement control measures that will ensure improvement in visibility 
within the Class I area. Transport regions and commissions will be 
required to implement effective regional programs for visibility 
improvements.
    <bullet>  EPA encourages regional stakeholder coordination to 
address regional haze, but does not address how such efforts will be 
facilitated or provide incentives for stakeholders to participate. 
Congress acknowledged the need far multi-state coordination in the 
Clean Air Act by establishing the authority for EPA to establish 
visibility transport regions and commissions. As states do not have 
authority over other states to address regional emissions, the 
authority established in the Clean Air Act is also clearly EPA's 
responsibility. EPA must take an active role in establishing and 
facilitating these regional efforts.

    The proposal requires that individual states address and justify 
control programs individually. This is a disincentive to expend the 
resources to coordinate with regional grows. The regional haze rule 
must also directly allow for the implementation of programs developed 
through the removal coordination process.
    We recommend that EPA allow all regions of the country to follow 
the process used by the Grand Canyon Visibility Transport Commission. 
This commission was created in order for the states to take the lead in 
developing regional visibility objectives, with EPA taking a supporting 
role. In order for EPA to know what requirements for visibility SIPs to 
include in the removal haze rule, the other regions need to form their 
own commissions.
    Further, the proposed rule does not allow for direct implementation 
of program by the Grand Canyon or other commissions for the control of 
regional haze. The final rule should allow for a state to incorporate 
the recommendations of a regional commission as part of its SIP without 
having to justify the program individually.
    The inadequacy of EPA's proposed approach to regional planning is 
highlighted in its recent action with a particular group of states. 
Recently, EPA issued a supplemental notice on implementation in 
response to a request from the Western Governor's Association, which 
solicits comment on the Association's suggestion for how the proposal 
should be changed in order to accommodate the recommendations of the 
Grand Canyon Visibility Transport Commission. The recommendations 
specify the visibility goals for eight western states, and would make 
the proposed rule more flexible. No such flexibility has been afforded 
to any other states. It is important for EPA to recognize that the 
other states any regions need the same opportunity to address their 
specific regional concerns.
    The proposal also requires all states to submit an initial 
visibility SIP and subsequent SIP revisions every 3 years. If a state 
determines that its overall contribution to regional haze is 
insignificant or that the contribution from particular sources within 
the state is insignificant, it should be exempt from further 
involvement in the regional haze program. EPA is authorized by the 
Clean Air Act to exempt major stationary sources that do not 
``contribute to significant impairment.'' Exempting sources that make 
insignificant emissions contributions is also reasonable.
    Further, the proposal is unclear about the respective roles 
authority of the Federal land managers' the states and tribes, and 
regional commissions and partnerships in the BART process. EPA should 
clearly define who determines, reasonable attribution for an out-of-
state source that contributes to regional haze, and whether a Class I 
area host state can trigger BART for any stationary source that 
contributes to regional haze.
    The proposal requires development of a monitoring plan with a 
revision no later than 4 years from the date of the initial plan, and 
additional revisions every 3 years thereafter. Formal submittal of 
monitoring plans on this schedule is a duplicative use of limited 
resources.
    Also of concern are some program and technical issues.
    Given that regional haze is a welfare, not health issue, EPA should 
abandon the deciview standard and allow states the flexibility to 
develop their own visibility improvement goals and programs. Regional 
haze measures should focus more directly on scenic viewing and use a 
system that has more of a relationship to the public's overall ability 
to experience improved viewing. Use of the deciview scale, as proposed 
by EPA, does not provide an accurate measurement of the total viewing 
experience.
    The proposal emphasizes the Best Available Retrofit Technology for 
point source emission control, and identifies the private sector in the 
western United States as being most affected. EPA agrees with the Grand 
Canyon Visibility Transport Commission's recommendations for addressing 
stationary sources by providing a ``flexible air quality planning 
framework to facilitate the interstate coordination necessary to reduce 
regional haze visibility impairment m mandatory Class I Federal areas 
nationwide.'' It is not clear, however, how the BART program provides 
flexibility, as it is experiencing costly analytical technical and 
legal challenges that would divert scarce state resources. The 
regulations should explicitly allow for alternatives to the BART 
process, for example, market trading programs and emission caps.
    Another issue is the reduction of fine particulate, which scatters 
light and contributes to haze. About 73 percent of these particles are 
from fine dust, some of which is naturally generated by wind and some 
of which is emitted from activities such as farming, industry, and 
travel. All of these activities are very difficult to control; nor is 
it clear what share of particulate comes from natural sources versus 
emissions from human sources. The proportion of these emissions must be 
determined and suitable controls must be implemented. It would be 
unfair to burden the states with target reduction rates unless research 
establishes where and how these reductions can be met.
    How different types of emission sources are treated are another 
important aspect of the proposed haze regulation.
    Reducing area source emission will be critical to reducing 
visibility impairment, yet emission factors are not well developed for 
many area sources. This is an issue requiring EPA's prompt attention, 
since progress in addressing area sources cannot be made until emission 
factors are more highly refined. Use urge EPA to improve area source 
emission factors and develop appropriate national controls.
    Another significant of area source is fire suppression, which was 
considered effective land management for many decades. The states 
require more specific guidance on how prescribed fire activity should 
be incorporated into their regional haze programs.
    As with area and point sources, national controls for mobile 
sources will play a role in reducing regional haze. The preamble to the 
proposal includes language on mobile sources that is consistent with 
the Grand Canyon Commission's recommendation that some sources are best 
controlled at the Federal level. Yet, the proposal itself does not 
include a commitment by EPA to impose Federal controls. It is important 
for EPA to develop national measures to address mobile sources.
    The relationship between states and Federal entities is another 
important issue facing control of regional haze.
    A cooperative consultation process between Federal Land Managers 
and states is critical to the achievement of regional haze goals. EPA 
should clarify that such cooperation and consultation will take place 
between FLMs and state environmental agencies.
    Finally, I would like to address the issue of resources needed by 
Virginia order to implement any form of regional haze program.
    The proposed regulation places significant new burdens on states 
without indicating from where to resources necessary to support these 
efforts will come. BART assessments are technically rigorous and 
controversial. Monitoring is resource intensive, particularly given the 
remote locations which many of the monitors will be sited. Assessment 
of progress in improving visibility will depend on a clear 
understanding of source/receptor relationships, highlighting the need 
for significant improvements in model input parameters. EPA support to 
the statics is essential if those tasks are to be performed 
effectively.
    In addition to technical and administrative assistance, no regional 
haze program will succeed unless accompanied by additional Federal 
funding. States cannot divert funds allotted for efforts related to 
implementation of the health-based PM<INF>2.5</INF>, PM<INF>10</INF>, 
and ozone standards to address regional haze. The success of the 
regional haze program hinges on EPA's financial support.
    We understand and appreciate that EPA is carefully considering 
state's comments in revising the regional haze rule. I now wish to 
reiterate that Virginia would like to see as many of the states 
comments incorporated into the rule as possible.
                                 ______
                                 
   Responses of John Paul Woodley, Jr., to Additional Questions from 
                             Senator Baucus

    Question 1. You asked that the states in the Southeast be granted 
sufficient time for regional planning to address regional haze. Hasn't 
Virginia been involved in regional planning on air quality issues with 
other states since 1992 through the Southern Appalachian Mountain 
Initiative (SAMI)? Will the SAMI's work fit in with the state 
implementation plans due under the regional haze rule? What efforts in 
addition to the SAMI's work do you believe are necessary?
    Response. Yes, Virginia has been involved in regional planning on 
air quality issues with other states since 1992 through the Southern 
Appalachian Mountain Initiative (SAMI). While SAMI's work is indeed 
useful, and will make a valuable contribution to the understanding of 
haze issues in the region, its work is still preliminary, and it is too 
soon to propose any definitive recommendations.
    Regional haze is only one of a number of issues being addressed by 
SAMI. Other region specific efforts by other groups designed to address 
regional haze in a more specific manner and in direct response to EPA 
regulation will be needed.

    Question 2. During the hearing you suggested that the ``blue haze'' 
in the Blue Ridge and Great Smoky Mountains is a natural phenomena. 
What scientific evidence do you have to support this claim? Do current 
monitoring data support your position that this ``haze'' is not 
contributing to anthropogenic emissions? Do national experts agree with 
your claim that the ``haze'' is natural and your implication that there 
has been no human-caused visibility impairment in the region?
    Response. I did not intend to imply that there was no human-caused 
visibility impairment in the Blue Ridge or Smoky Mountains, merely that 
the Blue Ridge has been called ``blue'' since at least the 1730's, 
before humans could significantly impact visibility. Its distinctive 
blue haze was due to natural sources. dust and biogenic volatile 
organic compounds. This haze has since become a milky gray primarily 
due to the scattering of sunlight from hydroscopic sulfate particles, 
phenomenon particularly evident in the warm, humid months, as 
determined by National Park Service research.
    As I said in my testimony, I am not suggesting that Virginia cannot 
or should not take efforts to improve visibility in the Blue Ridge 
Mountains. However, historically speaking, it appears that some of the 
visibility impairment is from natural sources. Any regulatory program 
that does not take this into account is likely to be unduly costly and 
ineffective.

    Question 3. Your written testimony noted that 73 percent of fine 
particulate matter is dust, implying that it is the most significant 
contributor to regional haze nationally. However, the data from the 
IMPROVE monitoring sites at Shenandoah and several other sites in the 
Appalachians show that dust is responsible for less than 5 percent of 
the visibility impairment in your region of the country, and no more 
than 20 percent in any other region. Please explain the scientific 
basis of your statement in light of the data collected over the past 10 
years under the IMPROVE program. Included in your response, please 
provide the specific source or sources of the data that support your 
testimony.
    Response. Our original statement was that about 73 percent of fine 
particulate consists of fine dust. This figure was obtained from an 
analysis performed by Edward C. Trexler, P.E., a consulting engineer 
and expert on regional haze. Mr. Trexler's complete report with 
background data-which is based in part on IMPROVE measurements--is 
available from the EPA docket (Docket No. A-95-3 8).
    To summarize, Mr. Trexler cited data showing the annual average 
concentrations of fine particulate dust, organic carbon, elemental 
carbon, sulfates, and nitrates during 1989, a representative year. 
Approximately 73 percent of these particles were from fine dust.
    Whether the amount of fine dust contributing to regional haze in 
Virginia is 5 percent, 20 percent, or 73 percent, we are troubled that 
emission factors for this particular pollutant are not well-developed, 
and that speciation of sources of this particular pollutant has not 
been performed. In order for the states to develop and meet targets and 
goals, the proportion of pollutants must be accurately determined 
before effective controls can be implemented.
                                 ______
                                 
   Responses of John Paul Woodley, Jr., to Additional Questions from 
                             Senator Inhofe

    Question 1. In response to a series of questions asked by the 
Senate Appropriations Committee, EPA said it plans to publish its 5 
year update report under section 169B(b) on progress on improving 
visibility later this year. EPA also said that it does not believe that 
it is obligated to predict future trends in visibility due to other 
parts of the Clean Air Act (CAA)as part of the 169(B)(b) report, but 
that it may do so as a matter of discretion. The testimony at the 
October 1 hearing made clear that accurate projections about future 
trends in visibility impairment due to other sections of the CAA will 
be crucial to States as they try to develop implementation plans under 
the regional haze rule. Would an updated report on visibility progress 
and trends resulting from other sections of the Clean Air Act be of 
assistance to your State as it tries to develop an implementation plan 
to meet the final regional haze rule? Would it be of crucial importance 
in helping your State find the most efficient means of complying with 
the law?
    Response. An updated report on visibility progress and trends 
resulting from other sections of the Clean Air Act would be of 
invaluable assistance to Virginia as we attempt to develop an 
implementation plan to meet the final haze rule. The overall tenor of 
our comments on this issue centers primarily on the lack of information 
available to states--information that is crucial in making plans and 
implementing effective controls. We cannot meet the law's requirements 
if we are not provided with the tools for doing so. Therefore, it is 
important that EPA support the states by reporting on progress and 
trends as much as possible.

    Question 2. Another of the Appropriators' questions asked EPA what 
research needs to be performed to support the States to implement the 
visibility program. EPA answered that ``No research is needed before 
the States can begin to implement the visibility protection program.'' 
EPA cited the 1993 NAS report for the proposition that ``Current 
scientific knowledge is adequate and control technologies are available 
for taking regulatory actions to improve and protect visibility.''

    Question 2a. Outside of the 16 areas studied by the Grand Canyon 
Commission, do you believe that EPA or the States currently have data 
on sources of regional haze visibility impairment, atmospheric 
processes, monitoring, emission control strategies and source-receptor 
models sufficient to allow States to overcome the presumptions on the 
deciview goal and Best Available Retrofit Technology should a State 
choose to attempt to overcome the presumption?
    Response 2a. No, adequate current data on sources of regional haze 
visibility impairment, atmospheric processes, monitoring, emission 
control strategies, and source receptor models does not exist. Grand 
Canyon Commission data, while interesting, is not useful to states 
located on the east coast.

    Question 2b. Do you believe State should be required to meet 
regulatory obligations under the regional haze rule prior to the date 
that these data are available?
    Response 2b. No, the states should not be required to meet 
regulatory obligations under the regional haze rule prior to this data 
becoming available. The plans prepared by the states will be only as 
good as the data used to develop them; at this time, there is not 
sufficient data for preparing technically accurate, workable plans.

    Question 3. In amending the Clean Air Act in 1990, Congress 
authorized the establishment of VTCs to make an integrated assessment 
of the effects of other provisions of the Act, including the ozone and 
particulate matter provisions, in order to determine whether there was 
any need for additional specialized regulations to achieve progress on 
visibility. Mr. Sietz's testimony suggested that EPA's notion of 
integration is the integration of states' efforts to implement EPA's 
mandated ozone, particulate matter and regional haze rules.

    Question 3a. Doesn't EPA's approach to integrated implementation 
contradict the congressionally mandated approach of an integrated 
assessment of the need for any additional regulations?
    Response 3a. Yes, EPA's approach to integrated implementation 
contradicts the congressionally mandated approach of an integrated 
assessment of the need for any additional regulations. Regional haze is 
a site- and region-specific problem that needs to be approached on a 
site- and region-specific basis; this has not been done. Integrated 
assessment needs to occur before integrated implementation of 
regulations.

    Question 3b. Do you believe it would be more cost-effective for 
VTCs to first make an determination of whether any additional efforts 
are needed on regional haze, and only then for states to look at the 
integrated implementation of these efforts?
    Response 3b. Yes, it would be more cost-effective for VTCs to first 
determine whether any additional efforts are needed on regional haze 
before considering integrated implementation of such efforts. Again, 
the states need a much clearer picture of the situation before 
implementing regulations that may or may not effectively address the 
problem.

    Question 4. In his testimony, John Seitz indicated EPA's desire to 
provide state's with ``flexibility'' and ``alternatives'' under the 
regional haze rule. These are the same words, however, that EPA uses to 
describe what it did in the proposed rule, which contain Federal 
presumptions to be met unless states make a demonstration that 
equivalent improvements in visibility can be accomplished another way. 
This formula for flexibility has been severely criticized by some 
states and industry as producing, in actuality, an inflexible result. 
Based on Virginia's experience, can EPA's formulation in the proposed 
rule provide flexibility to the states? What changes should be made in 
the proposed rule to assure that state's have the flexibility to work 
together on local solutions as intended by Congress?
    Response. No, EPA's formulation in the proposed rule does not 
provide flexibility to the states. While it appears that some steps 
have been taken toward this end (for example, making the health-based 
PM<INF>2.5</INF> rules consistent with those for regional haze), 
nevertheless serious questions regarding the flexibility--and thereby 
the feasibility--of EPA's proposed planning process remain.
    Establishment of VTCs is one way that states would be able to 
assess and address their individual and regional haze situations, and 
provide more locale-specific flexibility in planning and 
implementation. It is important for EPA to recognize that the other 
states and regions need the same opportunity to address their specific 
regional concerns as did the Grand Canyon Commission.

    Question 5. What is Virginia's view of EPA's interpretation of the 
WGA proposal, in which EPA would establish a SIP requirement for a 
renewable portfolio target?
    Response. We are not certain what EPA means by ``renewable 
portfolio target.'' Our guess would be that EPA would adjust a target 
reduction amount every 10 years or so. Rather than do this now, it 
would be more sensible to see what steps are necessary to meet the 
PM<INF>2.5</INF> standard. These same steps would improve and, in some 
cases, may completely solve the visibility problem. If problems still 
remained, then additional measures could be developed. Ideally, 
regional haze efforts should follow the PM<INF>2.5</INF> SIP 
development. Trying to do both regional haze and PM<INF>2.5</INF> 
simultaneously overtaxes state resources.

    Question 6. The House and Senate Appropriations Committees, in the 
VA-HUD funding bill for fiscal year 1999, has strongly recommended that 
EPA provide up to $500,000 in seed money when states wish to form a 
visibility transport commission as authorized under the Clean Air Act 
Amendments of 1990 to decide what more, if anything, needs to be done 
to improve visibility in the Class I areas, after improvements accruing 
from other provisions of the Clean Air Act are taken into account.

    Question 6a. If EPA finalizes the regional haze rule, with the 
Federal presumptions on deciview, the BART requirement and NSPS 
presumption, will this hamper the ability of VTCs to make the best 
regional decisions about achieving reasonable progress in improving 
visibility in Class I areas in a cost effective manner?
    Response 6a. Yes, finalizing the haze rule with current 
presumptions on deciview, the BART requirement and NSPS presumption 
would hamper the ability of VTCs to make the best regional decisions 
about achieving reasonable progress in improving visibility in Class I 
areas in a cost effective manner. Imposition of these problematic 
concepts without provision of adequate background research and 
documentation, as well as prevention of region-specific planning, is 
not a realistic approach to solving the problem of regional haze.

    Question 6b. Do you think states should form VTCs and should these 
commissions be focused on assessing the need and means for further 
action to address visibility impairment as contemplated under the Clean 
Air Act amendments, or should they focused simply on implementing the 
ozone and PM NAAQS and the Federal regional haze rule in an integrated 
fashion as Mr. Seitz suggested during the hearing?
    Response 6b. Formation of VTCs will be crucial to addressing 
regional haze. The VTCs should focus on assessing the need and means 
for further action to address visibility impairment as stated in the 
Clean Air Act. While implementing the ozone and particulate matter 
NAAQS and the Federal regional haze rule in an integrated fashion makes 
sense, it does not make sense to proceed before a more realistic 
picture of the need and means to address haze on a truly regional basis 
has been established. The states need more regional planning time, and 
more technical data and support from EPA before the welfare-based 
standards can be integrated into the health-based standards.
                               __________
   Statement of Shawn B. Kendall, Executive Assistant, Phelps Dodge 
                              Corporation
    Mr. Chairman, and members of the subcommittee. I am Shawn Kendall, 
Executive Assistant on corporate staff of Phelps Dodge Corporation 
(Phelps Dodge). Phelps Dodge is the largest producer of copper in the 
United States, the second largest producer of carbon black, a major 
manufacturer of copper rod for the wire drawing industry, and a major 
producer of magnet wire. Phelps Dodge has 15,000 employees operating in 
26 countries around the world, with 9,000 operating in 13 states in the 
U.S. Phelps Dodge has been heavily involved in copper mining since the 
1880's, when our operations were in the Arizona Territory.
    Phelps Dodge appreciates the opportunity to discuss regional haze 
with you. I am the Corporation's policy and technical lead with respect 
to regional haze regulations. I have worked for Phelps Dodge for nearly 
23 years in a variety of areas including air quality technical and 
policy support, budgeting and financial planning at our largest mine in 
the U.S., and Director of our Corporate Data Center in Phoenix. For the 
last 13 years I have been in my current position working on a variety 
of technical and policy issues.
    I am testifying today on process issues important to the regional 
haze debate. These include The Grand Canyon Visibility Transport 
Commission (Commission) and how it lead to the formation of the Western 
Regional Air Partnership (WRAP); and how EPA's regional haze rule 
published last year ignored the work of the Commission and led to the 
recent proposal based on a input from Western Governor's Association. 
Finally, I will address the need to encourage the formation of other 
visibility transport commissions, funding needs of these new processes 
and the WRAP, and the need for EPA to re-propose the regional haze 
rule.
The Grand Canyon Visibility Transport Commission
    Phelps Dodge was highly committed to the Grand Canyon Visibility 
Transport Commission process, as evidenced by the almost 6,000 hours of 
my time which was allowed to be committed to serve on or in support of 
various committees for the Commission. I was Secretary of the 
Commission' Public Advisory Committee that delivered consensus 
recommendations to the Commission in May 1996. These recommendations 
were the basis for the Commission's final recommendations forwarded to 
EPA in June 1996. In addition to my work with the Public Advisory 
Committee, I also devoted substantial effort to support and staff the 
Commission's technical and policy analysis committees.
    I commend the Commissioners for designing and utilizing a broad-
based stakeholder process in the development of their recommendations, 
for assembling technical committees which significantly advanced the 
state of understanding of regional haze in the West, and for having 
patience and understanding when the consensus process took longer than 
planned. I came away from the Commission process with an appreciation 
of the differing views of the many wonderful people who participated in 
the process and a detailed understanding of what we did well and what 
we could do better in the future. In the end, I recognized the success 
of the Commission process as the beginning of a new paradigm for 
environmental policy development in the West.
Western Regional Air Partnership
    One of the key recommendations of the Commission was the need for a 
follow on entity to assist the states and tribes with the monitoring 
and implementation of the Commission's recommendations. That entity was 
established us September 1997 as a voluntary alliance of Governors, 
tribal leaders, and Federal of finials whose mission is to follow 
through on the Commission's recommendations, and to work 
collaboratively on odor air quality issues Bat the alliance deems 
appropriate. It is known as the Western Regional Air Partnership 
(WRAP). I have been appointed Co-Chair of the Technical Oversight 
Committee by the WRAP, and serve on the WRAP Coordination Committee. 
The WRAP organization will consist of approximately 250 volunteers from 
states, tribes, local government, Federal agencies, industry, 
environmental Soups, academic institutions, and the general public 
working collaboratively to develop sound technical and policy work 
products to support the WRAP mission. These work products will be a 
resource the states and Gibes can rely on in developing their 
implementation plans for the management of visibility in the mandatory 
classy Federal areas, and for monitoring and reporting on the 
effectiveness of their programs.
The USEPA Regional Haze Proposal published in July, 1997
    Phelps Dodge was quite disappointed with EPA's proposed regional 
haze regulations released in July 1997. September 1997, I testified at 
an EPA public hearing regarding areas that the proposal failed to 
recognize or learn Cam the Commission process. I worked with the 
Western Regional Council, perhaps the leading inter-industry group 
engaging the regional haze issues in the West, on an extensive comment 
package. This included a proposed full rewrite of the rule to better 
guide the collaboration needed between states.
    These comments also explained why the establishment of arbitrary 
visibility objectives without consideration of other factors required 
by the Clean Air Act was not the correct way to formulate long-term 
strategies. The development of these strategies rests with states and 
tribes, and must take into consideration a multitude of factors in 
order to develop an equitable, politically acceptable and 
environmentally effective long-term strategy which will be implemented 
and succeed in protecting visibility in EPA's mandatory class-I Federal 
areas.
    The most serious oversight in proposed rule was the lack of 
guidance with respect to the Commission's recommendations.
    The Commission's technical and policy analysis committees and 
Public Advisory Committee generated a significant number of work 
products that the public should have had access to during this 
rulemaking. Since EPA staff worked in the Commission process, these 
work products were part of the history that any participant would rely 
on in forming opinions. I was disturbed to find that as of 2 weeks 
prior to the end of the comment period last December, the rulemaking 
docket only contained the Commission's final report. None of the other 
key Commission work products were in the docket. Phelps Dodge filed 
comments on December 5, 1997, and included all of these work products 
and meeting minutes of the Public Advisory Committee that were in the 
company's files.
    Based on the serious deficiencies I determined existed in the 
proposed Ale, and the lack of these key Commission work products in the 
docket, Photos Dodge requested that the Agency reconsider its approach 
to the rule, fix it, and repropose the rule. A corrected rule that 
reflects the lessons learned from the Commission process would be 
significantly different than EPA's proposal. I determined, and still 
believe, that the public and private sector should be given a chance to 
comment on a reproposed rule conforming to the lessons learned in the 
Commission process.
Western Governor's Association Comments on the Regional Haze Rule
    The Western Governor's Association (WGA) also filed comments on the 
proposed rule in December 1997 and provided an update to this proposal 
in early April 1998. The concept being put forth in the SAGA proposal 
was the establishment of a formal Regional Plan, which EPA would 
approve, and the States and Tribes would rely on for implementation 
plans. Several members of the environmental community who participated 
in the GCVTC process and the WRAP process protested this treatment to 
EPA Administrator Browner and Governor Leavitt, since Here is no 
statutory basis for such a regional plan, and the procedural 
requirement for implementation plans could be bypassed. In addition, 
many industrial representatives disagreed with the concept.
    Governor Leavitt of Utah, who was Vice-Chair of the GCVTC, and 
currently is Cochair of the WRAP and the lead Governor for the WGA on 
this issue, was concerned about the reaction to the WGA proposal. He 
had his staff assemble a small stakeholder group to try to come to 
consensus on the issue and provide him win an alternative that he could 
review with other Governors and then forward to EPA. The mission of the 
group was to develop a consensus work product under a very tight 
timeframe. The group consisted of representatives from two 
environmental organizations, two industrial organizations, two state 
environmental regulatory organizations and the National Park Service, 
and was supported by staff from the Western Governors Association and 
the National Tribal Environmental Council. I served as on of the 
industry representatives in the process. The key stakeholders 
outreached to the broader sector they represented.
    Although the outreach was generally effective, some stakeholders 
felt disenfranchised by the process. In the end, the group came to a 
consensus on a recommendation for the States to review, and it was the 
basis for the submittal to USEPA at the end of June of this year by 
Governor Leavitt.
    The recommendation from WGA has several key points on how the 
Agency should treat the GCVTC recommendations in a rule context. The 
guidance to the agency called for specific rule and preamble language 
to be added to the rule, consistent with the GCVTC recommendations. In 
addition, the specific rule components for stationary sources were to 
be deferred until the Commission could provide an annex containing the 
details of regional targets, and backstop contingency regulations for a 
market-trading program. The Commission had envisioned delivering this 
to the Administrator within 1 year after the Commission's original 
report (i.e., in June 199 7), but Dad group agreed that the current 
WRAP Room working on this issue should be given a chance to finish 
their work. As such. an agreement was reached that the Commission would 
submit the annex describing the details of the stationary source 
targets and backstop program to the Administration by October 1, 2000.
    Another key consideration in the proposal was the need to ensure 
that states and tribes would be allowed to focus on the GCVTC based 
rule, and not be distracted by over programmatic issues for other class 
I areas. The group agreed that with the momentum and progress of the 
WRAP, states and tribal should be able to submit long-term strategy 
implementation plans in 2003. Most of the technical and policy work 
should be completed by the end of 2001, allowing the states and tribes 
2 years to move through the implementation plan review process. In 
addition, states and tribes could defer consideration of additional 
measure for non-GCVTC class I area until 2008 if they include a 
modeling analysis of the effects of the 2003 long-term strategy based 
son the GCVTC rules with the 2003 submittal. This would allow the 
effects of the GCVTC rules to be assessed for their impact on non-GCVTC 
class I areas, and preclude the formation of a bifurcated program.
    The WGA requested that the Agency notice the receipt of its 
suggestions for how to implement the GCVTC recommendations in the 
regional haze rule, and open a thirty-day comment period lo allow 
others, especially those that may have felt disenfranchised, to provide 
input to the process. On September 3, 1998, EPA noticed the receipt of 
the WGA recommendation, released its proposal on the specific rule 
language which it derived Am the WGA recommendation, and opened the 
record for comment for thirty days. This comment period will close next 
Monday, October 5, 1998.
    Phelps Dodge commends the Agency for taking the WGA recommendation 
to heart, not only in allowing the public an opportunity to provide 
input, but also for drafting proposed rule language which is 
substantively consistent with the WGA recommendation. Phelps Dodge will 
be filing comments on this rule later this week, noting some minor 
changes that should be made, and requesting clarification of some 
issues that night not be interpreted correctly in the fixture. It is, 
however, Phelps Dodge's position that the entire rule package should be 
corrected and reproposed before being finalized.
Other Visibility Transport Commissions
    Of all the lessons learned in the GCVTC process, the most important 
is that states and tribes can not develop effective long-term 
strategies for mandatory class I Federal areas in their jurisdiction 
without consideration of the developments in neighboring jurisdiction. 
Regional haze is heavily influenced by long-range transport. The 
plowing for other class I areas should occur through alliances or 
partnerships. States and tribes should be encouraged to from transport 
commissions in order to guide Agency rulemaking needed to ensure 
reasonable progress. Phelps Dodge is aware of efforts to allow other 
visibility transport commissions to be formed. Phelps Dodge supports 
these initiatives and believes, based on the regional haze timing 
requirements legislated earlier this year, that the formation of these 
commissions will accelerate the development of sound long-term 
strategies for the non GCVTC mandatory class I Federal areas. The 
Governors, tribal leaders, and stakeholders in the rest of the country 
should have the same opportunity that the GCVTC process provided.
Funding
    Funding for the regional collaborative processes is essential for 
their success. This funding is generally limited to travel, meeting, 
staff and consulting services. It is essential that travel 
reimbursement for date, tribal, local regulatory, environmental and 
academic participants is available if those participants would 
otherwise not be able to participate. Keep in mind that the in-kind 
contribution of their time is worm much more than travel costs, and a 
consensus work product can not be realized unless there is balanced 
participation. Another mayor cost is for meeting facilities, and in 
some cases professional facilitation services. Staff support is needed 
for the organization, especially for coordination, and internal and 
external communications. In the course of developing a consensus work 
product, it is sometimes necessary to undertake technical or policy 
analysis work. This work is best done by a reputable outside firm 
without a stake in the outcome. Although this can be costly, it may be 
necessary to ensure the process outcome has a credible basis that will 
stand up to public scrutiny.
    The WRAP was advised that available BPA grant funds would probably 
be reduced to $150,000 in fiscal year 1999 from the $369,000 received 
in fiscal year 1998. The Coordination Committee for the WRAP is 
currently investigating sources of few for the nearly $1,000,000 in 
costs projected for fiscal year 1999, especially recognizing the needed 
developments for the Commission's Annex. The House has proposed up to 
$500,000 each for a maximum of eight visibility transport commissions 
to allow other groups to begin regional planning. Phelps Dodge believes 
that $1,000,000 per year for the next 2 years should be allocated for 
the development of the Commission's Annex. Based on the experience of 
the Commission and the WRAP, this could come out of the same pool of 
funds since the initial planning costs for a new Commission will be 
less than $500,000 in the first year.
Re-Proposal
    Phelps Dodge believes EPA's original proposal was off the mark, and 
although the recent WGA development goes a long way to rectify the 
deficiencies with respect to the GCVIC recommendations, the full 
context of the final rule is still unclear. A full re-proposal is in 
order. Such a move can only help, and can not hurt the process. The 
timing of the regional haze requirements for non-GCVTC states has been 
delayed, and the WRAP is proceeding to follow through on the GCVTC 
recommendation, regardless of whether the regional haze rule is 
published this year or next year. The regional haze issue is one that 
will require continuous monitoring and updating to ensure reasonable 
progress toward the goal. It will have a direct impact and benefit not 
only on us, but on our grandchildren's grandchildren. Phelps Dodge 
continues to request that the rule be corrected and re-proposed to 
allow all interested parties to providing meaningful input to the 
rulemaking.
    Thank you for your attention to this very important issue to Phelps 
Dodge, and to all my colleagues in the WRAP process. I would be happy 
to answer any questions.
                                 ______
                                 
 Responses by Shawn Kendall to Additional Questions from Senator Inhofe

    Question 1. When Governor Levitt submitted the WGA's proposal to 
the EPA, he said, ``We ask that in using the document you respect the 
carefully balanced compromise it represents. Selective use of portions 
of the document could easily undermine the significant ``give and 
take'' involved in reaching our final draft.'' However, EPA's 
``translation'' document does not appear to include many elements 
identified in the WGA proposal as needing to be addressed in the 
preamble to the rule. Can you identify any elements of the WGA proposal 
that were omitted in EPA's Federal Register notice?
    Response. There were some minor inconsistencies with respect to the 
requested rule language components from the WGA. I am attaching a copy 
of Phelps Dodge Corporation's comments to the docket which clarify some 
of these. The most significant omissions were related to the preamble 
language, which was requested to be prepared to accompany the specific 
rule language.

    Question 1a. Are these missing provisions an integral part of the 
WGA proposal?
    Response. Yes. The preamble language is an integral part of the 
consensus agreement in that it clarifies interpretation and intent of 
the rule.

    Question 1b. Does the omission of these elements from the EPA 
translation document alter the substance of the WGA proposal or upset 
the balance struck by the proposal?
    Response. This is a matter of timing and intent. If the final rule 
package were to contain preamble language consistent with the WGA 
request, then it would not be a problem. If the final rule language 
were to omit the requested preamble content, then it would affect the 
balance struck by the proposal.

    Question 2. The translation document also appears to convert the 
WGA's ``5 year milestones'' into an annual emissions reductions. Does 
the reference to annual emissions reduction milestones in the EPA 
translation document alter the substance of the WGA proposal or upset 
the balance struck by the proposal?
    Response. The EPA wording should have referred to 5-year milestones 
of annual total emissions. This is clarified in my comments to the 
docket which are attached. If the agency were asking for year-by-year 
annual milestones, then this would be a major problem since the 
administrative burden and expectations of the party would be 
significantly altered. The expectation in the WGA proposal is that the 
states would review and assess progress every 5 years. It should be up 
to the Commission, in its Annex submittal, to define the specific 
accounting methodologies to be employed and the specific milestones.

    Question 3. The translation document also appears to add a new 
renewables requirement that was not in the WGA proposal. Does the 
reference to renewables in the EPA translation document alter the 
substance of the WGA proposal or upset the balance struck by the 
proposal?
    Response. I believe that the renewables requirement that was 
included by EPA is generally consistent with the Commission's 
recommendation and the WGA proposal. It must be made clear that the 
expectations for the states would be to monitor the potential for 
renewable energy and report on a routine basis (every 5 years) as part 
of the normal progress assessments. States may elect to establish their 
own internal goals, but these would not be federally enforceable 
requirements. The only federally enforceable requirement would be for a 
comprehensive summary of the renewables generating capacity within the 
jurisdiction and the potential for renewables which exist within the 
jurisdiction.

    Question 4. In response to a series of questions asked by the 
Senate Appropriations Committee, EPA said it plans to publish its 5 
year update report under section 169B(b) on progress on improving 
visibility later this year. EPA also said that it does not believe that 
it is obligated to predict future trends in visibility due to other 
parts of the Clean Air Act (CAA) as part of the 169(B)(b) report, but 
that it may do so as a matter of discretion. The testimony at the 
October 1 hearing made clear that accurate projections about future 
trends in visibility impairment due to other sections of the CAA will 
be crucial to states as they try to develop implementation plans under 
the regional haze rule. Would an updated report on visibility progress 
and trends resulting from other sections of the Clean Air Act be of 
assistance to your state as it tries to develop an implementation plan 
to meet the final regional haze rule?
    Response. As you know, Phelps Dodge is committed to supporting the 
Western Regional Air Partnership (WRAP). My home state of Arizona is a 
very active participant in WRAP. Much of the work of WRAP is aimed at 
providing updated, high-quality technical data and assessments for use 
by the states and tribes in developing their ultimate implementation 
plans, in addition to other policy related components. Phelps Dodge 
believes it is critical that the states and tribes work collaboratively 
on such efforts. The role of EPA should be to support the work of 
collaborative processes such as WRAP or other visibility transport 
commissions which are much closer to the regional transport and 
emission management issues within their jurisdictions. EPA has failed 
to provide adequate funding for the development of modeling tools for 
these types of assessments. Consequently, the Western Regional Air 
Partnership is continuing to try to develop improved techniques in 
light of the lack of EPA commitment to visibility modeling research in 
the West.

    Question 4a. Would it be of crucial importance in helping your 
State find the most efficient means of complying with the law?
    Response. Yes. Assessments of current requirements under the Clean 
Air Act will have the effect of reducing long-term emission trends. 
These assessments must be considered in developing an overall strategy 
for the remedying of existing visibility impairment and the prevention 
of future visibility impairment in mandatory class-I Federal areas. The 
Clean Air Act section 169A defines a national goal and requires states 
to develop implementation plans that will make reasonable progress 
toward the goal. Obviously, it is improbable to consider a scenario 
where all man-made impairment can be eliminated. That said, it is 
perfectly reasonable to expect that emission management strategies can 
be developed that are cost effective and will provide for improvements 
in visibility on worst-case days, and will assure no significant 
degradation of visibility on clean days. Strategies associated with 
regional haze must be put into context with the other emission 
management strategies associated with the attainment and maintenance of 
our National Ambient Air Quality Standards and appropriate state and 
local standards. The impact of implementation plan components for other 
CAA requirements must therefore be taken into consideration when 
determining what additional measures will be needed to make reasonable 
progress.

    Question 5. Another of the Appropriators' questions asked EPA what 
research needs to be performed to support the States to implement the 
visibility program. EPA answered that ``No research is needed before 
the States can begin to implement the visibility protection program.'' 
EPA cited the 1993 NAS report for the proposition that ``Current 
scientific knowledge is adequate and control technologies are available 
for taking regulatory actions to improve and protect visibility.'' 
Outside of the 16 areas studied by the Grand Canyon Commission, do you 
believe that EPA or the States currently have data on sources of 
regional haze visibility impairment, atmospheric processes, monitoring, 
emission control strategies and source-receptor models sufficient to 
allow States to overcome the presumptions on the deciview goal and Best 
Available Retrofit Technology should a State choose to attempt to 
overcome the presumption?
    Response. Although much is known about the nature of fine 
particulates which impair visibility, there is a gross lack of 
validated, scientifically defensible models which can predict the 
effects of a control strategy on visibility. As I said in my statement 
at the hearing, significant financial resources need to be prioritized 
on the development of regional-haze models. One of the major 
inconsistencies with EPA's initial proposed rule and our current state 
of understanding is that there is no objective way of establishing what 
natural background is without comprehensive modeling. In addition, 
there are no comprehensive models which can be used to assess how the 
long-term strategies for regional haze will effect visibility. How can 
states' demonstrations hold up to the Agency's scrutiny of meeting a 
one-deciview-per-decade test if there are no approved and validated 
models? The answer is they can't.

    Question 5a. Do you believe State should be required to meet 
regulatory obligations under the regional haze rule prior to the date 
that these data are available?
    Response. I believe that the states, tribes and Federal agencies, 
working in cooperation through transport commissions and organizations 
like the WRAP, should develop these data and tools. I do not believe 
that EPA, working alone on a national scale, can effectively develop 
the information, tools, and techniques that will be required for the 
various regions of the country. There are fundamental differences in 
the emissions and transport characteristics which are best dealt with 
on a regional basis. That is why I believe that additional visibility 
transport commissions should be established to allow these 
collaborative efforts to move forward.

    Question 6. Do you believe EPA should re-propose the regional haze 
rule in its entirety?
    Response. Yes. Phelps Dodge is on record in the December comments 
on the Regional Haze Proposal and in our most recent comments that the 
rule should be re-proposed.

    Question 6a. What could be gained from such a step by EPA, 
procedurally and substantively?
    Response. Phelps Dodge believes that the original Regional Haze 
Rule proposed by EPA failed to adequately reflect the lessons and 
understanding developed by the Grand Canyon Visibility Transport 
Commission. The rule lacked any specific guidance with respect to the 
Grand Canyon Visibility Transport Commission as was required under 
section 169b of the CAA. Phelps Dodge believes that the rule was so 
flawed that many of the comments received on the original proposal 
would have been irrelevant had the rule been properly crafted. As such, 
it is in the public interest that EPA re-propose the rule and allow the 
public to comment on it after these deficiencies have been remedied. 
There is no fundamental reason that the agency must proceed on an 
artificially accelerated timeline now with respect to regional haze 
given the timelines legislated by TEA-21. The work of the Western 
Regional Air Partnership to follow through on the Grand Canyon 
Commission is underway. The Governors, tribal leaders, and stakeholders 
in the West are committed to following through to develop sound long-
term strategies. A delay in the regional haze rule would not have any 
effect on the progress we are making in the West.

    Question 7. We understand that the Grand Canyon Visibility 
Transport Commission contemplates a need for a true-up for the 
emissions inventory for purposes of implementing the recommendations. 
Does the timetable specified by WGA allow time for the development of 
an accurate emissions inventory for the original 16 Class I areas as 
well as any other Class I area that wishes to take advantage of the WGA 
recommendations?
    Response. It is important to qualify the role of true-up of the 
emissions inventory. The true-up was asked for in the Commissions 
recommendation related to stationary sources prior to the establishment 
of the overall design of the back-stop market trading program and 
establishment of emission management milestones. To date the majority 
of major stationary source emissions of sulfur dioxide in the West have 
been validated and corrected. There is some residual work which will be 
finished over the next few months to deal with potential control 
strategies for other smaller stationary sources. This will provide the 
basis for a ``trued-up'' forecast of sulfur dioxide for the region. 
Emissions inventories will always continue to improve in quality. You 
don't need perfect data to make all policy decisions. However, you need 
the best unbiased technical data and an understanding of its 
limitations when making those policy decisions. I believe that the 
inventory is adequate for the programmatic activities associated with 
follow through on the Grand Canyon Visibility Transport Commission. In 
addition, the Emissions Forum of the WRAP is preparing for the updating 
of comprehensive region-wide emission inventories on a routine basis to 
satisfy our long-term planning and tracking needs. Thus, to summarize, 
Phelps Dodge believes that there is adequate time for the emission 
inventory true-up to be completed.
                                 ______
                                 
                                        Shawn B. Kendall,  
                                  Phelps Dodge Corporation,
                      Phoenix, Arizona 85004-3014, October 5, 1998.

    U.S. Environmental Protection Agency,
    Air and Radiation Docket and Information Center,
    Room M1500 Mail Code 6102,
    401 M Street SW,
    Washington, DC 20460.

    Attention: Docket Number A-95-38

    Dear Sir/Madam: Phelps Dodge Corporation (``Phelps Dodge'') 
respectfully submits the enclosed comments on the Environmental 
Protection Agency's (``Agency'') Notice of Availability of Additional 
Information Related to Proposed Regional Haze Regulations published in 
the Federal Register September 3, 1998, Volume 63, Number 171, Docket 
Number A-95-38. Phelps Dodge appreciates the opportunity to participate 
in this very important rulemaking for the protection of visibility in 
our mandatory Class I Federal areas.
    These comments supplement the comments Phelps Dodge presented 
before the United States Environmental Protection Agency Public Hearing 
on the Proposed Regional Haze Rulemaking (62 Fed. Reg. 41138) held 
September 18, 1997, in Denver, Colorado, and the written comments 
submitted to the docket A-95-38 on December 5, 1997. Phelps Dodge, the 
nations largest copper producer, as well as a major producer of carbon 
black and magnet wire could be significantly affected by the proposed 
rulemaking.
    Phelps Dodge believes that the rule, if structured properly, could 
provide a new model for how difficult and complex environmental issues 
are solved in this country. Phelps Dodge understands the complex and 
difficult issues inherent in this rulemaking. Protection of the quality 
of visibility, while maintaining sound regulatory procedures and equity 
between the regulated community and the agency are common challenges 
that, if successfully resolved, will advance the shared goals of 
visibility protection in the Class I areas and reasonable regulation.
    Phelps Dodge continues to be highly supportive of the work of the 
Grand Canyon Visibility Transport Commission (GCVTC or ``Commissions), 
and the Western Regional Air Partnership (WRAP). A representative of 
the company participated in the stakeholder team assembled by Governor 
Leavitt of Utah to develop the consensus position that the Western 
Governors Association (WGA) forwarded to the Agency, and is a major 
part of the subject Notice of Availability. We support the consensus 
recommendation of the WGA as submitted by Governor Leavitt. We thank 
the Agency for allowing a 30-day comment period for interested parties 
to provide input and perspective on the WGA proposal, as this was a 
major concern for the participants in the consensus process that 
developed the recommendations for Governor Leavitt. In addition, we 
appreciate the effort of the Agency's staff in preparing draft rule 
language for public review, which is substantively consistent with the 
proposed guidance from WGA and illustrates the procedural due process 
that this consensus gathering and public involvement was meant to 
afford.
    Phelps Dodge has observed some technical or interpretation errors 
in the draft rule developed by the Agency in response to the WGA 
letter. The following comments are requested changes to the rule 
language in the proposed section 51.309 that we have determined the 
Agency should make to align the language with the intent of the WGA 
proposal. These changes are also intended to clarify rule issues and 
prevent future misinterpretation. The references below are to the 
proposed rule language in 51.309.
Sec 51.309(a)Purpose
    The purpose section should be modified to indicate that the time 
period is from 2003 to 2018 unless subsequently extended to assure 
continuity of long-term strategies that rely on market-trading programs 
or other components requiring extension of the requirement. Clarify 
that the provisions apply to the implementation plan and the periodic 
plan revisions required every 5 years.
    The preamble must specify that a negative declaration plan revision 
would be acceptable if accompanied by the required reporting and 
justification.
51.309(b)(5) Milestones
    The word ``annual'' should be removed to allow the program 
monitoring and tracking to utilize either annual or multiyear average 
emissions. The 1990 baseline reference should clarify that it is a 
reference to ? baseline of actual emissions.''
51.309(d)(2) Projection of Visibility Improvement
    This section is not as clear as it needs to be to provide guidance 
to the regulated community. Plan submission should be accompanied by a 
projection of the expected visibility conditions resulting from the 
long-term strategy. These projections should be in all appropriate 
metrics. The choice of metric should be clearly articulated in the 
regulatory guidance, not the rule. Limiting the expression of 
visibility projections to the haziness index, expressed in deciviews, 
ignores the probability that better metrics may be identified in the 
future as technology improves. In addition, during public review, it 
would be better to express these projections in standard visual range, 
light extinction, as well as haziness index, as some members of the 
public may be familiar with one, but not others.
    Although the modeling associated with these projections does need 
to recognize contributions from other jurisdictions, states and tribes 
should be free to either rely on the work of a regional partnership, 
such as WRAP, or to perform the modeling themselves. Instead of 
specifying that the modeling procedure must be acceptable to all 
Transport Region States and the Administrator, the rule should simply 
require that the modeling projections conform to modeling guidance 
issued by the Agency, and the Agency should issue such guidance.
51.309(d)(3) Treatment of Clean-Air Corridors
    The Agency failed to include the basis for this section and should 
add the phrase ``. . . to ensure that the frequency of clear air days 
increases or does not decrease at any of the 16 class I areas. . . '' 
to the first paragraph.
51.309(d)(3)(i) Identification of Clean-Air Corridors
    The rule should not limit the identification simply to one report, 
based on the limited scientific and technical data available at that 
time. The rule should include the phrase n updated as appropriate with 
improved technical information. if the citation to the report is 
retained.
51.309(d)(4)(iii) Provisions to fully activate . . .
    The term ``regional'' should be included when referring to 
milestones (i.e., ``applicable regional emission reduction 
milestone''.)
51.309(d)(4)(vi) Provisions requiring the State . . .
    The Agency should use the exact language from the WGA proposal in 
place of this interpretation. The current wording does not track the 
intent of the Commission report, or the WGA proposal. It should read:
    ``Report on the exploration of various emissions management options 
for stationary source NOx and PM, including considering the 
establishment of emission targets, in order to avoid any net increase 
in the pollutants from stationary sources within the region as a whole 
and to provide a foundation for future incorporation into a multi-
pollutant and possibly multi-source market-based program. Based on 
these investigations, include emission management strategy components 
into the long-term strategy, if needed.''
51.309(d)(5)(i) A statewide inventory . . .
    Phelps Dodge agrees with the Agency's addition of sulfur dioxide 
emissions to the requirements for this inventory. This is a small 
departure from the Commission's recommendation and the WGA proposal 
intended to track the Commission's recommendation. Phelps Dodge 
believes this was a minor oversight when the Commission's 
recommendations were drafted, and should be included in any case.
51.309(d)(5)(iv) Interim reports to BPA and the public . . .
    Clarify that this refers to reporting on the strategies contained 
in the Commission's Report.
51.309(d)(6)(iii) Enhanced smoke management . . .
    In the first line, add the words ``identify and'' before 
``consider.'' The purpose was to both identify these and consider 
remedies.
51.309(d)(6)(iv) Identification of any legal . . .
    We feel the context of this requirement is incorrect. The 
expectation is for the state or tribe to identify any non-statutory 
administrative barriers, and where appropriate, to document that these 
have been removed.
51.309(d)(9) Implementation of Additional . . .
    The preamble must include the transboundary emissions issue, and 
should ensure that the states and tribes are kept apprised of these 
efforts and emission projections.
51.309(d)(10) Periodic Implementation Plan Revisions
    The preamble or rule must clarify that negative declaration 
revisions are acceptable if appropriate and accompanied by the 
necessary reporting.
51.309(f)(1) The provisions of . . .
    This paragraph is contextually incorrect, since reasonable progress 
applies to the 16 class I areas, not the states. Replace the language 
with n In order for the provisions of 51.309(d) to ensure reasonable 
progress for the 16 Class I areas, the Grand Canyon Visibility 
Transport Commission must submit a satisfactory annex to the 
Commissions Recommendations no later than October 1, 2000. To be 
satisfactory, the annex must contain the following elements:''
51.309(f)(1)(i) The annex must contain quantitative . . .
    The Agency dropped the qualifier ``as projected by the Baseline 
Forecast Scenario H from the WGA language. The preamble language is 
needed here for full qualification of the 50-70 percent reference.
Re-Proposal of the Rule is needed
    In addition to the issues raised above, the lack of preamble draft 
significantly limits an understanding on how some issues might be 
interpreted by the Agency, states and tribes in the future. The 
omission of a preamble results in the loss of significant portion of 
the regulatory record and compromises the required publication of part 
of this rulemaking which is essential for effective policy 
implementation. In addition, the Agency uses references to 51.3xx, and 
based on the fact that the proposed references are vague and proposed 
modifications to the rule proposed last year are undisclosed, it is not 
possible to fully interpret how the Agency intends to implement some of 
these provisions.
    Phelps Dodge requested on December 5, 1997 that the Agency correct 
the rule and re-propose it so the public could comment on the rule 
before it becomes final. Phelps Dodge once again is requesting the 
Agency to re-propose the full rule, retaining the new 51.309 section 
with the modifications identified above, so that the public will be 
able to fully assess the impact of the program and that this rulemaking 
more fully comports with the Agencies rulemaking protocol and the 
Administrative Procedures Act. We acknowledge that the proposed 
treatment of the Commission's Recommendations are a valid approach, but 
we note that the Administrator had a non-discretionary duty to propose 
similar language in the original proposal in July 1997. Instead the 
Agency's proposal noted the Commission's work in the preamble, and 
asked for comments on how to treat the Commission's Recommendations. 
This was clearly not the intent of Congress in CAA 169B which 
specifically requires the Administrator to promulgate regulations under 
CAA 169A designed to assure reasonable progress based on the 
recommendations from a visibility transport commission on what actions, 
if any, are needed.
    Phelps Dodge's key concern continues to be the need for adequate 
public participation in this rulemaking. Phelps Dodge believes the 
Agency must re-propose this rule to gather relevant comment prior to 
finalizing this rulemaking. This, unlike any other rule, will have 
impacts for many generations to come as the states and tribes 
continuously attempt to make reasonable progress toward the goal. It is 
imperative that the public input process provide an opportunity for all 
affected parties--states, tribes, local governments, land managers, 
industry, environmental groups, and the general public--to be given an 
opportunity to provide relevant comments on this rule.
            Respectfully submitted by,
                     Shawn B. Kendall, Executive Assistant,
                                          Phelps Dodge Corporation.
                               __________
 Statement of Hon. Patrick Leahy, U.S. Senator of the State of Vermont
    Mr. Chairman, I want to thank you and Senator Chafee for convening 
this hearing. Over the years I have spoken many times on the floor of 
the Senate about my concerns about the ongoing threats from mercury 
pollution to the lands, rivers and lakes of Vermont and the rest of the 
country.
    This hearing is an important early step in the journey to finally 
address the scourge of mercury pollution.
    It has not been an easy journey, even this far. In the first 
congressional session of this Congress, I worked with many in the 
Senate and in the House to introduce a Senate resolution that called on 
the Administration to release its long overdue Mercury Study Report to 
Congress, a report that was mandated by the Clean Air Act of 1990.
    Earlier this year I introduced S. 1915, the ``Omnibus Mercury 
Emissions Reduction Act of 1998,'' which used the Mercury Study Report 
to Congress as part of its factual basis. If enacted, this bill would 
significantly reduce the risks that this powerful neurotoxin poses to 
the health and development of pregnant women, women of child bearing 
age, and children.
    Most recently Senator Chafee and I have worked in the FY 1999 
appropriations process to support EPA's efforts to begin collecting 
mercury emissions data from power plants, and to voice our strong 
opposition to report language on the EPA appropriations bill that would 
seriously hamper EPA's work on this pollutant.
    Mr. Chairman, Vermonters share a deep and abiding concern for the 
environment. Vermont has enacted some of the toughest environmental 
laws in the country.
    Unfortunately, despite these laws, we face threats from beyond our 
borders that we cannot control. Mercury is one of those threats, 
drifting silently into our lakes and waterways.
    When I was growing up spending my summers on Lake Champlain, I 
never had to worry about eating the fish I caught--I only had to worry 
about catching them in the first place. Now the Lake has fish 
advisories for walleye, lake trout and bass due to mercury.
    As a new grandfather, I am looking forward to spending time with my 
grandson out fishing on Vermont lakes. I do not want to have to explain 
to him why he cannot eat the fish he catches.
    What I tell my grandson in the future is largely a function of the 
direction we take in Congress over the next few years to protect the 
environment.
    Are we going to look the other way, or are we going to build on the 
vision and the courage that two former leaders on this committee, 
Senators Stafford and Muskie--like Chairman Chafee and others on this 
committee today--have shown in bringing us to a higher level of 
accountability in protecting our environment?
    Although we should be proud of the great strides we have made to 
reduce the levels of many air and water pollutants, rebuild populations 
of endangered species and clean up abandoned hazardous waste sites, we 
must now address the environmental threats that have to date defied 
easy solutions.
    Finding those solutions will be even more important over the next 
few years as states and perhaps Congress restructure the electric 
utility market. This committee will have the responsibility to find 
those solutions.
    How do we reduce emissions of mercury and other pollutants from 
coal-fired power plants without significantly increasing our utility 
prices? I introduced my mercury bill to begin to answer this question 
and to bring more attention to one of the last major toxins for which 
there is no control strategy.
    When the 1970 Clean Air Act was written, Congress did not fully 
understand the dangers posed by mercury exposure. At the time of the 
1990 Amendments, we knew enough to worry about it, but we couldn't 
agree on what to do.
    Our response at that time was to write a provision into the law 
requiring EPA to do a thorough study of mercury pollution and formally 
report on it to Congress.
    It took a long time to write the report, and then it took a lot of 
time and effort to overcome industry opposition to its release. Now we 
have the report, and it gives Congress the information to finally act 
to bring this toxin under control.
    EPA's Mercury Study Report to Congress documents the troubling 
levels of mercury emissions that are being deposited over much of the 
country [DEPOSITION MAP]. The report estimates that at any point in 
time there are more than 1.6 million pregnant women and their fetuses, 
women of child-bearing age, and children, who are at risk of brain and 
nerve development damage from mercury pollution.
    The Mercury Report shows that year after year sources in the United 
States emit at least 150 tons of mercury to the environment. Once 
released to the environment, mercury does not behave like many 
pollutants. [MERCURY CYCLE POSTER] As you can see from this drawing, 
mercury does not biodegrade. It recycles through our environment and 
accumulates in fish, and then it accumulates in the people who eat the 
fish.
    Mr. Chairman, we invest tremendous amounts of love, time, energy 
and fiscal resources in our children, yet we are not protecting them 
from the possibility of being poisoned in the womb or in their early 
developmental years by this potent neurotoxin.
    Other new facts on mercury pollution are also troubling. As you can 
see from this chart [1993 FISH ADVISORY MAP], there were 27 states with 
fish advisories for mercury contamination in 1993. In all, 899 lakes, 
river segments, and streams were identified as yielding mercury 
contaminated fish. By 1997, [1997 FISH ADVISORY MAP] you can see that 
39 states had issued mercury fishing advisories, for 1,675 water 
bodies.
    That is an increase of 86 percent. Mr. Chairman, we are going in 
the wrong direction. I do not want to wait until the entire map is 
filled with red before we summon the will to act.
    Today, I am sure we will hear that it is not possible to determine 
the degree to which kids with learning disorders, coordination problems 
hearing, sight or speech problems are being banned by mercury 
pollution.
    But we do know that just as with lead, mercury has much graver 
effects on children, even at very low levels, than it does on adults. 
We might not be able to precisely measure the harm done by mercury in 
children, but we should not use that as an excuse to do nothing.
    We don't have to wait until we have a body count. We just need the 
will to act.
    It is hard to believe today, but at the time, the decision to 
eliminate lead from gasoline was, itself, a controversial decision, and 
these same arguments were heard then. We WILL solve the mercury problem 
some day, and I hope it is soon. Just as with leaded gasoline, a few 
years after we tackle mercury pollution, our children and grandchildren 
will wonder why it took us so long to do the right thing.
    The bill I have offered, S. 1915, is based on this new body of 
scientific evidence and proposes a comprehensive approach to eliminate 
mercury pollution from coal fired power plants, solid waste 
incinerators, and other industrial sources from our air, waters, and 
forests.
    What I am proposing is that we begin putting a stop to this 
poisoning of America. Emitting 150 tons of mercury to the air each year 
is unnecessary, and it is wrong. Mercury can be removed from products, 
and it has been done. Mercury can be removed from coal-fired power 
plants, and it should be done.
    Each year coal-fired power plants alone emit at least 52 tons of 
mercury into the air, one third of the U.S. total. With states 
deregulating their utility industries, Congress today has a unique 
opportunity to make sure that these power plants begin to internalize 
the true costs of their pollution so that market decisions can help us 
correct this problem.
    If we don't level the pollution playing field now and make these 
power plants internalize the environmental cost of the way they produce 
power, in a deregulated industry the financial incentive will be to 
pump even more underpriced power and pollution out of these plants for 
as long as they will last.
    In that case, we would never make a dent in those 52 tons of 
mercury emissions per year. In fact, that toll could easily rise.
    As long as the rules of the game allow this, these companies 
understandably will act solely to suit their economic self interests, 
without taking into account the true costs to our communities and our 
people. As a nation, we cannot afford to subsidize their inefficiency, 
but our inaction does just that.
    At the heart of the argument against taking action is a concern 
about the cost to curb mercury pollution. I want to address that up 
front.
    When examined closely, that cost argument does not hold water. The 
EPA report estimates the cost nationally of controlling mercury 
emissions from power plants at $5 billion per year. This industry 
generates more than $200 billion a year in revenue. That is less than 
two and half percent, and that strikes me as the equivalent of a fly on 
an elephant's back.
    We should not concede our responsibility to defend the health of 
our children to corporate accountants and lawyers.
    As required by Congress, the EPA has overseen the most 
comprehensive scientific study ever on the sources of mercury pollution 
and on the harm mercury does to us and to our environment. With mercury 
pollution, as with other pollutants, we have the benefit of all the 
knowledge that science can offer us. The question is, will we pay 
attention, and then will we act to make our communities safer?
    We have the technology to reduce the amount of mercury and other 
pollutants that spew from some powerplants. We know how to separate and 
recycle mercury-containing products before they reach the combustion 
units. We already have alternatives to the many products that contain 
mercury. It is time to begin acting on our knowledge.
    Mercury pollution is a key piece of unfinished business in cleaning 
our environment. The health of our children and the health of our 
environment demand that we take action.
    Mr. Chairman, I thank you and Senator Chafee for your attention to 
this issue, and I look forward to working with you on this in the 
months ahead and, the people of Vermont willing, in the next Congress.
                               __________
  Statement of Hon. Olympia J. Snowe, U.S. Senator from the State of 
                                 Maine
    First of all, I want to thank you, Senator Chafee, for holding this 
hearing today as it gives me the opportunity to highlight the problem 
of mercury pollution in our freshwater lakes in the Northeast.
    Mercury, as we have historically thought of it, brings to mind the 
ancient Roman messenger of the gods, or the symbol that made us all 
proud, that of a small Mercury capsule carrying a lone astronaut into 
space.
    Mercury, as we are now coming to know it, is one of the most toxic 
substances in our environment, causing great necrologic damage if 
ingested by humans, and, unfortunately, remains largely unregulated by 
the Environmental Protection Agency. There is growing concern around 
the country about mercury contamination and the risk it posses to those 
most vulnerable: young children, infants, and the unborn.
    Over the last several years, the EPA has conducted considerable 
research on the sources and effects of manmade mercury pollution, and 
has confirmed that mercury emissions are getting worse. The research, 
published in EPA's Report of December, 1997, shows that more than a 
third of this pollution comes from coal? burning power plants--close to 
33 percent, or the release of approximately 52 tons per year.
    Mercury, which is contained in coal and emitted up through 
smokestacks into the atmosphere as the coal is burned, is then 
transported through the air and carried downwind for hundreds and 
hundreds of miles, falling to Earth in snow and rain and ending up in 
our lakes, rivers, and streams. The mercury is then ingested by fish, 
and in turn by humans when they eat the fish from these freshwater 
sources.
    In 1993, 27 states issued health advisories to warn the public 
about consuming mercury-tainted fish. In 1997, 39 states issued health 
advisories pertaining to eating fish from over 50,000 bodies of water. 
This should alarm us, especially as the deregulation of the electric 
industry may lead to a greater use of older, polluting power plants--
plants that currently have no emissions regulations for mercury.
    In Maine, the beautiful common loon with its haunting call is known 
as a symbol of conservation--and even appears on license plates, the 
cost of which funds conservation efforts. The haunting call is now 
coming from biologists whose studies show that the loons and other 
birds, such as the bald eagle, may now be having trouble reproducing or 
fighting diseases because of mercury ingestion.
    Last year, Maine's state legislature passed a resolution to limit 
mercury emissions in the State, and other states are taking aim at 
similar actions as well. This past June, the New England Governors and 
the Eastern Canadian Premiers met in Portland and came up with a 
Mercury Action Plan to address the pervasiveness of mercury in 
freshwater fish in the Northeast at levels that pose health risks to 
humans. The representatives also recognized the important economic 
consequences to the recreational and commercial value of fisheries 
resources across the region. The Plan addresses how the Northeast can 
cope with the problem of mercury pollution by taking steps that are 
within the regions' control or influence.
    This is an excellent step forward to decrease regional mercury 
pollution, but also points out the need for a nationwide information 
system and controls for mercury releases for the largest polluters, 
such as the coal-burning power plants, as polluted air does not stop at 
state borders or even international boundaries. On the horizon is the 
fact that the burning coal continues to rapidly increase in developing 
nations around the globe.
    I was pleased to join as a cosponsor of Senator Leahy's Omnibus 
Emissions Reduction Act of 1998, which directs the EPA to promulgate 
mercury emissions standards for the largest emitting sources to reduce 
these emissions by 95 percent in 5 years. The Act also directs the EPA 
to work with Canada and Mexico to inventory the sources and pathways of 
mercury air and water pollution within North America and to reduce 
transboundary atmospheric and surface mercury pollution. The bill 
dovetails nicely with the new actions the State of Maine is taking and 
also the goals of the Mercury Action Plan of the Committee on the 
Environment of the Conference of Northeast Governors' and Eastern 
Canadian Premiers.
    I want to thank Senator Leahy for his hard work in highlighting the 
problem of mercury emissions through the introduction of his 
legislation, and also the House sponsor of the companion bill, 
Representative Tom Allen, a member of my own Maine delegation. It is my 
understanding that, realistically, the Omnibus mercury emissions bills 
will have a short lifespan in this Congress because of time 
constraints, and were introduced mainly to bring the problem before 
Congress and the public, to spark debate, and to begin a dialog, 
especially with those industries that will be affected by any curbs in 
emissions and those people most directly affected by the mercury 
emissions.
    Mr. Chairman, your hearing today will go a long way toward 
developing a much needed solution to the problem of mercury emissions 
in the environment, and I look forward to working with you and the 
committee and the Environmental Protection Agency to come up with a 
fair solution and one that will truly protect the people from this 
pervasive emissions problem. I thank the Chair.
                               __________
  Statement of C. Mark Smith Ph.D., M.S., Deputy Director, Office of 
   Research and Standards, Massachusetts Department of Environmental 
Protection, New England Governors and Eastern Canadian Premiers Mercury 
                               Task Force
Introduction
    My name is Mark Smith. I am the Deputy Director of the Office of 
Research and Standards at the Massachusetts Department of Environmental 
Protection, Chair of our Department's Mercury Workgroup, and represent 
Massachusetts on the New England Governors and Eastern Canadian 
Premiers Regional Mercury Task Force. I have been involved in 
toxicology research and policy development for the last 12 years.
    My testimony today is derived from three perspectives: first as a 
toxicologist; second, as an environmental regulator at the State level; 
and third, and perhaps most importantly, as the father of a 5-year old 
daughter and 5-month old son. Mercury is of great concern to the from 
all three of these perspectives.
    The most important messages that I wish to convey today are that:
    1) The weight of the scientific evidence regarding mercury 
pollution and its toxicity is sufficient to warrant aggressive steps to 
reduce mercury emissions;
    2) Mercury levels in the environment of the Northeast are 
unacceptably high; and;
    3) Out-of-region sources contribute significantly to our regional 
problem; thus the commitments in the New England Governors and Eastern 
Canadian Premiers Regional Mercury Action Plan, a binational effort to 
reduce mercury emissions in the Northeast that was endorsed in June, 
1998, should be adopted nationally.
Scientific Basis for Action
    First, I wish to emphasize the remarkable degree of consensus that 
has been reached in the northeast by public officials and scientists 
that mercury is a significant environmental problem in the region. This 
conclusion has been reached by essentially all the Northeast State and 
Eastern Canadian Provincial Environmental Protection and Public Health 
agencies. Our regions concern about mercury is based on the following:

    <bullet>  mercury is toxic to people and can poison fish eating 
wildlife, such as loons and eagles;
    <bullet>  mercury injures the brain and nervous system;
    <bullet>  children--born and unborn--are at greatest risk; the 
recent Northeast States and Eastern Canadian Provinces Mercury Study 
noted that a pregnant woman eating as little 0.4 ounces of fish a day 
containing 0.5 parts per million (ppm) of mercury could put her fetus 
at risk;
    <bullet>  mercury levels in freshwater fish in the northeast are 
high, often exceeding 1 ppm and ranging up to 5 ppm, well above a level 
of public health concern (no matter what the outcome of current debates 
on mercury toxicity);
    <bullet>  once in the environment mercury is very persistent, Is 
difficult if not impossible to cleanup and can be transported long 
distances to affect people far from its source.

    Recently, some have argued, largely on the basis of results from 
the Seychelles Island Health Study, that mercury may be less toxic than 
previously thought. This debate is not critical in the Northeast 
because levels of mercury in fish here are high enough to be of public 
health concern even if the lower risk value were correct. Nonetheless, 
it is important to note that I and many other toxicologists have 
concluded that this single study, although of excellent quality, is not 
sufficient reason to reduce our concern about mercury. In fact, by 
appropriately accounting for uncertainties in this study it can easily 
be interpreted as supporting current risk estimates. The fact that a 
second study, at the Faroe Islands, also supports current risk 
estimates for mercury fiber argues for caution.
    In addition to potential effects on people it is important to keep 
in mind that mercury can also impact fish and fish-eating wildlife such 
as loons, eagles and otters. There is increasing evidence that mercury 
levels are high enough in some waterbodies to alter Irish and bird 
behavior and reproductive success.
    In conclusion, although ongoing debate exists over the magnitude of 
low dose mercury risks, the available data in its entirety supports 
continued action to further reduce mercury levels in the environment. 
On a personal note, this low dose risk debate also has not altered my 
level of concern about mercury-based on my knowledge as a toxicologist 
of the risks and uncertainties involved, I advised my wife to not eat 
certain types of fish likely to have high levels of mercury when she 
was pregnant with both our children. I would do the same today.
Evidence That Mercury is a Problem in the Northeast
    The evidence that mercury is a problem in the Northeast is 
extensive: more than 4,000 samples of fish from over 700 waterbodies 
across the region have been analyzed for mercury. This data indicates 
that mercury levels in freshwater fish often exceed 1 ppm, with 
concentrations reaching in excess of 5 ppm. In the region, the overall 
average concentrations of mercury in smallmouth bass, largemouth bass, 
walleye, and pickerel exceed 0.5 ppm with concentrations in many lakes 
and ponds even higher. Thus, mercury concentrations in many of our fish 
are at levels where potentially toxic doses to a fetus could occur if a 
pregnant woman were to regularly eat a modest amount of the 
contaminated fish.
    Based on this data all the Northeast states and decree Eastern 
Canadian Provinces have issued freshwater fish consumption advisories 
waking the public, in particular pregnant women, to limit or avoid 
eating contaminated fish. In Massachusetts alone, fish from more Han 50 
waterbodies are unsafe for the general public due to mercury and 
pregnant women are advised to avoid eating native freshwater fish 
caught in the state. Similar advisories have been adopted in all the 
Northeast states.
Actions to Reduce Emissions
    Consensus has been reached in New England that aggressive actions 
to reduce mercury pollution are warranted both in our region and at the 
nations level. Toward this end a comprehensive regional plan to address 
mercury pollution was adopted in June, 1998 by the unanimous vote of 
all the New England Governors and Eastern Canadian-Premiers. This 
binational plan established a long-term goal of virtual elimination of 
manmade mercury emissions in the region with a 50 percent reduction 
target by 2003. Stringent but achievable emission limits, which go 
beyond current EPA requirements, were agreed to for municipal waste 
combustors and medical waste incinerators. Commitments were also made 
to address utility and other major emission sources and to coordinate 
regional efforts to promote pollution prevention activities, including 
reduced use of mercury In products and increased recycling of those Mat 
continue to contain mercury.
    Numerous analyses indicate that much of the mercury impacting the 
Northeast is derived from atmospheric deposition. This mercury comes 
from both local and distant sources with as much as 40 percent coming 
from out-of-the-region The major sources of mercury emissions include 
municipal waste combustors, utilities (especially coal-fired 
facilities), medical waste and sludge incinerators, and industry.
    Because mercury pollution can be transported in the air for long 
distances national efforts are needed to address the problem.
Conclusions
    To reiterate, we in MA and others across the Northeast have 
concluded that:

    1) The scientific evidence on mercury pollution and its toxicity is 
sufficient to warrant Archer steps to reduce mercury use and emissions;
    2) Mercury levels in freshwater fish in the Northeast are too high; 
and,
    3) Out-of-region sources contribute significantly to mercury 
deposition in the region due to long range transport; thus, the 
aggressive commitments to reduce mercury pollution made in the New 
England Governors and Eastern Canadian Premiers Regional Mercury Action 
Plan should be adopted, in a timely fashion, nationally.
                               __________
   Statement of Barry L. Johnson, Ph.D., Assistant Surgeon General, 
   Assistant Administrator, Agency for Toxic Substances and Disease 
    Registry, Public Health Service, Department of Health and Human 
                                Services
    Good afternoon. I am Barry Johnson, Ph.D., Assistant Administrator 
of the Agency for Toxic Substances and Disease Registry (ATSDR). The 
subcommittee invited ATSDR to testify on regional haze and mercury 
pollution. Our Agency has had no involvement with regional haze but has 
worked on various mercury issues. Much of our work on the scientific 
issues of mercury pollution is reflected in the ATSDR draft 
Toxicological Profile for Mercury.
    ATSDR has developed a toxicological profile on mercury in 
compliance with a mandate in the Comprehensive Environmental Response, 
Compensation, and Liability Act, as amended (CERCLA, or Superfund). 
Section 104(i)(3) directs us to develop toxicological profiles for 
priority hazardous substances released from Superfund sites. Our 
priority list of hazardous substances is developed jointly with EPA and 
updated every 2 years. Mercury is No. 3 on the 1997 list. ATSDR is also 
required by CERCLA (--104(i)(3)) to revise and republish individual 
toxicological profiles as necessary, but no less often than once every 
3 years.
    CERCLA also requires that ATSDR's toxicological profiles contain 
``An examination, summary, and interpretation of available 
toxicological information and epidemiologic evaluations on a hazardous 
substance in order to ascertain the levels of significant human 
exposure for the substance and the associated acute, subacute, and 
chronic health effects.'' This language directs ATSDR to develop 
numerical estimates of health risks posed by hazardous substances. 
Health assessors and risk managers use numerical values to characterize 
the toxicities of hazardous substances. Risk assessment methods are 
most often used for carcinogenic substances. This results in point 
estimates or ranges of health risk that are based on various exposure 
scenarios. ATSDR uses the numerical minimal risk levels (MRLs) for 
noncarcinogenic toxicities of substances.
    An MRL is an estimate of what level of daily human exposure to a 
hazardous substance is likely to be without appreciable risk of adverse 
noncancer health effects over a specified duration and route of 
exposure. These substance-specific estimates are intended to serve as 
screening levels. Public health assessors use MRLs to identify 
contaminants and potential health effects that may be of concern at 
hazardous waste sites. It is important to note that MRLs are not 
intended to define clean-up or action levels for EPA or other agencies.
    ATSDR develops MRLs during the preparation of toxicological 
profiles. They are derived when ATSDR determines that reliable and 
sufficient data exist to identify the target organs of effect or the 
most sensitive health effects for a specific duration of exposure. MRLs 
are based only on noncancer health effects and not on a consideration 
of cancer effects.
    ATSDR first published a toxicological profile on mercury in 1989. 
The mercury profile was then updated in 1994, and a second update was 
released in a draft version in October 1997.
    ATSDR's 1994 mercury profile contained a chronic duration, oral 
exposure MRL that was based primarily on a 1989 analysis of data 
collected on persons in Iraq who had been accidentally exposed to 
methylmercury in grain during the early 1 970's. That MRL was 0.1 
micrograms of mercury per kilogram body weight per day (<greek-m>g/kg/
day). It was numerically equal to EPA's reference dose (RfD), and was 
based on the same neurodevelopmental endpoint (children's delayed 
walking and talking) that EPA used to derive their RfD for 
methylmercury.
    The CERCLA mandate to update the mercury profile, coupled with the 
need to increase our knowledge of the health effects associated with 
mercury, led us to convene a series of meetings in Atlanta in 1994 and 
1995. We invited peer scientists to join us in panel meetings to review 
the direction we should take in our continuing assessment of the health 
impact of methylmercury. At that time, we were cognizant of a number of 
ongoing studies, including studies in the Faeroe Islands and the 
Seychelles Republic.
    In 1995 our panel of experts recommended that we await the 
development of the Seychelles data and use them as a starting point in 
our mercury reassessment efforts. So we waited until 1996, when 
published data from the Seychelles study began appearing in the 
scientific literature, to begin updating our mercury toxicological 
profile.
    In October 1997, ATSDR released for public review and comment our 
current draft profile. The document remains in draft, pending further 
discussions with EPA, other Federal agencies, and the public. An 
upcoming interagency workshop in November to evaluate the major 
scientific studies on methylmercury and its developmental effects in 
children will be a key forum for resolving some remaining points of 
science and public health.
    ATSDR's MRL for chronic, oral exposure to methylmercury in the 
October 1997 draft toxicological profile is derived from a study 
conducted by University of Rochester investigators in the Seychelles 
Islands that reflects multiple generations of human exposure to organic 
mercury through fish as a primary route of exposure. Because of the 
long-term nature of this exposure, the large sample size, and the 
rigorous study design, this data set was used as the primary basis of 
ATSDR's evaluation. The Seychelles study overcomes several of the 
limitations in the Iraqi study. For example, there is a rather large 
sample size of 779 mother-infant pairs before the application of the 
exclusion criteria. This was a prospective study, with the goals and 
objectives stated before data collection.
    In the Seychelles study, children were evaluated at 6.5, 19, 29, 
and 66 months of age. Through the age of 29 months, no effects 
attributable to methylmercury exposure were found using a battery of 
neurobehavioral and neurophysiological tests. The only endpoint that 
was correlated in any way with mercury exposure was the subjective 
observation by several examiners that some boys, but not girls, showed 
a decreased activity level during the testing period. This decrease in 
activity associated with an increase in maternal hair mercury levels 
was, however, not considered by the Rochester team to be attributable 
to mercury exposure, and was observed only in boys whose mothers had 
hair mercury levels above the median value (5.9 ppm) used as a no-
observed-adverse-effect level (NOAEL). This value is 2-4 times less 
than the level at which the transient depressed activity levels in 
young boys were noted (i.e., > 12-26 ppm). Similarly, the Rochester 
researchers found no statistical association between prenatal exposure 
to mercury and the age at which the children in the Seychelle Islands 
study walked or talked.
    Since October 1997, there have been additional scientific 
publications on the human health effects of mercury. For example, 
results of the 66-month testing of children in the Seychelle islands 
are now available. Further, a study of the Faeroe Islands population 
published in December 1997 will need to be examined by ATSDR in the 
context of our draft toxicological profile.
    A scientific evaluation of studies like those conducted in Iraq, 
the Faeroe Islands, and the Seychelles is complicated. All studies like 
these have particular strengths and limitations. One must evaluate each 
study for its statistical power, the adequacy of data collection and 
analysis, the relevance of exposure data, biological plausibility, and 
relevance of health findings. Examination of all currently available 
scientific information must be concluded and thoroughly debated by peer 
scientists before final pronouncements are made on MRLs and similar 
health guidance values. The results from studies published since 
October 1997 will be carefully reviewed by ATSDR and incorporated in 
our final version of the toxicological profile on mercury.
    As previously noted, our toxicological profiles require developing 
MRLs, the derivation of which is a rather straightforward algorithm. It 
is deliberately analogous to what the EPA and the Food and Drug 
Administration (FDA) do for RfD and ADI derivations, respectively. You 
have a benchmark of toxicity, no-observed-adverse-effect level (NOAEL), 
or some other surrogate for that, and an uncertainty factor. The higher 
the uncertainty factor, the lower the overall quality of the data set. 
The higher the quality of the data set, the lower the uncertainty 
factor.
    Although the operational derivation of an MRL is straightforward, 
any derivation involves a substantial amount of professional judgment. 
In the case of mercury, we must consider the fact that mercury is 
ingested by mothers, yet we know the fetus is the target of concern. 
The mercury concentrations are measured in the mothers' hair, but we 
are really concerned about the concentration of mercury in the blood 
reaching the fetus. So we have to convert the maternal hair mercury 
concentration to a blood mercury concentration, and subsequently 
convert that blood mercury concentration to an oral daily intake.
    In addition, we have the issue of uncertainty. ATSDR considers four 
general areas of uncertainty in the derivation of MRLs: cross-species 
extrapolation, 1 to 10; intra-species variability, 1 to 10; the use of 
an adverse effect level as opposed to a nonadverse effect level, 1 to 
10; and a factor to account for the quality of sufficiency of the 
overall database, 1 to 10, sometimes referred to as a modifying factor 
by ATSDR.
    In our draft 1997 mercury profile, we looked at the uncertainty and 
the available mercury data. We have the most sensitive population, the 
developing fetus. We have a known and relevant route of exposure, 
consumption of mercury-contaminated fish. We have identified a NOAEL in 
the most sensitive subpopulation, and we see an absence of any 
neurodevelopmental deficit at similar exposure levels in other 
populations. That led us to select an uncertainty factor of 1. This 
uncertainty factor is consistent with the standard application of those 
factors in the derivation of health guidance values. This is not to 
suggest that there is no uncertainty remaining about any threshold for 
the health hazards of methylmercury, or that ATSDR's proposed MRL does 
not reflect a margin of safety consistent with adequate precautionary 
approaches and good public health practice.
    From the foregoing considerations, ATSDR derived an MRL for 
chronic, oral exposure to methylmercury of 0.5 <greek-m>g/kg/day. MRLs 
for both elemental mercury and inorganic mercury (salts) are also 
presented in the draft mercury toxicological profile. The significant 
neurotoxic (nervous system) and nephrotoxic (kidney) health hazards 
posed by these forms of mercury are often addressed by ATSDR in 
response to spills or other unplanned releases of mercury in schools, 
hospitals, and homes. In fact, mercury has been the single most 
frequently encountered chemical in our emergency response program for 
the last 8 years. For this reason, ATSDR and EPA jointly developed and 
released a health alert in the summer of 1997 that has been widely 
distributed to schools and other potential targets of mercury spills.
    In July 1998, ATSDR assembled a panel of 18 experts from the 
scientific and medical communities to assist the Agency in reviewing 
key issues in the areas of toxicology and human heath risk assessment 
as they relate to metallic, inorganic, and organic mercury compounds. 
The purpose of the meeting was to review all relevant science on 
mercury and its compounds, including methylmercury, and to react to 
ATSDR's proposed response to comments we received during the public 
review and comment period. The meeting of the panel was held as an 
announced public meeting. It consisted of scientists from the EPA, FDA, 
the Centers for Disease Control and Prevention (CDC), academia, and the 
private sector, including the teams of scientists who conducted the 
human epidemiological studies in Iraq, the Seychelles, and the Faeroe 
Islands. The discussions from this expert panel are being used by ATSDR 
and other Federal agencies to help form part of the agenda for the 
November 1998 interagency workshop on mercury.
    ATSDR continues to work with other Federal agencies to reach a 
consensus on mercury issues. The Committee on Environment and Natural 
Resources (CENR), Subcommittee on Toxics and Risks, established a 
Mercury Working Group in September 1997 to look at a number of issues 
concerning mercury. This workgroup, which includes representation from 
ATSDR, EPA, FDA, CDC, NIH, NOAA, USDA, and the Office of Science and 
Technology Policy, has already come to a consensus on a range of 
issues, and continues to work towards agreement on all public health 
issues concerning mercury.
    The CENR Working Group is sponsoring the November 18-20 interagency 
workshop in Research Triangle Park, North Carolina, to further 
elucidate issues regarding methylmercury exposure and public health. 
The research teams responsible for the Seychelles and Faeroes studies, 
as well as a team conducting similar studies along the Amazon River 
basin, will present and discuss their findings at this meeting. ATSDR 
considers this meeting to be an important step toward resolving 
remaining scientific issues. The meeting will be used by ATSDR to help 
bring closure to its toxicological profile on mercury.
    A challenge for health officials is to balance the known public 
health benefit of consuming more fish in the diet, and the known 
dangers of excess mercury exposure. To mitigate adverse health effects 
of excessive exposure to mercury, ATSDR supports efforts to reduce or 
eliminate exposure to mercury in the environment. Such efforts must be 
pursued through pollution prevention strategies, including health 
education for both health care providers and the citizens who may be at 
risk due to high levels of exposure to not only organic, but also 
inorganic and metallic mercury. Throughout the profile revision period, 
ATSDR has advised the public that it would be premature to predicate 
any risk management decisions on information in a draft document. That 
needs to await the sorting out of all relevant issues and the 
finalization of the profile.
    I thank you for this opportunity to present to you some of the 
conclusions in ATSDR's Toxicological Profile for Mercury and to discuss 
our ongoing efforts to enhance the accuracy and utility of our mercury 
MRLs, including the chronic oral MRL for methylmercury.
    Mr. Chairman, we would be pleased to answer any questions that you 
or subcommittee members may have.
                               __________
    Statement of William H. Farland, Director, National Center for 
       Environmental Assessment, Environmental Protection Agency
Introduction
    Mr. Chairman, members of the subcommittee, I am pleased to have 
this opportunity to offer this testimony in hopes that it will 
contribute to the subcommittee's discussion of science issues involved 
in assessing health and ecological impacts of mercury exposure.
    Mercury (Hg) is a basic element, it is neither created nor 
destroyed, and has always been a component of the earth's dynamic 
systems. What has changed with time and what has caused increasing 
concern about mercury and mercury exposure is the addition of the human 
component to the planet's complex systems. Mercury cycles in the 
environment as a result of natural and anthropogenic (human) 
activities. The amount of mercury mobilized and released into the 
biosphere, and thus biologically available within the environment, has 
increased since the beginning of the industrial age as a result of 
increasing anthropogenic activities, raising concern about the 
potential for public health and ecological impacts. The scientific 
community knows a lot about the human health and ecological effects of 
mercury and mercury exposure, and has agreed, in spite of the 
scientific uncertainties, that mercury is an important environmental 
problem.
    The U.S. Environmental Protection Agency (EPA) has been at the 
forefront on science issues and control activities regarding mercury. 
The Agency's study of the human health and ecological assessment of 
mercury exposure has been centered in the National Center for 
Environmental Assessment (NCEA), one of five major components of EPA's 
Office of Research and Development (ORD). NCEA has major responsibility 
in EPA for the conduct of chemical-specific risk assessments in support 
of EPA regulatory programs, the development of Agency-wide guidance on 
risk assessment, and the conduct of research to improve risk 
assessment. NCEA occupies a critical position in the Agency between the 
researchers in other ORD components who are generating new findings and 
data, and the regulators in the EPA program offices (e.g., pollution 
prevention and toxic substances, air, water and waste programs) and 
regions who must make regulatory, enforcement, and remedial action 
decisions.
    As Director of NCEA, I am committed to the development of national 
and international approaches to the testing and assessment of the fate 
and effects of environmental agents. Prior to my appointment as Center 
Director, I was Director of the Agency's Office of Health and 
Environmental Assessment, a position which I held since 1988. I began 
my EPA career in 1979 as a Health Scientist in the EPA's Office of 
Toxic Substances. I received my Ph.D. in 1976 from UCLA in Cell Biology 
and Biochemistry, an M.A. (1972) in Zoology from the same institution 
and a B. S. (1970) from Loyola University, Los Angeles. I serve on a 
number of committees and advisory boards including: the National 
Toxicology Program's Executive Committee, EPA Liaison to the Public 
Health Service Environmental Health Policy Committee, and past 
Executive Secretary of the Federal Coordinating Council on Science 
Engineering and Technology's Ad Hoc-Working Group on Risk Assessment. I 
have also served on the Office of Science and Technology's Committee on 
Environment and Natural Resources' (CENR) Risk Assessment Subcommittee, 
and I was co-chair of the Federal Liaison Group to the National Academy 
of Sciences Committee on Risk Assessment Methods. I am also a past 
member of the Science Advisory Panel of the Chemical Industry Institute 
of Toxicology, and a member of the Science Advisory Panel on 
Electromagnetic Fields (EMF) Research at the Electric Power Research 
Institute (EPRI). I am currently a member of the Council of the Society 
for Risk Analysis, and on the editorial boards of two respected science 
journals, Risk Analysis since 1987 and Environmental Health 
Perspectives since 1997.
    NCEA and the Office of Air and Radiation's (OAR) Office of Air 
Quality Planning and Standards (OAQPS), were the lead Agency offices 
overseeing the development of the 1997 Mercury Study Report to 
Congress. Work on the Report began in 1992. On December 19, 1997, the 
Agency released an eight-volume report to Congress. The Report fulfills 
the requirements of section 112(n)(1)(B) of the Clean Air Act as 
amended in 1990. The Report inventories the quantity of mercury 
emissions to the air from a number of sources related to human 
activity; estimates the health and environmental impacts associated 
with these combined emissions; and describes the technologies (and 
associated costs) available to control mercury emissions from these 
sources. The Report was reviewed and approved by EPA's Science Advisory 
Board (SAB), -a panel of independent scientific experts, and was 
developed with substantial input by industry groups, the general 
public, and state, local, and other Federal Government agencies 
including the U.S. Fish and Wildlife Service, Department of Energy, 
Food and Drug Administration, National Institute of Environmental 
Health Sciences, Agency for Toxic Substances and Disease Registry, and 
National Oceanic and Atmospheric Administration.
The Mercury Study Report to Congress
    The Mercury Study Report to Congress, prepared by EPA, provides an 
assessment of the magnitude of U.S. mercury emissions by source, the 
health and environmental implications of those combined emissions, and 
the availability and cost of control technologies. As the state-of-the-
science for mercury is continuously and rapidly evolving, this Report 
should be viewed as a ``snapshot'' of our current understanding of 
mercury. The Report also identifies areas where further research is 
needed to provide a quantitative risk assessment.
    Most of the mercury in the atmosphere is elemental mercury vapor, 
which circulates in the atmosphere for up to a year, and hence can be 
widely dispersed and transported thousands of miles from sources of 
emission. Most of the mercury in water, soil, sediments, or plants and 
animals is in the form of inorganic mercury salts and organic forms of 
mercury (e.g., methylmercury).The inorganic form of mercury, when 
either bound to airborne particles or in a gaseous form, is readily 
removed from the atmosphere by either precipitation or dry deposition. 
Wet deposition is the primary mechanism for transporting mercury from 
the atmosphere to surface waters and land. Even after it deposits, 
mercury commonly is re-emitted back to the atmosphere either as a gas 
or associated with particles, to be redeposited elsewhere. As it cycles 
between the atmosphere, land, and water, mercury undergoes a series of 
complex chemical and physical transformations, many of which are not 
completely understood.
    What is well understood is that mercury accumulates most 
efficiently in the aquatic food web after being transformed into 
methylmercury in sediments. Predatory fish and fish-eating birds and 
mammals at the top of the food web generally the highest mercury 
concentrations in their body tissues. Because of its physico-chemical 
properties and strong propensity to bioaccumulate, nearly all of the 
mercury that accumulates in fish tissue is methylmercury. Inorganic 
mercury, which is less efficiently absorbed and more readily eliminated 
from the body than methylmercury, does not tend to bioaccumulate.
Mercury Emissions and Deposition in the United States
    The best point estimate of annual anthropogenic U.S. emissions of 
mercury, based on 1994-1995 data, is 158 tons. Roughly 87 percent of 
these emissions are estimated to be from combustion sources, including 
waste and fossil fuel combustion. Contemporary anthropogenic emissions 
are only one part of the mercury cycle. Human activities today are 
causing releases from the reservoirs that already exist in land, water, 
and air, both naturally and as a result of previous human activities. 
The flux of mercury from the atmosphere to land or water at any one 
location is comprised of contributions from the natural global cycle 
including re-emissions from the oceans, regional sources, and local 
sources. Local sources could also include direct water discharges in 
addition to air emissions. Past uses of mercury, such as fungicide 
application to crops, are also a component of the present mercury 
burden in the environment.
    Computer modeling of long-range transport of mercury suggests that 
about one-third ( 52 tons) of U. S. anthropogenic emissions are 
deposited, through wet and dry deposition, within the contiguous 48 
States. The remaining two-thirds ( 107 tons) is transported outside of 
U. S. borders where it diffuses into the global cycle. In addition, the 
computer simulation suggests that another 35 tons of mercury from the 
global cycle is deposited in the U.S. for a total deposition of roughly 
87 tons annually. One estimate of the total annual global input to the 
atmosphere from all sources including natural, anthropogenic, and 
oceanic emissions is 5,500 tons. Based on this, U.S. anthropogenic 
sources are estimated to have contributed about 3 percent of the 5,500 
tons in 1995.
    Based on model estimates, the highest deposition rates from 
anthropogenic and global contributions for mercury are predicted to 
occur in the southern Great Lakes and Ohio River valley, the Northeast 
and scattered areas in the southeastern United States. The location of 
sources, the chemical species of mercury emitted, and climate and 
meteorology are key factors in mercury deposition. For instance, humid 
locations have higher deposition than arid locations.
Public Health Impacts
    Epidemics of mercury poisoning following high-dose exposures to 
methylmercury in Japan and Iraq demonstrated that neurotoxicity is the 
health effect of greatest concern and that effects on the fetal nervous 
system occur at lower exposures than do effects on the adult nervous 
system. Minimally affected mothers have given birth to severely 
affected infants. Dietary methylmercury is almost completely absorbed 
into the blood and distributed to all tissues including the brain; it 
also readily passes through the placenta to the fetus and fetal brain. 
To describe the implications of chemical exposures on human health, 
including the impacts of methylmercury exposure, the Agency uses the 
concept of a ``reference dose.'' The reference dose (RfD) is an amount 
of methylmercury, which when ingested daily over a lifetime is 
anticipated to be without adverse health effects to humans, including 
sensitive subpopulations. At the RfD or below, exposures are expected 
to be safe. The risk following exposures just above the RfD is 
uncertain, but it is clear that risk increases as exposures to 
methylmercury increase significantly above the RfD.
    EPA has on two occasions published Rims for methylmercury which 
have represented the Agency consensus for that time. The original RfD 
of 0.3 micrograms per kilogram body weight per day (<greek-m>g/kg/day), 
based on effects seen in adults, was determined in 1985 by EPA's 
agency-wide consensus workgroup. This assessment was subsequently 
included on the Agency's Integrated Risk Information System (IRIS). The 
critical effect was nervous system damage in an Iraqi adult population 
exposed to methylmercury through consumption of contaminated grain. The 
effect seen at lowest dose was changes in sensation or numbness.
    The current RfD of 0.1 <greek-m>g/kg/day, based on effects seen in 
children, was established as Agency consensus in 1995. The revised RfD 
was estimated by extrapolating from the high-dose exposures that 
occurred in the Iraqi incident to impacts on the most sensitive 
individuals in that population--the developing fetus.
    At the time of the Mercury Study Report to Congress, it became 
apparent that considerable new data on the health effects of 
methylmercury in humans were emerging. However, as many of these new 
data had either not been published or have not yet been subject to 
rigorous review, EPA decided that it was premature to make a change in 
the 1995 methylmercury RfD at that time. This decision was supported by 
the Agency's SAB, a public advisory group providing extramural 
scientific information and advice to the Administrator and other 
officials of the EPA. The SAB is structured to provide balanced, 
independent expert assessment of scientific matters relating to 
problems facing the Agency. Their report makes the following statement:
    ``In general, from the standpoint of looking at human health 
effects and the uncertainties, draft report is a very good document and 
an important step forward in terms of bringing the relevant information 
together in one place for the first time. The current RfD, based on the 
Iraqi and New Zealand data, should be retained at least until ongoing 
Faeroe and Seychelles Islands studies have progressed much further and 
been subjected to the same scrutiny as has the Iraqi data.''
    With respect to the ongoing, two large epidemiology studies in the 
Seychelles Islands and in the Faeroe Islands that were designed to 
evaluate childhood development and neurotoxicity in relation to fetal 
exposures to methylmercury in fish-consuming populations, the SAB 
report states:
    ``Investigators conducting two new major prospective longitudinal 
studies--one in the Seychelles Islands, the other in the Faeroe 
Islands--have recently begun to publish findings in the literature and 
are expected to continue releasing their findings during the next 2-3 
years. These studies have advantages over those cited in the previous 
paragraph in that they have much larger sample sizes, a larger number 
of developmental endpoints, potentially more sensitive developmental 
endpoints, and control a more extensive set of potential confounding 
influences. On the other hand, the studies have some limitations in 
terms of low exposures (to PCBs in the Faeroes) and ethnically 
homogenous societies. Since only a small portion of these new data have 
been published to date and because questions have been raised about the 
sensitivity and appropriateness of the several statistical procedures 
used in the analyses, the subcommittee concluded that it would be 
premature to include any data from these studies in this report until 
they are subjected to appropriate peer review. Because these data are 
so much more comprehensive and relevant to contemporary regulatory 
issues than the data heretofore available, once there has been adequate 
opportunity for peer review and debate within the scientific community, 
the RfD may need to be reassessed in terms of the most sensitive 
endpoints from these new studies.''
    To respond to the SAB's comment regarding the future need to 
reassess the current RIO in light of the newly emerging data and 
because of various limitations and uncertainties in the available data, 
both the Iraqi data and those newly published from the ongoing studies, 
the EPA and other Federal agencies intend to participate in an 
interagency review of the human data on methylmercury. A scientific 
workshop scheduled later this year will include review of the most 
recent studies from the Seychelles Islands and the Faeroe Islands. The 
purposes of this workshop are to refine the estimates of the level of 
exposure to mercury associated with subtle neurological endpoints and 
to further consensus between all of the Federal agencies. Additional 
information on this upcoming meeting is included in this testimony. 
After this process, the EPA will determine if a change in the 
underlying scientific basis for, or the numeric estimate of, the RfD 
for methylmercury is warranted.
    While fate and transport of mercury in the environment is complex, 
the scientific community agrees that fish consumption is the major 
pathway for human and wildlife exposure to methylmercury. The data 
support a plausible link between anthropogenic releases of mercury from 
industrial and combustion sources in the U.S. and methylmercury in the 
fish in U.S. lakes and streams. However, these fish methylmercury 
concentrations also reflect additional sources of methylmercury. These 
include background concentrations of mercury (which may consist of 
mercury from natural sources), as well as mercury from previously 
emitted anthropogenic and natural sources. Given the current scientific 
understanding of the environmental fate and transport of this element, 
it is not possible to quantify how much of the methylmercury in 
noncommercial fish consumed by the U.S. population is contributed by 
U.S. emissions relative to other sources of mercury (such as natural 
sources and re-emissions from the global pool). As a result, it cannot 
be predicted how much nor over what time period a reduction in mercury 
emissions will result in decreased levels of methylmercury in fish. 
This is an area of ongoing study.
    Critical elements in estimating methylmercury exposure and risk 
from fish consumption include the species of fish consumed, the 
concentrations of methylmercury in the fish, the quantity of fish 
consumed, and how frequently fish is consumed. The typical U.S. 
consumer eating fish from restaurants and grocery stores is not in 
danger of consuming harmful levels of methylmercury from fish and is 
not advised to limit fish consumption. The levels of methylmercury 
found in the most frequently consumed commercial fish are low, 
especially compared to levels that might be found in some non-
commercial fish from fresh water bodies that have been affected by 
mercury pollution.
    While most U.S. consumers need not be concerned about their 
exposure to methylmercury, some exposures may be of concern. Those who 
regularly and frequently consume large amounts of non-commercial fish--
either marine fish that typically have much higher levels of 
methylmercury than the rest of seafood, or freshwater fish that have 
been affected by mercury pollution--may be more highly exposed. Because 
the developing fetus is the most sensitive to the effects from 
methylmercury, women of child-bearing age are regarded as the 
population of greatest interest. An analysis of dietary surveys led the 
EPA to conclude that between 1 and 3 percent of women of child-bearing 
age (i.e., between the ages of 15 and 44) eat sufficient amounts of 
fish to be at risk from methylmercury exposure, depending on the 
methylmercury concentrations in the fish. These consumers should be 
aware of the fish advisories issued by the Food and Drug Administration 
and various States that suggest limiting the consumption of fish 
containing higher levels of mercury. Such advisories in the U.S. have 
been issued by 41 states (including 11 state-wide advisories) and by 
some Native American Tribes, warning against consumption of non-
commercial of fish contaminated with methylmercury.
Environmental Impacts
    The pattern of mercury deposition nationwide influences which eco-
regions and ecosystems will be more highly exposed. Piscivorous (fish-
eating) birds and mammals are more highly exposed to mercury than any 
other known component of natural ecosystems. Adverse effects of mercury 
on fish, birds and mammals include reduced reproductive success, 
impaired growth and development, and behavioral abnormalities, and even 
death.
    Mercury contamination of the food web has been well documented. In 
addition, the endangered Florida panther and the wood stork, as well as 
populations of loons, eagles, and forbearers as mink and otter have 
been found to have elevated tissue mercury concentrations. These 
species are at high risk of mercury exposure and effects because they 
either are eat fish or eat other fish-eaters. Concentrations of mercury 
in the tissues of wildlife species have been reported at levels 
associated with adverse health effects in laboratory studies with the 
same species. However, field data are insufficient to conclude whether 
piscivorous wading birds or mammals have suffered adverse effects due 
to airborne mercury emissions. Modeling analyses conducted for the 
Report suggest that it is probable that individuals of some highly 
exposed wildlife subpopulations are experiencing adverse effects due to 
airborne mercury emissions.
Mercury Control Technologies
    Mercury is widely used in industry because of its diverse 
properties and serves as a process or product ingredient in several 
industrial sectors. However, industrial demand for mercury declined by 
about 75 percent between 1988 and 1996, due largely to the elimination 
of mercury additives in paints and pesticides and the reduction of 
mercury in batteries. Most of the emissions of mercury are produced 
when waste or fuel containing mercury is burned. The EPA has already 
finalized emission limits for municipal waste combustors and medical 
waste incinerators. Once these regulations are fully implemented in 
2002, emissions from these categories will decline at least 90 percent 
from 1995 levels. In addition, mercury emission limits have been 
proposed for hazardous waste incinerators.
    The largest remaining identified source of mercury emissions is 
coal-fired utility boilers. Although a number of mercury control 
technologies are being evaluated for utility boilers, most are still in 
the research stages, making it difficult to predict final cost-
effectiveness as well as the time required to scale-up and 
commercialize the technologies. Because the chemical species of mercury 
emitted from boilers varies from plant to plant, there is no single 
control technology that removes all forms of mercury. There remains a 
wide variation in the end costs of control measures for utilities and 
the possible impact of such costs on utilities. Preliminary estimates 
of national control costs for utility boilers (based on pilot scale 
data) are in the billions of dollars per year. Ongoing research, as 
well as research needs related to mercury controls for utilities, are 
described in the Report.
    In addition, cost-effective opportunities to deal with mercury 
during the product life-cycle need to be pursued. A balanced strategy 
which integrates end-of-pipe control technologies with material 
substitution and separation, design-for-environment, and fundamental 
process change approaches is needed. Also, international efforts to 
reduce mercury emissions as well as greenhouse gases will play an 
important role in reducing inputs to the global cycle of mercury.
Mercury Research Needs
    As described above, the Mercury Study Report to Congress identifies 
mercury as a human health and environmental problem requiring 
additional scientific and technical research. While mercury has long 
been known to be neurotoxic, the development of the final Report and 
its assessment of risk, is an example of an iterative process that by 
its nature includes a discussion of identified research needed to 
increased our understanding of the magnitude and extent of the problem. 
The Report suggests additional research in the following areas:

Effects: Human health effects
  Ecological effects
Exposure: Emissions characterization
  Transport and fate modeling
  <bullet>  atmospheric
  <bullet>  terrestrial and aquatic
  <bullet>  bioaccumulation
  Human exposure assessment
  Ecological exposure
Risk Assessment (Human/Ecological): Risk characterization
Risk Management: Pollution prevention
  Control technology

    In addition, other Agency reports (e.g., Great Waters Second Report 
to Congress--June 1997, Utility Air Toxics Report to Congress--February 
1998) stress the adverse impacts of mercury on both human health and 
the environment. The Agency's Clean Water Action Plan; Restoring and 
Protecting America's Waters (February 1998) cites mercury as a complex 
environmental challenge because of its ability to circulate in the 
atmosphere both locally and globally and eventually biomagnify in the 
aquatic food web where it is consumed by both humans and wildlife. The 
Office of Air and Radiation (OAR), the Office of Solid Waste and 
Emergency Response (OSWER), and the Office of Water (OW) are faced with 
addressing mercury as part of their regulatory programs. The above 
Offices, along with a number of other Agency Program and Regional 
Offices, formed the Mercury Task Force and the Task Force identified 
cross-office actions to address mercury in the draft Mercury Action 
Plan that is currently undergoing internal EPA review.
    In response to this heightened Agency activity regarding mercury, 
EPA's Deputy Administrator asked ORD to initiate a research program 
directed at responding to these activities and supporting the Agency's 
proposed and future actions on mercury. It was determined that there 
were several facets in developing a mercury research program including:
    1) short-term research needs that required immediate attention and 
re-prioritization of Agency research projects and resources--FY1998/
FY1999 Mercury Research Projects; and
    2) longer-term research needs for the 2003-2005 time period--
Mercury Research Strategy. FY1998/FY1999 Mercury Research Projects
    Immediately after the submission of the Mercury Study Report to 
Congress, the need to examine EPA's current mercury research in light 
of the Report and other recent mercury-related activities was clear. 
Was the Agency doing and had the Agency planned the appropriate 
research that would provide information to reduce the uncertainties 
detailed in the reports? Was the Agency doing and had the Agency 
planned the appropriate research that would provide information to the 
program offices that are faced with addressing mercury as part of their 
regulatory programs? As a result of these questions, current research 
projects were examined and immediate research needs for fiscal year 
1998 and fiscal year 1999 were identified and subsequently prioritized. 
These projects are consistent with priorities identified in the Mercury 
Study Report to Congress and the evolving Mercury Research Strategy, 
discussed below. ORD has responded with a targeted mercury research 
program. This research program represents an increased level of effort 
on which future mercury research initiatives would build. The fiscal 
year 1998 and fiscal year 1999 research projects include:
    Resolve Health Assessments for Methylmercury--This project focuses 
on resolving issues surrounding mercury exposures associated with 
adverse health effects, including scientific questions raised when 
developing reference doses and other quantitative values. This project 
supports interagency workshops and activities related to resolution of 
which data sets describing adverse health effects of methylmercury on 
developmental effects of methylmercury exposure in humans (e.g., Iraqi 
data, Faeroe Islands data, Seychelles Island data) should serve as the 
primary data set for revising the RfD, if necessary.
    Control Technology Projects--These control technology projects are 
directed at developing more effective emission controls on coal-fired 
utilities and industrial boilers, and other stationary sources of 
mercury emissions including hazardous waste combustors. The projects 
focus on understanding issues related to speciation of mercury and 
fundamentals of sorption capture; both being necessary to develop 
effective control technologies, as well as experimental work on: 1) 
mercury speciation, characterization, and control in high and low 
temperature environments; 2) advanced multi-pollutant sorbents for 
mercury and acid gas capture; and 3) capture mechanisms for carbon-
based sorbents.
    Community-Based Risk Communication--This project supports 
continuation of an ongoing cooperative agreement with the State of 
Wisconsin that determines how women of child-bearing age from 
ethnically diverse populations obtain and utilize risk communications 
regarding mercury contamination/health risks of non-commercial fish 
consumption. Fiscal year 1999 funding supports an intervention study to 
determine if mercury intakes can be reduced through risk-reduction 
strategies tailored for women from ethnically diverse groups. An 
important component of this project is the analyses of hair samples to 
determine long-term mercury exposures among ethnically diverse groups. 
The subgroups selected will include persons with high intakes of non-
commercial fish and seafood.
    NHANES IV-Mercury Biomonitoring--This project will improve 
information on occurrence of hair and blood mercury levels in the U. S. 
population. Mercury exposures integrated over time can be assessed 
through biological monitoring based on hair and blood mercury 
concentrations permitting EPA to refine estimates of human exposure to 
methylmercury based on diet and lifestyle.
    Continuous Emissions Monitoring for Speciated Mercury--The focus of 
this project is to assess comparability of results of currently 
available monitoring equipment that determines concentration of 
speciated mercury in diverse environmental media. Availability of 
methods for analyzing speciated mercury in environmental media will 
improve evaluation of estimates of source contributions.
    Mercury Treatment Technologies--These projects are directed at 
improving control technologies for hazardous waste combustors. Included 
are testing to evaluate both low-cost retrofit options especially for 
cement kilns and industrial boilers that burn mercury-bearing hazardous 
waste and development of technologies other than retorting and recovery 
to permanently treat mercury-containing hazardous wastes.
    Testing of Continuous Emissions Monitors (CEM) for Mercury Emitted 
from Hazardous Waste Combustors--To support rulemaking to set MACT 
emission standards for hazardous waste combustors, additional 
performance tests of CEMs for mercury will be conducted. The first 
round of testing revealed that the CEMs devices that were tested need 
additional engineering and then additional field testing to provide 
sufficient performance data to finalize the 1996 proposal to require 
mercury CEMS at hazardous waste combustion facilities.
    State-of-the-Science Workshop on Mercury--With increased emphasis 
on the prevention, control, and elimination of mercury pollution, a 
multi-day ``State-of-the-Science'' workshop to address current 
knowledge and future needs relating to mercury releases to the 
environment will be conducted. It is designed to focus on recent and 
ongoing research conducted by the Agency, as well as mercury research 
activities being conducted by others in academia, government, and the 
private sector. Proceedings from the workshop will be prepared and 
published. The workshop would be targeted at participants in NAFTA 
(i.e., Canada, the United States, Mexico) and will focus on domestic 
and cross-border issues. Target Date: Spring 1999
    In addition, the Agency is proposing to fund investigator-initiated 
grants that are responsive to a ``Request for Applications'' (RFA) 
entitled, ``Mercury: Transport and Fate Through a Watershed.'' This RFA 
is for grants to support fundamental research on mercury fate and 
transport in the environment and levels of methylation. This project is 
on an accelerated schedule in order to support OAR, OW, OSWER, and 
Office of Prevention, Pesticides, and Toxic Substances (OPPTS) 
regarding their need for new data in this area. ORD will solicit 
fundamental research on the complex chemical and physical 
transformations and movement of mercury through the environment. 
Because of the needs identified in the Mercury Study Report to Congress 
and other recent Agency reports related to mercury issues, this mercury 
solicitation has been accelerated in order to more quickly meet the 
needs of the Agency programs. The outcome of this research will 
increase our ability to trace mercury from its entrance into the 
ecosystem through its biogeochemical cycling to the concentration of 
methylmercury in fish tissue. This will promote the development of risk 
management strategies based on sound science.
Mercury Research Strategy
    As previously discussed, OAR, OPPTS, OSWER, and OW are all faced 
with addressing mercury as part of their regulatory and voluntary 
programs. The need for mercury research is specifically identified in 
the Clean Water Action Plan--Restoring and Protecting America's Waters. 
ORD is committed to the preparation of a comprehensive, multi-year 
strategy for mercury research addressing the most pressing mercury 
research needs of the Agency as part of the action plan.
    As described previously, the Mercury Study Report to Congress and 
other reports (e.g., Great Waters Second Report to Congress--June 1997, 
Utility Air Toxics Report to Congress--February 1998), initiatives, 
action plans, etc. have identified research needs. However, particular 
documents were prepared to meet a specific charge. For example, the 
Mercury Study Report to Congress primarily dealt with air emissions as 
a source of mercury and did not address releases of mercury to water. 
Although the broad research questions posed in the Report apply to many 
source categories, it is useful to consider all mercury sources in an 
overall EPA Mercury Research Strategy. The research strategy is 
envisioned to be a comprehensive document that encompasses a discussion 
of current and planned research activities and addresses the long-term 
research needs of the Agency. The strategy will: 1) build on the 
research work undertaken in the FY1998/FY1999 time frame, 2) help to 
focus the research needs included in future mercury research 
initiatives, and 3) identify data that will be needed by EPA to make 
regulatory decisions and support EPA programs and regions in the period 
2003-2005 and propose broad research initiatives/strategies that will 
close these data gaps between now and 2003-2005. The research strategy 
identifies needed research on assessing and managing risks from 
mercury, and supports EPA's Program Offices and Regions by identifying 
scientific and technical data and information that will assist them in 
addressing mercury's effects on human and wildlife health. The research 
strategy was prepared based, in large part, on the research needs 
identified in the Mercury Study Report to Congress The general research 
themes for mercury are:

    <bullet>  Hazards of Mercury/Methylmercury to Human Health
    <bullet>  Ecological Effects of Mercury/Methylmercury
    <bullet>  Modeling and Monitoring of Environmental Media for 
Mercury
    <bullet>  Human and Wildlife Exposures to Methylmercury through the 
Aquatic Food Web
    <bullet>  Control Technologies for Combustion Sources of Mercury
    <bullet>  Controls for Non-Combustion Sources of Mercury
    <bullet>  International Issues and Transboundary Distribution of 
Mercury/Methylmercury
    <bullet>  Risk Communications on Mercury/Methylmercury

    The Agency's drain Mercury Research Strategy is currently 
undergoing internal EPA review. This critical step allows EPA programs 
and regions to review and comment to both assure that Agency-wide 
concerns, needs, and issues are addressed and to identify any possible 
discrepancies, inaccuracies, or errors in the draft document. After 
internal Agency review, the comments received as a result of that 
review will be addressed and, if appropriate, incorporated in a revised 
draft in preparation for the start of external Agency review. The 
external review draft will be subjected to peer review and public 
comments, including a related effort to elicit review comments from 
known stakeholders and interested parties, as well as the other Federal 
agencies who have been EPA's partners in various mercury-related 
activities. The external draft will be peer reviewed by an independent 
expert scientific review panel. External review is expected to begin in 
November 1998. Following review of all comments from both the expert 
science panel review and as a result of public review, the draft will 
be revised to reflect incorporation of those comments, as appropriate. 
The goal of a final Mercury Research Strategy by Spring 1999 is 
essential in order for the Strategy to have effective input into EPA's 
future mercury research initiatives.
Interagency Cooperation to Address Common Mercury Concerns and 
        Coordinate Activities
    During the course of the development of the Mercury Study Report to 
Congress, many Federal agencies and departments were involved in key 
aspects of the Report. In addition, during the review and comment 
phase, scientific experts in these Agencies peer reviewed the draft 
document and provided useful comments. The next step in this continuing 
dialogue and cooperation in the Federal community on mercury science 
issues will be an upcoming workshop: ``Scientific Issues Relevant to 
Assessment of Health Effects from Exposure to Methylmercury'' on 
November 18-20, 1998 to be held in Raleigh, North Carolina. The meeting 
is being organized by the Committee on Environment and Natural 
Resources and the Office of Science and Technology Policy--The White 
House, and chaired by the National Institute of Environmental Health 
Sciences. Representatives from other key agencies are attending and 
participating including the following:

    <bullet>  Environmental Protection Agency
    <bullet>  Centers for Disease Control and Prevention
    <bullet>  Agency for Toxic Substances Disease Registry
    <bullet>  Food and Drug Administration
    <bullet>  Department of Health and Human Services
    <bullet>  National Oceanic and Atmospheric Administration
    <bullet>  Office of Science and Technology Policy
    <bullet>  Office of Management and Budget

    The goal of the workshop is to discuss and evaluate the major 
epidemiologic studies associating methylmercury exposure with an array 
of developmental measures in children. Subsequently, the product of the 
workshop should facilitate agreement on risk assessment issues. The 
major studies being considered are those which have examined 
populations in Iraq, the Seychelles, the Faeroe Islands and the Amazon 
along with the most relevant animal studies for estimating human risks.
    While there is no doubt that some issues will remain unresolved and 
further research will be recommended, the EPA is committed to a timely 
review of its current position regarding levels of exposure to mercury 
which are likely to be without appreciable risk for sensitive members 
of the population (fetus and infants) once Workshop conclusions and 
recommendations have been received.
    The public is invited to attend the meeting as observers. The only 
limitation on public attendance is space availability. In addition, a 
public comment session will provide the opportunity for additional 
views and comments. Oral presentations will be limited to 5 minutes in 
length to allow for a maximum number of presentations. For more 
information on the Workshop please see the preliminary program attached 
to this testimony.
Summary
    EPA has been actively engaged in the assessment of the health and 
ecological effects of mercury exposure for many years. While the 
scientific community knows a lot about the human health and ecological 
effects of mercury and mercury exposure, and has agreed that mercury is 
an important environmental problem, the development of the multi-volume 
1997 Mercury Study Report to Congress provided an opportunity to 
integrate the years of work by the EPA, other Federal agencies, 
academia and the private sector into a comprehensive report on the 
state-of-the-science. The Agency has viewed its work on the health and 
ecological assessment of mercury as an iterative process that proceeds 
through assessment, research and data collection, refined assessment, 
etc. The Report gave substantial impetus to this process. ORD has 
responded with a targeted mercury research program and the development 
of a comprehensive, multi-year mercury research strategy. It is 
important to note, that as the Agency has developed its work on mercury 
related issues, it has continually coordinated its efforts with 
colleagues in other Federal agencies and departments, applied stringent 
scientific peer review, and benefited from public input.
    Mr. Chairman, this concludes my written statement. I would be happy 
to answer any questions that you might have.
                                 ______
                                 
   Responses by William Farland to Additional Questions from Senator 
                                 Inhofe

    Question 1. Do you agree that the fish consumption studies, rather 
than the Iraqi grain studies, more closely resemble the situation here 
in the U.S. that health agencies should be concerned with?
    Response. Methylmercury from both grain and fish is highly big-
available (over 95 percent absorption from either source) and 
methylmercury from either food source has produced devastating 
neurological damage among humans ingesting either of these sources. The 
short-term, high-level exposures that caused harm in the Iraqi outbreak 
far exceed the levels of exposure seen among typical U.S. consumers who 
chronically are exposed to methylmercury from fish in their diet. In 
that sense, the fish consumption studies more closely resemble the 
situation here in the United States. Although about 10 percent of the 
U.S. population rarely eat fish, the top 1 percent of the population 
eat fish almost every day and have hair mercury levels that approach 
the average levels found in fish-eating populations in the Seychelles 
and the Faroes. In addition, there are other U.S. groups that 
episodically consume large amounts of fish.
    The severity of adverse health effects from frequent ingestion of 
fish depends on the fish methylmercury level and other contaminants 
that may be in fish. In Japan, disastrous neurological effects to the 
fetus occurred after long-term ingestion of fish containing high levels 
of methylmercury. Also, among people living in the Amazon River basin, 
preliminary evidence has been gathered on possible adverse effects on 
visual function following long-term methylmercury ingestion from fish 
containing lower levels of methylmercury than seen in Japan. However, a 
number of uncertainties in this study will need to be resolved before 
clear conclusions can be drawn. Adverse health effects detectable with 
sophisticated testing methods have also been documented in the past few 
years among people living in the Madeira Islands, as well as in the 
Faroe Islands. Additional highly suggestive findings supporting adverse 
effects of methylmercury from fish on cognitive and neuro-behavioral 
development have been described among fish consumers living in New 
Zealand and members of Native American tribes with high levels of fish 
consumption. The exposure levels associated with these findings may be 
comparable to exposure levels among groups with high levels of fish 
consumption in the United States. Therefore, all of these studies are 
relevant to evaluation of mercury health and environmental effects, and 
all data, including those from the poisoning incidents, must be 
considered.

    Question 2. What specific information is needed in order to have a 
better scientific understanding of mercury and its health and 
environmental impacts?
    Response. EPA is developing a Mercury Research Strategy that 
describes our view of research needed to: (1) understand fate and 
transport of mercury once released into the environment; (2) more 
extensively document the degree of contamination of methylmercury in 
fish and other seafood; (3) better understand variability in human 
biokinetics of methylmercury so that variability in human response to 
methylmercury is better understood; (4) more thoroughly identify 
control technologies that permit us to limit release of methylmercury 
to air and water, and (5) allow improved interagency assessment of 
health effects. This research strategy is anticipated to be completed 
during the second or third quarter of fiscal year 1999.
    Additionally, we will establish the levels of methylmercury in a 
representative sample of U.S. women of reproductive age and in children 
less than 5 years of age, by measuring mercury in hair and blood of 
persons participating in the Fourth National Health and Nutrition 
Examination Survey (NHANES IV), conducted by the Centers for Disease 
Control and Prevention (CDC). This effort is sponsored by seven Federal 
agencies: EPA, CDC, FDA, National Institutes of Environmental Health 
Sciences (NIEHS), Department of Health and Human Services (HHS), 
National Oceanic and Atmospheric Administration and Department of 
Energy. This information will be used by public health officials to 
establish policies relative to methylmercury exposure based on risk 
assessments using actual biomarker data. Mercury levels in individuals 
will be correlated with data on fish consumption. The study results 
should be available in 3 years.

    Question 3. Given the testimony received during the hearing, 
regarding the incompleteness of the scientific understanding of 
mercury, isn't it prudent to vigorously pursue scientific research 
which addresses the unresolved issues of mercury speciation, and the 
transport, fate, and effects of elemental mercury? Wouldn't it also be 
prudent to have a coordinated Federal effort which, among other things, 
determines the appropriate level for a mercury exposure reference dose?
    Response. The overall nature of mercury cycling in the environment 
is clear: air emissions of mercury are carried in the atmosphere, 
deposited to land and water locally and at large distances from the 
source, and there is a plausible link of such emissions to accumulate 
as methylmercury in fish. Mercury deposited to land and water can be 
re-emitted and reenter the global circulation to be deposited elsewhere 
and can also be stored in soils and sediments. This movement of mercury 
through different environmental media is called the mercury cycle. The 
amount of mercury in biota is ultimately a function of the overall 
mercury burden in the air as well as direct discharges to water and 
soil. The physical, chemical, and biological processes involved in the 
mercury cycle are extremely complex and are not understood in detail at 
this time.
    In order to improve our understanding of mercury cycling, EPA and 
other agencies are undertaking a number of investigations. These 
include EPA sponsored research to provide an enhanced understanding of 
mercury fate and transport, and pollution prevention and control 
options. The EPA is developing a comprehensive strategy for mercury 
research which will be peer-reviewed and completed in fiscal year 1999. 
Information that EPA is collecting this year on the species of mercury 
emitted by the largest source of mercury emissions coal-fired electric 
power plants will also help us to better understand mercury transport. 
The US Geological Survey is conducting air and environmental monitoring 
to better characterize deposition of mercury in sensitive environments. 
Also, along with other Federal agencies, EPA is funding the National 
Health and Nutrition Examination Survey, described previously, to 
establish levels of mercury exposures in a representative sample of 
women and children in the United States. EPA participated in a workshop 
that was sponsored by the National Institutes of Environmental Health 
Sciences to bring outside experts together to discuss recent research 
on the health effects of mercury. EPA is currently funding a review of 
the mercury heath science by the National Academy of Science. Based on 
their work, the Academy will provide recommendations to EPA regarding 
the reference dose.
                                 ______
                                 
   Responses by William Farland to additional Questions from Senator 
                                 Chafee

    Question 1. In your testimony, you say that the scientific 
community agrees that mercury is an important environmental problem. 
What supports this assertion and at what point in the scientific 
discussion of mercury do the uncertainties overtake the general 
agreement?
    Response. Mercury contamination can result in neurological damage 
to wildlife and people. During the 1 950's and 1 960's large numbers of 
birds died following their ingestion of mercury treated grains. Several 
human poisoning episodes have occurred. Methylmercury poisoning from 
fish in Minamata, Japan is prima-facie evidence that devastating human 
health damage can result from uncontrolled release of mercury into 
environmental media resulting in excessive human exposure. In Iraq, in 
the early 1970's, methylmercury poisoning from seed grains treated with 
methylmercury killed hundreds and seriously harmed thousands of people. 
The Iraqi medical authorities investigating this poisoning knew 
immediately that what they saw was methylmercury poisoning; they had 
seen the symptoms previously in two preceding methylmercury poisoning 
episodes in Iraq. In the 1 990's, adult human methylmercury poisoning 
in the Amazon River basin followed mercury contamination of the aquatic 
food web following use of mercury to extract gold in mining operations.
    Environmental contamination and human exposure do not occur only 
from use of mercury as a pesticide, fungicide, or from large scale 
industrial releases to water. Mercury may also be released to the air. 
The U.S. Environmental Protection Agency (EPA) estimates worldwide 
anthropogenic emissions (resulting from human activities) to air at 
about 4,000 tons per year (158 tons from U.S. sources), with about half 
the emissions joining the global pool and about half depositing locally 
and regionally. Eventually mercury emitted to the air is deposited to 
land and water. EPA's 1997 Mercury Study Report to Congress concluded 
that there is a plausible link between mercury emissions, if 
transformed to the methylated form, and levels of methylmercury 
observed in fish and other aquatic creatures used as food by people and 
wildlife.
    As a precautionary measure, 40 U.S. states have issued fishing 
advisories based on mercury contamination. Although the bases for fish 
advisories vary from state to state, including many that cite the RfD 
based on the Iraqi data, 11 states have judged that advisories are 
warranted on every freshwater body in the state and five states have 
advisories on their coastal waters which are at least partially due to 
methylmercury. Freshwater fish in the U.S. occasionally may have 
methylmercury concentrations exceeding those that would cause the Food 
and Drug Administration (FDA) to remove them from interstate commerce. 
The FDA action level for mercury was based on avoiding clinically 
observable effects on the adult nervous system. The developing human 
fetus is more sensitive to methylmercury than the adult and population-
based decrements in the cognitive function of children exposed in utero 
to methylmercury occurs at lower exposures than do clinically obvious 
neurological impairments.
    Uncertainties remain about the precise level of methylmercury that 
one can consume on a daily basis without expectation of harm. There is 
known variability in human metabolism of and responses to 
methylmercury. In addition there are data gaps concerning the long term 
consequences of subtle neurotoxic effects. There are gaps in knowledge 
of sources and pathways of mercury in the environment. However, 
qualitatively, there is no debate as to whether mercury is an 
environmental problem. There is scientific consensus that methylmercury 
is a well-documented human fetal neurotoxin. There is general agreement 
that mercury exposure causes some changes in the central nervous 
system. The only remaining question is how much exposure to this toxic 
substance can be allowed without adversely affecting children's 
development.

    Question 2. The ongoing Faroe and Seychelles studies appear to be 
reaching different conclusions regarding the potential for low-dose 
mercury exposure to harm a developing fetus. Why, in your view, are the 
results from these studies different?
    Response. The Faroe Islands and Seychelles Islands investigations 
are both well-designed, prospective, longitudinal studies that aim to 
address the consequences of low-dose exposures to methylmercury. The 
results of these two studies are actually more consistent than one 
might be led to believe by the popular press. Although, the overall 
methylmercury toxicity data base supports the biological plausibility 
of the findings of adverse outcomes associated with methylmercury 
exposure from the Faroe Islands cohort, a number of potentially 
confounding variables in this study population, notably the concomitant 
exposure to PCBs (another developmental toxin), add uncertainty to the 
interpretation of this study. The most recently published data from the 
Seychelles Islands cohort finds no adverse effects of methylmercury. 
However, children in the two cohorts were examined at different ages 
using different neurobehavioral tests. To better understand the 
comparability between these studies, children in the Seychelle Islands 
cohort are being reexamined at the same age as children who were tested 
in the Faroe Islands using the same neurobehavioral tests. The results 
from these followup examinations will shed further light on the 
differences and similarities of the results from these studies. This 
work is currently under way. An additional possible explanation for 
some differences in observed effects is that the rate, intensity, or 
duration of methylmercury exposure may differ between the Seychellois 
and the Faroese cohorts in a way that increased the likelihood of 
adverse effects among those with the Faroese exposure patterns. Unlike 
the Seychellois, the Faroese also consume marine mammals, most 
specifically pilot whales, which contain elevated levels of PCBs and 
methylmercury. In addition, both the Seychellois and Faroese cohorts 
are from isolated island groups that are widely separated 
geographically. It is possible that there are sufficient genetic 
differences among human subpopulations in susceptibility to the 
neurological damage from methylmercury exposures to explain the 
different findings. Because both groups consume large amounts of fish, 
it is unlikely that the beneficial effects of fish consumption is a 
major difference between the Seychellois and Faroese cohorts.
                                 ______
                                 
Responses by William Farland to Additional Questions from Senator Leahy

    Question 1. Has EPA validated the methodology used to statistically 
evaluate the findings in the Seychelles study?
    Response. The EPA has not yet examined the primary data to do a 
statistical reanalysis of the Seychelles Islands data and has not 
independently validated the methodology used in the analyses of the 
Seychelles data by the University of Rochester investigators. In the 
November 18--20 meeting, which was convened by NIEHS, one of the expert 
panels addressed statistical issues for all of the studies. The meeting 
report will include a discussion of this issue. There are not at this 
time established plans to independently validate the statistical 
methodology.

    Question 2. How did EPA consider published studies in populations 
other than in Iraq, the Seychelles, and the Faroe Islands?
    Response. EPA's current Reference Dose for methylmercury was 
established in 1994 prior to release of any data on association of 
methylmercury with neurological changes from either the Seychelles or 
Faroe Islands populations. It was published on the Agency's EPA's 
Integrated Risk Information System (IRIS) in 1995 and later included in 
the Mercury Study Report to Congress which was released in 1997. Dose-
response estimates were based on data from the Iraqi study which was 
considered the best available data set in 1994. EPA's Science Advisory 
Board considered these Iraqi data, as well as other data from the 
Amazon River basin, in conjunction with the data from the Seychelles 
and Faroe Islands, when it reviewed EPA's reference dose in 1997. The 
predominant human health study establishing the adverse effects of 
methylmercury from fish in human populations were those data coming 
from the outbreaks in Minamata and Niigata, Japan. Suggestive evidence 
also came from the neurodevelopmental evaluation of New Zealand 
children whose mothers consumed fish containing methylmercury during 
pregnancy and from a similar assessment of the Cree Indian tribal 
group. Studies from these three geographic areas confirmed that adverse 
neuro-developmental consequences were associated with increased intakes 
of methylmercury (including consequences when fish was the source of 
methylmercury). These studies did not permit an estimate of dose-
response because of the way the data were collected and reported.

    Question 3. States have expressed concern that Federal actions to 
raise the reference dose for mercury in fish may destabilize carefully 
crafted state public health programs to warn the public about the 
hazards of mercury. For example, a recent national news program 
reported that the hazard from mercury in fish is overstated based on a 
news release from the University of Rochester study. What steps can be 
taken by EPA and other agencies to correct any mix-impressions that the 
public may have about whether the Rochester study represents the 
official position of the Federal Government?
    Response. EPA agrees that it is important to correct any mix-
impressions that could have arisen from the University of Rochester 
press release. EPA developed its own statement saying that its position 
would await analysis of the study results in light of other data. EPA 
and agencies from HHS (e.g., Agency for Toxic Substances and Disease 
Registry [ATSDR], FDA, CDC) issued a combined statement after the 
November 18-20 meeting on the status of various study results and that 
the University of Rochester research teams continue to monitor the 
children in the Seychellois cohort using additional testing methods 
(e.g., ones from the Faroes study). The statement clarified the role of 
the University of Rochester study, as well as additional studies (e.g., 
the Faroese study and possibly the Amazon studies), regarding effects 
of methylmercury on children's cognitive development at exposures that 
are within the upper ranges of exposures occurring in the U.S. at this 
time.
                               __________
    Statement of Gary Myers, University of Rochester, Rochester, NY
    Thank you for the opportunity to present the views of our research 
group which has been studying the health of methylmercury (MeHg) 
exposure for over 25 years. Mercury is a natural element in the earth's 
crust, active chemically, and excess exposure to most forms is toxic to 
the human nervous system. Methylmercury is especially dangerous. The 
following summary presents our view on the effects of MeHg exposure 
from fish consumption on child development.
Mercury Poisonings
    In the 1950's industrial pollution in Japan resulted in high levels 
of MeHg in ocean fish and several thousand cases of human poisoning 
from consuming the contaminated fish. The exact level of exposure was 
never determined, but it was thought to be very large. During that 
epidemic some pregnant women who were exposed had few or minimal 
symptoms of poisoning, but their babies were born with brain damage and 
many had cerebral palsy, mental retardation, and seizures. This 
suggested that MeHg crosses the placenta from the mother to the fetus 
and that the developing nervous system was especially sensitive to its 
destructive effects.
    In the early 1970's another epidemic of MeHg poisoning occurred in 
Iraq where people ate seed grain coated with a MeHg fungicide. Our 
research team studied the children of about 80 women who were pregnant 
during this outbreak and consumed varying amounts of MeHg. We measured 
the mothers' exposure, examined the children, and concluded that there 
was a possibility that exposures as low as 10 ppm in maternal hair 
might be associated with adverse effects on the fetus. This value is 10 
times the average in US, but a value seen in fish eating populations.
Mercury found naturally in the environment
    In aquatic environments bacteria can convert inorganic mercury to 
MeHg. Once MeHg enters the food chain, it is bioaccumulated, and all 
fish have small amounts in their flesh. Predatory fish or mammals such 
as whales have the largest amounts. Most commercial oceanic fish in the 
US has < 0.5 ppm MeHg, but some freshwater fish have 2-3 ppm. Fish in 
Japan had up to 40 ppm.
    People who consume fish are exposed to MeHg, and regular fish 
consumption can lead to hair mercury levels of 10 ppm or higher. The 
average hair mercury level in the US is < 1 ppm. If MeHg does affect 
the developing brain at such low levels, mothers who consume large 
amounts of fish would be exposing their babies to this risk.
    Since the toxic effects of MeHg from fish consumption were not 
scientifically proven, we decided to investigate the question directly. 
We initiated the study of a sentinel population for the US in 1987.
The Seychelles Child Development Study (SCDS)
    The SCDS is a collaborative study carried on by researchers at the 
University of Rochester Medical Center in Rochester, NY and the 
Ministries of Health and Education in the Republic of the Seychelles. 
Funding has come from the National Institute of Environmental Health 
Sciences, the Food and Drug Administration, and the governments of 
Seychelles and Sweden. The study has been in progress for over 10 
years. The Republic of the Seychelles is an island nation in the Indian 
Ocean off the East Coast of Africa.
    Our study was designed to determine whether prenatal exposure to 
MeHg from consumption of a fish diet is associated with developmental 
effects. The team's original hypothesis was that MeHg at levels 
achieved by regular maternal consumption of fish would be associated 
with adverse effects on child development.
    The Seychelles was chosen partly because they have high levels of 
fish consumption. The Seychellois usually eat fish twice a day. The 
average mercury content of fish in Seychelles is 0.3 ppm and that is 
similar to ocean fish purchased commercially in the United States. 
There is no mercury pollution in Seychelles and many things that 
complicate studies of low level exposure are not present. Health care 
is free, universal and readily available. Prenatal care is nearly 100 
percent, the birth rate is high, and the general health of mothers and 
children is good. Education is free, universal, and starts at 3/ years 
of age. There is limited emigration and both the people and the 
government are cooperative and supportive.
    The study design was carefully planned since detecting the lowest 
effect level of any toxin requires looking for very subtle differences 
between children with no or very low exposures and those with higher 
ones. These differences are often detectable only statistically. To 
minimize any possibility of bias, a number of decisions were made 
before the study began. First, the study would be double blind. Neither 
the clinical team nor the families know the level of any child's 
exposure. Second, children with a known cause of developmental delay 
such as meningitis, very low birth weight, or brain trauma were 
excluded. Third, the test battery included tests previously reported to 
show associations with MeHg exposure, tests used with other toxic 
exposures, and tests that might detect subtle changes. Fourth, all 
testing was performed in age windows to minimize the effect of age on 
test interpretation. Fifth, multiple complicating factors (covariates) 
were studied. Sixth, the data analysis plan was determined before the 
data were collected to minimizes the possibility that the data will 
simply be analyzed until one finds the expected effect.
    The SCDS main study involves over 700 mothers and children who were 
enrolled during by me during the year I lived on Mahe. They have been 
evaluated regularly for over 5 years. Prenatal exposure was measured in 
mothers' hair levels during pregnancy, and postnatal exposure was 
measured in the children's hair at 5\1/2\ years of age. Both ranged 
from 1 to 25 ppm. Evaluations have been completed at 6, 19, 29, and 66 
months of age. The children's homes were evaluated when they were about 
4 years old. Presently evaluations are being done at 96 months of age 
(8 years).
    The results of the SCDS so far indicate no adverse developmental 
effects from prenatal MeHg exposure in the range commonly achieved by 
consuming large amounts of fish. Through 66 months of age we have 
examined the association between 36 primary test outcomes and the 
children's prenatal mercury exposure. Only one test showed an 
association with higher mercury exposure, and we are unsure if this 
effect is adverse. The test was a subjective evaluation of the 
children's activity level during the evaluation, and in males the 
activity level declined as MeHg exposure increased. Additionally, a 
number of secondary endpoints have been examined and no adverse 
associations with MeHg have been found.
    We have also examined the association between the children's 
postnatal MeHg exposure and the 6 primary test outcomes at 5/ years of 
age. With several of these outcomes the children did slightly better as 
the MeHg increased. This cannot be due to the MeHg, so we believe that 
the MeHg level may simply be a marker for fish consumption at these low 
exposures. This may confirm our understanding that fish contains 
nutrients such as omega-3 fatty acids that are important for brain 
development.
Our interpretation of the findings
    Our studies in Iraq raised the possibility that MeHg exposure from 
eating fish might adversely affect development, but we do not believe 
the SCDS has demonstrated an adverse association through the first 5.5 
years of life in this population. We consider the Seychelles an 
appropriate sentinel population for the US since they consume large 
amounts of fish, the MeHg content of the fish is similar to that of 
commercially available fish in the US, and the health and welfare of 
the people are similar.
    Fish is an important source of protein in many countries, and large 
numbers of mothers around the world rely on it for proper nutrition. 
The mothers' nutrition is very important to the baby's wellbeing. Not 
one person of any age has been reported with MeHg poisoning from eating 
fish since the poisonings in Japan during the 1950's and 60's.
    The nutrients that fish contains may be important for brain 
development. For older individuals, fish appears to have cardiac 
benefits and mental health benefits. Fish consumption is increasing in 
developed countries including the United States. We believe it would be 
unwise to limit fish consumption without convincing scientific evidence 
that exposure at the levels seen with fish consumption is harmful.
    The SCDS is continuing, and as the children get older increasingly 
specific tests can be performed. We are presently completing 
evaluations at 8 years of age and planning more at 12 years of age. 
Findings will be reported as they are available.
                                appendix
    Because of the public health importance of the question being 
studied by the SCDS, the potential exists for differing opinions of 
scientific findings to become highly politicized. The SCDS has received 
only one published criticism (JAMA, 280:737, 1998), but other points 
have been raised at conferences. These questions are addressed here 
individually.
    Why did the SCDS measure mercury in the hair rather than in the 
blood? Hair mercury was used because it is the standard measure used in 
nearly all other studies of this question. It was also chosen because 
blood tests are unnecessarily invasive, reflect only recent exposure 
rather than exposure over time, and can fluctuate widely depending upon 
recent meals.
    Did the SCDS use subjects whose mercury values were too low to 
detect an association?
    The study's goal was to see if the children of women who consume 
fish regularly were at risk for adverse developmental effects from 
MeHg. Women in Seychelles eat fish daily and represent a sentinel 
population with MeHg levels 10 times higher than US women. Their 
children are more likely to show adverse effects if they are present. 
These children show no adverse effects through 5\1/2\ years of age 
suggesting that eating ocean fish when there is no local pollution is 
safe.
    Did the SCDS use the best tests available to detect developmental 
problems? The SCDS used the same developmental and psychological tests 
used in most other developmental studies. These tests are deemed to be 
excellent measures for determining development at the ages studied. As 
the children become older, additional tests with more specificity are 
being used.
    Did the SCDS find expected associations between developmental 
problems and birth weight, socioeconomic factors, and other covariates? 
The study was not designed to examine such relationships. Some children 
with such problems (i.e., head trauma, very low birth weight, etc.) 
were excluded from the study because they are so frequently associated 
with developmental problems. However, many expected relationships were 
found.
    Did the removal of statistical outliers in the analysis bias the 
study? No. It is standard practice to remove statistical outliers, 
which are values that are inconsistent with the statistical model 
employed to analyze the data. Every statistical analysis depends on a 
model, and every statistical model makes assumptions about the 
statistical (distributional) properties of the data that must be 
satisfied if the results of the analysis are to be correct. Sound 
statistical practice requires that the necessary assumptions be checked 
as part of any statistical analysis. Examination of outliers 
constitutes one of these checks. Statistical outliers are defined by 
the difference between the actual test score for a child and the value 
predicted by the statistical model. Small numbers of such outliers 
occurred in test scores for children with widely varying MeHg 
exposures. In fact the results of the analysis were examined both 
before as well as after the removal of outliers, and for analyses in 
the main study they had little effect.
    What about the Faroe Islands study where prenatal MeHg exposure was 
reported to adversely affect developmental outcomes? Questions about 
the measure of exposure, concomitant exposures, and the statistical 
analysis have been raised about the Faroes study. Exposure was measured 
in both umbilical cord blood and maternal hair. Associations with cord 
blood mercury levels were reported, but these are difficult to 
interpret since levels vary with recent meals and their relationship to 
exposure during the earlier parts of pregnancy is unknown. The main 
source of MeHg was consuming whale meat and blubber and they also 
contain high levels of PCBs, inorganic mercury, and other toxic 
compounds. In addition, the authors have not reported the details of 
the statistical analysis that led to their conclusions.

    <bullet>  Are the children in Seychelles too developmentally robust 
to find the effects of MeHg if they are present? Children in Seychelles 
tested similar to US children on nearly all measures apart from motor 
skills where they were more advanced. There is no reason to think that 
they are too robust to show the effects of MeHg if any are present.
    <bullet>  Are children in Seychelles exposed to PCBs or other 
toxins? Sea mammals are not consumed in Seychelles and measured PCBs in 
the children's blood were low.

    Should data from the Seychelles be considered interim? No. Among 
developmental studies, a 5-year follow-up is considered quite good, and 
adequate to identify most toxic exposures.
                                 ______
                                 
  Responses by Gary Myers to Additional Questions from Senator Chafee

    Question 1. Why have researchers chosen to study ``sentinel'' 
populations outside the United States rather than directing the rather 
significant resources of the Seychelles study toward an actual 
population of U.S. residents that have a high fish consumption diet--
especially a diet based on fish from the lakes and streams in this 
country for which concerns over mercury levels have already been 
expressed?
    Response. The clinical study of human populations with low level 
exposure to toxins presents many problems to the researcher. In order 
to detect subtle differences between individuals exposed and those not 
exposed, it is necessary to have a large population in which 
individuals have an appropriate range of exposure levels. These 
individuals must be as similar as possible with the exception of the 
exposure. In addition, it must be feasible to actually study the 
individuals (obtain their cooperation, test them, etc.). This is very 
difficult if there are only a few in each locality, which is the case 
in the United States where relatively few people consume freshwater 
fish on a consistent basis and they are widely scattered. Appropriate 
populations are in general very difficult to find. In the case of 
mercury exposure it is very difficult to find an adequate population to 
study in the United States since fish consumption is not very high. 
However, ocean fish consumption in some other countries is quite high 
and therefore they can serve as sentinel populations for the United 
States.
    The research must be precise enough to detect a very subtle effect 
and also to rule out other factors that might cause a similar effect. 
In addition, findings that result from chance variation need to be 
excluded. It can be very challenging to detect the effects of low 
levels of exposure that can easily be influenced by bias within the 
study. This bias can be introduced at many levels in the study and can 
influence the findings without the researcher even being aware of it. 
Consequently, it can be difficult for the scientist to determine if the 
findings or lack of findings are truly related to the exposure being 
studied, to some other exposure, or are an artifact.
    Additionally, following epidemiological studies the scientist can 
only say that an association was found. It is not possible to state 
that the exposure is the actual cause of the findings.

    Question 2. The ongoing Faroe and Seychelles studies appear to be 
reaching different conclusions regarding the potential for low-dose 
mercury exposure to harm a developing fetus. Why, in your view, are the 
results from these studies different?
    Response. The two studies are very different even though they are 
trying to answer the same scientific question. The Faroe Islands are in 
the North Atlantic near the arctic circle while the Seychelles are in 
the Indian Ocean almost on the equator. In addition to geographic 
differences, there are differences between the two populations in diet, 
exposure to other toxins, social structure of the society, and many 
other factors. In addition, the study designs are quite different with 
the Seychelles being a longitudinal study with the children tested at 
regular intervals starting at 6 months of age while the Faroes is a 
cross-sectional study with one extensive testing period at age 7 years.
    The interpretations of these two studies are indeed different. 
Although there may be many factors, we believe that the following may 
explain some of these differences. First, exposure to mercury in the 
Faroes is primarily from consumption of whale meat and blubber while 
that in Seychelles is from consuming ocean fish. Whales are at the top 
of the food chain, have higher levels of mercury and accumulate other 
toxic materials beside mercury such as PCBs, dioxans, furans, etc. It 
is not clear if these additional exposures have been fully accounted 
for in the published studies from the Faroes. Second, the biological 
measure of mercury exposure used in the Faroes was a cord blood 
determination of mercury. Previous studies have measured exposure in 
hair as the biological marker. Blood values for mercury may vary 
significantly in relation to recent meals that contain mercury and 
cannot reflect the exposure during earlier parts of the pregnancy that 
could be significantly higher. The Faroes researchers also measured 
mercury in hair, but they did not find any significant association with 
their outcomes. They interpret the association between blood mercury 
and outcomes to mean that blood is a better marker for exposure, but 
this is circular reasoning. The fact that statistical associations 
between cord blood mercury and outcomes were found is not a valid 
reason by itself to choose blood mercury as the marker. Third, the 
statistical procedures used to determine associations between exposure 
and outcomes have not been clearly elucidated by the Faroes 
investigators. When studying very subtle effects, the statistical 
procedures used become very important since if a researcher examines 
enough models, some will show an association by chance.
                                 ______
                                 
  Responses by Gary Myers to Additional Questions from Senator Inhofe

    Question 1. Do you agree that the fish consumption studies, rather 
than the Iraqi grain studies, more closely resemble the situations here 
in the United States that health agencies should be concerned with?
    Response. We believe that the fish consumption studies from the 
Seychelles Islands are more relevant to the United States than the 
study of poisoning from grain in Iraq. The Iraq study followed an acute 
poisoning episode with very high doses of methylmercury. We also 
believe the Seychelles study is more relevant than the study from the 
Faroe Islands since there is virtually no consumption of whale meat and 
blubber in the United States. While PCB co-contamination of fish is 
more likely in the United States than in the Seychelles, which enhances 
the relevance of the Faroe Islands exposures, the difference in the 
exposure source and its other components (such as selenium and omega-3 
fatty acids) make the Seychelles study, on balance, a better model for 
United States exposures.
    The issue of concern for the United States is whether small amounts 
of methylmercury present in fish can cause neurological effects. There 
are many substances that are toxic in large amounts that the human body 
can tolerate in small amounts with no ill effects.
    The only poisoning episodes in humans due to consumption of 
methylmercury in fish are those that occurred in two local areas in 
Japan during the 1950's and 1960's. In these cases fish levels were 10 
times higher than those in ocean fish due to heavy local contamination 
by factories releasing methylmercury. There have been no subsequent 
reported cases of methylmercury poisoning from consumption of fish 
where mercury was naturally methylated in the environment. This does 
not preclude that there may be some subtle alterations of neurological 
functioning at low levels of methylmercury exposure. However, it 
suggests that there is not serious risk and that if a risk is present 
it is likely to be very small alterations in neurological function.

    Question 2. What specific information is needed in order to have a 
better scientific understanding of mercury and its health and 
environmental impact?
    Response. We know that large amounts of methylmercury can be toxic 
to the nervous system, that mercury has no known use in the human body, 
and that all fish contain small amounts of methylmercury. We also know, 
however, that fish contain high levels of omega 3 fatty acids that are 
essential building blocks for the fetal and neonatal nervous system. In 
addition, fish contain selenium that may be protective against the many 
deleterious effects of mercury.
    We do not know for certain whether the small amounts of 
methylmercury present in fish have deleterious effects, but the 
beneficial health effects of fish consumption are well documented. It 
is important to determine the relative benefits or hazards of each of 
these 3 components of fish (methylmercury, omega 3 fatty acids, and 
selenium) before recommending any change in fish consumption to the 
public. We ar' presently planning to assess these 3 components of fish 
in a careful prospective study of children in the Seychelles Islands. 
This study should help in determining the relative health impact of 
these three factors.

    Question 3. Given the testimony received during the hearing, 
regarding the incompleteness of the scientific understanding of 
mercury, isn't it prudent to vigorously pursue scientific research 
which addresses the unresolved issues of mercury speciation, and the 
transport, fate, and effects of elemental mercury? Wouldn't it also be 
prudent to have a coordinated Federal effort which, among other things, 
determines the appropriate level for a mercury exposure reference dose?
    Response. We believe that there are a number of unanswered 
scientific questions related to methylmercury exposure that should be 
addressed by research. Our present state of knowledge is not optimal 
for adequately advising the public about the public health consequences 
of consuming large amounts of fish. A coordinated Federal effort to 
address the many issues surrounding fish consumption and human exposure 
to mercury, fatty acids, and selenium from this source would be very 
helpful. Such an effort should be coordinated through the National 
Institute of Environmental Health Sciences (NIEHS) so that the 
scientific quality can be maintained at the highest standard.
    The NIEHS is already taking the lead in a couple of key interagency 
activities. On November 18-20, 1998 they will host a meeting on 
``Scientific Issues Relevant to Assessment of Health Effects from 
Exposure to Methylmercury'' which has as a goal the definition of the 
most important data gaps and research needs in this area. There is also 
a surveillance/ exposure assessment effort underway between NIEHS, the 
Centers for Disease Control and Prevention, and other agencies to get 
the data we need to determine the actual levels of methylmercury in 
people's bodies here in the United States. Both of these are truly 
trans-agency initiatives.
                                 ______
                                 
   Responses by Gary Myers to Additional Questions from Senator Leahy

    Question 1. Will the results of the reevaluation of the Seychelles 
cohort using the methods used in the Faroe Island cohort be published 
as a journal article? When can we expect the reevaluation to be 
completed?
    Response. The evaluations of the Seychelles cohort that have been 
completed so far have all been published in peer reviewed scientific 
journals. We anticipate that the results of future studies will also be 
published.
    We have already published studies using methods similar to those 
used in the Faroe Islands and have not found adverse effects of 
methylmercury exposure from the consumption of oceanic fish.
    We are presently evaluating the Seychelles cohort as they turn 8.5 
years of age and included in that test battery are further tests that 
are similar to those done in the Faroes. This phase of testing will be 
completed early in 1999. The data will be analyzed as quickly as 
possible, but these analyses are complicated and the results will 
probably not be available until late 1999 or early 2000.

    Question 2. For the various studies that the University of 
Rochester has conducted or participated in, and specifically the Iraq 
and Seychelles studies, please describe and discuss how the peak and 
average hair mercury levels during pregnancy were measured and used to 
correlate with effects in mothers and children?
    Response. A segment of scalp hair is selected that grew during the 
period of pregnancy. One must take into account a hair growth rate of 
about 1 centimeter per month and a delay period of about 20 days 
corresponding to the time for mercury to travel from the blood to the 
first centimeter of hair next to the scalp. Thus a length of hair of 
approximately 9 cm corresponds to the period of pregnancy when 
collected some 20 days after delivery.
    In Iraq we measured mercury in single strands of hair by a 
technique developed in our laboratory, X-ray fluorescent spectrometry. 
Because it was a new technique, it was calibrated against more commonly 
used techniques such as cold vapor atomic absorption. This technique 
measures short lengths of hair, about 2 mm, step by step along the 9 
centimeter segment. This gives a detailed recapitulation of exposure 
during pregnancy. The highest 2 mm segment was taken as the peak level 
during pregnancy.
    These peak values were used as the basis of determining the 
relationship between adverse developmental effects in children and 
mercury levels in the mother during pregnancy. These data were used by 
the EPA in the recent report.
    In the Seychelles, the mercury levels were much lower than those 
found in Iraq. It was necessary to used bunches of scalp hair (about 50 
strands) instead of the single strand measured in Iraq. To measure 
bunches of hair, we used cold vapor atomic absorption, a technique in 
use in our laboratory since the 1960's. The entire 9 centimeter segment 
was measured giving an average level during the period of pregnancy. 
However, we also analyzed over 50 samples centimeter by centimeter 
giving a month by month recapitulation during pregnancy. In this case, 
the maximum one centimeter segment is taken as the peak value. We have 
found that, on the average, the peak monthly value is about 50 percent 
higher than the average level during pregnancy. This agrees with 
studies on other fish eating populations.
    We also observed that the peak levels are closely proportional to 
the average levels so that using peak or average levels would not 
affect the correlation between mercury levels and the results of our 
neuropsychological performance tests.
    The highest group in the Seychelles has hair in the 12-15 ppm 
concentration range based on average levels. The corresponding peak 
levels would be in the 18 to 22.5 ppm range. This makes the Seychelles 
an excellent sentinel population as average US hair levels are below 1 
ppm.

    Question 3. Were the peak hair mercury levels seen in the 
Seychelles study high enough, and in a sufficient portion of the study 
population, to reveal adverse effects that might be expected based on 
the findings and conclusions from the Iraqi exposure studies?
    Response. The methylmercury exposure of the mothers in the 
Seychelles cohort is several times that of women in the United States, 
but lower than that of women poisoned by methylmercury treated grain in 
Iraq. Our study from Iraq suggested that we might find adverse effects 
at the exposure levels being studied in the Seychelles Islands. The 
exposure levels being studied in Seychelles are higher than those 
reported from the Faroe Islands where researchers studying mercury 
exposure from the consumption of whales report they are finding 
associations between exposure and outcomes.
    Based on our findings in Iraq, we believe that the exposure levels 
in Seychelles are sufficiently high that the Seychelles cohort can 
serve as a sentinel population for mercury exposure from fish in the 
United States.
                               __________
 Statement of Tim Eder, Director, Great Lakes Natural Resource Center, 
                      National Wildlife Federation
Introduction
    On behalf of over 4 million members and supporters around the 
country, the National Wildlife Federation (``NWF'') is pleased to have 
the opportunity to present this testimony to the Senate today in 
support of legislation sponsored by Senator Leahy, S. 1915, and on the 
need for Congressional action to address the problem of mercury 
contamination in waters of the United States. Our members are active in 
hunting, angling, birdwatching and other outdoor activities, and care 
deeply about the health of our environment.
    Our members are concerned about the health of people that enjoy or 
depend on catching and eating fish. We are especially concerned about 
segments of the U.S. population that are more sensitive to toxic 
chemicals, including populations of young children, pregnant women, and 
women of childbearing age. Information to be presented in this 
testimony shows that the health of these groups may be compromised or 
seriously damaged due to exposure to mercury and other toxic chemicals. 
Also, we understand that for wildlife to thrive, they need clean and 
healthy habitat. This includes protection from exposure to toxic 
chemicals like mercury that can impair their reproductive capacity, 
their ability to hunt and capture prey, and other abilities. In fact, 
NWF members and supporters care enough about mercury that two 
resolutions dealing with mercury issues have been approved at Annual 
Meetings in the past 2 years. In Resolution No. 2 for 1996, the 
Federation adopted a resolution addressing the atmospheric deposition 
of pollutants to the Great Lakes, Lake Champlain, and other Great 
Waters. The resolution includes a call for the U.S. Environmental 
Protection Agency to create a plan with a nationwide goal and time 
lines to reduce atmospheric mercury deposition by 90 percent by the 
year 2005. NWF Resolution No. 7, adopted in 1997, addresses energy 
deregulation, and supports state and Federal legislation that requires 
``all fossil fuel burning power plants to comply with new source 
performance standards contained in applicable state and Federal air 
pollution laws.''
    Mercury is a toxic metal that is being increasingly recognized as a 
threat to the health of numerous wildlife species and tens of thousands 
of women and children around the country.
    The most significant sources of the metal in the U.S. environment 
include coal-fired power plants and incinerators emitting mercury to 
the air. After finding its way into water bodies, mercury can build up 
in the food chain, leading to high concentrations in fish that can then 
expose certain wildlife and people to the metal. The fact that 40 state 
health departments have issued fish consumption advisories warning 
certain populations to limit the amount of fish they eat due to mercury 
exposure indicates the severity of the problem.
    While there has been some progress in dealing with several mercury 
sources in the past few years, much more work needs to be done to fully 
address the ever-present problem of mercury contamination in the U.S. 
and beyond. Senator Leahy's Omnibus Mercury Emissions Reduction Act is 
a necessary start in this effort, and an effort that we believe 
Congress should enact.
Mercury in the Environment, and its Ecological and Human Health Effects
    While mercury occurs naturally in the environment, most studies 
have shown that mercury levels have increased appreciably in the recent 
past due to human activity. Since the beginning of the industrial era, 
researchers estimate that average mercury concentrations in the air 
have increased as much as five-fold. The recent Environmental 
Protection Agency Mercury Study Report to Congress noted that 
combustion sources, including coal-fired power plants, municipal waste 
combustors and medical waste incinerators, make up the great majority 
of current releases of mercury to the environment. Once in the air, 
mercury can be deposited either near its source, regionally, or 
transported over hundreds or thousands of miles to be deposited in 
distant lands or waters. Mercury that winds up in aquatic sediments can 
then be transformed to methylmercury, which works its way up the food 
chain leading to potentially high concentrations in fish.
    The effects of mercury contamination on fish, wildlife and people 
has been increasingly well documented in recent years. Mercury is a 
known neurotoxin, which can effect the nervous systems of most 
vertebrates, because they lack barriers to block mercury from entering 
and interfering with the normal functioning of cells, and because 
internal mechanisms to detoxify mercury are not always sufficient.
Effects of Mercury in Fish and Wildlife
    In fish, laboratory studies have shown that moderate to high 
mercury levels can result in impaired sperm generation, growth 
reduction or inhibition, reduced hatching success, and embryo or larval 
mortality. In addition, high levels of mercury in water have been shown 
to cause mortality to the embryo or larvae of frogs. In laboratory 
studies on wildlife, effects from methylmercury exposure include 
reduced hatching success and duckling survival in mallard ducks, and 
reduced hatchability and high embryo and duckling mortality in American 
black ducks. In addition, field studies have found reduced hatching 
success in common loons and common terns in mercury-contaminated waters 
in northwestern Ontario and other regions. In addition, mercury-related 
reproductive impairments have been seen in common loons nesting in 
lakes in Nova Scotia and New Brunswick, Canada. Common loons frequently 
nest on low-pH, low alkalinity lakes that have higher mercury levels. 
Many lakes in the northern Great Lakes region and New England fall in 
this category.
Effects of Mercury in People, and the Controversy over Acceptable 
        Exposure Levels
    The harmful effects of mercury on people have been well known since 
the poisoning incidence in Minamata, Japan in the 1950's. Dozens of 
people were victims of methylmercury poisoning after consuming fish 
contaminated by chemical plant effluent in Minamata Bay. In the 1950's 
and 1970's, three separate epidemic poisonings occurred in Iraq, with 
459 deaths attributed to mercury-contaminated grain.
    The concern of NWF and most health agencies in the U.S. stems from 
the effects of mercury exposure on children, when they are exposed in 
utero as a result of their mothers' consumption of mercury-contaminated 
fish. These exposure levels are generally much lower than the poisoning 
events in Japan or Iraq. However, lower levels does not mean without 
harm--elevated mercury levels in the U.S. are thought to put up to 
166,000 pregnant women at risk of exposing their fetuses to harmful 
mercury levels in a given year.
    Two long-term studies have been examining the effects of fish 
consumption and mercury levels on children exposed in the womb. The 
study in the Seychelles Islands in the Pacific has found decreased 
activity level of boys at 29-months as the only negative response 
correlated to mercury exposure in the behavioral and other tests given 
to the children. In contrast, a study of a pilot whale-consuming 
population in the Faroe Islands in the North Atlantic has found 
mercury-related deficits in language, attention, and memory in 7-year-
old children exposed to methylmercury in the womb.
    Both of these studies are important because they are being used to 
establish methylmercury reference doses or minimal risk levels (i.e., 
the level of exposure thought to cause no adverse effects) by Federal 
agencies such as the Agency for Toxic Substances and Disease Registry 
(ATSDR), Food and Drug Administration (FDA), and U.S. EPA.
    While much media attention has focused on recent results from the 
Seychelles Islands study, it is important to recognize limitations in 
that study. These limitations must be weighed as health officials in 
U.S. agencies establish safe exposure levels, and thus, fish 
consumption advisories in the U.S.:

    1. Developmental tests in the Faroe Islands population have been 
recognized as more sensitive in detecting subtle cognitive and motor 
disturbances than the tests used thus far in the Seychelles study. As 
pointed out by Kathryn Mahaffey of the U.S. EPA, while evaluation with 
these more subtle tests are planned, current findings from the 
Seychelles should be regarded as interim.
    2. In earlier analyses from the Seychelles group, several cases of 
high mercury exposure (and effects) were excluded as outlying points, 
even though such data could show real effects in more children due to 
mercury exposure.
    3. In the recent report on the Seychelles study, researchers 
reported improved scores on several of the tests at higher 
methylmercury (and thus fish consumption) levels, indicating some 
apparent benefit from the higher fish consumption. The presence of 
components in fish such as omega-3 fatty acids is recognized as a 
benefit of consuming uncontaminated fish. However, because the 
Seychellois are consuming high levels of fish at relatively low mercury 
levels, the benefits to other populations (such as sports anglers and 
others in the U.S.) consuming smaller amounts of fish with higher 
mercury levels may not be realized.
    Most median fish methylmercury values in the Seychelles study were 
in the range 0.05 to 0.25 parts per million (ppm), whereas 
methylmercury concentrations in the popular sportfish walleye in 
Wisconsin average approximately 0.5 ppm, or from 2 to 10 times higher 
than the amount of contamination in the Seychelles fish. Indeed average 
mercury concentrations in northern pike, three types of bass, and 
walleye in a recent survey of U.S. fish were 0.31, 0.38 and 0.52 ppm, 
respectively.
    4. The Seychelles Islands population, like that in the Faroe 
Islands, is quite homogeneous. This means that the study's conclusions 
may not transfer well to the U.S. where we have a more diverse 
population. For example, the much greater genetic, racial, and ethnic 
diversity in the U.S., combined with widely-varying fish consumption 
rates across peoples who have lived in the country over varying numbers 
of generations may lead to much greater variation in sensitivity to 
mercury exposure than would be expected in either cohort study.
Mercury Contamination Around the United States: A Snapshot
    Mercury contamination in sediments, waters and wildlife, and 
elevated human exposures, have been observed at numerous sites around 
the United States. A few examples are noted below.
    --In a study of mercury levels and fish consumption in Wisconsin 
Chippewa Indians, 20 percent of the surveyed participants had blood 
mercury levels in excess of 5 microgram per liter (the upper limit of 
normal, unexposed populations), and were highly associated with recent 
walleye consumption. The researchers concluded that although there was 
little concern for overt health effects in Chippewa adults, the levels 
observed ``may be associated with a slightly increased risk of 
neurologic effects (primarily developmental delays) in infants.''
    --Recent research has reexamined the long-standing mercury 
contamination problem in Poplar Creek, Tennessee. As a result of the 
lithium-isotope separation process used to produce nuclear weapons from 
the mid-1950's to the early 1960's, 150 tons of mercury were released 
into the creek. Researchers recently reported that contrary to 
expectations, sediment and water concentrations of mercury increased 
with distance downstream from the source, with water concentrations up 
to 560 parts per trillion (ppt) measured (compared to a few ppt in many 
``background'' waters). The researchers attributed these results to 
sediment deposition and resuspension, in part due to hydropower 
operations.
    --In a recent study of mercury contamination along the Texas coast, 
researchers reported that prey organisms (e.g., algae, clams, 
crustaceans) had higher mercury concentrations in industrially-
contaminated Lavaca Bay as compared to nearby Keller Bay.
    --Much recent research on mercury contamination in the environment 
has been directed at the Florida Everglades. Researchers have reported 
in recent years finding elevated concentrations of mercury in panthers, 
double-crested cormorants, alligators, and bald eagles that could be 
causing harmful effects on the behavior or reproduction of the 
populations. For example, a recent study reported that 15 percent of 
double-crested cormorants studied had liver mercury concentrations that 
would be lethal in some other bird species.
    --A recent study of the endangered wood stork in southeastern 
Georgia found that all four colonies studied were at risk of sublethal 
effects due to mercury in the birds' diets.
Fish Consumption Advisories in the United States, and the Importance of 
        Protecting Public Health
    According to the U.S. EPA, fish consumption advisories have been 
issued by health departments in at least 40 states. Due to the special 
sensitivities of the fetus and young children, the most strict 
advisories are generally directed at pregnant women, women of child-
bearing age, and young children. As of December 1997, 15 states around 
the country had statewide fish consumption advisories in place due to 
mercury contamination, the most for any pollutant. Advisories for 
either all lakes and/or rivers in a state are most common in the 
Midwest (e.g., Ohio, Michigan) and New England (Maine, Vermont, and New 
Hampshire). Statewide advisories for coastal waters are mostly in the 
Gulf states (Texas, Louisiana, Alabama, and Florida). The number of 
advisories for mercury nearly doubled from 1993 to 1997 (i.e., from 899 
to 1782).
    The fact that advisories exist for every body of water in several 
states indicates that the pathway by which mercury enters these water 
bodies is likely via the atmosphere. The fact that advisories have 
nearly doubled indicates both that more testing is being done and that 
the problem has not subsided.
    State health departments generally base fish consumption advisories 
on recommendations from Federal agencies such as the ATSDR, EPA, and 
FDA. The ATSDR recommended in its recent draft Toxicological Profile 
for Mercury a minimal risk level (level of mercury exposure thought to 
result in no significant effects) of 0.5 <greek-m>g/kg body weight--
day. This recommendation is higher by a factor of five than the current 
EPA level, and reflects reliance on interim results from the Seychelles 
Islands. The ATSDR noted that they used an uncertainty factor of 1.0 in 
determining this level, which means that they essentially used no 
safety factor to apply the Seychelles results to the U.S. population. 
In light of the issues raised above regarding the Seychelles study and 
widespread application its results, and as we noted in a letter to the 
agency on February 17, 1998, NWF believes it is extremely premature for 
the ATSDR or any other agency to assume no uncertainty in recommended 
methylmercury exposure rates based on interim results from the 
Seychelles study.
 sources of mercury in the united states, deposition patterns, and the 
                    potential for reducing emissions
Sources and Deposition Patterns of Mercury in the United States
    The recent Mercury Study Report to Congress summarized estimates of 
mercury releases to the U.S. environment. Globally, a recent study 
estimated that the amount of mercury emitted to the air has increased 
by a factor of 4.5 over the past century due to human activities, 
although the researchers noted that the atmospheric burden has 
increased by about a factor of three, due to deposition near the 
sources. In its discussion of mercury discharges to the environment 
from human activity, the EPA Study Report focused on mercury emission 
to the U.S. atmosphere, and noted that 87 percent of emissions for 1995 
were estimated to be from combustion sources. Overall, of the estimated 
158 tons annually of mercury emissions from human activity in the U.S., 
32.8 percent was from coal- and oil-fired power plants (with the great 
majority due to coal plants--oil-fired plants are estimated to 
contribute 0.1 percent of the total), 18.7 percent from municipal waste 
combustors, 17.9 percent from commercial and industrial boilers, 10.1 
percent from medical waste incinerators, 4.4 percent from hazardous 
waste incinerators, and the remainder from other miscellaneous sources.
    Fossil fuel-fired power plants and industrial and commercial 
boilers are mercury emitters due to the presence of trace amounts of 
mercury in the raw fuel. Medical and municipal waste incinerators emit 
mercury largely due to the presence of discarded mercury-containing 
products in the waste stream.
    In an emission inventory for the state of Ohio, NWF estimated that 
over 98 percent of mercury releases to the state's air and water were 
to the air. Fifty-five percent of the 16,700 pounds of annual mercury 
emissions to the air were from coal-fired power plants. Our study 
indicated that 50 times more mercury was released from human-generated 
air sources than from natural sources in Ohio, based on a very rough 
estimate of natural emissions from soils.
    While not all of the emitted mercury from a given industrial 
facility will wind up in a nearby waterbody, these releases of mercury 
can be put into perspective by considering the very small amount of 
mercury necessary to contaminate a given lake. A medium-sized coal-
fired power plant, which typically has little mercury-removing 
technology, can emit in the neighborhood of 50 pounds of mercury per 
year. By contrast, 5,000 walleye in the two-to three-pound size class 
contaminated to a level of 0.5 ppm (a level sufficient to trigger fish 
consumption advisories) would contain a total of less than one-tenth of 
an ounce of mercury.
    The EPA emissions estimates for many combustion sectors (power 
plants, incinerators, cement kilns, etc.) are based on estimates using 
the amount of material burned (e.g., coal, oil, or other fuel), and 
estimated emission factors (concentration of mercury in the fuel). 
Thus, there is still some uncertainty in actual mercury emissions, in 
particular for the utility industry. A thorough analysis of actual 
emissions rates and measurements of mercury content of as-fired coal 
would clarify the extent to which utilities are a major contributor to 
U.S. mercury emissions. Unfortunately, report language currently EPA 
Appropriations bill currently before a House-Senate Conference 
Committee would block EPA's plans to collect this information, as well 
as any other regulatory action directed at mercury emissions from 
utilities.
    As part of the Mercury Study Report to Congress, the EPA also 
conducted a thorough modeling study estimating mercury deposition 
patterns in relation to known sources. The study estimated that while 
as much as two-thirds of the mercury emitted from anthropogenic sources 
in the U.S. may be deposited outside the country, mercury deposition 
within the country would be highest in the southern Great Lakes and 
Ohio River Valley, the Northeast, and scattered areas in southern 
states, including Florida. All of these regions are within or downwind 
of significant industrial regions or regions where there is a high 
concentration of coal-fired utilities. Due to several factors, 
including funding limitations and the fact that clean measurement 
techniques have become available only relatively recently to measure 
mercury in precipitation and surface waters, there are limited data on 
actual mercury deposition patterns around the country. The authors 
above note that the limited available field data tend to agree with the 
regional mercury depositional modeling, within a factor of two.
    A recent survey of mercury concentrations in common loons found a 
general regional trend of increasing concentrations from west to east 
across North America, which mirrors the general pattern seen in the 
Mercury Study Report. In another study measuring mercury at a site in 
the Lake Champlain basin, highest mercury deposition occurred during 
spring and summer months, and highest mercury values during these 
seasons were associated with air transport from the west, southwest and 
northwest. These are the general directions of regions of significant 
industrial mercury sources.
    Other recent studies have confirmed that human-generated mercury 
sources can have significant regional impacts. A modeling study 
examining mercury deposition in the Great Lakes estimated that 83 
percent of the mercury loadings were attributable to anthropogenic 
sources. Based on limited mercury data and relationships to sulfate and 
other parameters, researchers inferred that some of the higher mercury 
concentrations detected in air and rain in northern Wisconsin likely 
had sources in industrial regions nearby.
 current regulations and initiatives to reduce mercury releases to the 
                              environment
Regulatory Programs to Control Mercury
    The EPA has moved forward in recent years to implement several 
regulations on known mercury-emitting sectors. The outstanding 
exception to this trend is that there are no controls on mercury 
released from coal-burning utilities. The agency has issued final 
emissions limits for municipal waste combustors and medical waste 
incinerators, and has proposed emissions standards for hazardous waste 
incinerators, including cement kilns that burn hazardous waste. 
Regarding other sectors, including commercial/industrial boilers, 
chlor-alkali plants using the mercury cell process, and Portland cement 
kilns, the agency is ``evaluating the impacts of mercury reductions'', 
but has yet to promulgate final rules.
    Notably absent are controls for the largest known source sector of 
mercury emissions, fossil fuel-fired power plants. As controls on other 
sectors, including municipal and medical waste incinerators, are fully 
implemented by the states, emissions from these sectors will continue 
to drop, creating a situation in which relative contributions from 
coal-fired utilities will increase. In fact, the EPA's recent Utility 
Air Toxics report estimated that annual mercury emissions from electric 
utilities will increase from 51 to 60 tons between 1994 and 2010.
    While the EPA has not proposed formal emissions limits for 
utilities, the agency has proposed a plan to monitor mercury levels in 
as-fired coal at all coal-fired power plants, and to monitor mercury 
concentrations in stack exhaust at selected plants. This proposal has 
created intense opposition from the utility industry, in spite of 
claims from some in the industry that not enough is known about the 
actual amounts and forms of mercury emitted to consider controls. This 
opposition has resulted in the report language in the EPA 
Appropriations bill. NWF urges the Senate to seek removal of this 
report language. It can only be in everyone's interest to have more 
complete, accurate information on actual emissions from all known 
mercury sources.
    While there has been very limited EPA action addressing mercury 
from electric utilities, controls recently promulgated on particular 
matter and nitrogen oxide emissions may, in small part, help address 
the mercury problem. The need for protecting our air from excessive 
levels of particulates and ozone is clear, in terms of the thousands of 
deaths each year that can be prevented with these controls in place. 
Although scrubbers and filters for these other pollutants will not 
specifically address mercury, which is more difficult to trap when it 
is in the gas phase, there will likely be some incidental capture of 
mercury, which will aid in reducing mercury emissions from plants 
subject to the new standards, as discussed below.
Voluntary Initiatives
    In addition to regulatory approaches, there are voluntary 
initiatives that have begun in several regions and states. These 
include sector-specific initiatives, statewide programs, and regional 
plans to address mercury contamination. Minnesota has innovative 
programs to encourage product substitution in cases where non-mercury-
containing products are available.
    NWF has worked with representatives of the health care industry and 
municipal waste water treatment plants to develop common-sense 
approaches to eliminating mercury in products in the waste stream of 
those two sectors. Our office has published two reports, Mercury 
Pollution Prevention in Healthcare: A Prescription for Success, and 
Mercury Pollution Prevention for City Wastewater Plants: A Guide for 
Great Lakes Communities. These reports include several case-studies of 
facilities that have substantially reduced the amount of mercury used 
and released to the environment in the Great Lakes region.
    The Binational Toxics Strategy signed by the U.S. and Canada to 
virtually eliminate persistent toxic substances in the Great Lakes 
region includes a goal of reducing releases of mercury from U.S. 
sources by 50 percent by 2006. A mercury workgroup is examining 
strategies for reducing mercury use in various industries, and will 
hold a meeting later this fall to address mercury emissions from the 
utility sector in the region.
    A plan that could have regulatory components was signed by the New 
England Governors and Eastern Canadian Premiers on June 8, 1998, to 
reduce regional mercury emissions by 50 percent by 2003. The agreement 
calls for tighter controls on incinerators, utilities, and other 
sectors, elimination of non-essential uses of mercury in household and 
other products, and source reduction, segregation, and safe waste 
management to minimize releases of mercury through the waste stream.
    While all these initiatives are laudable, it is unlikely that the 
ambitious goals in the regional initiatives (50 percent overall mercury 
reductions) will be met without a strong regulatory commitment to 
contend with the largest mercury source coal-burning utilities.
Solutions to the Mercury Problem in the United States
    Due to the widespread problem of mercury contamination in the U.S. 
and beyond, a multi-pronged strategy is needed to reduce mercury levels 
so that wildlife and people are free of the threats posed by mercury 
pollution. Given that a major source sector in the U.S. remains without 
specific controls in place for mercury, increased attention to the 
electric utility sector is an essential place to begin.
Controls on Fossil Fuel-Fired Power Plants
    As noted above, the relative contribution of coal-fired power 
plants to the total mercury emissions load in the U.S. will continue to 
increase over the next decade and beyond if nothing is done. While most 
other major mercury-emitting sectors either comply now or will soon be 
required to comply with mercury emission standards, the utility 
industry continues to have no requirements to even monitor mercury 
emissions, let alone control emissions. Senator Leahy's bill is a step 
in the right direction to correct that situation. Not only does it 
require the promulgation, under the Clean Air Act, of controls 
requiring specific reduction targets, it also requires that a sensible 
monitoring program for emissions and fuel mercury levels be required in 
both the utility and commercial/industrial boiler industries.
    Opponents of increased controls to reduce mercury from the utility 
sector have advanced several flawed arguments. These include 1) Much of 
the mercury emitted is transported outside the U.S., thus entering the 
global mercury pool; 2) Some of the mercury deposited on the U.S. comes 
from sources outside the U.S.; 3) Not enough is known about mercury 
emissions, deposition, and exposure in people to promulgate controls 
now; 4) Controls for mercury would be too expensive.
    The arguments that much of the utility industry's mercury emissions 
are transported outside the U.S., and that the U.S. is also impacted by 
foreign mercury sources are flawed for these reasons:
    1)Although modeling research shows that as much as two-thirds of 
the U.S. utility mercury emissions may drift outside the U.S., the data 
also show that mercury deposition within the country is highest in and 
near industrial regions, including regions with more coal-fired power 
plants. Also, this argument is similar to suggesting that dilution is 
the solution to pollution. It may be true that if an exhaust stack is 
tall enough, the pollutants will be transported far from the source. 
But for pollutants such as mercury, that do not break down in the 
environment, even small amounts can bioaccumulate up the food chain to 
dangerous levels for people, fish, and wildlife.
    2) There are ongoing questions within the research community on the 
extent to which mercury emissions from utilities are mostly transported 
long distances. Preliminary research in several areas of the U.S. 
indicates that there may be significant regional deposition (i.e., 
within several hundred miles) close to fossil fuel-fired utilities and 
other sources.
    3) Although other countries are also emitting mercury, the U.S., as 
a powerful industrial nation, should show responsibility and leadership 
in controlling pollution that drifts past our borders. The U.S. has no 
moral authority to prod other countries if we are not doing everything 
we can to reduce pollution at home, especially given that we have more 
resources and technical capability to address the problem. The U.S. 
should be setting an example of environmental stewardship to other 
countries rather than continuing to allow extensive pollution from 
decades-old power plants.
    The argument that there is insufficient knowledge about mercury 
transport and exposure to justify controls is also flawed. More 
research on mercury transport, deposition, and human exposure is 
needed. However, as noted above, evidence already clearly shows that 
utility mercury emissions are causing problems throughout much of the 
country. Moreover, other sources of mercury pollution, including 
incinerators, are already implementing controls, while mercury 
pollution from utilities goes on un-abated. Operators of municipal 
waste water treatment plants are justifiably concerned about the costs 
of capturing and removing small amounts of mercury in order to meet 
water quality standards necessary to protect the health of people and 
the environment. It simply goes against common sense to require some 
dischargers to spend large amounts of money to prevent mercury 
pollution while the biggest source continues to pollute unchecked.
    Finally, there are several flaws with and questions regarding the 
claim that controls for mercury would be too expensive.
    1) Any evaluation of the costs of instituting pollution controls 
should consider the costs of the pollution itself. Elevated mercury 
levels in the U.S. are thought to put up to 166,000 pregnant women at 
risk of exposing their fetuses to harmful mercury levels in a given 
year. The risk to these 166,000 women is that their children will 
suffer from neurological or development problems. How do we put a price 
tag on the lost intelligence or potential of a child?
    2) Another cost to consider is the extent to which mercury 
advisories discourage anglers from fishing in specific locations. 
According to the most recent National Survey of Fishing, Hunting, and 
Wildlife-Associated Recreation, there were 17 million angler trips and 
expenditures (trip and equipment) of $1.4 billion in the Great Lakes 
region alone in 1996.
    3) It is known that utility industry cost estimates have been 
inflated in the past, as was demonstrated in the debates on compliance 
cost estimates around the time of the 1990 Clean Air Act Amendments. In 
order to address the problem of acid rain in the U.S., Title 4 of the 
Act required 110 mostly coal-fired power plants to reduce sulfur 
dioxide emissions to 2.5 pounds per million BTU heat produced by 1995 
(Phase I). Estimates for complying with Phase I limits ranged up to $5 
billion annually by the Edison Electric Institute, and in other cases 
up to $30 billion annually for all utility provisions. The actual costs 
of achieving compliance with Phase I sulfur dioxide emission 
requirements was calculated in 1995 by the Energy Information 
Administration to be $836 million. This figure is approximately 0.6 
percent of the annual operating costs for investor-owned utilities in 
1995.
    The EPA Mercury Study Report estimated that reducing mercury from 
coal-fired utilities would cost $5 billion annually, based on an 
analysis of model plants. This sum has to be considered in light of the 
unquantifiable benefits that would accrue to families that could 
someday consume fish without concern for mercury-caused problems on 
their children, as well as improved health of loons and other wildlife 
and the factors noted above. In addition, as has been the experience 
with nearly all other cases of industrial controls, it is highly likely 
that new rules necessary to protect human health and the environment 
would create incentives for the development of new technologies that 
can more efficiently and cheaply reduce mercury emissions. Thus, the 
annual costs of mercury reductions will likely decrease after more 
research and development of technologies.
    Improved pollution controls on utilities are needed not simply to 
reduce mercury emissions, but emissions of other pollutants as well, 
including ozone-forming nitrogen oxides, acid rain-forming sulfur 
dioxide, particulate matter and other components that contribute to 
regional haze, and carbon dioxide that contributes to global warming. A 
comprehensive approach that addresses these sources alone should have 
the added benefit of reducing some mercury incidentally. Given the new 
regulations for ozone and particulate matter and the interest among 
some in industry, and millions of consumers, for more environmentally-
friendly forms of energy generation, this should be recognized as a 
window of opportunity for the electric utility industry to begin a 
committed transformation to a cleaner energy future.
Several Mercury Control Strategies and Technologies Available to the 
        Electric Utility Industry
    Promising strategies currently available for mercury control 
include fuel switching (i.e., switching from coal to natural gas, which 
contains less mercury), advanced coal cleaning, flue gas 
desulfurization scrubbers, and activated carbon injection. Fuel 
switching (in particular, switching from coal to natural gas) is a 
relatively simple technique for drastically reducing mercury emission, 
given that the mercury levels in natural gas are much lower than levels 
in coal. In addition, with the relatively abundant supplies of natural 
gas currently available, and utility deregulation beginning in a number 
of states, this should be a priority for utilities competing for 
consumers desiring cleaner energy generation.
    In some studies, advanced coal cleaning has resulted in reduced 
mercury levels in coal by up to 60 percent. In other pilot studies, 
activated carbon injection in combination with other techniques and 
lower flue gas temperatures has achieved median mercury reductions as 
high as 98 percent. The problem of large amounts of carbon needed for 
this technology may yet be solved by other innovations.
    Another control technique is the use of flue gas desulfurization 
scrubbers, which are currently installed on 25 percent of U.S. coal-
fired generating units. Although these scrubbers are designed to remove 
sulfur dioxide, they can be effective at removing some of the mercury 
in flue gases as well. More widespread adoption of this technique by 
other U.S. utilities, in order to address the continuing problem of 
acid deposition in New England, parts of the Appalachian Mountains, and 
elsewhere, would have the added benefit of mercury reductions. Other 
emerging technologies include modifying standard sorbents to increase 
their capacity to absorb mercury, modification of existing technologies 
(such as flue gas desulfurization scrubbers), the Enhanced Limestone 
Injection Dry Scrubbing process, and enhanced fly ash scrubbing.
A Comprehensive Approach to Controls in the Utility Sector
    The existence of continuing problems of mercury contamination 
causing fish advisories and health impairments, acid deposition 
affecting freshwater ecosystems and forests in many parts of the 
eastern one-third of the country, ozone and particulate pollution 
causing respiratory illnesses in thousands, and carbon dioxide 
contributing to the buildup of greenhouse gases, all point to the need 
for a comprehensive approach to dealing with environmental problems 
from power generation. In the interim, the use of co-controls (i.e., 
capturing mercury as well as other pollutants) should be pursued 
wherever possible, and will lead to reduced costs of complying with 
emissions standards and improved benefits for the environment and human 
health.
    It is important to keep in mind that in this critical early phase 
of utility deregulation, there may be pressures for a number of 
utilities to shift resources to the cheapest generation systems 
available. Unfortunately, these may be old, dirty coal plants. The 
provisions of S. 1915 would help ensure that this situation does not 
result in even more mercury pollution than has already occurred over 
the past decade.
Other Provisions of S. 1915
    In addition to the sound recommendations on requirements for the 
utility industry to reduce mercury emissions, S. 1915 also contains 
needed provisions to address mercury emissions from other sectors, 
including municipal waste combustors, medical waste incinerators, and 
hazardous waste incinerators. Although rules are either promulgated or 
in review for these sectors, the bill adds important language on 
monitoring, reporting and/or source separation that are important 
provisions not currently being considered in rules for these sectors.
    The recommendations in the bill for controls on coal- and oil-fired 
commercial and industrial boiler units are a welcome and necessary 
component of the bill, given that this sector was estimated to 
contribute 18 percent of mercury emissions in the 1994-95 national 
emission inventory. While Portland cement plants are a slightly less 
significant source of annual mercury emissions in the U.S., the 
potential for mercury contaminated dust to deposit in nearby populated 
areas indicates the need for the types of strong controls included in 
S. 1915.
    Similarly, the bill's strong permitting, monitoring and reporting 
requirements for chlor-alkali plants would insure that this sector, 
which is important both in terms of mercury use and emissions, will be 
subject to stringent emissions limits. Although the number of chlor-
alkali plants using the mercury-cell process in the U.S. is relatively 
low (14), the significant mercury use in the industry (approximately 
160 tons/year) indicates a crucial need to address what may be an 
under-estimated source of significant mercury releases. The prospect of 
new controls on mercury emissions may help spur some facilities to 
conduct more thorough life-cycle assessments of the fate of mercury 
used in their plants, and potentially switch to one of the other non-
mercury-based technologies.
    Finally, Section 11 of S. 1915 contains a number of important 
provisions to address mercury in an international context, including 
the requirement for completion of an emissions inventory for North 
America. Requirements which include efforts to describe mercury 
transport pathways, as well as recommendations for pollution control 
measures and options for eliminating or reducing transboundary mercury 
pollution would be pioneering efforts to increase our ability to 
understand, prevent and control mercury pollution. In addition, the 
provision to evaluate the adequacy, completeness, consistency, and 
public dissemination of fish consumption advisory information addresses 
an extremely important issue. The reporting requirement would ensure 
easy public access to advisory information at all geographic levels, 
and a compilation would allow greater ease in assessing the consistency 
and completeness of the state advisories.
Conclusion
    NWF applauds Senator Leahy and this committee for its leadership in 
addressing this important issue. Everyday across this country, a 
grandfather takes his granddaughter to a lake for an afternoon of 
fishing. If they are lucky, they will enjoy each other's company and a 
beautiful afternoon with nature. They might even catch some fish. If 
they do, the grandfather will face a dilemma. If they are like most 
daughters, they will beg to take those fish home and cook them for 
dinner. Unfortunately, chances are good that those fish contain small 
amounts of mercury. The amount of mercury may be safe for granddad. It 
might even be safe for his granddaughter. But, if they are from one of 
the 15 states that have a statewide advisory warning them about unsafe 
levels of mercury in their fish, granddad will have to decide how much 
risk to subject his granddaughter to. Even worse, chances are good that 
they like most people are completely unaware of what advisories the 
state issues for their lake.
    S. 1915 is an important step toward reducing and preventing mercury 
pollution across this country. S. 1915 sets important benchmarks and 
timelines for reducing pollution from the most important sources so 
that someday, people will be able to eat fish from our nation's lakes, 
rivers and streams without risking the health of themselves or their 
families.
                                 ______
                                 
   Responses by Tim Eder to Additional Questions from Senator Inhofe

    Question 1. Do you agree that the fish consumption studies, rather 
than the Iraqi grain studies, more closely resemble the situations here 
in the United States that health agencies should be concerned with?
    Response. We believe that health agencies in the United States 
should be basing advisories to the public on all relevant mercury 
exposure/epidemiological studies, with an eye toward precautionary 
measures in the face of uncertainty. While fish consumption studies are 
more relevant to mercury exposure among the great majority of people in 
the United States, thorough analyses of contamination incidences, such 
as the poisoning episodes in Iraq, offer additional opportunities to 
assess health impacts of mercury exposure, and thus to set appropriate 
organic mercury exposure thresholds that are protective of human 
health, in particular for the fetus and sensitive populations. Because 
of the documented health effects of mercury exposure, and the genetic 
diversity and wide range of fish consumption patterns in the U.S., the 
use by public health agencies of a range of studies, including those 
from the Iraqi poisoning episodes, is entirely appropriate in setting 
appropriate mercury reference doses for human exposure.

    Question 2. What specific information is needed in order to have a 
better scientific understanding of mercury and its health and 
environmental impact?
    Response. There have been a number of recent advances in our 
understanding of mercury and its health and environmental impacts. 
While it has been recognized for over a decade that mercury can cause 
reproductive impairments in waterfowl, and obvious neurotoxic effects 
in people, it has only been in the last decade that more subtle effects 
in both people and wildlife have begun to be thoroughly investigated. 
We believe there remains a need for researchers to investigate the more 
subtle types of neurological effects (visual-spatial, attention, 
memory, etc.) in children exposed to methylmercury in the womb, 
including effects that may be present many years after exposure. These 
studies should be continued in the cohorts already established, and the 
more subtle tests should be used, where possible, in all relevant 
epidemiological studies examining effects of mercury exposure.
    We believe the government and industry need to continue to put more 
resources into obtaining good data on mercury releases to the 
environment, as we mentioned in our testimony and we endorse the 
information collection and control proposals contained in Senator 
Leahy's omnibus mercury bill. in addition, we support further 
ecological research on reproductive and other effects on loons, bald 
eagles, and other wildlife (in particular piscivores) that may be 
threatened by mercury contamination.

    Question 3. Given the testimony received during the hearing, 
regarding the incompleteness of the scientific understanding of 
mercury, isn't it prudent to vigorously pursue scientific research 
which addresses the unresolved issues of mercury speciation, and the 
transport, fate, and effects of elemental mercury? Wouldn't it also be 
prudent to have a coordinated Federal effort which, among other things, 
determines the appropriate level for a mercury exposure reference dose?
    We acknowledge it is prudent to pursue scientific research to 
address unresolved issues of mercury speciation, transport, fate and 
effects, and we recognize, and support, the fact that this research 
will continue. However, it is recognized by both scientists and 
policymakers that mercury can be transformed in the environment from 
inorganic to the more harmful organic forms. Thus although most 
anthropogenic emissions are in the form of either elemental or oxidized 
mercury, transformation of this emitted mercury in wetlands or other 
water body sediments can lead to mercury exposure in fish, wildlife, 
and people. Because it has been generally recognized by the scientific 
community that mercury levels in the active environment worldwide have 
increased at least two-to-threefold since the beginning of the 
industrial era, developed countries such as the U.S. should not 
hesitate to institute measures to control preventable mercury 
emissions. Because of the fact that mercury is an element (and thus 
will never degrade in the environment), that contamination can 
therefore persist for decades after releases from human activity, and 
that active remediation of the environment following widespread mercury 
releases is impossible, we believe that stronger control measures 
should be taken now, even with remaining uncertainties in current 
exposure levels and effects.
    We also acknowledge the desirability of a coordinated Federal 
effort to deal with mercury, both from the point of view of reducing 
emissions and determining an appropriate mercury reference dose. A 
single, consistent recommendation for the methylmercury reference dose 
from the Federal Government would simplify health department decisions 
in determining fish consumption advisories. But in the face of 
uncertainty and varying recommendations regarding the reference dose, 
we, believe it is entirely appropriate for health departments to issue 
advisories based on a precautionary approach, and thus base their 
decisions on the most conservative reference dose recommended by 
Federal agencies.
                               __________
  Statement of Leonard Levin, Electric Power Research Institute, Palo 
                                Alto, CA
                              introduction
    I am Leonard Levin, manager of the research program on air toxics 
and mercury at EPRI (founded as the Electric Power Research Institute). 
We are a nonprofit collaborative science and technology consortium with 
headquarters in Palo Alto, California. Members of EPRI represent about 
87 percent of the U. S. regulated electric power industry with 
significant international participation. EPRI has a twenty-five year 
record of providing highly respected and objective science and 
technology to address important energy and environmental questions.
    My own background is primarily in atmospheric sciences. My 
doctorate is from the Institute for Fluid Dynamics and Applied 
Mathematics at the University of Maryland, with other degrees from MIT 
and the University of Washington. I have over 25 years' experience in 
environmental sciences.
    EPRI has sponsored research on mercury since the early 1980's, and 
in the past few years has joined in cooperative mercury research 
programs with the U.S. Environmental Protection Agency, the Department 
of Energy, the National Park Service, and other federal, state, and 
international agencies. The total EPRI research budget on mercury to 
date is about $20 million, at a level of about $2 million per year. My 
purpose today is to discuss what science currently can tell us about 
mercury in the environment, and more importantly to highlight the key 
areas where we know our understanding is less than sufficient.
                              perspective
    The issue of mercury in the environment is complex. Mercury is not 
only emitted from many currently-operating industrial sources, but was 
used industrially at a much greater rate earlier in the century. As an 
natural element in the earth's crust, mercury cannot be created or 
destroyed. It may persist in various compartments of the natural 
environment. Industrial activity has liberated a great deal of mercury 
from the earth's crust and mobilized it into many other compartments, 
including the atmosphere, the biosphere, and the human environment. 
Recent concern has focused on the potential health risk to U.S. 
consumers of freshwater fish that might contain mercury, and in 
particular on those who consume fish at a relatively high rate.
    Foodfish taken from both freshwater and marine environments exhibit 
mercury concentrations that extend over a wide range. Some of these 
fish, particularly larger, older fish such as shark and swordfish that 
feed on other aquatic species, may exhibit mercury levels that can 
raise health concerns. These levels of concern are set by Federal and 
state agencies based on studies of accidental mercury poisonings at 
high doses that are extrapolated to estimate the effects of low doses 
on U.S. populations. Some of these poisonings involved fish as the 
route of exposure to mercury, but others did not.
    Based on acute mercury poisonings that occurred in Japan and Iraq, 
it is known that high levels of mercury may cause measurable deficits 
in the mental and physical development of young children exposed during 
gestation. New scientific studies are now underway to clarify what 
mercury levels in children can produce adverse outcomes. Initial 
results from those studies indicate that mercury health effects on 
childhood development may be significantly less severe than previously 
believed.
                               background
    Prior to enactment of the 1990 Clean Air Act Amendments, EPRI 
research teams carried out the first accurate measurements of mercury 
emissions from operating power plants. These and other data were 
provided to the U.S. Environmental Protection Agency by EPRI and other 
utility groups, and by the U.S. Department of Energy. As a result of 
such joint research efforts, our understanding of mercury in the U.S. 
environment has improved significantly in the last 10 years.
    Nonetheless, many significant questions remain before a definitive 
quantitative assessment of the issue may be provided. Among these, 
three stand out:
    What portion of all mercury emissions is contributed by U.S. 
industrial emissions?
    How might mercury levels in fish reflect changes in the input of 
mercury to the atmosphere?
    At what levels of exposure might mercury pose a health threat
                     mercury: state of the science
A Note on Mercury Health Risk
    Human health risk assessments are carried out to evaluate the 
likelihood that adverse effects may result from exposure to mercury. 
These assessments can be visualized as moving along two parallel 
pathways. One pathway is human exposure analysis: how
    much mercury gets into the environment and reaches the human 
organism? The parallel analysis pathway is health hazard assessment at 
what levels of exposure does mercury pose a health threat?
    When these two assessments are combined, they address how much 
mercury humans are exposed to, and whether that level of mercury 
represents a health threat. That result is the human health risk 
assessment.
A Note on Data vs. Computer Models
    Because of the complex cycling of mercury through the environment, 
it is difficult to determine which sources contribute how much of the 
mercury found in fish. There are no current methods that allow us to, 
for instance, release a unique, benign material along with mercury from 
a particular industrial plant that would help us ``tag'' the mercury 
from that facility as it moves through the environment. For that 
reason, we must rely on computer models of mercury to assess its fate 
from source emissions, through atmospheric transport and deposition, to 
how much eventually makes its way into fish.
    It is important to distinguish, therefore, between data, or 
observed and measured occurrences of mercury in the environment, and 
model results, which are computer outputs from the models used. As one 
example, we have surprisingly few data points on how much mercury 
deposits from the atmosphere to the surface, where people live, but 
there are many model results that portray what those numbers might look 
like. When these model results are compared to the sparse data, the 
model results tend to be rather uncertain, by a factor of two or more, 
either over or underpredicting the observations. The conclusions drawn 
from these estimates concerning management of mercury should, 
therefore, be tempered by the uncertainties in the estimates on which 
the conclusions are based.
Emission sources
    EPA and EPRI are in essential agreement that the amount of mercury 
currently emitted by electric utility generation is about 50 tons per 
year nationally. Essentially all of the utility-emitted mercury is 
attributable to coal-fired plants. Most of these emissions come from 
power plants that are equipped with very tall stacks. The available 
evidence suggests that such tall stack sources disperse mercury over 
great distances, with small fractions being deposited locally. 
Extensive measurements done by EPRI and DOE make utility plants the 
best-characterized sources of mercury.
    By contrast, other man-made sources of mercury are less well-
characterized with respect to amounts and properties of emissions. Very 
few measurements exist on some other categories, such as chlor-alkali 
plants. In addition, these sources tend to emit mercury closer to the 
ground surface and, in some cases, in amounts greater than power 
plants.
    Recently, evidence has come to light that indicates motor vehicle 
fuels may be a source of mercury emissions and that source is therefore 
under-represented in our database.
    These measurements, primarily by the University of Michigan, are 
only indirect to date, with more data expected in the near future.
    The linkage between these sources and deposition is poorly 
understood, even for very large sources of mercury. This is largely 
because the chemical state of the mercury leaving a source is critical 
in determining how far the mercury will travel before it is removed 
from the atmosphere. Data on whether mercury from a particular source 
is ionized or in its ``elemental'' form are basically lacking for most 
sources.
    ``Legacy'' emission sources remain a very large area of 
uncertainty. These include both natural releases from geological 
formations, and previously emitted mercury issuing from soil that is 
due to activities (such as gold mining) extending back for hundreds of 
years. Recent progress has been made by U.S. and Canadian teams in 
measuring these ``legacy'' quantities directly. These studies indicate 
that U.S. ``legacy'' releases may equal all current industrial 
emissions of mercury combined.
Mercury environmental fate and transport
    Mercury emitted to the atmosphere from point sources can be either 
an elemental form, essentially mercury metal, or an ionic form that is 
more easily combined into chemical compounds. The ionic mercury is more 
water-soluble and can be deposited more easily close to its source by 
precipitation. The elemental mercury tends to enter long-range and 
global circulation, contributing to regional and global background 
levels. EPRI model results indicate that between about 70 percent and 
95 percent of mercury exiting a coal utility stack will travel hundreds 
or thousands of kilometers before depositing to the earth's surface.
    Other data, more indirect, indicate that about 2,200 to 3,300 tons 
of mercury are released to the atmosphere globally each year from 
today's human activities; all current U.S. manmade releases make up 
only about 7 to 10 percent of this total. Recent indications are that 
up to \1/4\ of the global total may emanate from mainland Asia, for 
which data are essentially lacking.
    Direct measurements of mercury depositing to U.S. territory are 
still sparse, and not representative yet of the entire nation. Model 
results are useful to indicate where potential ``hot spots'' may be 
located, but we often do not have verifying measurements from those 
areas. We also do not have any direct data quantitatively linking 
sources of atmospheric mercury with measured concentrations in soils, 
waterways, or aquatic species.
    New field studies of mercury in the U.S. environment are just 
reaching fruition. Major work in Florida, funded by state and U.S. 
agencies, EPRI, and Florida utilities, is approaching completion, 
showing that a great deal of Florida mercury appears to originate 
globally, arriving in Florida with air masses traveling from Africa or 
southern Europe. A very large field study in the Lake Superior region 
began in mid-1998, and will continue for at least 2 years, involving 
researchers funded by a number of states, Federal agencies, EPRI, U.S. 
and Canadian utilities, and Canadian national and provincial agencies. 
These studies may begin to provide the extensive field data sets
    needed to understand how mercury released from particular sources 
behaves in the environment.
Mercury in terrestrial and aquatic systems
    Mercury in most parts of the environment is at extremely dilute 
levels, measured typically in trillionths of an ounce for each pint of 
water (or, nanograms per liter). Mercury entering U.S. waterways by 
atmospheric deposition or by runoff tends to wind up mostly in lake 
bottom sediments, with a small portion (perhaps one-one thousandth) 
eventually moving into fish tissue.
    Some of the mercury that reaches lakes and wetlands is converted by 
bacterial action into an organic form called ``methylmercury.'' 
Methylmercury is taken up by fish, and can be measured in some fish at 
concentrations that are very much higher than those in the water in 
which the fish live. As predatory fish eat other fish that contain some 
mercury, the concentrations of mercury in the predatory fish can 
increase many-fold, often reaching levels millions of times as high as 
the concentration in the surrounding water. High levels of mercury have 
been observed in predatory fish caught from remote lakes far removed 
from any point sources of mercury.
    Despite our understanding in principle of how mercury enters fish 
caught for food, measurement data do not reveal the origins of the 
mercury found in these fish. We have no way of knowing how much 
originates from currently operating U.S. sources versus how much is 
recycled within the lake from the mercury ``reservoir'' in bottom 
sediments. This mercury in sediments may have originated decades or 
centuries earlier, or be due to releases from sources outside of the 
U.S.
    Most importantly, we do not have a good understanding of the means 
by which open ocean fish, such as tuna or shark, take up and 
concentrate mercury. Indeed, one of the best-documented cases of 
elevated mercury levels in U.S. residents arose in a Wisconsin family 
that ate a diet rich in both locally-caught and imported fish. 
Subsequent studies showed that this family received its mercury dose 
primarily from supermarket-purchased Chilean seabass. The domestic fish 
consumed were found to have mercury levels of no concern.
Human exposure and health effects
    A number of studies shows that nearly all the human exposure to 
methylmercury occurs via fish consumption. [There are two primary 
exceptions to this. One is accidental releases, usually in industrial 
processes, and usually for short periods. The second is mercury used in 
tooth filling amalgams; exposures from amalgams to developing fetuses 
are still under scrutiny.] This exposure may subject consumers to the 
organic form of mercury found in fish tissue. Such mercury typically 
resides in the human body for several weeks.
    To date, mercury health risk estimates have primarily relied on 
data from a 1970 acute poisoning incident in Iraq that involved severe, 
rapid exposure from consumption of contaminated grain, and some deaths. 
These data are the basis for the current EPA
    ``Reference Dose'' or health effects threshold level. This 
Reference Dose refers to a level of exposure that is without expected 
risk over a lifetime. A larger Reference Dose implies a less severe 
health effect from the substance, since it allows more mercury intake 
per day. The most sensitive individuals are children, who, even before 
birth, may suffer developmental effects from mercury entering their 
bloodstream from the mother. During pro- and post-natal development, 
mercury can act as a toxin to development of the central nervous 
system.
    Recent research shows the current Reference Dose may be 
unnecessarily strict. By setting this threshold at a level well below 
that truly necessary to protect human health, unnecessarily stringent 
protective measures may be inadvertently required by regulatory 
agencies. In addition, there are proven health benefits from eating 
fish, not only for adult cardiovascular health, but for childhood 
neurological development. In addition, efforts to restrict mercury 
exposure may lead consumers to reduce their consumption of fish, even 
though the available evidence indicates that fish consumption has 
significant health benefits, even for children.
    This reexamination of the Reference Dose is based on two new 
studies of children exposed to mercury via fish consumption (by 
themselves or their mothers, during children's gestation). These 
studies, in the Seychelle Islands in the Indian Ocean, and the Farce 
Islands in the North Atlantic Ocean, are of populations with diets that 
are highly dependent on marine life. The new studies are more relevant 
to U.S. populations that consume fish than are the data from the acute 
grain poisoning incident that took place in Iraq.
    Results from these studies are still being analyzed. The initial 
findings from the Seychelles study indicate that no significant mercury 
effect was found over a wide range of pre-natal exposures to children. 
The Farces study has reported finding evidence of a neurological effect 
at the highest mercury levels. However, the biological significance of 
these findings remains unclear. Further analyses and refinements are 
expected in the results of these studies over the next 2 or 3 years.
    Two independent analyses of the Seychelles results have suggested 
that the current EPA Reference Dose may be too severe by a factor of 3 
to 5; that is, consumers can be exposed to mercury levels 3 to 5 times 
as great as the EPA level without harmful effect to children. This 
implies in turn a wider availability of fish from U.S. waters that can 
be considered safe for consumption.
Mercury Management Options
    We do not yet have enough data to draw conclusions about which 
sources, or source types, contribute the most to mercury found in U.S. 
fish. Analyses indicate that background air emissions of mercury in the 
continental U.S., from natural plus ``legacy'' source areas, may be as 
large a source as all current industrial sources combined. In addition, 
global contributions to mercury are much larger than all U.S. sources 
combined. As a result, any potential changes in U.S. industrial 
emissions may leave the overall source term basically unchanged.
    As indirect evidence of this, there are no data showing any overall 
lowering of mercury levels in fish from remote lakes over the last 35 
years, despite an 85 percent drop in U.S. industrial mercury use in 
that time. Indeed, despite a relatively uniform national pattern of 
mercury deposition from the atmosphere, there are stark differences 
from lake to lake in the levels of mercury in fish, even the same fish 
species. For example, the State Health Department in Maine has noted 
that two adjacent lakes in Acadia National Park were found to have such 
different fish mercury levels that one lake carried a ``no 
consumption'' fish advisory, while the other lake was open to 
consumption of ail fish caught.
Additional Research
    Our understanding of mercury has significantly advanced in the last 
decade, but a great deal remains to be done. It is important to 
remember that all aspects of the issue have critical uncertainties. It 
would be unwise, for example, to consider mercury health effects alone 
as the remaining uncertainty on the issue. Significant research is 
underway on other critical areas of uncertainty as well. Some of the 
major studies to be completed include:
    <bullet>  National studies of background mercury sources and fish 
consumption;
    <bullet>  Refined methods to evaluate the links between source 
types and fish occurrences of mercury;
    <bullet>  Completion and analyses of the new health effects studies 
in children by independent investigators
Conclusions
    At the beginning of this discussion, I proposed three key questions 
that need to be examined. The first question suggested that we needed 
better information on mercury emissions from undocumented sources, 
particularly background sources. That information is now emerging, and 
appears to represent a large contribution to the national total. The 
second question asked how responsive fish mercury levels in the U.S. 
were likely to be to changes in atmospheric input. Indirect evidence 
shows that these levels are likely to respond very slowly to emissions 
changes. Finally, I raised the question of how severe the health 
effects from mercury are likely to be at U.S. exposure levels. Initial 
findings indicate we may have to revise our understanding of these 
health effects. In the case of one study, indications are that the 
effects of mercury might be quite a bit less than we once thought.
    Thus, our understanding of the sources and behavior of mercury in 
the environment, and of its potential health effects, is entering a new 
phase. Over the next 2 to 3 years, results from current studies will 
appear in the scientific literature and allow a more informed 
examination of whether there is a basis in health risks for managing 
mercury sources. Informed decisionmaking can then be based on the most 
relevant scientific information.
                                 ______
                                 
 Responses by Leonard Levin to Additional Questions from Senator Inhofe
    Question 1. Do you agree that the fish consumption studies, rather 
than the Iraqi grain studies, more closely resemble the situations here 
in the United States that health agencies should be concerned with?
    Response. Conclusions about the health effects of mercury used by 
EPA are currently based on an acute, high-dose mercury poisoning 
incident in Iraq over 25 years ago. Yet, consumption of fish is the 
most important route of mercury exposure for U.S. residents, and at 
much lower levels. Fish consumption is also the route by which fetuses 
may be exposed to mercury, due to their mothers' diets. Interestingly, 
many consumer and angler studies have shown that store-bought imported 
marine fish can be a much greater source of mercury than locally caught 
species.
    Fish consumption studies elsewhere are applicable to U.S. exposures 
since they include (a) the same chronic, low-level exposure to mercury 
that may apply to U.S. residents; (b) the related beneficial health 
effects of fish consumption, particularly marine species, now 
documented for children as well as adults, (c) the concomitant exposure 
to selenium, a substance which may have a protective value for effects 
of mercury in humans (though this is still not well documented), and 
(d) the ability to do contemporaneous studies of actual exposure, 
rather than reconstructed exposures well after an accidental poisoning 
(as in Iraq).

    Question 2. What specific information is needed in order to have a 
better scientific understanding of mercury and its health and 
environmental impact?
    Response. Our ability to assess the impacts of mercury on U.S. 
residents depends on a full understanding of two key aspects of mercury 
in the environment. First, we need to improve our information on where 
mercury in the U.S. environment originates, how it moves into distant 
aquatic systems, and how it is concentrated in fish and ingested by 
humans. Second, we must accurately gauge the true impact of mercury on 
human health.
    Our understanding of mercury in the environment--the exposure to 
mercury--is also progressing. New information from field studies shows 
that natural and legacy mercury emissions in the U.S. may total as much 
as all current industrial sources. These need to be better quantified. 
Our knowledge of human exposures in the U.S at both average and high 
levels. is inadequate; new studies of exposure are beginning this year.
    The primary health concern about mercury arises from methylmercury 
in waterways, which is the organic form that finds its way through fish 
to human consumption. The process by which mercury is transformed from 
the inorganic form (dominant in source emissions and the atmosphere) to 
the organic methyl form, is not fundamentally understood.
    Levels of mercury in fish appear to be dominated by local water 
conditions, rather than distant source inputs, and so may be 
insensitive to source changes. Fish mercury levels are remarkably 
uniform throughout the U.S., despite the fact that most of the 
industrial mercury is emitted to the atmosphere in the east. Fish 
mercury levels have not changed in recent decades despite a reduction 
of 85 percent in the industrial usage of mercury. There are research 
plans to investigate this question in the field.
    The issue of mercury's health effects is being investigated in a 
number of studies The two most prominent of childhood development are 
those among fish- and whale-eating populations in the Faroe Islands of 
the North Atlantic, and among fish consumers in the Seychelle Islands 
of the Indian Ocean. It is expected that the analysis, interpretation, 
synthesis, and followup to these studies will proceed for about 3-4 
more years. It is these studies that have already produced new findings 
indicating potentially lower levels of mercury health effects than had 
been previously believed.
    Given the testimony received during the hearing, regarding the 
incompleteness of the scientific understanding of mercury, isn't it 
prudent to vigorously pursue scientific research which addresses the 
unresolved issues of mercury speciation, and the transport, fate, and 
effects of elemental mercury? Wouldn't it also be prudent to have a 
coordinated Federal effort which, among other things, determines the 
appropriate level for a mercury exposure reference dose?
    In joint research meetings with a number of Federal agencies over a 
10 year period, EPRI has advocated a comprehensive, integrated research 
effort on mercury. We have recommended an effort that focuses on key 
issues where understanding is lacking. This effort is underway, and our 
understanding of mercury emissions, atmospheric transport and fate, 
aquatic cycling, and human exposure and risk is greatly improved from 
ten or even 5 years ago. But we need to maintain this global research 
effort, to better inform policy and regulatory deliberations.
                                 ______
                                 
 Responses by Leonard Levin to Additional Questions from Senator Leahy

    Question 1. Submitted with your comments was an attached document 
from EPRI, ``Health Advisory for Freshwater Fish, ``questioning State 
fish advisories. What basis does EPRI have for initiation of a 
nationwide public health message in conflict with state programs?
    Response. State fish advisories are based on existing conclusions 
concerning the severity of mercury health effects on both adults and 
children. The EPRI document referred to in the question was prepared as 
a summary of new findings concerning mercury health effects. Those 
findings were applied to mercury fish advisories in the State of Maine 
by fir. Andrew Smith of the Maine Bureau of Health. The Maine results, 
reproduced in the EPRI document, showed that many surveyed lakes 
currently under mercury fish advisories in Maine would be considered 
safe for unlimited consumption of caught fish if the new health 
findings were adapted EPRI is simply reporting those findings from the 
State of Maine.
    The new findings, detailed at the hearing by Dr. Gary Myers of the 
University of Rochester, are the results of ongoing studies of children 
in the Seychelle Islands. Two independent teams of researchers, after 
analyzing the University of Rochester results, have concluded that 
mercury health effects on children may be only one-third to one-fifth 
as severe as previously believed. That is the basis for the EPRI 
document, and for my conclusion that these new findings if ultimately 
supported may significantly alter current fish advisory levels.

    Question 2. Does EPRl have emission data from coal fired power 
plants showing the levels of mercury currently being emitted to support 
the position in the Levin Statement? Has this information been provided 
to states working on the mercury problem?
    The position taken in the statement concerning power plant 
emissions is that EPRI and EPA (as well as many other agencies) are in 
essential agreement on the national total of utility mercury. Since 
1990, EPRI (and the U.S. Department of Energy) have carried out a 
national program of method development and measurement for mercury in 
power plant emissions, fuels, and waste streams around the United 
States. These data have been made publicly available in EPRI reports 
since 1994, and also provided as detailed print and electronic files to 
EPA. The data have been entered into the EPA public docket, starting in 
November 1994, and are easily available to all members of the public, 
including staff of state and regional regulatory agencies. EPRI has 
provided summary and detailed reports to state regulatory staff in many 
states and regions, including New Jersey, Michigan, Arkansas, 
Minnesota, Wisconsin, and the NESCAUM organization.

    Question 3. Your testimony indicates that studies in Florida show 
that the mercury is arriving from Africa or Southern Europe. Please 
provide us with the underlying meteorological and atmospheric 
circulation assumptions that you are relying on to reach this 
conclusion. What are the points of origin of these emissions? Are you 
aware that there are studies that show deposition in Florida from 
sources within the state?
    Response. Research on the origins and fate of mercury on the 
Florida peninsula has been underway for 10 years, under joint 
sponsorship of the State of Florida, Florida utility companies, EPRI, 
the US EPA, the US Geological Survey, and others. Part of these studies 
involves field and modeling experiments to determine the level of 
mercury coming into the state from elsewhere (partially via the 
easterly trade winds) compared to the level originating from current 
and re-emitting sources within the state. Analysis and interpretation 
of the data from these studies are still underway. Several 
investigations suggest that more than half of the mercury deposition 
occurring in the Everglades comes from global background.
    Professor William Landing of the Department of Oceanography at 
Florida State University has concluded, based on 3 years' data on 
mercury deposition and related meteorology, that about 70 percent of 
the mercury depositing within the state has its origin in this long-
range transport, from air masses beginning in the eastern Atlantic. 
Those air masses are likely to entrain mercury from source areas in the 
Mediterranean basin, especially southern Europe and northern Africa.
    The matter is still under study, however. Dr. Gerald Keeler, of the 
University of Michigan, also involved in the south Florida studies, has 
reached the opposite conclusion, but based on a shorter data set from a 
pilot study. This is one of many open questions on mercury.

    Question 4. What proportion of ``legacy'' mercury emissions in the 
global pool are attributable to emissions from facilities in the United 
States? Does your testimony create a misimpression that mercury in the 
global pool came from other places when in fact much of the mercury in 
the global pool was originally emitted by power plants, waste 
incinerators, and other sources in the United States?
    Response. U.S. emissions from utilities currently make up about 1 
percent of global emissions of mercury; U.S. emissions from all current 
industrial sources make up about 3 percent of global total emissions 
(from the EPA Mercury Study Report to Congress). Since mercury's 
lifetime in the global atmosphere is about 1 year, the U.S. 
contribution is also about 1 percent and 3 percent respectively. 
Indeed, it is probably somewhat less, since about 30 to 50 percent of 
U.S. emissions deposit within U.S. borders.
    New measurements of emissions have been made from mercury 
background source areas. These include both natural areas, undisturbed 
by industrial activity, and mercury ``legacy'' areas. The latter 
include mineral extraction and industrial sites once active, but no 
longer operating (such as old gold mining areas). These legacy areas 
show present-day emissions that may total as much as all current 
industrial emissions in the U.S. From this, it is plausible to conclude 
that, when those areas were actively in use, emissions to the air were 
even greater. More research is underway to extend these measurements 
nationally.
    U.S. industrial use of mercury has declined by about 85 percent in 
the last 40 years. These industrial uses of mercury are likely to have 
led to local (rather than global) circulation of the material, winding 
up in distributed industrial uses and later in landfills. Incineration 
of mercury contained in industrial and consumer products has tended to 
occur in facilities with low combustion temperatures and relatively low 
emission stacks, more likely leading to local and regional deposition, 
rather than entry into the global circulation.
                               __________
                   Electric Power Research Institute
               Setting a Safe Exposure Level for Mercury
   environment division air toxics health and risk assessment target
    Mercury is a metal that may induce toxic health effects, including 
neurological damage. To protect citizens, the U.S. Environmental 
Protection Agency (EPA) is charged with setting a ``safe'' exposure 
level for mercury. A safe exposure level based on historical data is in 
place, but emerging information from basic research is altering our 
understanding of mercury's impact on human health. This new information 
has led another Federal agency to propose a less restrictive safe 
exposure level.
    Poisoning Accidents and EPA's Reference Dose The most common form 
of mercury found in fish is the organic form, called methylmercury. Two 
historical poisoning episodes highlight the toxicity of methylmercury 
at extremely high levels. In the 1950's, mercury discharged from a 
chemical plant into Japan's Minamata Bay poisoned people who ate 
contaminated marine life from the Bay, causing them to develop so-
called ``Minamata disease'' from which 100 died and many more suffered 
nervous system disorders. In the early 1970's, Iraqis ate bread 
accidentally made with Hour milled from wheat treated with a mercury-
based fungicide. Several hundred people died, and subsequent studies 
showed that mothers who were highly exposed to methylmercury by eating 
the bread during pregnancy gave birth to children who experienced 
developmental delays, such as walking months later than unexposed 
children. Because it took lower exposures to affect babies developing 
in the womb than to affect adults, the Iraqi episode led to the public 
health objective of protecting women of childbearing age from unsafe 
exposure to methylmercury that would harm their babies.
    To set protective exposure levels, public health agencies worldwide 
examined a variety of mercury data. EPA used analyses of the Iraqi 
poisoning episode, which showed that methylmercury affected babies 
developing in the womb when it was present in concentrations greater 
than 10 parts per million in their mothers' hair. To this threshold, 
EPA added an uncertainty factor of 10 to protect highly sensitive 
individuals. The resulting ``reference dose'' (the level of exposure 
that is virtually risk-free) adopted by EPA for methylmercury is 0.1 
<greek-m>g/kg-day. This means that EPA considers it safe to take into 
the body no more than 0.1 micrograms per day of methylmercury, per 
kilogram of body weight--or, for a 70 kilogram (145 pound) individual, 
7 micrograms per day.
Well-Designed Studies and a Revised Safe Exposure Level
    Since the historical poisoning episodes in Minamata Bay and Iraq, 
researchers have carefully designed new studies to give a more 
realistic picture of human exposure to methylmercury in routine daily 
life and detailed information about its potential long-term effects in 
children. These studies focus on populations who eat fish and seafood, 
which are the main sources of continuous, low-level human exposure to 
methylmercury. Study populations include people living in Peru, New 
Zealand, the Seychelles Islands, the Faroe Islands, and Canada. The 
Seychelles and Faroe Islands studies each involve nearly 1000 mother-
child pairs, followed from pregnancy onward. At succeeding ages, 
children in these studies have taken tests designed to assess their 
psychomotor, cognitive, and social development.
    In general, results to date from these contemporary studies do not 
support the need for a safe exposure level as cautious as the one EPA 
calculated based on the Iraqi poisoning episode. Indeed. the Agency for 
Toxic Substances and Disease Registry (ATSDR)--part of the U.S. Public 
Health Service--has calculated a revised safe exposure level based on 
information from the Seychelles Islands study, which it deems the most 
suitable for assessing childhood developmental effects. Data from the 
Seychelles Islands study reveal no adverse effects to children there 
from any measured level of exposure to methylmercury. On the basis of 
this study, the ATSDR has proposed a new safe exposure level of 0.5 
<greek-m>g/kg-day. This means that it is safe to rake into the body 0.5 
micrograms per day of methylmercury, per kilogram of body weight or 5 
times the amount permitted by the current EPA level.
    Another recent study, using data from the Seychelles Islands but 
employing different methods, reached the same conclusion--that a safe 
exposure level of 0.5 <greek-m>g/kg-day is appropriate. This second 
study, jointly sponsored by Alcoa, EPRI, and a number of U.S. 
utilities, has undergone external scientific peer review and is planned 
for publication.
    Impacts of Current Analyses While ATSDR's revised safe exposure 
level of 0.5 <greek-m>g/kg-day doesn't look that different from EPA's 
reference dose of 0.1 <greek-m>g/kg-day, a revised safe exposure level 
would likely lift restrictions on fish consumption at many of the U.S. 
lakes and rivers where fishermen are currently warned of possible 
mercury contamination in fish they might catch and eat. At fishing 
sites where mercury contamination might prevail, state governments post 
advisories telling fishermen how many fish they may safely consume. In 
some cases, the advisories prohibit fish consumption. These advisories 
are often aimed at women of childbearing age and young children to 
protect normal, healthy development in early childhood. For example, in 
sampled lakes in the state of Maine (see Figure 1), a revised safe 
exposure level would remove bans on fish consumption, and would 
dramatically reduce advisories limiting fish consumption by children 
and by women of childbearing age.
Conclusion
    Newly emerging data indicate that methylmercury exposure for 
pregnant women has much less impact on the early development of their 
children than previously believed. Independent analyses based on these 
data support a revised safe exposure level that is 5 times less 
stringent than the current EPA reference dose for mercury. This new 
recommendation sharply reduces the estimated number of U.S. women 
potentially exposed above safe levels and may have important impacts on 
related issues, such as recreational fishing in U.S. lakes.
                               references
    1. Cox, C., et al., Analysis of data on delayed development from 
the 1971-1972 outbreak of methylmercury poisoning in Iraq: Assessment 
of influential points, Neurotoxicology, 16(4): 727 730, 1995.
    2. Harada, M., Minamata disease: methylmercury poisoning in Japan 
caused by environmental pollution, Critical Reviews in Toxicology, 
25(1): 1-24, 1995.
    3. Mercury/ in the Environment--A Research Update. TR-107695. Palo 
Alto: Electric Power Research Institute, December 1996.
    4. Myers, G.J., et al., Effects of prenatal methylmercury exposure 
from a high fish diet on developmental milestones in the Seychelles 
child development study, Neurotoxicology, 18(3): 819-830. 1997.
    5. Smith, I.C., P.V. Allen, and R. Von Burg, Hair methylmercury 
levels in U.S. women, Archives of Environmental Health, 52(6): 476-480, 
November/December 1997.
    6. Toxicological Profile for Mercury, Draft for Public Comment 
(Updated). Washington, D.C.: U.S. Department of Health and Human 
Services, 1997.
                                 ______
                                 
                   Electric Power Research Institute
    Mercury From U.S. Fossil-Fired Power Plants: The Global Context
   environment division air toxics health and risk assessment target
    Exposure to the organic form of mercury (methylmercury) found in 
fish and shellfish may pose health risks, especially to children whose 
mothers eat these foods during pregnancy. For this reason, mercury is a 
substance of high concern among those designated as hazardous air 
pollutants in the 1990 Clean Air Act Amendments.
    Yet, no one is certain that the amount of methylmercury in fish and 
shellfish is directly related to the amount of mercury currently 
released into the air by industrial and other human activities. In 
particular, it is unclear that lowering mercury emissions from power 
plants would markedly decrease the amount of methylmercury in fish. To 
explore these questions and further scientific understanding, the U.S. 
Environmental Protection Agency (EPA) has conducted an intensive study 
of mercury in the environment, summarizer its December, 1997 EPA 
Mercury Study Report to Congress.
    Since scientists estimate that half of all mercury released to the 
atmosphere by human activity cycles around the globe, it is clear that 
mercury is a global issue. As part of the global picture, U.S. power 
plants contribute only a small percentage of the total mercury released 
to the earth's atmosphere in a given year. This Air Quality Brief 
places mercury emissions from U.S. utilities into the global context 
needed for scientific understanding and management decisionmaking.
Estimating Mercury Releases
    Mercury in the atmosphere comes from natural sources and human 
activities (see Figure 1). Although global estimates are highly 
uncertain, they indicate that approximately 6000--7000 metric tons per 
year of mercury are released around the globe. Of that amount, 2000 
metric tons per year come from the ocean surface, about 1000 metric 
tons per year from natural land sources, and about 4000 metric tons per 
year from human activities.
    Human activities in the United States release roughly 150 metric 
tons per year of mercury to the atmosphere, according to a recent EPRI 
study. Of this total, about 40 metric tons per year come from U.S. 
fossil-fired power plants. Other sources include private and commercial 
fuel burning, municipal and medical waste burning, manufacturing/ 
smelting, and miscellaneous activities. In general, data On mercury 
releases from power plants are of higher quality than data on releases 
from other sources, due to extensive measurements at power plants by 
EPRI, the U.S. Department of Energy, and others.
Tracking Mercury
    Tracking the movement of mercury away from power plants to its 
ultimate destination in the environment is as important as knowing how 
much is emitted. Unfortunately, researchers have not found an inert 
tracer for mercury that will follow it from release to the air, through 
cycling in water bodies, to deposition at environmental sites. Lacicing 
such a tracer, scientists must rely on atmospheric simulation models to 
translate mercury releases into estimates of deposition, human 
exposure, and risk.
    Atmospheric simulation models deal with mercury on global, 
regional, and local scales. On the global scale, some of the mercury 
released to the atmosphere can travel long distances, even cycle the 
globe, before returning to earth. For instance, elemental mercury, 
released by combustion as a gas, stays in the atmosphere a long time 
and is only slightly soluble in water. These properties allow elemental 
mercury to travel great distances before it oxidizes and deposits to 
the earth's surface. Thus. atmospheric simulation models indicate that 
substantially more elemental mercury is added to transport and 
deposition on the global and regional scales than on the local scale.
    Using atmospheric simulation models to track mercury at regional 
and local scales is challenging for two reasons First, all forms of 
mercury enter the atmosphere ill very low concentrations. There, they 
may undergo chemical and physical transformations that are poorly 
understood, and therefore difficult to model. Second, modelers lack 
enough actual regional and local measurements to validate the 
predictive capacity of atmospheric simulation models used at those 
scales.
    Despite these challenges, the newest regional modeling tools 
provide an opportunity to determine the relationship between utility 
mercury emissions and deposition at particular environmental sites. 
Researchers have applied one of these tools--a new reactive plume model 
developed under EPRI sponsorship--to estimate how much mercury emitted 
From a power plant stack would be deposited within a 100-km (60-mile) 
radius under different weather conditions. Results show that up to, but 
usually much less than, 18 percent of the emitted mercury deposits 
locally, depending on weather patterns. The rest enters regional and 
global circulation and travels hundreds or thousands of kilometers 
before reaching the earth's surface--open over the open ocean.
Conclusion
    U.S. utility plants burning fossil fuels contribute about 1 percent 
of the mercury that human activities release to the global atmosphere 
in a given year, find less than 1 percent of mercury released from all 
sources. Estimates to date indicate that deposition of mercury in the 
local area around power plants is quite low. Much of the mercury 
leaving power plant stacks enters the global atmosphere and travels 
long distances before it reaches the earth.
                               references
    1. Gustin, M.S. and S.E. Lindberg, ``Assessing the contribution of 
natural sources to regional atmospheric mercury budgets.'' Paper 
presented at the Fourth International Conference on Managing Hazardous 
Air Pollutants, cosponsored by the Electric Power Research Institute 
and Potomac Electric Power Company, Washington. DC, November 12-14, 
1997.
    2. Lindqvist, O., et al., Mercury in the Swedish environment--
Recent research on causes, consequences and corrective methods, Water 
Air Soil Pollution 55: 1-126, 1991.
    3. Mercury in the Environment--A Research Update. TR-107695, Palo 
Alto: Electric Power Research Institute, December 1996.
    4. Mercury Study Report to Congress. Washington, DC: U.S. 
Environmental Protection Agency, December 1997. Vols. I-VIII.
    5. Pai, P., et al., Simulation of the regional atmospheric 
transport and fate of mercury using a comprehensive eulerian model, 
Atmospheric Environment, 31(17): 2717-2732. 1997.
                               __________
                 State of Colorado, Office of the Governor,
                   Denver, Colorado 80203-1792, September 29, 1998.

    Hon. James M. Inhofe, Chairman,
    Clean Air, Wetlands, Private Property, and Nuclear Safety 
Subcommittee,
    Environment and Public Works Committee,
    U.S. Senate,
    Washington, DC 20510.

    Dear Chairman Inhofe: I am writing to provide my input on the 
hearing that the Senate Subcommittee on Clean Air, Wetlands, Private 
Property, and Nuclear Safety is holding on EPA's proposed initiative to 
protect the air quality in the country's premier national parks and 
wilderness areas.
    The citizens of Colorado and the American people overwhelmingly 
support protecting the magnificent vistas in our national parks and 
wilderness areas. Colorado State University recently published the 
results of a national public opinion poll which found that there is 
broad-based bipartisan support for cleaning up air pollution in the 
national parks. Indeed, in the Rocky Mountain West, it is the mountain 
vistas, scenic horizons and clear blue skies that inspire many to move 
here to raise their families, and that draws millions of visitors from 
across the country and the world Protecting, the air quality in the 
unique areas that are our nation's legacy is central to our quality of 
life, and our economy.
    The key concern your subcommittee and others previously raised was 
the manner in which EPA proposed to address the recommendations of the 
Grand Canyon Visibility Transport Commission The Commission, led 
principally by western Governors, issued a blueprint for protecting the 
air quality in the ``Golden Circle'' of national parks and wilderness 
areas on the Colorado Plateau, which includes not only the Grand Canyon 
but many spectacular areas in Colorado (Mesa Verde National Park, Black 
Canyon of the Gunnison National Monument, Snowmass-Maroon Bells 
Wilderness, Flat Tops Wilderness, Weminuche Wilderness, and West Elk 
Wilderness) This blueprint was developed in a bipartisan, ground-
breaking, consensus-based process and enjoys the support of public 
officials, industry, tribes, environmentalists, and scientists from 
across the West.
    On September 3, EPA responded to the criticism raised and, based on 
detailed comments from the Western Governors' Association, published a 
notice proposing to incorporate the Commission's recommendations into 
its air quality initiative. I appreciate EPA's response to include this 
important initiative that originated from the states and local 
citizens.
    I support the course of action EPA charted in its September 3 
public notice, and urge you to do the same.
    Sincerely,
                                                 Roy Romer,
                                                          Governor.
                                 ______
                                 
                 Clearing the Air in Our National Parks
 natural resources defense council; environmental defense fund; sierra 
club; national parks and conservation association; land and water fund 
  of the rockies; physicians for social responsibility; defenders of 
wildlife; u.s. public interest research group; grand canyon trust; new 
    mexico citizens for clean air & water; appalachian mountain club
    On October 1, the Senate Environment and Public Works clean air 
subcommittee is scheduled to hold its second hearing on EPA's proposal 
to protect the scenic vistas in premier national parks and wilderness 
areas. While the names of America's best-known National Parks--from the 
Great Smokies to the Grand Canyon to Mount Ranier--are likely to call 
up visions of spectacular scenery, many of these scenic vistas are 
often so clouded by air pollution that they are barely visible. The 
Clean Air Act requires EPA to issue regulations to eliminate the 
manmade pollution that clouds our nation's parks. The rule is already 
well past due. We urge you to support EPA's efforts to issue an 
enforceable rule that clears the air within our lifetimes.
    In the 1977 Clean Air Act Amendments, Congress added a program to 
protect visibility, declaring and codifying the national goal of 
remedying existing problems and preventing future manmade visibility 
impairment in specially designated national parks and wilderness areas 
across the country. Yet, little progress has been made and in many 
areas the air has only gotten worse. Recognizing that its past efforts 
have been inadequate, in July 1997 EPA proposed a new initiative aimed 
at pollution from a variety of sources that contribute to haze over 
broad interstate regions. The National Academy of Sciences has 
indicated that this ``regional haze'' is the predominant form of 
visibility impairment in our national parks and wilderness areas.
    A central feature of EPA's regional haze proposal is designed to 
promote accountability in realizing actual visibility protection. EPA 
proposed to prevent degradation of visibility during the clearest days. 
EPA also proposed that visibility during the worst impairment periods 
perceptibly be improved every ten to 15 years. However, this is only a 
presumptive level of protection. States would be allowed to establish a 
slower rate of improvement based on costs and other factors if they 
demonstrate that it is reasonable. A November 17, 1997 Congressional 
Research Service Report to Congress on EPA's proposal found that this 
feature in addition to state flexibility in designing control 
strategies provided extraordinary implementation flexibility. 
Nevertheless, polluters are seeking to weaken these minimally 
protective aspects of EPA's proposal by attacking EPA's reliance on 
visibility as a measure of progress, and by undermining the rate of 
progress.
    The EPA proposal would establish perceptible change in visibility 
as a touchstone for program accountability over the duration of the 
long-term (10 to 15 year) planning period. At the same time, 
recognizing that there may be variability in visibility conditions 
during the shortterm that make it difficult to discern visibility 
trends, EPA proposed to allow state reliance on emissions reductions to 
inform whether progress is occurring over the short-term, and whether 
mid-course planning adjustments are needed. As its name implies, the 
purpose of the Clean Air Act's visibility program is to protect visual 
air quality. Better visibility must be the ultimate measure of success. 
While emissions reductions reasonably may inform short-term planning 
considerations, they should not be substituted for or confused with the 
fundamental programmatic goal--protecting the scenic vistas in national 
parks and wilderness areas.
    EPA's performance objective is a critical aspect of its regional 
haze initiative. A sound measure of visibility progress enables the 
public to assess the integrity of governmental programs to protect the 
nation's grand vistas. Conversely, a governmental program without a 
strong, concrete measure of progress is a program without any purpose 
or aim and, ultimately, lacking any public accountability.
    Even if EPA's proposed rate of progress is achieved, it would take 
hundreds of years to clear the manmade visibility impairment in our 
national parks and wildernesses. This rate of progress is especially 
inadequate in the East, where the current visibility conditions on the 
worst days are severely polluted.
    EPA's supplemental proposal responds to earlier criticism from the 
Western Governors Association that the proposal does not adequately 
incorporate recommendations of the Grand Canyon Visibility Transport 
Commission. Environmentalists have worked together with the Western 
Governors Association and industry representatives to identify mutually 
agreeable strategies to improve visibility in the Grand Canyon region. 
On September 3, 1998, EPA issued a supplemental proposal that 
incorporates these strategies.
    The Western Governors Association has acknowledged the importance 
of improving visibility in park areas. Places like Grand Canyon, 
Yellowstone and Yosemite are treasures of our national heritage and a 
legacy we must responsibly protect for our children. Our National Parks 
are visited by millions of tourists from across the country and, 
indeed, around the world, proving Important economic activity in many 
states.
    We respectfully request your support for EPA's initiative to clear 
the air polluting national parks and wilderness areas. We especially 
seek your support for a sound measure of visibility progress. EPA 
should finalize its proposal to prohibit further degradation of clear 
visibility days. EPA should also establish a strong, presumptive rate 
of visibility improvement for the most impaired days that applies to 
western national parks and wilderness area, and that provides for a 
faster rate of progress in the East. Thank you for your consideration 
of this important matter.
    Sincerely,
                                  Sharon Buccino, Attorney,
                                 Natural Resources Defense Council.

                        Debbie Sease, Legislative Director,
                                                       Sierra Club.

                              John Nielson, Policy Advisor,
                                Land and Water Fund of the Rockies.

                   Jim Wyerman, Vice President for Program,
                                             Defenders of Wildlife.

             Tom Robinson, Director of Conservation Policy,
                                                Grand Canyon Trust.

                       Bruce Hill, Ph.D., Senior Scientist,
                                         Appalachian Mountain Club.

                                   Vickie Patton, Attorney,
                                        Environmental Defense Fund.

  William J. Chandler, Vice President, Conservation Policy,
                       National Parks and Conservation Association.

           Sharon Newsome, Director, Environmental Program,
                              Physicians for Social Responsibility.

                        Rebecca Stanfield, Energy Advocate,
                               U.S. Public Interest Research Group.

                              John Bartlit, State Chairman,
                         New Mexico Citizens for Clean Air & Water.
                                 ______
                                 
   Conference of New England Governors and Eastern Canadian Premiers
 resolution 23-2--concerning mercury and its impacts on the environment
    WHEREAS, mercury is a persistent bioaccumulative toxin that poses a 
serious health risk to humans, undermines the productivity and safety 
of fisheries, and diminishes the economic benefits of tourism in the 
region; and
    WHEREAS, mercury is a transboundary air pollutant that, like sulfur 
dioxide and nitrogen oxides, calls for coordinated regional, national 
and international efforts to minimize contamination to the environment; 
and
    WHEREAS, the New England states and Eastern Canadian provinces 
recognize the opportunity to reduce the release of mercury from human 
activity through cooperative activity between the two regions; and
    WHEREAS, the Conference of New England Governors and Eastern 
Canadian Premiers Committee on the Environment convened a successful 
workshop in Portland, Maine, to share information and prepare 
recommendations for specific actions that the provinces and states can 
undertake to ensure significant progress is realized in the release of 
mercury from human activity, into the ecosystem; and
    NOW, THEREFORE, BE IT RESOLVED THAT, the New England Governors and 
Eastern Canadian Premiers call upon their respective Federal 
Governments and the Commission for Environmental Cooperation to move 
forward without further delay to develop and implement national and 
continental measures for the virtual elimination of discharges of 
mercury from human activity, into the environment; and
    BE IT FURTHER RESOLVED THAT, the New England Governors and Eastern 
Canadian Premiers adopt the proposed action plan that includes 45 
recommendations addressing:
    The establishment of a Regional Mercury Task Force to coordinate 
the implementation of the Mercury Action Plan;
    mercury emissions reduction targets for identified sources, such as 
municipal solid waste combustors, medical waste incinerators, sludge 
incinerators, utility and nonutility boilers, industrial and area 
sources;
    source reduction and safe waste management, including recycling;
    outreach and education, especially for high-risk populations;
    research, analysis, and strategic monitoring, to further identify 
and quantify sources of mercury deposition, and to monitor deposition 
patterns and develop meaningful environmental indicators to measure and 
track progress;
    mercury stockpile management; and
    BE IT FURTHER RESOLVED THAT the Committee on the Environment take 
immediate action to appoint the Mercury Task Force by June 30, 1998.
    BE IT FURTHER RESOLVED THAT, the Committee on the Environment, 
working with the Secretariats, report on progress taken on the 
implementation of the Mercury Action Plan at the next annual meeting of 
the Conference of New England Governors and Eastern Canadian Premiers.
    Adopted at the 23rd Annual Conference of New England Governors and 
Eastern Canadian Premiers, June 7-9, 1998.
                               __________
                                     State of New Jersey,  
                    Department of Environmental Protection,
                                                   October 1, 1998.

    Hon. Senator Chafee, Chair,
    Committee on Environment and Public Works,
    Washington, DC 20510.

    Subject: Hearing on Regional Haze and Mercury

    Dear Senator Chafee: I am writing to express New Jersey Department 
of Environmental Protection's concerns on the issues of environmental 
and public health impacts of mercury. We agree sound science is the 
foundation of sound regulatory determinations. Further, efficient and 
effective technology needs to be readily available when control 
technology is mandated. Nonetheless, there are urgent facts and 
affordable initiatives that may justify regulatory determinations that 
need to be included in this discussion.
    The background mercury levels, particularly in the northeast, as 
documented in the USEPA Mercury Report (commissioned by Congress and 
reviewed and accepted by the SAB) and the Northeast State and Easterly 
Canadian Provinces Mercury Studies are of significant public health 
concerns particularly to human embryo development and young children.
    2. Combustion sources are the single largest category source of 
anthropogenic mercury emissions.
    3. Source reduction, recycling and control technology in 
combination are beginning to successfully lower mercury emissions fi 
own some combustion sources, such as MSW and medical waste incinerators 
in significant quantities.
    4. Other sources such as utilities, steel and iron and refineries 
are becoming proportionally a larger component of the total emissions.
    5. Out-of-region sources contribute significantly to our regional 
concerns.
    While we agree that pending research and in some cases baseline 
assessments need to be completed, that is no reason to delay prudent 
action. There are valid concerns whether currently available control 
technologies are cost effective for all combustion sources. However, 
these technologies are maturing quickly. Advances in innovative 
environmental technology are developed across a broad spectrum of media 
areas and programs. A technology solution in one field may be modified 
and spur on advances in the field of mercury control or vice verse. 
Regulatory initiatives can be developed to help spur on efficient and 
effective controls and pollution prevention approaches. Establishing 
restrictions on regulatory actions in one area of mercury control is 
likely to have an unintended chilling effect on research and 
development for technology that are needed in this area and other 
associated environmental technology areas.
    There are initiatives that could be implemented through a 
partnership between the USEPA, the state environmental agencies, the 
combustion industries such as the waste management industry, steel 
mills, refineries or utilities and their subsidiary energy service 
contractor companies. These initiatives have the potential to 
affordably and effectively lower overall mercury emissions now while 
waiting for the completion of more research. However, these initiatives 
may require regulatory determinations as follows:
    1. Collection and recycling of mercury containing gas regulators. 
This would require a regulatory change to allow this material to be 
properly managed as a universal waste. This would eliminate this source 
of mercury and is solely managed by utilities.
    2. Continued expansion of the Energy Star program for energy 
efficient lighting systems with low mercury content. This would require 
a regulatory determination of the energy savings and mercury reduction 
through the USEPA in their Energy Wise program. This is a program that 
is endorsed by the utilities and their service contractors.
    3. Collection and recycling of mercury containing lamps. This would 
require a regulatory change to allow this material to be properly 
managed as a universal waste. Energy efficient lighting is fundamental 
to the demand side management programs of utilities and energy 
contractors. Closing the loop on this source of mercury would be 
beneficial.
    4. Collection and recycling of mercury containing thermostats and 
mercury switches.
    This material is a universal waste but to provide for its reuse as 
a product may require the USEPA or state environmental agencies through 
reciprocal agreements to make a regulatory determination.
    These are flexible, low cost regulatory programs that could quickly 
lower overall mercury emissions across combustion sources. I urge you 
not to underestimate how effective these initiatives can be, if the 
concerned patties walk in partnership. New Jersey was the first state 
to propose and adopt a mercury emission standard from MSW incinerators. 
These standards are the lowest in the country.
    This ambitious control limit was established through a stakeholder 
process that respected the concerns of all the patties involved. We 
developed a creative and flexible regulatory determination for source 
reduction, SOU2 ce separation/recycling and control technology. The 
results have been, literally, more than we hoped for. Currently, the 
emissions from 3 of the 5 MSW incinerators reach into the single digit 
micrograms level, below our year 2000 standard, with approximately 99 
percent removal. The inlet concentration of mercury from this source in 
some test runs is lower than the standard required after controls. When 
we began discussing concerns about MSW emissions the industry sincerely 
believed emissions as low as we leave today were impossible to achieve. 
Our success is rooted in regulatory flexibility that encourages 
innovation. Today in New Jersey we have over a two order of magnitude 
(100 X's) reduction in mercury concentrations and emissions from this 
source. This cost-effective solution is now being adopted by the New 
England Governors and Eastern Canadian Premiers, by the Southeastern 
and Great Lake States. This program could not have been developed if we 
restricted regulatory determinations or approaches.
    We are not asking that you bring out the legislative hammer and 
bang utilities or other combustion sources over the head to comply in a 
command and control response. We are asking that you help us, state 
environmental agencies in the development of sensible, creative 
programs that may require regulatory determination to create a level 
playing field. In the increasingly deregulated markets of today, even 
the most conscientious companies are unwilling to risk competitive 
disadvantage by shouldering environmental obligations their competitors 
can lawfully shun. Industries are unlikely to object to the modest but 
effective mercury emission reduction measures we have suggested, as 
long as all utilities have to meet the same requirements.
    For all these reasons we ask that allow for creative and innovative 
solutions to the mercury emissions issue while we wait for cost 
effective control technology and more research to catch up to our 
goals.
                         Robert C. Shinn Jr., Commissioner.
                               __________
                                  Western Regional Council,
                                                  October 14, 1998.

    Hon. James M. Inhofe, Chairman,
    Subcommittee on Clean Air, Wetlands, Private Property And Nuclear 
Safety,
    Senate Office Building,
    Washington, DC 20510.

    Dear Senator Inhofe: Enclosed is a copy of the Western Regional 
Council's (WRC) October 5 comments regarding the Environmental 
Protection Agency's recent Notice of Availability of Additional 
Information Related to Proposed Regional Haze Regulations, 40 CFR Part 
51 (Docket Number A-95-38).
    The WRC respectfully requests the opportunity to submit our 
comments for the record of the Clean Air Subcommittee's October 1 
hearing on regional haze.
    WRC has been the leading multi-industry organization working on the 
regional haze issue since Congress established the Grand Canyon 
Visibility Transport Commission in the 1990 Clean Air Act Amendments. 
We believe our comments regarding the Western Governors' Association's 
proposed alternative to EPA's regional haze rule, the Inhofe amendment 
to the TEA-21 legislation, and other issues related to the EPA notice, 
may be of interest to members of the committee.
    If you have any questions regarding the WRC comments, please 
contact Ruth McCormick at 703-549-1466.
            Sincerely,
                                     Ed Bartlett, Chairman,
                                               Clean Air Committee.
                                 ______
                                 
      Brief Discussion of Methylmercury Exposure Guideline Debate
                           (By C. Mark Smith)
    Although toxicologists generally view mercury as a potent toxin, 
considerable debate exists over the precise level of risk that 
exposures to this toxin may cause. At higher dose levels there is 
extensive evidence that organic forms of mercury such as methylmercury, 
the primary type found in fish, are extremely toxic. The developing 
nervous systems of the fetus and children are particularly sensitive to 
these effects. Numerous epidemics have occurred around the world where 
many people have died or been permanently injured as a result of 
exposures to methylmercury in their diets. Most notably these include 
the tragic mass poisonings in Iraq, due to grain contaminated with 
methylmercury, and at Minamata and Nigata Bays in Japan, due to fish 
contamination. In these cases thousands of people were seriously 
injured or killed. More locally and recently, a renowned scientist at 
an Ivy League College tragically died from extensive brain damage as 
the result of an accidental exposure to a relatively few drops (a 
``large'' dose for this compound) of a related mercury compound, 
dimethylmercury.
    There is much current debate about the precise level of risk 
associated with exposures to mercury at lower doses. The scientific 
evidence on this issue is by no means clear-cut and is open to 
differing interpretations. Ongoing debates on this issue largely focus 
on two recent research projects where people exposed to mercury in 
their diets at environmentally relevant levels were studied. Although 
each project has limitations both are, by and large, of excellent 
quality. To be very brief, the results of one of these studies, 
conducted at the Faroe Islands, indicates that the nervous system of 
babies can be injured by low levels of methylmercury in the mothers 
diet. In contrast, the second study, at the Seychelles Islands, did not 
detect any significant effects associated with such exposures. The 
reason(s) why these studies are reaching different conclusions has not 
been determined but may relate to the use of different experimental 
methods or to differences in the populations studied, such as 
lifestyles, exposures to other toxins or in their inherent 
susceptibility (perhaps due to genetic differences).
    Recently, the Agency for Toxic Substances and Disease Registry 
(ATSDR) proposed a chronic methylmercury exposure guideline (referred 
to as the Minimum Risk Level or MRL). This guideline is 5 times higher 
than the ATSDR intermediate exposure MRL as well as the equivalent EPA 
chronic exposure guideline (the reference dose or RfD).
    Briefly, ATSDR largely relied on results from the negative 
Seychelles Island Study in deriving this new MRL value. The toxic 
effects reported in the Faroe Islands Study are at this time not 
adequately reflected in their analysis since new information has become 
available from this study. This is a significant limitation as there 
are several reasons that suggest the Faroe study may provide a better, 
or at least an equally valid, basis for evaluating mercury exposure 
risk. Before any conclusion is reached that higher mercury exposures 
are acceptable, the different results between these studies should be 
explored more fully, addressing in particular the following issues:
    1) Measure of effect: The Faroe Island and Seychelles Island 
Studies used different measures of effects. As noted in the attached 
letter to the editor of the Journal of the American Medical Association 
from Dr. Philippe Grandjean (a principal investigator in the Faroe 
Island Study) there are outstanding questions about the sensitivity of 
the battery of neurobehavioural tests used in the Seychelles Island 
Study. Those used in the Faroe Island investigation were likely to have 
been more sensitive and this could well explain the differences in 
results. Resolution of this issue is very important to the appropriate 
interpretation of these studies.
    2) Measure of dose: In the Faroe Island study mercury levels in 
umbilical cord blood and maternal hair were used as measures of fetal 
mercury exposure. Umbilical cord measurements provide a more precise 
measure of delivered dose to the fetus in comparison to maternal hair 
mercury levels, which were relied on in the Seychelles study. Less 
accurate measures of dose can lead to exposure misclassifications 
(e.g., incorrectly concluding that someone was exposed to a low level 
of mercury when they were in fact exposed to higher levels). This can 
make dose/effect relationships more difficult to detect (i.e., biases 
the results toward the null hypothesis of no effect.) This again 
suggests caution in relying on the Seychelles Island Study results to 
evaluate methylmercury risk.
    3) Dose rate: The dose rate in the Faroe Islands was likely to have 
been higher, with more episodic exposures, than in the Seychelles 
Islands (the fish from the Seychelles Islands have been reported to 
contain lower levels of mercury but were eaten regularly vs. the whale 
meat in the Faroes, which was eaten less frequently but had higher 
mercury concentrations). The Faroe Island experience may well be more 
representative of the situation in the Northeast US, where fish mercury 
levels are also high. This raises questions about the degree of 
confidence one should have in extrapolating the Seychelles Island 
results to other exposure situations.
    In addition to these issues relating to data quality and 
sufficiency, other limitations in the ATSDR proposed MRL revision 
exist. Potential differences in susceptibilities within the human 
population, which could arise due to lifestyle factors (e.g., alcohol 
consumption); exposures to other environmental toxins; and the 
potential for genetically determined variability in responses, also 
exist.
    In short all of these factors raise questions as to the 
appropriateness of the proposed ATSDR MRL. Specifically, ATSDR did not 
adequately account for the many uncertainties, including 
interindividual variability and data limitations, as noted above. In 
fact, depending on how the these inherent uncertainties are accounted 
for, one can quite legitimately reach different conclusions regarding 
the dangers of lower dose exposures to methylmercury: it is possible to 
interpret the data as suggesting that exposures to methyl mercury are 
somewhat less ``risky'' or alternatively even somewhat more ``risky'' 
than previously thought. Although there is no clear definitive answer, 
taken together these uncertainties support the use of an uncertainty 
factor substantially greater than that used by ATSDR in their MRL 
derivation. This would lower the proposed value by a factor of at least 
3, essentially bringing it back in line with current values.
    In conclusion, from a public health perspective and especially 
because children are most at risk and could be permanently harmed, the 
uncertainties in the precise risks attributable to mercury exposures 
should not interfere with efforts to reduce mercury levels in the 
environment. This is especially true from the Northeast perspective as 
levels of mercury in fish in our region are high enough to be of 
concern no matter what the resolution of this debate.
                                 ______
                                 
  Western Regional Council: Comments on the Environmental Protection 
        Agency Notice of Availability of Additional Information
             related to proposed regional haze regulations
    Federal Register September 3, 1998
    Volume 63, Number 171, Pages 46952-3
    Docket Number A-95-38
    October 5, 1998
I. Introduction
    The Western Regional Council (``WRC'') respectfully submits the 
following comments regarding the Environmental Protection Agency 
(``EPA'' or ``Agency'') Notice of Availability of Additional 
Information Related to Proposed Regional Haze Regulations (``Notice''). 
The Notice solicits comments on the recommendations related to the 
Grand Canyon Visibility Transport Commission (``GCVTC'' or 
``Commission'') contained in the June 29, 1998, letter from the Western 
Governors' Association (``WGA''), the draft translation of the WGA 
recommendations into regulatory language by EPA, and the Transportation 
Equity Act for the 21st Century, Pub. L. No. 105-178 (``TEA-21'') 
legislation provisions affecting the regional haze program.
WRC Background
    As you know, WRC is an organization of chief executive officers of 
approximately thirty companies with significant business activities in 
the western United States, including accounting, construction, 
engineering, financial, manufacturing, mining, oil and gas, utility and 
other enterprises. The purpose of WRC is to protect the quality of life 
in our region, recognizing the need for both a safe and clean 
environment and a healthy economy.
    WRC has been involved in the visibility issue since 1977, when the 
national visibility goal was first included as part of the Clean Air 
Act. During the 1980's we worked on numerous legislative and regulatory 
measures to address visibility in our region. In the 101st Congress, 
during the congressional debate over the Clean Air Act Amendments of 
1990 (``CAAA''), WRC was one of the first organizations to formally 
support the establishment of the GCVTC.
    WRC and its member companies were actively involved in the 
Commission's activities, deliberations, meetings and process, with 
individuals serving on the Commission's Technical, Alternatives 
Assessment, Communications and Public Advisory Committees, as well as 
on several of the Commission's subcommittees. WRC supported the 
Commission's final June 1996 report to EPA as a compromise, consensus 
product that provided a sound approach for addressing visibility in 
Class I areas on the Colorado Plateau.
    WRC continues to be actively involved with the Commission's 
successor, the Western Regional Air Partnership (``WRAP''), to monitor 
implementation of the Commission's recommendations.
The Grand Canyon Visibility Transport Commission Process Was Successful 
        and Produced a Sound Visibility Improvement Strategy
    Westerners take pride in the world-renowned beauty of the American 
West. We recognize that maintaining, and improving, our already 
superior visibility is an important objective.
    This western attitude about the importance of visibility explains 
why there was such heavy participation in the Commission process by so 
many individuals and organizations. WRC, along with a number of its 
member companies, participated in the GCVTC process from start to 
finish.
    WRC invested a large quantity of both human and financial resources 
in the process. An atmosphere of ``pragmatic optimism'' seemed to 
permeate the GCVTC process as westerners of diverse backgrounds worked 
toward a common goal. The process focused on identifying all of the 
sources of visibility impairment on the Colorado Plateau and 
negotiating a number of strategies to reduce the impacts of these 
various sources. The consensus of participants and observers is that 
the process was very successful.
Previous WRC Comments on EPA's Regional Haze Proposal
    WRC shares the concern and perspective of many westerners that the 
regional haze regulations proposed by EPA on July 31, 1997 ignore the 
GCVTC process and threaten to thwart the common objective of visibility 
improvement on the Colorado Plateau by the use of narrowly focused and 
inflexible regulatory prescriptions. WRC submitted extensive comments 
on the Agency's proposal, which are incorporated herein by reference 
(See ``Comments of the Western Regional Council Regarding the 
Environmental Protection Agency Regional Haze Regulations; Proposed 
Rule, 40 CFR Part 51, Docket Number A-95-38, December 5, 1997''). WRC 
continues to support the positions and recommendations in those formal 
comments to EPA, including our opposition to the proposed deciview 
target and group BART.
Impact of Visibility Regulations on the West
    The western reaction to EPA's originally proposed regional haze 
rule arises from the fact that most westerners agree that visibility 
regulation strikes at the very heart of the important issue of future 
economic growth. This is not an issue of private versus public 
interests. Moreover, this is certainly not an issue of EPA versus big 
industry as some have attempted to assert. Rather, it is a state, 
tribal, and regional issue of determining how to best accommodate 
economic growth and the commonly shared objective of visibility 
improvement.
    The issue of economic growth and visibility improvement in the West 
arises in ways different from every other part of the United States. 
This is true because, as a region, the West has been and continues to 
be one of the fastest growing areas of the country. At the same time, 
the West also enjoys the clearest air in the country from a visibility 
standpoint. EPA's visibility monitoring network, the IMPROVE network, 
has documented that the states of Arizona, Colorado,
    Idaho, Nevada, New Mexico, Oregon, Utah, and Wyoming have the best 
visibility in the country. The relatively small visibility impairment 
in the West is caused mainly by roughly equal contributions of sulfate, 
coarse particles, and organics (see page 6 of the GCVTC, enclosed in 
Appendix A). Excellent visibility exists, in part, because of low 
population densities, low humidity, and the use of low-sulfur coal for 
power generation. In general, western coal contains one-tenth the 
sulfur contained in coals used to generate power in the East. In fact, 
the sulfur dioxide (``SO<INF>2</INF>'') emitted by just one eastern 
power company is nearly equal to the total SOP emissions of the entire 
western United States. According to EPA's 1995 acid rain data base, a 
total of 13.4 million tons of SO<INF>2</INF> was emitted from U.S. 
power plants. Of that amount, only 475,000 tons--or 3.5 percent of the 
national total--came from power plants in the original Commission 
states.
    Congress recognized these unique characteristics of western 
visibility and required EPA not to develop its regional haze program 
until after the GCVTC had deliberated and provided its recommendations 
to EPA. Until recently, EPA has not, in our view, accounted for the 
GCVTC recommendations in its proposed rule. Rather, the non-WGA/GCVTC 
provisions of EPA's July 31, 1997 proposed rule would impose the 
greatest costs and burdens on the governments, industry and people of 
the cleanest, western states.
    The GCVTC recommendations effectively address the issue of economic 
growth and visibility improvement in the GCVTC states by focusing on a 
strategy (rather than inflexible standards and targets). The GCVTC 
strategy focuses on a wide array of sources for purposes of ensuring 
true progress toward the visibility goal, given the unique 
circumstances of the GCVTC states. WRC believes that the flexible, 
strategy-oriented process recommended by the GCVTC is the approach that 
is fair and will work best in the West. By contrast, the inflexible EPA 
approach penalizes the West by requiring the region to achieve, 
maintain and improve visibility at higher levels, and higher cost, than 
any other region of the country.
WGA Process/Proposal
    The Agency's failure to recognize the GCVTC partnership and the 
recommendations that it produced was the motivating factor behind the 
WGA effort to develop its 'Proposed Changes to the Regional Haze Rule 
to Facilitate Implementation of the Grand Canyon Visibility Transport 
Commission Recommendations.'' The WGA document represents significant 
progress over the EPA proposal on many of the issues related to the 
Commission's recommendations.
    However, due to the rapid pace of the discussions and other 
limitations, the WGA process did not allow for participation by all 
interested stakeholders or for resolution of all critical issues.
    Consequently, WRC appreciates the opportunity to provide the 
following comments, which address outstanding issues and WRC concerns 
regarding the WGA proposal.
    In summary, we encourage EPA to:
    <bullet>  incorporate the WGA proposed revisions into the regional 
haze rule as revised and refined by these comments;
    <bullet>  address the timing issues related to the regional haze 
provision of the TEA-21 legislation by harmonizing the schedule for 
regional haze SIPs with SIPs required for the PM<INF>2.5</INF> ambient 
air quality standards;
    <bullet>  revise other aspects of the July 31, 1997 regional haze 
proposal as recommended in our December 5, 1997 comments to the agency, 
including eliminate the deciview target and group BART requirement, 
require reasonable smoke prevention and abatement by FLMs, etc.; and
    <bullet>  significantly revise and re-propose the rule for further 
comment.
II. Conformity with Sec. 51.309 (the rule based on the GCVTC) will be 
        Sufficient to Assure Reasonable Progress for the Transport 
        Region States; the Balance of EPA's Regional Haze Rule Shall 
        Not Apply to GCVTC States
    The GCVTC recommendations provide a comprehensive plan for making 
reasonable progress toward the national visibility goal. No other 
requirements should be imposed on states in the Transport Region that 
implement the GCVTC recommendations, as amplified by the WGA 
recommendations and codified in the proposed 40 CFR 51.309. Proposed 
Sec. 51.309 should apply instead of, not in addition to, the regional 
haze rule EPA proposed on July 31, 1997. This was certainly the WGA's 
intent, and WRC trusts it is EPA's intent as well. However, the Federal 
Register notice and draft regulatory language are not clear on this 
point. WRC requests that EPA clarify in the preamble to the final rule 
and in the final rule itself that compliance with Sec. 51.309 fulfills 
all of the obligations of Transport Region states with regard to 
addressing regional haze, including the planning and coordination 
requirements proposed in Sec. 51.302, and the requirements for a long-
term strategy proposed in Sec. 51.306, but the monitoring requirements 
proposed in Sec. 51.305 would apply to Transport Region States. WRC 
suggests the following changes to proposed Sec. 51.309:
Sec. 51.309 Requirements Related to the Grand Canyon Visibility 
        Transport Commission
    (a) Purpose and Applicability. The purpose of this section is to 
establish the requirements for implementation plan revisions and 
periodic progress reviews to address regional haze visibility 
impairment in the 16 Class I areas addressed by the Grand Canyon 
Visibility Transport Commission Report for the years 2003 to 2018. This 
section applies to Transport Region States, which are regulated by this 
section and not by Sec. 51.302 or by Sec. 51.306. Sec. 51.305 applies 
to Transport Region States.
    Similarly, the following sentence should be added at the beginning 
of final Sec. 51.302 and Sec. 51.306:
    Transport Region States are subject to Sec. 51.309 and not to this 
section.
    It may also be necessary to move the definition of Transport Region 
States to Sec. 51.301.
    The final rule must make clear that the emission management 
strategies in Sec. 51.309, if included in a State Implementation Plan 
(``SIP''), will assure reasonable progress.
    The final rule should also provide a mechanism for states outside 
the Transport Region to form other visibility transport commissions, 
which could develop recommendations appropriate to their regions for 
eventual incorporation into the Federal visibility regulations. The 
Commission's process should serve as a model for remedying visibility 
in Class I Areas throughout the United States. Visibility is a regional 
issue and will be best dealt with through a regional approach with 
participation by all stakeholders to create a flexible and scientific 
approach to improved visibility. Stakeholders outside the Colorado 
Plateau Transport Region should be given the opportunity to benefit 
from the extensive work product developed by the GCVTC.
    III. EPA Should Clarify That the Commission's Election to Include 
Other Class I Areas With the Annex Under Sec. 51.309(F)(2) Satisfies 
all Other Requirements in the Regional Haze Rule Under Sec. 51.3XX
    WRC anticipates that western states that have both Colorado plateau 
and non-Colorado plateau Class I areas will want the Annex and 
therefore the regional planning process, to cover all of their Class I 
areas. This will minimize duplication of SIPs, state duplication of the 
regional planning process, and help the WRAP provide a meaningful 
service to its member states. It is therefore critical to states 
participating in the regional planning process that the Annex be all 
encompassing. WRC supports the proposed language in Sec. 51.309(f)(2) 
except that the decision to add Class I areas should be deliberated by 
the GCVTC, which will provide the technical and policy justification 
consistent with the expectation of achieving Reasonable Progress for 
the 16 Class I areas currently within the Commission's jurisdiction.
    WRC suggests the following language:
    Sec. 51.309(f)(2) The Commission may elect, at the same time it 
submits the Annex, to make recommendations intended to demonstrate 
reasonable progress for other mandatory Class I Federal areas (beyond 
the original 16) within the Transport Region States, including the 
technical and policy justification for these additional mandatory Class 
I Federal areas.
IV. EPA Must Provide Adequate Funding to Bring Class I Areas Outside 
        the Colorado
Plateau Into the WGA Proposed Program
    Sec. 51.309(f)(2) of EPA's draft regulatory language (``Draft'') as 
currently written states:
    The Commission may elect, at the same time it submits the annex, to 
make recommendations intended to demonstrate reasonable progress for 
other mandatory Class I areas (beyond the original 16) within the 
Transport Region States, including the technical and policy 
justification for these additional mandatory Class I Federal areas in 
accordance with the provisions of 51.3xx.
    The technical requirements are included in Draft Sec. 51.309(g):
    Plans submitted in 2003 by Transport Region States, which implement 
the provisions of this section related to the Commission agree meets 
and recommendations in their long-term strategy, may be the basis for 
demonstrating reasonable progress for additional Class I areas in their 
jurisdiction, if the plans submitted by December 31, 2003:
    (1) Include a modeling demonstration of expected visibility 
conditions for the most-impaired and least impaired days at the Class I 
areas in their jurisdiction, which may be based on refined technical 
studies conducted by the States and/or regional entity.
    (2) Identify those Class I areas where reasonable progress may not 
be achieved and establish a schedule and process for more detailed 
review and development of additional measures which may be needed to 
demonstrate reasonable progress as required in 51.3xx.
    (3) Provide for updates in 2008 and 2013 plans to implement any 
additional measures necessary to demonstrate reasonable progress.
    WRC Comment: Conceptually, the above language is good. However, it 
is very restrictive and unworkable unless revised. The section states 
``may elect, at the same time it submits the annex. . .'' The annex is 
due October 1, 2000, or only about 2 years away. EPA has cut funding 
for the WRAP in fiscal year 1999 to only $150,000, while the WRAP has 
said it will need $1.0 million for each of the next 2 year's work. The 
EPA funding level is inadequate to perform the necessary work in this 
short amount of time--essentially ensuring that the annex will not 
include additional Class I areas. Accordingly, EPA must provide revised 
language in the final rule that provides some flexibility on when the 
technical data can be submitted.
    V. The Annex to the Commission Report (Sec. 51.309(f)) Should 
Discuss All Visibility Impairing Pollutants and All Sources of 
Visibility Impairment, not Simply Stationary Sources of SO<INF>2</INF>
    EPA's proposed Sec. 51.309(f) requires an Annex by October 1, 2000, 
containing quantitative emission reductions for stationary sources of 
SO<INF>2</INF> with programs to achieve emission reduction milestones. 
WRC believes the Annex should include an analysis of all sources of all 
visibility impairing pollutants.
    Enclosed as Appendix A are diagrams from the Grand Canyon 
Visibility Transport Commission showing pollutants and source 
categories that adversely impact visibility. It is obvious from these 
diagrams that western states and regulatory authorities must also focus 
attention on reducing emissions of organic carbon, elemental carbon, 
reactive organic gases, NOx and PM<INF>2.5</INF> in order to make 
reasonable progress toward attaining the national visibility goal. It 
is inappropriate to commit significant resources to the reduction of a 
single contributor to visibility impairment while emissions from other 
sources go uncontrolled or lack attention. The establishment of 
milestones for SO<INF>2</INF> should be matched with the establishment 
of milestones, other reasonable progress metrics, or other long-term 
strategies for other contributors to visibility impairment such as 
fires and mobile sources.
    WRC asks EPA to add language to Sec. 51.309(f)(1) as follows:
    (iii) The Annex should contain an analysis of all visibility 
impairing pollutants, their sources, and long-term strategies, and a 
process for further evaluation to include them in the SIP. This 
documentation must include model rules, memoranda of understanding or 
other documentation describing in detail how emissions reduction 
progress will be monitored, what conditions will require the market 
trading program to be activated, how allocations will be performed, and 
how the program will operate.
VI. EPA Regulatory References to the GCVTC Report, and Baseline 
        Forecast Scenario (``BFS'') Must be Accurate
    Sec. 51.309(f)(1)(i) of EPA's Draft rule entitled, ``Annex to the 
Commission Report,'' currently provides as follows:
    The annex must contain quantitative emission reduction milestones 
for stationary source sulfur dioxide emissions for the 2003-2018 time 
period. In setting these milestones, the Grand Canyon Visibility 
Transport Commission must consider its definition of reasonable 
progress, the 50-70 percent reduction in sulfur dioxide emissions from 
1990 actual emission levels by 2040, applicable requirements under the 
Clean Air Act, and the timing of implementation plan assessments of 
progress and identification of deficiencies which will be due in the 
years 2008, 2013, and 2018.
    WRC Comment: EPA's regulatory recognition of the GCVTC report is 
commendable.
    WRC wholeheartedly endorses EPA's recognition of the GCVTC process. 
However, extreme care should be taken in putting GCVTC report language 
into regulation. WRC comments in this area are for EPA to include 
precise GCVTC language as necessary in quotations, but interpretations 
of GCVTC words should be avoided. In fact, it would be appropriate for 
the preamble to mention any attempts to interpret GCVTC language are 
not binding upon the Commission. In lieu of the foregoing language, WRC 
suggests the following language for Sec. 51.309(f)(1)(i):
    The Annex should contain quantitative emission reduction milestones 
for a 15-year review period, with assessments at 5-year intervals. In 
setting these milestones, the Commission should consider its definition 
of reasonable progress, its own recommendations, applicable 
requirements under the CAA, and 5 year implementation plan assessments 
of progress and identification of deficiencies and unnecessary 
regulation.
    WRC believes it is unnecessary and inaccurate to include in the 
regulation a requirement for a ``50-70 percent reduction in sulfur 
dioxide emissions'' without qualification. Nevertheless, if EPA refers 
to a 50-70 percent reduction, EPA must at least include a reference to 
footnote 5 from the Commission's Report (Appendix B). WRC believes it 
would be better for EPA to replace the phrase ``the 50 to 70 percent 
reduction in sulfur dioxide emissions from 1990 emission levels by 
2040,'' with the phrase, ``the stationary source section of the 
Commission's recommendations.''
    WGA developed provisions based upon the Integrated Assessment 
System (``IAS'') model to forecast activity in emissions throughout the 
region. The IAS was developed as part of the GCVTC report. Like any 
model, the IAS relied upon a number of assumptions to conclude that 
reductions of 50 to 70 percent would be feasible by 2040. WRC supports 
the WRAP process to reconcile the IAS model assumptions. Assumptions 
which should be reviewed include such basic data as maximum plant 
utilization rates, individual plant repowering dates and configurations 
and cost for competing generation and emission control technologies. 
WRC recommends that the model be corrected as part of the Annex effort 
and, if required for visibility improvement, that quantitative emission 
reduction milestones be established based upon an accurate model with 
well documented and disclosed assumptions.
VII. EPA Should Acknowledge and Fulfill Its Obligations with Regard to 
        Transboundary and Mobile Source Emissions
    Several important contributors to visibility impairment are not 
within the power of states and tribes to regulate or control. One of 
these is decisions by FLMs concerning fire. EPA should require 
reasonable smoke prevention and abatement by FLMs and should not count 
necessary prescribed fire against reasonable progress toward the 
national visibility goal.
    Other important contributors outside the control of states and 
tribes include:
    <bullet>  emissions transported across international boundaries, 
notably into the United States from Mexico, which are entirely outside 
the jurisdiction of states and tribes;
    <bullet>  emissions from mobile sources, which are regulated 
primarily by the Federal Government,2 although state and local 
government can impose inspection and maintenance and traffic control 
requirements.
Transboundary Emissions
    In its June 25, 1998 letter, WGA requested the following from EPA 
with regard to transboundary emissions:
    Note in the preamble that the Commission recommendations related to 
transboundary emissions noted that emissions from Mexico may be a 
significant contributor to visibility impairment. The EPA should note 
in the preamble the steps which have been taken to address the 
Commission recommendations, and the future steps the EPA is planning to 
deal with transboundary emissions.
    WRC can find no attempt in either EPA's Notice of Availability or 
EPA's draft regulatory language to address this request. We reiterate 
the request here, and emphasize that there is broad agreement among 
participants in the GCVTC process that emissions transported from 
Mexico are a significant and growing part of visibility degradation in 
at least some of the Class I areas on the Colorado Plateau.
Mobile Source Emissions
    In its June 25, 1998 letter, WGA requested the following from EPA 
with regard to mobile sources:
    NOTE: The Commission's Report identified several national mobile 
source-related emission reduction strategies under consideration by EPA 
that are important to visibility conditions in the Class I areas on the 
Colorado Plateau. The Commission agreed to promote these initiatives on 
a national level. In accordance with this recommendation, EPA is 
requested to make a binding commitment in its final regional haze rule 
to fully consider the Commission's recommendations related to the 
following national mobile source emissions control strategies:
    Adoption of the 49-state LEV standard in 2001 and Tier II vehicle 
emission standards in year 2004 (if determined to be more effective);
    Support of EPA's current proposal for new on-road, heavy-duty 
vehicles emission standards that reduce NOx and particulate emissions 
by at least 50 percent over the 1998 requirements in the Clean Air Act, 
while maintaining current stringent PM emission limits;
    Pursue additional PM reductions from on-road vehicles;
    Pursue additional engine emission standards for new off-road 
vehicles (heavy-duty, construction-type) that provide reasonably 
achievable reductions;
    Explore broader application of and additional reductions in the 
sulfur content of both gasoline and diesel fuel;
    Promotion of cleaner burning fuels;
    Pursue fuel standards and control strategies for diesel 
locomotives, marine vessels/pleasure craft, airplanes, and Federal 
vehicles as described in the Commission's Report; and
    Support requirements for effective refueling vapor recovery systems 
that capture evaporative emissions.''
    In its Notice of Availability (63 Fed. Reg. 46953, column 1), EPA 
addressed the WGA request as follows:
    In drafting the regulatory language, we have attempted to 
incorporate all of the WGA's recommendations for specific regulatory 
requirements into regulatory text except for the recommendation to 
include a binding commitment on EPA to fully consider certain national 
mobile source measures. While we are not expressing a position on this 
recommendation, we are unsure of how or whether the regulatory 
structure of the regional haze proposal can incorporate this provision, 
and we request comment on how and whether this should be done.
    WRC believes EPA should make a binding commitment to fully consider 
the GCVTC recommended national mobile source measures. Potential 
visibility gains that result from the anticipated massive capital 
investments required by the SO<INF>2</INF> milestones within the WGA 
proposal could be easily compromised by the emissions from fires, 
mobile sources or transboundary sources.
    The rule pertaining to SIPs may not be the appropriate place to do 
so, but in the preamble EPA should do the following: acknowledge that 
mobile source emissions are a significant contributor to visibility 
impairment in Class I areas on the Colorado Plateau, and possibly other 
Class I areas as well (this includes mobile sources within and near the 
Class I areas as well as emissions in urban areas more distant from the 
Class I areas); explain relevant measures the Agency has already taken 
(since 1990) to reduce mobile source emissions; explain relevant 
measures the Agency plans to take in the next several years to reduce 
mobile emissions; commit to consider visibility impacts in future 
decisions about control of mobile sources.
VIII. The WGA Proposal Should be Clarified to State That the GCVTC 
        Recommendation Outlined Goals For Pollution Prevention. The 
        Proposal Should Clarify the Role of State Public Utility 
        Commissions (``PUCs'') in Establishing Pollution Prevention and 
        Renewable Resources Programs
    On the subject of ``Pollution Prevention,'' Draft 
Sec. 51.309(d)(8)(vi) currently provides:
    A planning assessment describing the programs being relied on to 
achieve the State's contribution toward the Commission's goal that 
renewable energy will comprise 10 percent of the regional power needs 
by 2005 and 20 percent by 2015, and a demonstration of the progress 
toward or achievement of the renewable energy goals in the years 2003, 
2008, 2013, and 2018, including documentation describing the potential 
for renewable energy resources, the percentage of renewable energy 
associated with new power generation projects implemented or planned, 
and the renewable energy generation capacity and production in use and 
planned in the State. To the extent that it is not feasible for a State 
to meet its contribution to the regional renewable energy goals, the 
State must, in the planning assessments, identify the measures 
implemented to achieve its contribution and must explain why meeting 
the State's contribution was not feasible.
    WRC Comment: This section needs to be clarified that it is not the 
intent of the rule to delegate this assessment/authority for these 
assessments away from the Public Service Commission/Public Utility 
Commissions and to the state Departments of Environmental Quality 
(``DEQ''). Typically, the DEQ is in charge of protecting environmental 
resources and is not equipped for major technical analyses and 
assessments regarding electricity generation. In fact, any change may 
require state legislation. The language also needs to include any 
incremental change (increase) in power costs associated with 
renewables, as well as an assessment of the impact on consumers and 
loss of tax revenues to local and state governments. Finally, the 10 to 
20 percent ``goal'' is for the region as a whole, and was not intended 
to delegate any specific target to an individual state. The proposed 
language implies that each state will have a quantified goal (i.e., 
``To the extent that it is not feasible for a State to meet its 
contribution. . .'' etc). It is recognized that not all of the states 
may be willing to participate in the WRAP, and as the number of states 
declines, the opportunity for pooling the renewables diminishes, and 
quickly becomes a mandate for the remaining state(s).
    The targets for renewable generation are proposed in response to 
regional haze, so appropriate technologies would be limited to solar, 
wind and geothermal (renewable combustion technologies would present 
particulate emissions). Intermittent technologies (wind and solar) 
would displace intermediate and peaking gas-fired generation, not 
baseload coal-fired generation. Because of its operating 
characteristics, wind generation, which is intermittent, must be 
limited to anywhere from 3 percent to 7 percent of the generation mix. 
Consequently, electricity generated from wind would have little impact 
on regional SO<INF>2</INF> emissions.
    WRC believes that much more thought and consideration must be given 
to the renewable goals before codifying them, as proposed in this 
notice. Renewable goals presented in the name of visibility improvement 
simply must meet the intended goal. Setting energy policy, disguised as 
a visibility program, is unacceptable. This section should be modified 
by removing the specific targets and inserting language calling for a 
review of the renewable goals in the context of a visibility program.
    IX. WRC Agrees With Congress That ``EPA's Public Statements That 
the Schedule for the State Implementation Plan Due Pursuant to Section 
169B(e)(2)'' of the Clean Air Act ``Should be Harmonized With the 
Schedule for State Implementation Plan Submissions Required for 
PM<INF>2.5</INF> Ambient Air Quality Standard Promulgated July, 1997.'' 
See Congressional Record H3928-H3929 (May 22, 1998).
A. Congress' Intent is for the PM<INF>2.5</INF> and Regional Haze 
        Timetables to be Consistent
    TEA-21's purpose (relevant to this discussion) is:
    To ensure that the schedule for implementation of the July 1997 
revisions to the ambient air quality standards for particulate matter 
and the schedule for the Environmental Protection Agency's visibility 
regulations related to regional haze are consistent with the timetable 
for implementation of such particulate matter standards as set forth in 
the President's Implementation Memorandum dated July 16, 1997 (TEA-21 
at Sec. 6101(b)(3)).
    The full language of TEA-21 Title VI--Ozone and Particulate Matter 
Standards, and the relevant legislative history, are attached as 
Appendix C to these comments.
    The clear intent of Congress is to make state visibility SIPs due 
at or after the state PM<INF>2.5</INF> SIPs. The TEA-21 ``Inhofe 
Amendment'' and CAA Sec. 172(b) provide that PM<INF>2.5</INF> SIPs in 
nonattainment areas shall be due in 2007. Therefore, it follows that 
Congress intends state visibility SIPs for states with PM<INF>2.5</INF> 
nonattainment areas to be due at or after 2007.
    Nevertheless, under EPA's proposed July 31, 1997 regional haze 
rule, attainment area visibility SIPs are due in 2005. The 2005 date 
must be changed to 2007 to be compatible with the PM<INF>2.5</INF> 
implementation schedule and the TEA-21 language.
    EPA has asked for comments on SIP deadlines for regional planning 
areas. WRC agrees that Congress did not intend that regional planning 
efforts be inhibited by requiring area-by-area visibility SIP 
submittals for those states expected to have both PM<INF>2.5</INF> 
attainment and non-attainment areas. WRC also agrees with EPA to 
``allow states to first submit SIP revisions which commit to specific 
integrated regional planning efforts but which do not set forth control 
strategies.'' This would allow states to coordinate deadlines for both 
attainment and nonattainment visibility SIPs within a planning region.
    WRC believes this can be accomplished within EPA's final regional 
haze rule as follows:
    1. Reiterate the October 1, 2000 WGA Annex as a regional planning 
goal.
    2. Reiterate the December 31, 2003 submittal is a regional planning 
goal with state only commitments.
    3. Promulgate a regional planning commitment deadline of 2003, 
consistent with the state deadline for designating PM<INF>2.5</INF> 
areas as attainment or nonattainment, consistent with TEA-21.
    A. Promulgate a deadline for state visibility SIPs as 2004-2008, 
consistent with TEA-21, which becomes federally enforceable.
    This schedule does not ``preclude the implementation of the 
agreements and recommendations set forth in the Grand Canyon Visibility 
Transport Commission report dated June 1996.'' See Attachment C. In 
fact, the early submittals committed to by WGA acknowledge the 
commitment of western states and stakeholders to lead the country on 
visibility protection issues.
    B. The Final Regulations Must Provide More Flexibility to Allow the 
WGA Process to Work Consistent With Congress' Intent Under TEA-21
    That the current language of EPA's Draft rule is inconsistent with 
TEA-21 is clear from a reading of the following subsections.
    Draft Sec. 51.309(b)(2) defines the term ``Transport Region State'' 
to mean:
    One of the States that is included within the Transport Region 
addressed by the Grand Canyon Visibility Transport Commission (Arizona, 
California, Idaho, Nevada, New Mexico, Oregon, Utah, and Wyoming).
    To understand this definition's impact it must be read in 
conjunction with Draft Sec. 51.309(c):
    Plan Revision Schedule. Each Transport Region State must submit a 
plan revision addressing regional haze visibility impairment in the 16 
Class I areas no later than December 31, 2003. The plan revision must 
comply, to the satisfaction of the Administrator, with the requirements 
set forth in 51.309(d) and (e)'' (emphasis added).
    WRC Comment: This language improperly ensures that, regardless of 
TEA-21, visibility SIPs will be due for Transport Region states by 
December 31, 2004-2008. Those states are defined above, regardless of 
whether they participate in the WRAP or not. This simply will not work. 
To remedy the situation, Draft Sec. 51.309(c) should be amended to read 
as follows:
    Plan Revision Schedule. Each participating Transport Region State 
must submit a plan revision addressing regional haze visibility 
impairment in the 16 Class I areas, and any additional Class I areas, 
no later than December 31, 2003. The plan revision must be a regional 
planning goal with state-only commitments.
X. General Comments
A. More Flexibility is Needed in EPA's Draft Rule
    Draft Sec. 51.309(d) contains the following heading: ``Requirements 
of the Initial Plan Revision for States Electing to Adopt all of the 
Commission Recommendations.''
    WRC Comment: Note the word ``all.'' The GCVTC contained a number of 
hard and fast recommendations, as well as a number of recommendations 
that require further thought and study; and ultimately may not be of 
sufficient impact to warrant implementation or may not be completed in 
time to be included in the annex or the initial SIP submittal. This 
heading infers that all recommendations, no matter how relevant are to 
be included in the initial SIP submittal. This heading should be 
revised to state ``Requirements of the Initial Plan Revisions to Adopt 
the Relevant Commission Recommendations.''
    B. The Deciview Target and Mandatory Language Must be Eliminated 
for the WGA/GCVTC Process to Work.
    Draft Sec. 51.309(d)(2) currently contains the following language 
on state plans:
    ``Projection of visibility improvement. The plan must include a 
projection of the visibility conditions (expressed in deciviews) 
expected through the year 2018 for the most-impaired and the least-
impaired days for the subset of the 16 mandatory Class I areas located 
within the State, calculated based on the implementation of all 
measures as required in the Commission report and the provisions in 
51.209. The projections must be made in consultation with other 
Transport Region States having sources or activities reasonably 
anticipated to contribute to visibility impairment in these Class I 
areas. The States must rely on projections resulting from a regional 
modeling procedure deemed acceptable by all Transport Region States and 
the Administrator.''
    WRC Comment: There is a major problem with this language--EPA is 
still demanding a deciview metric, which is in direct contradiction 
with the recommendations of the Grand Canyon Visibility Transport 
Commission recommendations, as well as with the comments of the Western 
Governors' Association and the Western Regional Council. Restricting 
use of any visibility metric to deciview may be short-sighted because 
there may be other metrics the WRAP or other Visibility Transport 
Commissions may choose between now and 2018. The parenthetical phrase 
``(expressed in deciviews)'' should be deleted from the language. 
Projections of visibility impairment conditions should be expressed in 
all appropriate units of measure (standard visual range, light 
extinction, deciview).
C. The Final Regulatory Language Must be Consistent With the Intent of 
        the GCVTC Recommendations
    Draft Sec. 51.309(d)(9) currently provides:
    Implementation of Additional Recommendations. The plan must provide 
for implementation of all other recommendations in the Commission 
report that can be practicably included as enforceable emission limits, 
schedules of compliance, or other enforceable measures (including 
economic incentives) to make reasonable progress toward remedying 
existing and preventing future regional haze in the 16 Class I areas. 
The State must provide a report to EPA and the public in 2003, 2008, 
2013, and 2018 on the progress toward developing and implementing 
policy or strategy options recommended in the Commission Report.
    WRC Comment: This requirement is simply too open-ended, and does 
not take into account the Executive Summary of the Grand Canyon 
Visibility Transport Commission recommendations. The Executive Summary 
states that the document contains items which are ripe for 
implementation while others need study. EPA's language improperly 
pushes all policy items and recommendations.
D. The Definition of Milestone Must Be Corrected
    Sec. 51.309(b)(5) of EPA's draft regulatory language states:
    ``Milestone'' means an annual percentage reduction in emissions for 
a given year, compared to a 1990 baseline.
    The definition for milestone must be corrected to read:
    ``Milestone'' means a percentage reduction in emissions for a given 
time period, compared to a 1990 baseline for which the Commission will 
perform an assessment.
E. States May Opt Out of the Program
    The last sentence of Draft Sec. 51.309(d)(11) currently states: 
``Conversely, States may elect to develop their own programs without 
relying on work products from a regional entity.''
    WRC Comment: This was the intent of the GCVTC and the WRAP. 
However, it is moot due to other requirements contained in EPA's 
proposed language due to the definition of Transport Region State and 
the codified requirements proposed on those states. The final rule 
should allow states to opt out.
F. Clean Air Corridors
    The GCVTC conducted studies that showed that while Clean Air 
Corridors exist, they are not of serious concern at this time. The 
modeling study showed that even with a 25 percent increase in 
emissions, visibility would not be materially impacted on the Colorado 
Plateau. We need to make sure that the level of commitment of resources 
to address Clean Air Corridors is commensurate with the anticipated 
benefits. In addition, the plan for addressing Clean Air Corridors 
states ``(iii) In areas outside of clean-air corridors, an 
identification of significant emissions growth that could begin, or is 
beginning, to impair the quality of air in the corridor and thereby 
reduce the frequency of clean air days at one or more of the 16 Class I 
areas.'' WRC believes this sentence should be eliminated. While this 
language appears consistent with that submitted by WGA, it 
significantly expands the boundaries of the Class I areas, essentially 
making clean-air corridors de facto Class I areas.
BART Language
    EPA should add language that deals with cost, non-air impacts, life 
of facility, etc. (See 40CFR Sec. 51.301(c) and Clean Air Act 
Sec. 169A(g)(2)). This type of language would serve as a useful 
reminder that this program is about visibility, and not about 
nonattainment areas.
H. Gubernatorial/State Review
    EPA should also propose language that provides for final review by 
individual western Governors and states prior to the implementation of 
any backstop cap and trade program. WRC recognizes that the proposed 
language in this public notice is largely based on a major stationary 
source control strategy, which is primarily focused on SO<INF>2</INF>. 
WRC continues to urge EPA and WGA to also focus on other sources of 
visibility impairing emissions. Since there are many factors that 
contribute to visibility impairment, WRC urges EPA to add the proposed 
language as follows:
    51.309(f)(1)(iii) The States shall clearly identify and discuss the 
review by the Governors, and any legislative body prior to the 
implementation of any backstop market trading program.
XI. EPA Should Significantly Revise and Re-propose the Rule for Further 
        Comment
    Given the extensive comments EPA has received from states and the 
regulated community and the significant revisions that are needed, WRC 
believes EPA should significantly revise and repropose the ruled This 
can be achieved in a timely manner, while giving the public an 
opportunity to provide input on the necessary revisions to this 
important rulemaking.
    Incorporating the WGA proposal into the proposed regional haze rule 
makes the need for re-proposal even more critical. While WRC 
appreciates the opportunity to provide comment on the WGA proposal, and 
on other information such as the TEA-21 legislative language, we 
believe the public must have an opportunity to comment on the proposed 
regional haze rule as a package, rather than on separate pieces of that 
package. Furthermore, as stated in the EPA notice:
    The WGA letter contains numerous suggestions for preamble 
discussions to accompany the final regional haze rule. These preamble 
suggestions include clarifications of the rationale for certain 
conclusions, explanations to clarify WGA's regulatory language 
suggestions, and discussions of a number of WGA's suggested policy 
interpretations for implementation of the final rule.
    EPA has not drafted the preamble language that was suggested by 
WGA. WRC believes that such preamble language is a critical element to 
the final rule. The rule should also be re-proposed to provide the 
public an opportunity to comment on such language.
    Please forward questions or requests for additional information to 
Ruth McCormick: tel. 703-5491466; fax 703-549-1574.
    1. In item (3) above, 2003 should be 2013. The typographical error 
needs to be corrected.
    2. E.g., American Automobile Manufacturers Association v. Cahill, 
No. 97-7972 (U.S. Ct. of Apls., 2d. Cir., Aug. 11, 1998) (states 
preempted from promulgating emission standards for new motor vehicles).
    3. E.g., Shell Oil Co. v E.P.A., 950 F.2d 741 (D.C. Cir. 1991) 
(additional comment period required where features of the final rule 
contain significant changes from the proposed rule).
                               __________
  New England Governors/Eastern Canadian Premiers Mercury Action Plan 
                                  1998
                               june 1998
Committee on the Environment of The Conference of New England Governors 
                     and Eastern Canadian Premiers
Summary of Goals and Basis for Action
    In June 1997, the Conference of the New England Governors and 
Eastern Canadian Premiers (NEG/ECP) charged its Committee on the 
Environment to: ``continue to advance the understanding of mercury in 
this region;'' ``support cooperative action. . . to begin to address 
mercury releases and resulting public health and environmental 
impacts;'' and develop a regional Mercury Action Plan. A draft 
framework for the Mercury Action Plan was subsequently developed by 
representatives of the New England states and Eastern Canadian 
provinces. This draft was refined following the NEG/ECP Workshop on 
Acid Rain and Mercury in February 1998 in Portland, Maine.
    The Conference of New England Governors and Eastern Canadian 
Premiers has concluded that aggressive and concerted actions are needed 
to reduce potential health risks attributable to mercury exposures and 
to expand scientific information on mercury sources, controls and 
environmental impacts. This conclusion is based on extensive scientific 
data that indicate that mercury is pervasive in freshwater fish in the 
Northeast at levels that pose plausible health risks to people and some 
species of fish eating wildlife. In addition to the potential health 
effects caused by this contamination, there are important economic 
consequences, including reducing the recreational and commercial value 
of fisheries resources across the region.
    This Mercury Action Plan identifies steps to address those aspects 
of the mercury problem in the Northeast that are within the region's 
control or influence. The Governors and Premiers support and endorse 
the action plan's ultimate goal of virtual elimination of anthropogenic 
mercury releases in the region. By adequately addressing those sources 
within the region, we can move toward reducing mercury contamination to 
levels that are safe for people and wildlife, and provide an example 
for other regions. \1\ To achieve this goal, it is essential that 
efforts to reduce mercury use, emissions, and discharges be initiated 
now. The steps outlined in this Action Plan focus on achieving such 
reductions over time, with a target of virtual elimination of 
anthropogenic mercury releases in the region through a combination of 
source reduction, safe waste management practices, and aggressive 
emissions controls. Another important goal of the Plan is the 
collection of additional scientific information on mercury emissions, 
cycling and environmental impacts, to allow for documentation and 
evaluation of the effectiveness of regional actions on mercury.
---------------------------------------------------------------------------
    \1\ For several reasons, it will take considerable time for current 
successes in reducing mercury use and emissions to be translated into 
significant improvements in mercury levels in fish. This is due to the 
fact that mercury is very persistent once released and cycles through 
land, air, and water. Thus, the ability of the environment to 
``cleanse'' itself of past mercury contamination is a long-term 
process. Additionally, there are sources of mercury, including natural 
and out-of-region sources, that are beyond our immediate control.
---------------------------------------------------------------------------
    To monitor progress, interim goals or milestones have been 
established pertaining to overall mercury emissions and source 
reduction efforts, as well as for specific source categories. This Plan 
builds upon important initiatives already underway to reduce emissions 
of this pollutant. These include efforts to go beyond currently 
mandated mercury emission limits for municipal waste combustors and 
medical waste incinerators; to develop emission limits for other 
sources: to expand programs to effectively separate, collect and 
appropriately manage mercury-containing wastes; to pursue efforts for 
source reductions in products; to educate the public about mercury; and 
to expand and coordinate monitoring and research efforts.
    The Action Plan calls for the establishment of a Mercury Task Force 
which will serve as the technical coordinating committee responsible 
for implementation of the Plan. The Task Force will report to the NEG/
ECP Committee on the Environment, which is responsible for overall 
efforts to reduce mercury released into the environment and to minimize 
the public health and environmental risk associated with mercury 
exposure, in particular methylmercury (which is the most toxic form).
Basis for Action
    The need for this Plan is supported by numerous studies that 
document elevated levels of methylmercury in freshwater fish across the 
Northeast United States and Canada. Mercury levels in freshwater fish 
have been monitored in the northeast U.S. region since the 1 970's. The 
results of these monitoring programs indicate that levels of mercury 
significantly exceed acceptable values in fish species from certain 
waterbodies in the region. This information has led public health 
officials in the northeast U.S. to issue advisories recommending that 
people limit their consumption of potentially contaminated fish. 
Pregnant women, women of childbearing age, and children are at 
particular risk because the developing nervous system of fetuses and 
children are very sensitive to the toxic effects of mercury. Wildlife 
in the region may also be adversely affected, as high levels of mercury 
have been measured in fish eating birds, such as loons and eagles.
    There are many sources of mercury in the environment. Although 
natural sources of mercury exist, recent research suggests that 
background concentrations of this metal in the atmosphere and sediments 
have increased by a factor of two to five since pre-industrial times. 
This suggests that anthropogenic sources have significantly increased 
mercury levels in the environment.
    Much of the mercury entering the waters of the region settles from 
the air or is deposited in rain or other precipitation. The mercury in 
the air originates from many sources both within and outside of the 
region. In the ambient air, mercury levels are not dangerous; it is the 
cumulative amount of mercury deposited to waterbodies and its 
subsequent chemical transformation to methylmercury, that creates 
problems. Fish absorb and retain methylmercury, causing it to 
bioaccumulate until it is concentrated up to millions of times above 
the level in the surrounding water, particularly in older, predatory 
fish.
    Ingestion of contaminated fish is the primary pathway of human 
exposure to methylmercury. In addition, people can be exposed to other 
dangerous forms of mercury at work, in school science laboratories and 
in their homes. Such exposures can occur following the breakage and 
improper cleanup of mercury containing products or as a result of 
children finding spilling and playing with improperly stored or 
maintained elemental mercury. In addition to the tragic health effects 
that can be caused by such exposures, the costs of cleaning up the 
resulting mercury contamination can be considerable. Reduced use of 
mercury and better education of workers and the public about the 
dangers of mercury and proper handling procedures for it would help 
reduce the number of incidences as well as the health. environmental 
and economic costs of these exposures.
    As noted earlier, much of the mercury entering the region's 
waterbodies comes from the air. Rates of mercury deposition are 
estimated to be higher in the northeastern U.S. relative to most other 
parts of the country. This situation is in part due to the existence of 
significant sources of mercury within the region. There is also strong 
evidence showing that7 similar to other pollutants, airborne mercury 
emitted by upwind sources is transported by prevailing winds into the 
region. Two other factors also thought to exacerbate the mercury 
problem in the region include (1) the acidified condition of many 
waters of the region, brought on by excess acid deposition, is 
associated with higher levels of methylmercury in fish in impacted 
lakes; and (2) elevated summertime levels of tropospheric ozone 
exacerbate the conversion of elemental mercury in the atmosphere to 
chemical forms that are more susceptible to deposition.
    Analyses suggest that a wide array of sources of mercury emissions 
contribute to overall deposition in the region. Municipal waste 
combustors are currently the largest emission source sector in the 
northeast states; utility and industrial boilers are the largest source 
sector in the remainder of the United States, primarily from the 
combustion of coal; and non-ferrous metal production (i.e., nickel, 
aluminum) is the major source of airborne mercury emissions in Eastern 
Canada.
    Computer modeling conducted for the Northeast States and Eastern 
Canadian Provinces Mercury Study (NESCAUM/NEWMOA/NEIWPCC/EMAN 1998) \2\ 
indicates that 30 percent or more of the mercury deposited in the 
Northeast originates from sources outside of the region. Because of the 
transboundary nature of mercury pollution, no single state or province 
will be able to solve its mercury problem alone. Concerted and 
coordinated regional efforts are needed. Ultimately, national and 
international efforts will be required to address transboundary mercury 
emissions, particularly from the utility sector. However7 because the 
majority of the deposited mercury is from sources in the region, much 
can be done locally to address this problem. It is hoped that the 
aggressive commitments embodied in the regional action plan that 
follows will provide leadership to encourage similar actions to reduce 
mercury emissions nationally and internationally.
---------------------------------------------------------------------------
    \2\ Northeast States for Coordinated Air Use Management (NESCAUM), 
Northeast Waste Management Officials' Association (NEWMOA), New England 
Interstate Water Pollution Control Commission (NEIWPCC), and Canadian 
Ecological Monitoring and Assessment Network (EMAN).
---------------------------------------------------------------------------
Intergovernmental Coordination/Cooperation
    Given the regional and international implications and concerns 
about mercury emissions and deposition New England states and Eastern 
Canadian provinces will expand collaboration with other jurisdictions 
and institutions. including the Great Lakes states. Specifically. the 
New England Secretariat of the Conference of New England Governors and 
Eastern Canadian Premiers will invite the participation of the 
Governors of New Jersey and New York and the Eastern Canadian 
Secretariat of the Conference of New England Governors and Eastern 
Canadian Premiers will monitor activities in other provinces. Because 
mercury has an important transboundary component, the states and 
provinces will also seek to work with national and international 
environmental agencies such as the U.S. Environmental Protection 
Agency, Environment Canada, and the Commission for Environmental 
Cooperation. This agreement endorses an active partnership with Federal 
counterparts from the United States and Canada to meet the challenges 
presented in this document.
    Given the concern over high levels of mercury deposited in the 
region as a result of emissions from out-of-region sources, the states 
and provinces will coordinate with the U.S. EPA and Environment Canada 
in pursuing appropriate national controls for these sources. The New 
England state and Eastern Canadian provincial environmental agencies 
will seek to build alliances with their counterparts in other regions 
to promote and advocate for effective national controls. Similarly, the 
Secretariats of the Conference of New England Governors Conference and 
Eastern Canadian Premiers will promote and advocate such controls 
within the National Governors Association and the Association of 
Canadian Premiers.
    Regional Goal: The virtual elimination of the discharge of 
anthropogenic mercury into the environment, which is required to ensure 
that serious or irreversible damage attributable to these sources is 
not inflicted upon human health and the environment.
Guiding Principles of the NEG/ECP Mercury Action Plan
    The New England Governors and Eastern Canadian Premiers recognize 
the following principles as the guidelines for action on mercury in the 
region:
    In order to protect human health and the environment, the 
precautionary principle shall be used. Where there are threats of 
serious and irreversible damage, lack of full scientific certainty 
shall not be a rationale for postponing measures to prevent 
environmental degradation and to protect public health.
    Efforts to eliminate mercury contamination in one environmental 
media should not result in significant contamination of another media.
    Coordination of the efforts of the New England states and Eastern 
Canadian provinces is necessary for effective response strategies to 
address mercury issues.
    Environmental goals and objectives. in keeping with sustainable 
development, shall be formulated and implemented in ways that achieve 
high levels of ecological and human health benefit.
    While mercury is a regional problem that requires regional 
solutions out-of-region sources are also a major contributor to this 
environmental threat; the New England states and Eastern Canadian 
provinces stress the need for appropriate controls on sources outside 
the region. However, the need to coordinate efforts and work with other 
regions should not be viewed as a reason to delay action within the 
region.
    In keeping with these guidelines, the following objectives and 
recommendations shall be pursued.
Action Item 1: Regional Mercury Task Force
    Objective: The Secretariats of the Conference of New England 
Governors and Eastern Canadian Premiers will establish a regional 
Mercury Task Force by September 1 998.
    Under the direction of the NEG/ECP Committee on the Environment, 
the Mercury Task Force shall:
    1. Coordinate and prioritize the implementation of the actions in 
the Mercury Action Plan, based on the availability of funding and other 
resources.
    2. Monitor and report on the progress toward achieving the Plan's 
objectives.
    3. Propose any necessary revisions, redefinitions, and adjustments 
to the objectives and recommendations of the Plan.
    4. Examine proposed or enacted state and provincial mercury 
reduction legislation within and outside the region, develop model 
legislation on mercury, and coordinate the development of pertinent 
pollution prevention and control regulations and requirements in the 
states and provinces.
    5. Monitor the development of Federal emissions and waste 
regulations and/or guidelines, and provide comments and recommendations 
on proposed standards and regulations.
    6. Coordinate, as appropriate, the regional actions of the Mercury 
Action Plan with other programs and efforts outside the region, and 
with Federal initiatives.
    7. Reassess the reporting protocols for the U.S. Toxics Release 
Inventory (TRI) and the Canadian National Pollution Release Inventory 
(NPRI) for mercury by the beginning of 1999, and make recommendations 
for any necessary revisions.
Action Item 2: Mercury Emissions Reductions
    Overall Regional Objective: BY the year 2003. reduce mercury 
emissions through the implementation of the actions herein which, if 
completed, are expected to achieve a reduction of at least 50 percent, 
through reductions as well as source reductions and safe waste 
management.
    Source Specific Emission Reduction Goals \3\
---------------------------------------------------------------------------
    \3\ It is important to note that source reduction/recycling efforts 
are preferable to emission controls The potential tor mercury pollution 
can be more effectively reduced this way. Because source reduction 
efforts take time to establish and are not applicable in all cases, 
improved emission controls will be needed to achieve substantial 
immediate reductions in mercury releases. It should also be recognized 
that complete inbrrnation is not available on all sources.

---------------------------------------------------------------------------
    a. Municipal Solid Waste Combustors:

    Objective: By 2003, reduce the overall amount of mercury emitted 
from MSW combustion sources in the region through a combination of 
source reduction, waste segregation and emissions controls.
Recommendations
    1. Regionally, adopt a 0.028 mg/dscm (milligrams per dry standard 
cubic meter) mercury emission limit for facilities that have the 
capacity to burn 250 tons/day or more of municipal solid waste. \4\
---------------------------------------------------------------------------
    \4\ Most Eastern Canadian and some U.S. facilities in this category 
already meet or surpass this standard, therefore most of the reductions 
from this goal will be obtained from U.S. facilities that are not 
currently controlled to this level. Also, it should be noted that the 
0.028 mg/dscm standard is based on EPA protocols; adjustments may need 
to be made to apply this figure to Eastern Canadian sources.
---------------------------------------------------------------------------
    2. Mercury emission limits for existing and new facilities under 
250 tons/day will be evaluated regarding the feasibility of adopting 
the 0.028 mg/dscm on a case-by-case basis.
    3. Perform at least annual emissions monitoring and stack testing.

    b. Medical Waste Incinerators:

    Objective: By 2003, reduce--to the maximum extent feasible--the 
overall amount of mercury emitted from medical waste incinerators in 
the region through a combination of source reduction, waste segregation 
and emissions controls.
Recommendations
    4. Regionally adopt a 0.055 mg/dscm emission limit for medical 
waste incinerators. The region will evaluate the feasibility of 
adopting the 0.028 mg/dscm emission limit or lower for these facilities 
within 3 years.
    5. Perform at least annual emissions monitoring and stack testing.
    6. Require, through facility permits or other suitable means, that 
all medical waste treatment facility customers have in place effective 
mercury source reduction and separation programs. This requirement 
shall be implemented on a consistent basis throughout the region. These 
source separation plans shall also be stipulated by contract between 
the facility and its customers.

    c. Sludge Incinerators:

    Objective: By 2003, reduce--to the maximum extent feasible--the 
overall amount of mercury emitted from municipal sludge incinerators in 
the region through a combination of source reduction, waste segregation 
and emissions controls.
Recommendations
    7. Evaluate the feasibility of adopting a 0.1 mg/dsem emission 
limit or lower for municipal sludge incinerators.
    8. Adopt source reduction, recycling measures, and pretreatment, to 
reduce mercury loading to municipal waste water.
    9. Perform at least annual emissions monitoring and stack testing.

    d. Utility and NonUtility Boilers:

    Objective: Utility and nonutility boilers--particularly coal-fired 
units \5\--are a significant overall source of mercury emissions and 
deposition. Because of the transboundary nature of mercury pollution 
from these sources, out-of-region boilers have been identified as a 
significant contributor to the northeast's mercury problem. In light of 
this, the primary objectives of this plan are the timely adoption of 
national reduction programs for this source category and the reduction 
of our own region's emissions. This goal will be achieved by promoting 
the application of best available measures within the northeast and 
adopting technologically and economically feasible control strategies 
or practices to reduce emissions from these sources.
---------------------------------------------------------------------------
    \5\ Mercury emissions from coal-fired boilers are estimated to 
account for 33 percent and less than 20 percent of the total in the 
United States and Canada respectively. In the northeast states total 
annual mercury emissions are estimated to be 15,903 kg, and the 
contribution from utility boilers amounts to 2,008 kg. In the Eastern 
Canadian provinces total annual mercury emissions are estimated at 
2,356 kg, with emissions from utility boilers estimated to be 292 kg 
(based on the Northeast States and Eastern Canadian Provinces Mercury 
Study).
---------------------------------------------------------------------------
Recommendations
    10. The NEG/ECP Committee on the Environment should promote the 
establishment and implementation of national and international 
strategies to reduce mercury emissions from utility and nonutility 
boilers.
    11. The Mercury Task Force shall identify mercury emission control 
options and regional emission reduction targets for these sources 
within 1 year, using the best available information. This evaluation 
should include an assessment of any national actions in this area and, 
as necessary, pilot studies of the effectiveness and feasibility of 
identified emission control technologies.
    12. Based on these evaluations, the respective jurisdictions will 
develop and implement regional strategies to promote maximum 
economically and technically feasible reductions in mercury emissions 
from utilities and other boilers in the northeast. The implementation 
of these efforts should commence within 5 years (by the year 2003).

    e. Industrial Sources:

    Objective: Maximum achievable emission reductions for individual 
facilities should be achieved in the shortest feasible timeframe. 
Specific industrial sector emission limits and control requirements 
will be recommended by the Mercury Task Force.
Recommendations
    13. Encourage the expeditious adoption of maximum achievable 
standards for major industrial sources, such as chlor-alkali plants and 
non-ferrous metals production.

    f: Area Sources:

    Objective: Maximum achievable reductions in mercury emissions will 
be achieved for each subcategory--general lab use, dental preparation 
and use, paint use, crematories, and landfills--as noted in the 
Northeast States and Eastern Canadian Provinces Mercury Study within 
the shortest possible timeframe.
Recommendations
    14. Develop targets and timelines with an emphasis on source 
reduction, segregation and safe waste management efforts, including 
recycling.
Action Item 3: Source Reduction and Safe Waste Management, including 
        Recycling
    Overall Regional Objective: Eliminate or reduce nonessential uses 
of mercury in household, institutional and industrial products and 
processes. Segregate and recycle mercury attributable to the remaining 
uses and or products to the maximum degree possible.
    Objective No. 1: By 2003, reduce the overall amount of mercury-
containing wastes from household, commercial and industrial sources, 
through source reduction, segregation and safe waste management, 
including recycling.
Recommendations
    15. Reduce/eliminate the use of mercury in medical and consumer 
products to the extent feasible.
    16. Identify and implement source reduction programs and develop 
model legislation.
    17. Reduce the use of mercury and the generation of mercury-
containing wastes by expanding state and provincial pollution 
prevention technical assistance to institutions such as dental clinics, 
hospitals, schools and laboratories.
    18. Draft model legislation implementing coordinated labeling and 
manufacture take-back programs to help consumers identify products 
containing mercury and how to properly dispose of them, and work with 
the New England congressional delegation and members the Canadian 
Parliament from Eastern Canada to enact labeling legislation.
    19. Eliminate the use of mercury in school science programs through 
the initiation of programs and/or legislation, and encourage the 
recycling and safe management of existing stocks.
    2U. Adopt measures to curtail the sale of elemental mercury and 
educate affected populations as to the risks involved with cultural 
uses.
    Objective No. 2: In those instances where source reduction is not 
currently feasible, promote the safe management and recycling of 
mercury-containing wastes.
Recommendations
    21. Evaluate the effectiveness of existing mercury collection and 
recycling efforts and develop strategies to increase the effectiveness 
of existing state and local efforts.
    22. Develop additional recycling and reclamation programs for 
mercury-containing products by establishing innovative public/private 
partnerships with combustion facilities, businesses, institutions and 
municipalities.
    23. Institute collection programs for elemental mercury used by 
dentists? water suppliers and other identified users, and establish 
safe handling practices for the collected mercury.
    24. Develop strategies to minimize crossmedia impacts of mercury 
management policies by coordinating efforts and facilitating 
discussions among air. water, and waste programs.
    25. Support regional collaboration to resolve regulatory issues and 
barriers associated with safe waste management and recycling of mercury 
containing wastes and to enhance state and provincial implementation of 
improved regulatory programs.
Action Item 4: Outreach and Education
    Objective No. 1: Educate the public about the adverse health and 
environmental effects of mercury and ways to reduce the risk of 
exposure. Develop effective outreach programs for at-risk populations.
Recommendations
    26. Develop and implement a communications strategy to contact and 
educate sensitive populations about the health effects of consuming 
mercury contaminated fish and ways to reduce their risk.
    27. Develop and implement a communication strategy to address 
health effects of exposure to elemental mercury from incidental/
accidental exposure and through ritualistic uses of mercury.
    28. Develop consistent and/or compatible health advisories for 
States and Provinces with shared waterbodies and publicize them.
    Objective No. 2: Educate the public and industry about products 
that contain mercury and recommend appropriate substitutes and other 
methods of reducing their use of mercury and proper recycling and waste 
management techniques.
Recommendations
    29. Develop brochures on products containing mercury. and 
alternatives.
    30. Develop a regional educational programs for commercial and 
institutional sectors that generate substantial mercury waste, and 
promote the use of low or no mercury products and processes and, if 
necessary, proper recycling and waste management.
    31. Develop a regional guide to the state and provincial agency 
mercury contacts.
Action Item 5: Research, Analysis and Strategic Monitoring
    Objective No. 1: Support and expand research and analysis to 
improve our understanding of mercury sources, impacts and cycling in 
the environment.
Recommendations
    32. Establish a binational mercury research workgroup which will 
identify regional research priorities, interface with Canadian and U.S. 
national research efforts, and initiate/implement region-specific 
research.
    33. Develop or refine mercury inventories in all states and 
provinces. Coordinate with Federal authorities to improve emissions 
estimates for source categories with uncertain projections and collect 
more accurate and representative data to enable the development of 
inventories for sources that are not currently included in the mercury 
inventory, including refineries and mobile sources.
    34. Coordinate and facilitate information exchange, in order to 
achieve the same level of quality among inventories and ensure 
uniformity with the RELMAP inputs.
    35. Develop a systematic approach for quantifying the expected 
reductions from existing and planned emissions control strategies and 
updating the emission estimates for the affected sources.
    36. Promote the collection of more emissions test data for sources 
such as utility and nonutility boilers, mobile sources, and oil 
refineries.
    37. Coordinate with Federal authorities to develop an updated 
inventory of the sources of mercury in municipal solid waste.
    38. Promote the development of a viable mercury dispersion model 
for use by researchers and regulators.
    39. Encourage research on green chemistries for safe alternatives.
    Objective No. 2: Support and expand strategic monitoring of mercury 
emissions, deposition and fish tissue levels and develop meaningful 
environmental indicators to measure and track progress.
Recommendations
    40. Develop a comprehensive set of regional indicators to evaluate 
the effectiveness of reduction strategies and measure environmental 
results.
    41. Develop a regional long-term atmospheric transport monitoring 
network that would measure mercury, acid rain, and fine particulate 
matter at each site.
    Integrate the existing and forthcoming New England and Eastern 
Canadian regional mercury deposition networks and maintain these 
networks for at least 5 years. Adjust network components as necessary.
    43. Develop standard protocols for fish and wildlife tissue 
sampling and analysis to ensure consistent and comparable data. Conduct 
additional fish tissue monitoring as necessary, and develop a 
comprehensive data base for the Eastern Canadian provinces and 
NewEngland states.
Action Item 6: Mercury Stockpile Management
    Objective: Minimize mercury stockpile entry into commercial 
marketplace to reduce future emissions.
Recommendations
    44. Under the auspices of the NEG/ECP, advocate for the safe 
management of U.S. Department of Defense mercury stockpiles.
    45. Seek to identify any other mercury stockpiles, both public and 
private, and ensure their safe management.

                                   - 

</pre></body></html>
